<html>
<title> - FEDERALLY FUNDED NATIVE HAWAIIAN PROGRAMS</title>
<body><pre>[Senate Hearing 106-409]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-409
 
                FEDERALLY FUNDED NATIVE HAWAIIAN PROGRAMS

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                               __________

         Printed for the use of the Committee on Appropriations



                                <snowflake>



 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate

                                 ______
                   U.S. GOVERNMENT PRINTING OFFICE
61-420cc                   WASHINGTON : 2000
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 20402
                           ISBN 0-16-060331-5



                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             FRANK R. LAUTENBERG, New Jersey
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
JON KYL, Arizona
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                 ARLEN SPECTER, Pennsylvania, Chairman
THAD COCHRAN, Mississippi            TOM HARKIN, Iowa
SLADE GORTON, Washington             ERNEST F. HOLLINGS, South Carolina
JUDD GREGG, New Hampshire            DANIEL K. INOUYE, Hawaii
LARRY CRAIG, Idaho                   HARRY REID, Nevada
KAY BAILEY HUTCHISON, Texas          HERB KOHL, Wisconsin
TED STEVENS, Alaska                  PATTY MURRAY, Washington
JON KYL, Arizona                     DIANNE FEINSTEIN, California
                                     ROBERT C. BYRD, West Virginia
                                       (ex officio)
                           Professional Staff
                            Bettilou Taylor
                             Mary Dietrich
                              Jim Sourwine
                               Aura Dunn
                        Ellen Murray (Minority)

                         Administrative Support
                             Kevin Johnson
                       Carole Geagley (Minority)



                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Senator Daniel K. Inouye....................     1
Statement of Paul LeMahieu, Superintendent of Education, Hawaii 
  Department of Education........................................     2
Prepared statement of Paul LeMahieu..............................     5
Statement of Dr. Bruce S. Anderson, Director, Department of 
  Health, State of Hawaii........................................     7
Prepared statement of Dr. Bruce S. Anderson......................     9
Statement of Lorraine Akiba, Director, Department of Labor and 
  Industrial Relations, State of Hawaii..........................    10
Prepared statement of Lorraine Akiba.............................    14
Statement of Rowena Akana, Chair, Board of Trustees, Office of 
  Hawaiian Affairs, State of Hawaii..............................    17
Prepared statement of Rowena Akana...............................    21
Housing bill.....................................................    22
Health bill......................................................    22
Education bill...................................................    23
Opening statement of Senator Daniel K. Akaka.....................    23
Opening statement of Representative Patsy Mink...................    24
Letter from Lorraine Akiba.......................................    25
Unemployed welfare recipients....................................    32
Letter from Rowena Akana.........................................    32
Child abuse and neglect..........................................    33
Statement of Myron Thompson, Chairman, Board of Directors, Papa 
  Ola Lokahi.....................................................    36
Prepared statement of Myron Thompson.............................    38
Statement of Herb Campos, Papa Ola Lokahi........................    40
Prepared statement of Herb Campos................................    43
Hawaii not the health State for Native Hawaiians.................    43
Native Hawaiians search for health funding parity with other 
  Native Americans...............................................    44
The Native Hawaiian Health Care Systems..........................    44
Papa Ola Lokahi..................................................    45
Reauthorization of the Native Hawaiian Health Care Improvement 
  Act............................................................    45
Our future challenge.............................................    45
Statement of JoAnn Tsark, Papa Ola Lokahi........................    45
Prepared statement of JoAnn Tsark................................    48
Native Hawaiian heart health initiative..........................    49
Native Hawaiian Cancer Awareness Research and Training Center....    49
Statement of Naleen N. Andrade, M.D. Professor and Chair, 
  Department of Psychiatry, John A. Burns School of Medicine.....    50
Prepared statement of Naleen N. Andrade..........................    56
A brief history of events........................................    56
Significance.....................................................    57
The Hawaii high schools health study.............................    57
Specific outcomes................................................    57
Statement of Dr. Chiyome L. Fukino, E Ola Mau....................    58
Prepared statement of Dr. Chiyome L. Fukino......................    60
Statement of Beth Giesting, Executive Director, Hawaii State 
  Primary Care Association.......................................    61
Prepared statement of Beth Giesting..............................    63
Statement of Dr. Sita Nissanka, Director, Native Hawaiian Health 
  Scholarship Program, Kamehameha Schools Bishop Estate..........    74
Prepared statement of Dr. Sita Nissanka..........................    75
Program description..............................................    76
Statement of Dr. Michelle Suber, resident, North Hawaii Community 
  Hospital.......................................................    76
Prepared statement of Dr. Michelle Suber.........................    78
The practice of naturopathic medicine as it relates to Native 
  Hawaiians......................................................    78
Statement of Henry Auwae, Kupuna La'au Lapa'au O Hawaii..........    79
Prepared statement of ``Papa'' Henry Auwae.......................    80
Statement of Stanley Kiope Raymond, Chair, Native Hawaiian 
  Education Council..............................................    87
Prepared statement of Stanley Kiope Raymond......................    88
Statement of Thomas Kamuela Chun, Director, University of Hawaii 
  Community College..............................................    89
Statement of S. Nani Espinda, Director, Native Hawaiian Higher 
  Education Program Ksbe.........................................    91
Prepared statement of S. Nani Espinda............................    94
Program accomplishment...........................................    95
Counseling support services......................................    95
Program impact/outcomes: student achievement.....................    95
Community service................................................    96
Statement of Dr. David K. Sing, Director Na Pua No'Eau...........    98
Prepared statement of Dr. David K. Sing..........................   101
Statement of Namaka Rawlins, Director, Family-Based Aha Punana 
  Leo............................................................   110
Prepared statement of Namaka Rawlins.............................   113
Native Hawaiian health, education and employment.................   113
Statement of Jean Evans, M.P.H., Project Administrator, Pulama I 
  Na
  Keiki..........................................................   116
Prepared statement of Jean Evans.................................   117
Needs............................................................   117
Education goals..................................................   119
Program description..............................................   119
Current Pulama I Na Keiki sites..................................   120
Investment in prevention.........................................   120
Future direction.................................................   121
Statement of Iwalani Else, Assistant Program Director, Native 
  Hawaiian Center of Excellence..................................   122
Prepared statement of Iwalani Else...............................   124
Recruitment......................................................   124
Retention........................................................   124
Faculty development..............................................   124
Curriculum development...........................................   125
Research.........................................................   125
Statement of Maggie Hanohano, Project Coordinator, Pihana Na Mamo   127
Prepared statement of Maryann Nakama.............................   128
Statement of Janice G.K. Yoneda, Principal, Haleiwa Elementary 
  School.........................................................   128
Prepared statement of Janice G.K. Yoneda.........................   130
Statement of Cathy Liliaokalani Kasparovitch Arnold..............   131
Statement of Maryann Nakama......................................   131
Statement of Tara Lualani McKenzie, President and Chief Executive 
  Officer, Alu Like, Inc.........................................   133
Prepared statement of Tara Lulani McKenzie.......................   136
Statement of Patrick Duarte, Executive Vice President, Bernice 
  Pauahi Bishop Museum...........................................   137
Prepared statement of Patrick Duarte.............................   139
Prepared statement of Leona M. Atcherley, Task Force Coordinator 
  for Ka na Ha...................................................   143
Prepared statement of Kawaikapuokalani Hewett, Cultural Health/
  Education Specialist, Waimanalo Health Center..................   144
Prepared statement of Chiyome Leinaala Fukino, M.D., President, E 
  Ola Mau........................................................   148
Prepared statement of Dr. Lilikala Kame'eleihiwa, Director, 
  Center for Hawaiian Studies....................................   149
Prepared statement of Pihana Na Mamo: The Native Hawaiian Special 
  Education Project, Office of Accountability and School 
  Instructional Support/Special Education Section, Hawaii 
  Department of Education........................................   151
Prepared statement of Joyce S. Tsunoda, Sr., Vice President for 
  the University of Hawaii, Chancellor for the Community Colleges   152



               FEDERALLY FUNDED NATIVE HAWAIIAN PROGRAMS

                              ----------                              


                        MONDAY, AUGUST 16, 1999

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                      Honolulu, HI.
    The subcommittee met at 8:30 a.m., in the 4th floor 
courtroom, U.S. Courthouse, Aha Kupono, 300 Ala Moana 
Boulevard, Honolulu, HI, Hon. Daniel K. Inouye presiding.
    Present: Senator Inouye.
    Also present: Senator Akaka and Representative Mink.


             opening statement of senator daniel k. inouye


    Senator Inouye. Good morning. Pursuant to the authority 
granted by the chairman of the Subcommittee on Labor, Health 
and Human Services, Education and Related Agencies of the U.S. 
Senate Committee on Appropriations, the Hon. Arlen Specter, we 
gather this morning to receive testimony on health, education 
and employment and training programs serving the native people 
of Hawaii.
    Chairman Specter will not be able to be with us today. 
However, he has called upon me to assume the responsibilities 
of the Chair of this hearing.
    Joining me this morning will be other members of the Hawaii 
Congressional delegation, Senator Akaka and Representative 
Patsy Mink. I'm also privileged to have with me assisting me 
this morning is Dr. Jack Chow professional staff member of the 
subcommittee on Labor Health and Human Service and Dr. Patricia 
Zell the Minority Staff Director and Chief Counsel of the 
Senate Committee on Indian Affairs.
    On July 28, 1999 the U.S. Government filed a friend of the 
court brief in the U.S. Supreme Court case of Rice v. Cayetano. 
The brief establishes the official legal position of the United 
States, namely that Native Hawaiians are the same status as 
other native people of the United States and that there is a 
Federal trust responsibility for Native Hawaiians.
    There are 166 Federal laws that have been enacted to 
address the conditions of the native people of Hawaii. Today 
this hearing will focus on the programs administered under the 
authority of the Native Hawaiian Health Care Improvement Act, 
the Native Hawaiian Education Act as well as employment and 
training programs serving Native Hawaiians.
    We have a full witness list today. And accordingly, the 
committee has called upon all witnesses to limit their oral 
testimony to 5 minutes so that there might be time for 
questions and answers. We do this reluctantly, but most 
respectfully, because there are 27 witnesses. And we have to 
conclude that this morning.
    If you have not received an invitation from the committee 
to present testimony today, please submit a written testimony 
to the committee and I can assure you that it will be included 
in the hearing record in full.
    The hearing record will remain kept open to receive written 
testimony for 2 additional weeks. And may I assure all 
witnesses appearing today that their full statement will be 
made part of the record in full.
    Our first panel consists of the superintendent of the 
Department of Education of the State of Hawaii, Dr. Paul 
LeMahieu; the director of the Department of Health of the State 
of Hawaii, Dr. Bruce S. Anderson; the director of the 
Department of Labor and Industrial Relations of the State of 
Hawaii, Ms. Lorraine Akiba. Later we will add to the panel the 
chair of the board of trustees of the Office of Hawaiian 
Affairs of the State of Hawaii, Ms. Rowena Akana.
    Will the panel take their places. May I now call upon the 
superintendent of education.
STATEMENT OF PAUL LE MAHIEU, SUPERINTENDENT OF 
            EDUCATION, HAWAII DEPARTMENT OF EDUCATION
    Dr. LeMahieu. Thank you, sir. Aloha and good morning, 
Senator Inouye. And aloha also to the members and staff of the 
Senate Committee on Appropriations, Subcommittee on Labor 
Health and Human Services, Education and Related Agencies, as 
well as colleagues and guests.
    I am Paul LeMahieu, superintendent of education for the 
Hawaii Department of Education. I welcome this opportunity to 
present testimony before your subcommittee on matters relating 
to Native Hawaiian education.
    I'm honored to speak to you on behalf of the Hawaii 
Department of Education whose legacies and responsibilities in 
the education of Native Hawaiians are extensive, and both 
distinguished as well as challenged.
    As the superintendent of education I govern Lahainaluna 
School, founded in 1831 to educate Native Hawaiians. It is 
regarded by some as the oldest west of the Rockies and by other 
sources as the oldest school west of the Mississippi.
    On its grounds stands historical Hale Pa'i, the old 
printing house where many of Hawaii's first school textbooks 
were translated and published in Hawaiian.
    It is the school that educated notable Hawaiian scholars 
such as David Malo and Samuel Kamakau. Historical reports from 
that era comment on the boundless potential and the high 
literacy among Native Hawaiian peoples.
    The successes experienced by these early schools in the 
education of Native Hawaiians had a profound impact upon 
General Samuel Chapman Armstrong, founder and first principal 
of the Hampton Institute in Hampton, VA.
    Born and raised in Hawaii, he was the son of Dr. Richard 
Armstrong, minister of public instruction under King Kamehameha 
IV. General Armstrong's convictions to provide educational 
opportunities for youngsters of African American and Native 
American backgrounds were shaped by his Hawaii experiences and 
the accomplishments of Hawaiian youth.
    Upon his death in 1893 Samuel Armstrong was laid to rest in 
the grounds of Hampton Institute. At the head of his grave is a 
large lava rock from his beloved island home.
    That a tiny kingdom in one of the most geographically 
isolated spot in the world would contribute so greatly to 
American educational history and to the advancement of 
education of African-American and Native American peoples at a 
time where such practices were questioned and controversial is 
a heritage that both humble and inspire us all.
    The Hawaii Department of Education is the largest provider 
of educational services to Hawaiian and part-Hawaiian children 
and youth. We currently serve 46,141 students of Hawaiian 
ancestry.
    As a group, our students of Hawaiian and part-Hawaiian 
ancestry comprise 25.7 percent of our school population, the 
largest ethnic group within the Department.
    The 1993 Native Hawaiian Education Assessment correctly 
stated that in order for the State to positively influence the 
educational status of the whole of Hawaii's students, we would 
need to positively impact the educational status of its 
Hawaiian students in particular. To do otherwise would not just 
be statistically impossible but would be morally repugnant.
    The challenges faced by Hawaii Department of Education in 
serving our students of Hawaiian ancestry are many. While our 
Hawaiian students comprise 25.7 percent of the overall student 
population, they comprise 35 percent of our students in special 
education programming.
    In the area of specific learning disabilities 3,885 of the 
9,872 students, or nearly 40 percent, are students of Hawaiian 
and part-Hawaiian ancestry. For the past 9 years the Hawaii 
Department of Education has been the recipient of funds from 
Native Hawaiian Special Education Initiative, Pihana Na Mamo, 
or the Native Hawaiian Special Education project.
    It has implemented three major initiatives to meet the 
needs of its special education Hawaiian students and their 
families. These include programs in the areas of beginning 
reading, behavioral support and family and community 
partnerships.
    We have initiated an intensive beginning reading program 
called Heluhelu. The U.S. Department of Education estimates 
that 80 percent of students labeled as having a learning 
disability are those experiencing reading difficulties first 
and foremost.
    We have found this to be the case in Hawaii with large 
numbers of our Hawaiian special education students being those 
with problems in the areas of reading.
    Additionally, our schools serve larger percentages of part-
Hawaiian and Hawaiian students have experienced significant 
challenges and demonstrating acceptable reading achievement. 
Heluhelu is being implemented in 21 school sites with the 
project supporting intensive in-service training, ongoing 
observation and consultations of children's reading and data-
keeping on reading skills and the development of students.
    Pihana Na Mamo also has 16 project sites implementing 
Hi'ilani, a positive behavior support program that assists 
schools in implementing schoolwide proactive behavioral support 
initiatives.
    For the past 4 years these schools have sustained a school 
team comprising of teachers, administrators, parents and other 
support staff who regularly address and implement solutions to 
the behavioral concerns in a preventive and proactive manner.
    This initiative is maintained in partnership with a strong 
research team. The results are strong and positive in terms of 
improvements on observable behavioral indicators.
    At over 18 school sites, Pihana Na Mamo supports 18 parent 
involvers who assist schools in fostering parent, school and 
community partnerships. Among their numerous tasks these parent 
involvers have assisted our parents at IEP meetings, arranging 
for workshops on child development and learning and developing 
community partnerships as well.
    While Hawaii Department of Education receives a relatively 
low proportion of the Federal funding for Native Hawaiian 
education programs, our students benefit from strong 
partnerships with other agencies serving Hawaiian youth as 
well.
    I've had an opportunity since my arrival last September to 
inspect almost all of them. I find them to be strong, effective 
contributors to the educational program offered to our youth.
    For over a decade the Department has operated Hawaiian 
Language Immersion programs. We currently serve 1560 students 
at 16 school sites in grades K through 12. The Department 
employs 90 language immersion teachers.
    Since my arrival I found these programs to be woefully 
undersupported even as the interest in and demand for them 
increases. As an educator I find them to be of considerable 
potential for two reasons.
    First, there is a moral imperative to promote the well-
being of the culture of this place. That is the case for any 
education system anywhere, though it may be discharged in more 
subtle ways elsewhere.
    Second, as an educator, we must also be opportunists. 
Whatever builds a bridge between us and our students, whatever 
can be used to good effect to engage them in the learning that 
we all advocate should be seized upon and used to do so.
    I've seen time and again that the culture and history of 
this place are sources of pride and interest for our young 
people. We should use them to engage students in the learning 
that we all seek.
    At present a majority of the language immersion teachers 
are now certified, though we face shortages precipitated by 
program expansion. There are also continuing needs for pre-
service and in-service teacher training for a cadre of 
relatively new and young teachers.
    In addition, the necessity for ongoing curriculum 
development and materials for our immersion programs remains a 
constant and critical need.
    In very few other areas would we ask a few educators in a 
school to invent or develop all of what the education 
enterprise requires, and to do so alone and in isolation. Yet 
we do this to our HILP staffs.
    I strongly support such program providing that it is in 
addition to our standards and, therefore, increases not 
diminishes our aspirations and expectations for our children 
and the system that serves them.
    My remarks here are intended to identify four critical 
needs that I think increased support is required for Native 
Hawaiian children.
    First, reading and literacy development especially at the 
earliest grades.
    Second, family literacy, involvement and support.
    Third, positive behavioral development.
    Fourth, language development including immersion programs.
    I personally would add more extensive education for all in 
the traditional culture and history of Hawaii, though it falls 
outside the purpose of the funding that we discuss here today.
    We must face the fact that despite many good efforts about 
which you will hear today, the academic performance of our 
Native Hawaiian students lags behind their counterparts in 
essentially all areas.
    There's no necessary or acceptable reason for this. Its 
causes are based in the debilitating impacts of diminished 
opportunity. Those impacts can be remediated through effective 
programing and adequate support.
    As we embark upon our journey to implement standards-based 
education and the realization of the achievement of high 
standards by all students, the Department of Education urges 
continued support of Native Hawaiian students from the Federal 
Government.
    The challenges in meeting their needs are many. I've often 
stated that one of the reasons for my accepting the position of 
Superintendent of Education in Hawaii has been that this is a 
place that has the right values.

                           prepared statement

    In the face of myriad competing economic, political and 
social needs it is the absolute and high value that our Native 
Hawaiian people have placed on and continue to place on 
education that promises a hopeful future. Thank you.
    Senator Inouye. I thank you very much, Dr. LeMahieu.
    [The statement follows:]
                  Prepared Statement of Paul LeMahieu
    Good morning, Senator Inouye, Senator Akaka, Representative Mink, 
Representative Abercrombie, members and staff of the Senate Committee 
on Appropriations' Subcommittee on Labor, Health, and Human Services, 
Education and Related Agencies, colleagues and guests.
    I am Paul LeMahieu, Ph.D., Superintendent of the Hawaii Department 
of Education. I welcome this opportunity to present testimony before 
your Subcommittee on matters relating to Native Hawaiian education. I 
am honored to speak on behalf of the Hawaii Department of Education 
whose legacy and responsibilities in the education of Native Hawaiians 
are extensive, and both distinguished and challenged.
    As the Superintendent of Education, I govern Lahainaluna School, 
founded in 1831 to educate Native Hawaiians. It is regarded by some as 
the oldest school west of the Rockies, and by other sources, the oldest 
school west of the Mississippi. On its grounds stands historical Hale 
Pa'i, the old printing house where many of Hawaii's first school 
textbooks were translated and published in Hawaiian. It is the school 
that educated notable Hawaiian scholars such as David Malo and Samuel 
Kamakau. Historical reports from that era comment on the high literacy 
among the Native Hawaiian people.
    The successes experienced by these early schools in the education 
of Native Hawaiians had a profound impact upon General Samuel Chapman 
Armstrong, the founder and first principal of Hampton Institute, in 
Hampton, Virginia. Born and raised in Hawaii, he was the son of Dr. 
Richard Armstrong, the Minister of Public Instruction under King 
Kamehameha IV. General Armstrong's convictions to provide educational 
opportunities for youngsters of African-American and Native American 
backgrounds were shaped by his Hawaii experiences and the 
accomplishments of Hawaiian youth. Upon his death in 1893, Samuel 
Armstrong was laid to rest on the grounds of Hampton Institute, at the 
head of his grave a large lava rock from his beloved island home.
    That a tiny kingdom in possibly the most isolated spot in the world 
would contribute so greatly to American education history and to the 
advancement of education for African-American and Native American 
people at a time where such practices were questioned and controversial 
is a heritage that both humbles and inspires me.
    The Hawaii Department of Education is the largest provider of 
educational services to Hawaiian and part-Hawaiian children and youth. 
We currently serve 46,141 students of Hawaiian ancestry. As a group, 
our students of Hawaiian and part-Hawaiian ancestry comprise 25.7 
percent of our school population, the largest ethnic group within our 
Department of Education. The 1993 Native Hawaiian Education Assessment 
correctly stated that in order for the State to positively influence 
the educational status of Hawaii's students, we would need to 
positively impact the educational status of its Hawaiian students.
    The challenges faced by the Hawaii Department of Education in 
serving our students of Hawaiian ancestry are many. While our Hawaiian 
students comprise 25.7 percent of our overall student population, they 
comprise 35.3 percent of our students in special education programs. In 
the area of specific learning disabilities, 3,885 of the 9,872 students 
or 39.4 percent are students of Hawaiian and part-Hawaiian ancestry. 
For the past nine years, the Hawaii Department of Education has been 
the recipient of funds from the Native Hawaiian Special Education 
initiative. Pihana Na Mamo, or the Native Hawaiian Special Education 
Project, has implemented three major initiatives to meet the needs of 
its special education Hawaiian students and their families. These 
include programs in the areas of: beginning reading, behavior support, 
and family/community partnerships.
    We have initiated an intensive beginning reading program called 
Heluhelu. The U.S. Department of Education estimates that 80 percent of 
students labeled as having a learning disability are those that are 
experiencing reading difficulties. We have found this to be the case in 
Hawaii with large numbers of our Hawaiian special education students 
being those with problems in the area of reading. Additionally, our 
schools serving large percentages of part-Hawaiian and Hawaiian 
students have experienced significant challenges in demonstrating 
acceptable reading achievement. Heluhelu is being implemented in 21 
school sites with the project supporting intensive in-service training, 
ongoing observations and consultations, and data-keeping on reading 
skills development of students.
    Pihana Na Mamo also has 16 project sites implementing Hi'ilani, a 
positive behavior support program that assists schools in implementing 
school-wide, pro-active behavior support initiatives. For the past four 
years, these schools have sustained a school team of teachers, 
administrators, parents, and other support staff who regularly address 
and implement solutions to behavior concerns in a preventive and pro-
active manner.
    At over 18 school sites, Pihana Na Mamo supports 18 parent 
involvers who assist schools in fostering parent, school, and community 
partnerships. Among their numerous tasks, these parent involvers have 
assisted our parents in IEP meetings, arranging for workshops on child 
development and learning, and developing community partnerships.
    For over a decade, the Department has operated Hawaiian Language 
Immersion programs. We currently serve 1,560 students at 16 school 
sites in grades K-12. The Department employs 90 language immersion 
teachers. At present, a majority of the language immersion teachers are 
now certified, though we face a continuing need for pre-service and in-
service teacher training of a cadre of relatively new and young 
teachers. The necessity for ongoing curricula development and materials 
for our immersion programs remains a constant and critical need.
    As we embark on our journey to implement standards-based education 
and the realization of the achievement of high standards by all 
students, the Department of Education welcomes continued support of 
Native Hawaiian students from the federal government. The challenges in 
meeting their needs are many. I have often stated that one of the 
reasons for my accepting the position of Superintendent of Education in 
Hawaii has been that this is a place that has the right values. In the 
face of myriad competing economic, political, and social needs, it is 
the absolute high value that our Native Hawaiian people have placed and 
continue to place on education that promises for a hopeful future.
    Thank you.
STATEMENT OF DR. BRUCE S. ANDERSON, DIRECTOR, 
            DEPARTMENT OF HEALTH, STATE OF HAWAII
    Senator Inouye. Now may I call upon Dr. Anderson.
    Dr. Anderson. Good morning, Senator Inouye, Senator Akaka, 
staff and representatives of the subcommittee. I want to thank 
you for allowing me to testify this morning and to participate 
in this hearing. It's good to see you again.
    My name is Bruce Anderson. I'm the director of the State of 
Hawaii Department of Health. The mission of my department is to 
provide leadership to monitor, protect and enhance the health 
and well-being of all the people of Hawaii.
    This began back in 1863 when kuhina nui Kina'u directed 
pilots in Honolulu Harbor to screen arriving vessels for small 
pox and other diseases. In fact the Kingdom of Hawaii 
established the first Board of Health in 1853, before any State 
in the United States, to address public health problems.
    The focus of the Department on preventing illness and 
injuries, promoting good health practices, and keeping our 
environment clean and safe, has resulted in continuous 
improvements in the health status of our community at large.
    For the second year in a row Hawaii has been ranked by 
independent national research groups as the healthiest State in 
the nation.
    Nevertheless, today serious health problems exist. Segments 
of our population, primarily Native Hawaiians, have some of the 
worst health statistics in the United States. The poor health 
status of Native Hawaiians is a major concern for us.
    Today, one of our major goals is to reduce the health 
disparities in Hawaii's population. A recent profile of Native 
Hawaiian mortality between 1910 and 1990 shows alarmingly high 
death rates for both full and part-Hawaiians in comparison to 
other ethnic groups.
    In fact, the death rate from all causes for full and part-
Hawaiians actually increased from 1980 to 1990, while rates for 
others in the State continued to improve.
    Hawaiian mortality rates for heart disease, cancer, and 
stroke also increased within the last decade, that is between 
1980 and 1990, with the highest rates of increase among full-
blooded Native Hawaiians.
    Of particular concern are the extremely high breast cancer 
death rates for full-blooded Native Hawaiian women and high 
death rate for part-Hawaiian women compared to other women in 
the State, and the realization that these rates continue to 
rise and far exceed those of others in the State.
    Overall, reviews of cancer incidence, mortality and 
survival data over time show a disproportionate burden of 
cancer in Native Hawaiians when compared with other populations 
in the United States. Only African Americans and Alaska Natives 
have cancer incidences that are greater.
    The Department's Behavioral Risk Factor Surveillance Study 
and Hawaii Household Survey indicate that chronic disease 
factors affecting Hawaiians are obesity, sedentary lifestyles, 
low fruit and vegetable consumption, and cigarette smoking and 
alcohol consumption. These lifestyle behaviors are major 
targets to improve the health of Native Hawaiians and other 
populations.
    The disparate chronic disease burden of Native Hawaiians is 
a serious dilemma in the face of dwindling resources. Indeed, 
it is ironic that the Federal Government is reducing Federal 
support for Medicaid and other health services at a time when 
they're so desperately needed by many including those in the 
Native Hawaiian community.
    In my short tenure as director I have pondered the unequal 
health burden that Native Hawaiians bear, and realize that a 
quick fix solution is not practical nor is it the answer.
    My administration team and I are aware that significant and 
lasting change can come from the concerted efforts in 
preventive health. I'm grateful that an opportunity is 
developing on the horizon to develop creative and innovative 
prevention health strategies.
    The recent Tobacco Settlement is expected to provide $1.3 
billion for Hawaii over the next 25 years. As provided for in 
legislation passed this year, 35 percent of these funds will be 
allocated to wellness programs to improve nutrition and 
physical activity.
    Of this, 10 percent will be used to support the Children's 
Health Insurance Program. Twenty-five percent will be allocated 
to comprehensive tobacco control efforts.
    We intend that all prevention activities, including tobacco 
control, will be integrated with other activities to assure a 
comprehensive approach to wellness.
    Incidentally, the remaining 40 percent of the settlement 
will go to a rainy day fund to help to assure our State's 
fiscal integrity.
    In summary, the Department of Health is committed to 
improving the health of Native Hawaiians. We know that 
utilizing tobacco settlement funds is one step in reaching our 
goal of eliminating the disparity in their health status.
    We plan to do our part. However, it is clear that continued 
Federal support will be necessary. We cannot do this alone. 
It's unconscionable that Federal funding for programs such as 
Medicaid is being reduced at a time when there's so much need.

                           prepared statement

    The State and Federal governments in partnership with all 
the other agencies present at this hearing, including those 
from education and the employment sectors, must continue to 
work collaboratively to improve the health and overall quality 
of life of Native Hawaiians. We're all responsible stakeholders 
and will benefit from our collective efforts.
    I thank you for the opportunity to testify.
    Senator Inouye. Thank you very much, Dr. Anderson.
    [The statement follows:]
              Prepared Statement of Dr. Bruce S. Anderson
    Mr. Chairman and Subcommittee Members: My name is Bruce Anderson 
and I am the Director of the Hawaii State Department of Health. I am 
pleased to participate in this congressional hearing on the Native 
Hawaiian Health, Education, Employment and Training, and to commit to 
[providing consultation and guidance on health issues and services in 
Hawaii, to the degree that we are able, to the Committee, Native 
Hawaiian Health Care Systems, Papa Ola Lokahi and other Hawaiian health 
agencies.]
    As the official health agency of the State, the goal of our 
Department is to protect the health and environmental well-being of all 
of Hawaii's people. The Department's programs provide leadership within 
the community in efforts to monitor, protect and enhance health and to 
address many health and environmental challenges which affect the well-
being of our citizens and visitors to our state. The Department is the 
oldest statewide health department in the nation. The initial Board of 
Health was appointed by Kamehameha III in 1850 and its jurisdiction was 
extended to all islands in 1853. Our history began with efforts to 
resist the introduction and spread of communicable diseases, such as 
small pox and cholera, in the early 19th century. Though the historical 
accomplishments of the Department have been many, we realize 
considerable challenges lie ahead for all who share in the 
responsibilities of healthcare in Hawaii.
    The poor health status of the Native Hawaiian population is a major 
concern for us. We are all aware that a recent profile of Native 
Hawaiian mortality between 1910 and 1990 shows alarming high death 
rates for both full and part Hawaiians, while the rates for all others 
in the state improved. Hawaiian mortality rates for heart disease, 
cancer and stroke increased within the decade between 1980 to 1990, 
with highest rates of increase among full-blooded Native Hawaiians. Of 
particular concern are the extremely high breast cancer death rate for 
full-blooded Native Hawaiian women and high death rate for part-
Hawaiian women compared to other women in the State, and the 
realization that these rates continue to rise and far exceed those of 
others in this state. An epidemiological review of cancer incidence, 
mortality and survival data over time shows the continued 
disproportionate burden of cancer in Native Hawaiians when compared 
with other populations in the United States. Only African Americans and 
Alaska Natives have cancer incidences that are greater than Native 
Hawaiians. The Department's Behavioral Risk Factor Surveillance Study 
and Hawaii Household Survey indicate the chronic disease risk factors 
affecting Hawaiians, are obesity, sedentary lifestyle, low fruit and 
vegetable consumption, cigarette smoking and alcohol consumption. These 
lifestyle behaviors are major targets to improve health of Native 
Hawaiians and other populations. The disparate chronic disease burden 
of Native Hawaiians is a serious dilemma in the face of dwindling 
health resources in the state (or, during the economic crisis in the 
State).
    In my short tenure as Director of Health, I have pondered the 
unequal health burden that Native Hawaiians bear and realize that a 
``quick fix'' solution is not the answer. My administrative team and I 
are aware that significant and lasting change can only come from 
concerted efforts in preventive health. I am grateful that an 
opportunity is developing on the horizon, to develop creative and 
innovative preventive health strategies.
    The Tobacco Settlement is expected to provide $1.3 billion for 
Hawaii over 25 years. Thirty-five percent of the funds will be 
allocated to wellness, nutrition and physical activity programs. Up to 
10 percent of the total settlement will be used to support the 
Children's Health Insurance Program. Twenty-five percent will be 
allocated to comprehensive tobacco control efforts. We intend that all 
prevention activities, including tobacco control, will be integrated 
with other activities to assure a comprehensive approach to wellness. 
The remaining 40 percent of the Settlement will go to a ``rainy day'' 
fund for the State of Hawaii.
    The Department of Hawaii is committed to improving the health of 
Native Hawaiians. We know that utilizing Tobacco Settlement funds is 
one step in assisting us toward this goal. It is clear that continued 
federal appropriations will be essential to restoring the health of the 
Native Hawaiian population. We cannot do this alone.
    The state and federal governments, in partnership with all the 
agencies present at this hearing, including those from the education 
and employment sectors, must continue to work collaboratively to 
improve the health and overall quality of life of Native Hawaiians. We 
are all stakeholders in this collective responsibility.
    Thank you for this opportunity to testify.
STATEMENT OF LORRAINE AKIBA, DIRECTOR, DEPARTMENT OF 
            LABOR AND INDUSTRIAL RELATIONS, STATE OF 
            HAWAII
    Senator Inouye. May I now call on Ms. Akiba.
    Ms.  Akiba. Aloha. Good morning, Senator Inouye, Senator 
Akaka, Representative Mink, members and staff of Hawaii's 
Congressional delegation.
    I'm Lorraine Akiba, director for the State of Hawaii 
Department of Labor and Industrial Relations. I'm honored to be 
here today to brief you on various programs including Hawaii's 
Samoan and Pacific Islander project, the Rural Community 
development program, the Women in High Technology project and 
to offer some brief comments for your consideration regarding 
Hawaii's Job Corps program.
    However, before I speak on these projects I would like to 
introduce two very special people today. Dr. Tin Myaing Thein 
of the Immigrant Center who sits behind me and Mr. Bill Emmsley 
of the Samoan Service Providers Association.
    Dr. Myaing and Mr. Emmsley have graciously offered to 
provide a tour of their facilities for the benefit of the 
committee staff this afternoon. As well tomorrow morning our 
Department of Labor staff will travel with your committee staff 
to the Big Island where they will visit a rural community 
development project in Puna and our One-Stop Workforce 
Assistance Center in Hilo.
    Because of your support we were fortunate enough to receive 
an increase in funding of $1 million last year from $2 million 
to $3 million to serve economically disadvantaged people of 
Samoan and Pacific Islander origins.
    The significance of this funding increase is that it gives 
the State of Hawaii an important opportunity to serve a growing 
population of people in need during economically challenging 
times.
    From the very beginning we were encouraged by your office's 
advice to think outside of the box and to find innovative and 
creative ways to help Hawaii's people. This is a refreshing and 
welcome approach and exactly the method that our department has 
been using in developing and employing its strategic management 
and continuous improvements efforts.
    It is good then to hear your respective reminders that 
these additional monies should not be used to expand the 
State's bureaucracy but should be used to creatively and 
directly improve and strengthen the communities' social and 
economic infrastructure.
    It is also clear that the purpose of your support is to 
promote the important objective of empowering communities to 
better help themselves attain sustainable self-sufficiency.
    Today I am proud to say the Department of Labor and 
Industrial Relations has been in sync with the advice of your 
office. Further, this approach is very well received by the 
communities which we serve.
    They often remind us of their appreciation for allowing 
them to participate in developing and implementing innovative 
approaches to delivering services.
    The immigrant center, which is headed by Dr. Myaing, was 
selected recently as the primary service provider for nearly 
8,000 new immigrants arriving in Hawaii each year. The 
immigrant center provides services such as outreach screening, 
assessment, supportive counseling, acculturation assistance, 
advocacy, English language training, interpretation, 
translation, form assistance and other related services 
designed to enhance employability.
    Qualified Pacific Islanders and immigrants from countries 
including the Cook Islands, The Federated States of Micronesia, 
Fiji, Vietnam, Korea, the Philippines, Cambodia, and Thailand 
are all eligible for these types of services.
    In previous years when public funds were more readily 
available it was normal for agencies to offer similar services, 
oftentimes to the same population within a small geographic 
area of only a few miles.
    Hawaii's economy has dramatically changed in the last few 
years, such that we long can no longer do business in the same 
way as we have in the past.
    The manner in which the immigrant center has chosen to 
serve its immigrant community is indicative of what is needed 
to meet the challenges of the new economy and the new 
millennium.
    Rather than compete for the shrinking dollars the immigrant 
center lead an effort to join forces with other community-based 
organizations by exploiting each other's strengths to form a 
seamless system whereby clients would have access to services 
from a variety of entry points, and their progress towards 
economic self-sufficiency would be better tracked.
    This collaborative team approach to community development 
is operating within the immigrant community with the immigrant 
center serving as team leader.
    Other team members include Catholic Charities, Child and 
Family Services, and the Susannah Wesley Community Center. The 
team has been functioning for about a year now.
    Although there are still some improvements we are working 
on, we are confident that we have a sound system which 
incorporates the values of increased leveraging of resources 
and maximizing collaboration and cooperation which benefits 
all.
    Another positive best practice model is the Samoan Service 
Providers. Under the leadership of Mr. Emmsley it has 
demonstrated its effectiveness at meeting the training needs of 
the Samoan community for the past 11 years.
    The goal of the Samoan Training and Employment Program is 
to develop, nurture and support individuals of Samoan ancestry 
through job training, job counseling and job placement. More 
than 2000 Samoan clients have been served under the STEP 
program.
    As you know, the State of Hawaii is usually the first stop 
for American Samoans migrating to the United States. Thus 
Hawaii has the highest concentration of recently-arrived 
American Samoan immigrants of any U.S. location. For many, the 
transition is more than just geographical. It represents a 
rural to urban movement, often to inner city public housing 
projects.
    Moreover, it also marks a substantial economic shift from a 
subsistence way of living to a highly competitive free-market 
system.
    Samoans tend to bring with them many aspects of their 
culture, including the matai system. Although matais and 
ministers are repositories of the Samoan culture, they can also 
be inhibiting factors in facilitating social integration, even 
more so with the economic development of Samoans in Hawaii's 
economic mainstream.
    These factors have directly attributed to the Samoan 
community's statistics of highest unemployment among adults, 
lowest per capita among families and highest incarceration rate 
among youth.
    Similar to other ethnic groups like Native Hawaiians and 
Native Americans, Samoan youth on a per capita basis, have one 
of the highest high school drop out rates among teenagers in 
the State of Hawaii.
    The Samoan Training and Employment Program offered by SSPA 
is specifically designed to meet the needs of Samoans, who are 
unemployed, underemployed or economically disadvantaged.
    By providing job training, job counseling and job placement 
and other needed services, SSPA clients are able to decrease 
their reliance on public assistance by increasing their ability 
to support themselves and again reach self-sufficiency.
    The third program that I have been asked to share 
information with you about is the Rural Community Development 
Project spearheaded by Dr. Clyde Sakamoto, Provost for Maui 
Community College.
    Dr. Sakamoto was unable to attend today's hearing, so I 
have been asked to comment on his program because the 
Department of Labor is one of the program's major partners.
    As you know the Rural Community Development project was 
started on the island of Lana'i 2 years ago with a grant from 
the U.S. Department of Labor of $200,000. That funding has 
since increased to a million dollars, and the activities 
expanded to the islands of Maui, Moloka'i, Hawaii and Kauai.
    The primary purpose of this program is to provide 
employment activities leading to a job. It is gratifying that 
the success of this project has leveraged these limited 
resources through a growing partnership of community service 
supporters and other initiatives and contributions to our 
overall efforts.
    We have leveraged resources from other existing Federal 
resources such as the Job Training Partnership Act, our 
apprenticeship programs and others.
    As you know the neighbor islands are distinct and different 
from urban O'ahu. They have their own beauty and uniqueness. 
They also have their own strengths and ideas for addressing 
their respective economic issues.
    Maui County, for example, with the exception of Moloka'i, 
has a distinct high technology edge with its existing advanced 
computerized infrastructure located at Haleakala and the Maui 
High Tech Center in Kihei.
    The Big Island still has an edge in agriculture and tourism 
as its mainstays for economic viability, while Kauai is 
developing an edge with employment opportunities in forestry 
and coffee.
    Moloka'i remains a model of self-sustaining breadbasket 
with industries like truck farming and aquaculture leading the 
way to economic self-sufficiency.
    What makes the Rural Community Economic Development Project 
so different is its intended objective of having each island 
determine what is best for itself.
    Similar to the philosophy being encouraged within the 
immigrant program I talked to you about earlier, the Rural 
Development Program insists on empowering communities to 
determine their own economic future.
    Community advisory boards are established on each island to 
lead the development and implementation of projects that are 
identified by the residents themselves.
    Led by Dr. Sakamoto, Maui Community College administers the 
program. Together with them the department of labor serves as 
an additional resource to assist the community, when and if 
they need our assistance.
    What we bring at department of labor to the table is a 
leveraging of our many other State and Federal resources and 
our ability to serve as a broker, facilitator, and a technical 
assistant.
    As I mentioned earlier, funds from the Job Training 
Partnership Act, our State apprenticeship program and other 
programs administered by the department of labor are leveraged 
with rural development monies to help us get, basically, more 
bang for our buck.
    DLIR is also involved in the Hawaii Forestry Communities 
Initiative which receives about $250,000 in Federal funds 
directed to the State through the U.S. Forest Service through 
the Department of Land and Natural Resources.
    In our capacity as partners to both HFCI and the Rural 
Development project, we have a role of merging the various 
interest, should islands like Hawaii and Kauai decide that jobs 
in forestry are a priority.
    Similarly, because we are actively involved with the local 
Seafarer's Union and American Hawaii Cruises, our familiarity 
with the leadership for the passenger cruise line industry is 
helpful when the different islands decide that preparing their 
residents for work in this industry is good for them.
    Another asset that the department of labor brings to the 
table for the Rural Community Development Project is the big 
picture view as it relates to the State administration's vision 
of where economic development needs to go.
    Governor Cayetano has expressed his strong desire to see 
industries like telecommunications, healthcare, biotechnology, 
environmental science and technology and information technology 
be supported because he, like all of you, believe that these 
industries have much promise for providing Hawaii's residents 
jobs today, and in the future.
    This past legislative session the Governor introduced and 
had passed legislation calling for many incentives to support 
these industries, including the Millennium Workforce 
Development Initiative, which is a new program for job 
training.
    Our department has been directed by the Legislature and the 
Governor to assist with developing a plan for training in these 
growth industry cluster areas. We are actively incorporating 
some of what is being proposed for a statewide training program 
into plans being generated in the rural communities through the 
Rural Community Development program.
    The Women in High Technology Project is funded with a 
$500,000 appropriation through the U.S. Department of Labor. A 
proposal is currently being reviewed by U.S. Department of 
Labor.
    Upon that agency's approval, the program will provide 
training to women in Maui County for jobs in high technology 
where they are presently underrepresented.
    The projects I have shared information with you today are 
progressing well. And we believe that the goals set forth by 
both Congress and the communities are being realized.
    On behalf of the hundreds of people involved in these 
programs, I wish to express our sincere appreciation to you and 
your staff. And we would encourage your continued support of 
these very worthy projects.
    My final comments are really one of constructive critique. 
All of you are aware of the Workforce Investment Act which was 
passed by Congress last fall after many years of debate.
    One of the most significant strengths and also difficulties 
of the Workforce Investment Act is the mandate that State and 
local governments shall have to assume more, if not most, of 
the leadership and responsibilities in running many of our 
Federal programs covered under the act.
    Now, one of the programs touched by this Workforce 
Investment Act is Job Corps. Hawaii has a great Job Corps 
Program. Its facilities at Waimanalo are first class and its 
local leadership is an active partnership with some of our 
programs such as One-Stop centers for workforce assistance.
    For the past few years, however, Hawaii's Job Corps Program 
has been administered by an organization located out-of-State. 
One of the reasons for this, I understand, is due to the fact 
that the State of Hawaii, which at one time administered and 
ran the program, could not continue to administer it because it 
wasn't economically feasible.
    Perhaps the time has come for us to reassess where we 
should go with the Hawaii Job Corps Program given the Workforce 
Investment Act and Hawaii's present economy. I believe this is 
a good time to revisit the issue of having the Job Corps 
locally administered again. Local empowerment and best practice 
call out for such a reassessment.

                           prepared statement

    Thank you, again, for this opportunity to present our 
information and views on programs and issues which are very 
important to us and to the communities here in Hawaii to which 
you have not only shown your continuous support over the years, 
and also to which you have given great leadership to as well. 
Thank you very much.
    Senator Inouye. Thank you, Ms. Akiba.
    [The statement follows:]
                  Prepared Statement of Lorraine Akiba
    Aloha, Mr. Chairman and members of Hawwaii's congressional 
delegation. I am Lorraine Akiba, Director for the State of Hawaii 
Department of Labor and Industrial Relations (DLIR). I am honored to be 
here today to brief you on various programs including Hawaii's Samoan 
and Pacific Islander project, the Rural development program, the Women 
in High Technology project and to offer some brief comments for your 
consideration regarding Hawaii's Job Corp program.
    However, before I speak on these projects, may I please introduce: 
Dr. Tin Myaing Thein of the Immigrant Center and Mr. Bill Emmsley of 
the Samoan Service Providers Association.
    Dr. Myaing and Mr. Emmsley have graciously offered to provide a 
tour of their facilities for the benefit of committee staff after your 
lunch today. Tomorrow morning, DLIR's staff will travel with your 
committee staff to the Big Island where they will visit a rural 
development project in Puna and our One-Stop Workforce Assistance 
Center in Hilo.
    Because of your support, we were fortunate to receive an increase 
in funding of a million dollars last year, from $2 million to $3 
million, to serve economically disadvantaged people of Samoan and 
Pacific Islander origins. The significance of this funding increase is 
that it gives the State of Hawaii an important opportunity to serve a 
growing population of people in need during economically challenging 
times.
    From the very beginning, we were encouraged by your office, Mr. 
Chairman, to ``think outside of the box'' and to find innovative and 
creative ways to help Hawaii's people. This is a very refreshing and 
welcome approach and exactly the method that DLIR has been using in 
developing and deploying its strategic management and continuous 
improvement efforts. It is good, then to hear your reminders that these 
additional monies should not be used to expand the State's bureaucracy 
but should be used to creatively and directly improve and strengthen 
the communities social and economic infrastructure. It is also clear 
that the purpose of your support is to promote the important objective 
of empowering communities to better help themselves attain sustainable 
self-sufficiency.
    Today, I am proud to say that DLIR has been in synch with the 
advice of your office. Further, this approach is very well received by 
the communities served. They often remind us of their appreciation for 
allowing them the opportunity to participate in developing and 
implementing innovative approaches to delivering service.
    The Immigrant Center (IC), headed by Dr. Myaing, was selected as 
the primary service provider for the nearly 8,000 new immigrants 
arriving in Hawaii each year. IC provides services such as outreach 
screening, assessment, supportive counseling, acculturation assistance, 
advocacy, English language training, interpretation, translation, form 
assistance and other related services designed to enhance 
employability. Qualified Pacific Islanders and immigrants from 
countries including the Cook Islands, The Federated States of 
Micronesia, Fiji, Vietnam, Korea, Philippines, Cambodia and Thailand 
are all eligible for these types of services.
    In previous years, when public funds were more readily available, 
it was normal for agencies to offer similar services, often times to 
the same population, within a small geographic area of only a few 
square miles. Hawaii's economy has changed dramatically in the last few 
years, such that we can no longer afford to do business as we have in 
the past.
    The manner in which the Immigrant Center has chosen to service its 
immigrant community is indicative of what was needed to meet the 
challenges of a struggling economy. Rather than compete for the 
shrinking dollar, IC lead an effort to join forces with other 
community-based organization by exploiting each other's strengths to 
form a seamless system whereby a client would have access to services 
from a variety of entry points and their progress towards economic 
self-sufficiency would be better tracked.
    This collaborative team approach to community development is 
operating within the immigrant community with the Immigrant Center 
serving as team leader. Other team members include Catholic Charities, 
Child and Family Services and Susannah Wesley Community Center. The 
team has been functioning for about a year. Although there are still 
some improvements we are working on, we are confident that we have a 
sound system which incorporates the values of increased leveraging of 
resources and maximizing collaboration and cooperation which benefit 
all.
    Under the leadership of Mr. Emmsley, the Samoan Service Providers 
has demonstrated its effectiveness at meeting the training needs of the 
Samoan community for the past 11 years. The goal of the Samoan Training 
and Employment Program (STEP) is to develop, nurture and support 
individuals of Samoan ancestry through job training, job counseling and 
job placement. More than 2,000 Samoan clients have been served under 
the STEP program.
    The State of Hawaii is usually the first stop for American Samoans 
migrating to the United States. Thus, Hawaii has the highest 
concentration of recently arrived American Samoan immigrants of any 
U.S. location. For many, the transition is more than geographical, it 
represents a rural to urban movement, often to inner city public 
housing projects. Moreover, it also marks a substantial economic shift 
from a subsistence way of living to a highly competitive free-market 
system.
    Samoans tend to bring with them many aspects of their culture, 
including the matai system. Although matais and ministers are 
repositories of the Samoan culture, they can also be inhibiting factors 
in facilitating social integration, even more so with the economic 
development of Samoans in Hawaii's economic mainstream.
    These factors have directly attributed to the Samoan community's 
statistics of highest unemployment among adults, lowest per capita 
among families and highest incarceration rate among youth. Similar to 
other ethnic groups, like Native Hawaiians and Native Americans, Samoan 
youth, on a per capita basis, have one of the highest high school drop 
out rates among teenagers in the State of Hawaii.
    The Samoan Training and Employment Program offered by SSPA is 
specifically designed to meet the needs of Samoans, who are unemployed, 
under-employed or economically disadvantaged. By providing job 
training, job counseling, job placement and other needed services, SSPA 
assists clients to decrease their reliance on public assistance by 
increasing their abilities to support themselves.
    The third program that I wish to share information with you about 
is the Rural Development Project spearheaded by Dr. Clyde Sakamoto, 
Provost for Maui Community College. Dr. Sakamoto was unable to attend 
today's hearing, so I have been asked to comment on this program 
because DLIR is one of the program's major partners.
    As you know, the Rural Development Project was started on the 
island of Lanai two years ago with a grant from the USDOL of $200,000. 
The funding has since increased to a million dollars and the activities 
expanded to the islands of Maui, Moloka'i, Hawaii and Kauai. The 
primary purpose of this program is to provide employment activities 
leading to a job. It is gratifying that the success of this project has 
leveraged these limited resources through a growing partnership of 
community service supporters and other initiatives and contributions to 
our overall effort (e.g., JTPA, Apprenticeship, et al).
    The neighbor islands are distinct and different from urban Oahu. 
They have their own beauty and uniqueness. They also have their own 
strengths and ideas for addressing their respective economic issues. 
Maui County for example, with the exception of Moloka'i, has a distinct 
high technology edge with its existing advanced computerized 
infrastructure located at Haleakala and the Maui High Tech Center in 
Kihei. The Big Island still has an edge in agriculture and tourism as 
its mainstays for economic viability while Kauai is developing an edge 
with employment opportunities in forestry and coffee. Moloka'i, it 
seems, remains a model of a self-sustaining breadbasket with industries 
like truck farming and aquaculture leading the way to economic self-
sufficiency.
    What makes the Rural Development project so different is its 
intended objective of having each island determine what is best for 
itself. Similar to the philosophy being encouraged with the immigrant 
program I talked to you about earlier, the rural development program 
insists on empowering communities to determine their own economic 
future. Community advisory boards are established on each island to 
lead the development and implementation of projects that are identified 
by the residents themselves. Led by Dr. Sakamoto, Maui Community 
College administers the program. Together with them DLIR serves as an 
additional resource to assist the community, when and if they need our 
assistance.
    What DLIR brings to the table is a leveraging of our many other 
state and federal resources and our ability to serve as a broker, 
facilitator and technical assistant. Funds from the Job Training 
Partnership Act (JTPA), our State Apprenticeship program and other 
programs administered by DLIR are leveraged with rural development 
monies to help us get more bang for our buck. DLIR is also actively 
involved in the Hawaii Forestry Communities Initiative (HFCI) which 
receives about $250,000 in federal funds directed through the US Forest 
service to the State Department of Land and Natural Resources. In our 
capacity as partners to both HFCI and the Rural Development project, we 
have a role of merging the various interests, should islands like 
Hawaii and Kauai decide that jobs in forestry are a priority. 
Similarly, because we are actively involved with the local Seafarer's 
Union and American Hawaii Cruises, our familiarity with the leadership 
for the passenger cruise line industry is helpful when the different 
islands decide that preparing their residents for work in this industry 
is good for them.
    Another asset DLIR brings to the table for the Rural Development 
project is the big picture view as it relates to the State 
administration's vision of where economic development needs to go. 
Governor Cayetano has expressed his strong desire to see industries 
like telecommunications, healthcare, biotechnology, environmental 
science and technology and information technology be supported because 
he, like all of you, believes that these industries have much promise 
for providing Hawaii's residents jobs today, and in the future. This 
past legislative session, the Governor introduced and had passed 
legislation calling for many incentives to support these industries, 
including the Millennium Workforce Develpment Iniative, a new program 
for job training. DLIR is directed by the legislature and Governor to 
assist with developing a plan for training in these industry cluster 
areas. We are actively incorporating some of what is being proposed for 
a statewide training program into plans being generated in the rural 
communities through the Rural Development program.
    The women in high technology project is funded with a $500,000 
appropriation through USDOL. A proposal is being reviewed by USDOL. 
Upon the agency's approval, the program will provide training to women 
in Maui County for jobs in high technology where they are presently 
underrepresented.
    The projects I have shared information with you today are 
progressing well. We believe that the goals set forth by both Congress 
and the communities are being realized. On behalf of the hundreds of 
people involved in these programs, I wish to express our appreciation 
to you and your staff. We encourage your continued support of these 
very worthy projects.
    My final comment is one that provides constructive critique.
    The Workforce Investment Act (WIA) was passed by Congress last Fall 
after many years of debate. One of the most significant strengths and 
difficulties of the WIA is the mandate that State and local governments 
shall have to assume more, if not most, of the leadership and 
responsibilities in running many of our federal programs covered under 
the act. One of the programs touched by WIA is Jobs Corps.
    Hawaii has a good Job Corps Program. Its facilities at Waimanalo 
are first class and its local leadership is an active partner with some 
of our programs, such as One-Stop. For the past few years, however, 
Hawaii's Job Corp Program has been administered by an organization 
located out of state. One of the reasons for this, I understand, is due 
to the fact that the State of Hawaii, which at one time administered 
and ran the program, could not continue administering it because it 
wasn't economically feasible. Perhaps the time has come for us to 
reassess where we should go with the Hawaii Job Corp program given the 
WIA and Hawaii's present economy. I believe this is a good time to 
revisit the issue of having the Job Corp locally administered again. 
Local empowerment and best practice call out for such a re-assessment.
    Thank you again for this opportunity to present our information and 
views on programs and issues which are very important to us and which 
you have not only shown continuous support over the years, but which 
you have given great leadership to as well. Mahalo and aloha.
STATEMENT OF ROWENA AKANA, CHAIR, BOARD OF TRUSTEES, 
            OFFICE OF HAWAIIAN AFFAIRS, STATE OF HAWAII
    Senator Inouye. Now may I call on the chair of OHA, Ms. 
Rowena Akana.
    Ms. Akana. Thank you. Aloha, kakahiaka. Good morning 
Senator Inouye, Senator Akaka, Representative Mink, all of the 
congressional workforce that has come here to hear us today.
    As you know, my name is Rowena Akana. I'm the chairman of 
the board of trustees for the Office of Hawaiian Affairs. I'm 
especially pleased to appear before the members of our own 
congressional delegation and their friends and colleagues in 
the fight to better the conditions of Native Hawaiian people of 
Hawaii.
    For your past efforts and leadership I want to take this 
opportunity to thank you very much.
    As you know, the Office of Hawaiian Affairs is the lead 
agency in the State of Hawaii with the constitutional and 
statutory responsibility to protect and preserve the rights and 
interests of the Hawaiian community.
    Consistent with that responsibility to work for the 
Hawaiian people, the Office of Hawaiian Affairs is the only 
governmental entity at any level of government whose leaders 
are chosen exclusively by the Hawaiian people.
    Over much of the last century the story of the Federal 
Government's relationship to the Hawaiian people has been a 
tale of institutionalized neglect. For many, the legacy of that 
past neglect is a present life of despair, frustration and 
increasing burdens of social and physical disease.
    Based on statistics reported by the State's Healthy Start 
Program, of every 100 Hawaiian children born today, 65 begin 
life at risk. That risk continues beyond infancy.
    Compared to other groups within the State, Hawaiians are 
more likely to die of cancer, diabetes, heart disease, 
hypertension, and stroke.
    They are more likely to suffer the disastrous effects of 
alcohol and drug abuse and are more prone to respiratory 
illnesses and thyroid disease. Not surprisingly then, they have 
the lowest life expectancy in the State.
    Hawaiians are more likely to be arrested and imprisoned, to 
be unemployed and to live below the poverty level.
    Hawaiian housing needs rank among the most critical in the 
United States. And their communities, usually located on state-
managed trust lands, all are too often defined by substandard 
roads, inadequate or nonexistent utility services and 
substandard and overcrowded housing.
    Contrary to the high literacy rate among the Hawaiian 
people under the school system established in 1840 by 
Kamehameha the III, our children now begin their educational 
experience lagging behind their counterparts, and continue to 
be under-represented in institutions of higher education. This 
list of ills suffered by the Hawaiian people is merely 
illustrative and not exhaustive.
    In the last years of this century the Federal Government's 
policy of neglect began to change. It is now the position of 
the Federal executive branch that a heightened trust and 
political relationship has existed between the United States 
and the Hawaiian people since at least 1898.
    With this change it is our hope that meaningful and 
constructive actions are possible to reverse the legacy of 
their past neglect and to begin the process of reconciliation 
Congress contemplated in 1993, the Apology Resolution.
    It is against there backdrop that we approach Federal 
legislation seeking to better the conditions of our Hawaiian 
people.
    Today I will highlight our concerns with respect to 
proposed legislation in three different but related areas: 
Housing, health, and education.
    In the area of housing the Native American Housing 
Assistance and Self-determination Amendments of 1999, S. 225, 
seeks to extend Federal low-income housing assistance to Native 
Hawaiians.
    In the areas of health and education, Federal legislation 
focusing on the needs of the Hawaiian people already exist: The 
Native Hawaiian Health Care Improvement Act and the Native 
Hawaiian Education Act.
    On the housing bill the Senate is currently considering the 
Native Hawaiian Housing Assistance and Self-determination 
Amendments of 1999, S. 225.
    That bill seeks to extend Federal low-income housing 
assistance to Native Hawaiians living on land controlled by the 
State's Department of Hawaiian Homelands or DHHL. OHA has 
proffered amendments to S. 225 to clarify the historical basis 
for the United States' special trust obligation to the Hawaiian 
people to broaden the beneficiary class to include all 
Hawaiians in need regardless of blood quantum, to expand the 
eligible housing area to include all Hawaiian trust lands, and 
to allow OHA to participate equally with the DHHL in addressing 
the housing needs for all Hawaiian people.
    We have been advised that recent Senate committee action 
has taken steps to expand the bill's findings and to broaden 
the definition of the beneficiary class. These are steps in the 
right direction. But after a century of neglect, strides, not 
steps are required.
    Broadening the beneficiary class to include all Hawaiians 
has no real impact if, as the case with respect to DHHL-
controlled lands, the eligible housing area is restricted to 
only a portion of that class.
    Many Hawaiians living in poverty and substandard housing 
are ineligible for DHHL housing. And many who are eligible do 
not want their housing options restricted to DHHL-controlled 
lands.
    The housing needs of non-DHHL Hawaiian communities such as 
Maunalaha, Miloli'i, Kahana Valley, and Kikala-Keokea, which 
are the Kalapana relocatees, are just as compelling as those 
other communities located on the Department of Hawaiian Home 
Lands-controlled land.
    Moreover, expanding the eligible housing area to include 
all Hawaiian trust lands is consistent with the trust 
obligations owed to all Hawaiians now acknowledged by the 
United States.
    Finally, continuing the OHA/DHHL housing partnership will 
permit the development of coordinated housing plans serving all 
Hawaiians in need and not just those eligible for the 
Department of Hawaiian Homelands leases.
    OHA has a long-standing commitment and has demonstrated a 
track record of financing housing for its beneficiaries on the 
Department of Hawaiian Homelands-controlled lands.
    For example, we have provided $30 million in loans to DHHL 
beneficiaries and made available more than $4 million for the 
proposed Waimanalo Kupana housing project.
    We are currently contemplating the allocation of additional 
millions to support other critical Hawaiian housing needs. 
Clearly OHA has been, and will continue to be, prepared to put 
its money where the need is. We simply ask that the Federal 
Government do no less.
    I have appended to my testimony today communications 
received by OHA from members of non-DHHL Hawaiian communities 
seeking our help in broadening S. 225.
    I will also provide to the committee our detailed 
amendments to this important housing bill under separate cover. 
I urge each member of this committee to listen to the voices of 
all the Hawaiian people, as has OHA, and support the efforts to 
broaden S. 225.
    Under the health bill. The Native Hawaiian Health Care 
Improvement Act has been the law for approximately 10 years. It 
is now time for reauthorization of that legislative program.
    We have been working with representatives of the Hawaiian 
health care community including representatives of the Queen's 
Hospital, and E Ola Mau to develop joint amendments.
    Those efforts have identified numerous issues involving 
scope of services, allocation of responsibilities for 
implementation and coordination of services and the proper role 
of OHA and Papa Ola Lokahi for developing health policies and 
programs affecting the Hawaiian people.
    It is this position of the Office of Hawaiian Affairs that 
any reauthorization of the Native Hawaiian Health Care 
Improvement Act must reflect the current legal, community, and 
political landscape in order to better address the dire health 
statistics of our Hawaiian people.
    Among the new realities is the United States' explicit 
acknowledgement of its trust and political obligations to 
Hawaiians. Furthermore, the health care delivery system 
contemplated under the Act must begin to focus on the primary 
and acute care health needs of the Hawaiian community.
    It is our understanding that a series of community meetings 
on the proposed health bill are scheduled to take place 
throughout the State in the month of September.
    We plan to have representatives at each of these meetings 
and to refine our views based on our community concerns raised 
at those meetings.
    We ask that the record of this hearing be held open for at 
least 30 days following the completion of those meetings to 
permit the filing of written and final comments to aid the 
subcommittee in its deliberations.
    On the education bill. As in the case of health, Federal 
legislation focusing on special education needs of the Hawaiian 
community currently exists in the form of the Native Hawaiian 
Education Act, 20 U.S.C. 7901 et seq.
    This legislation is also subject to reauthorization, and we 
have been working closely with representatives of Hawaiian 
educational programs to develop joint amendments.
    That work has identified four areas that must be addressed 
in any reauthorization of the Native Hawaiian Education Act.
    First, the Native Hawaiian Education Act should be amended 
to require an Early Childhood Education Council to specifically 
focus on the special needs of this group.
    Second, early childhood education demonstration projects 
are necessary because it is time to translate the studies into 
meaningful educational programs.
    Third, we also believe that any reauthorization must 
include programs for youth at risk.
    Fourth, the Educational Council and authorized under the 
Act to develop an educational policy and coordinate the 
delivery of educational services must broadly represent the 
interests of the entire Hawaiian community.
    Because of the obvious conflicts and problems in awarding 
educational assistance funds, it cannot, as some have 
suggested, be limited to past and present grant recipients.
    Rather, grant recipients should comprise a separate 
advisory body to the decisionmaking council. In this same vein, 
any reauthorization must recognize the mission of OHA and its 
mandate under State law.
    For example, some of the present council have suggest that 
an organization sometimes referred to as PREL assume the fiscal 
oversight responsibility now performed by OHA.
    However, representatives of the U.S. Department of 
Education have voiced some preliminary concerns with respect to 
this proposal.
    Final joint amendments to the reauthorization of the Native 
Hawaiian Education Act are now in their final stage. Once 
completed we will forward to the subcommittee for inclusion in 
the record our detailed comments on jointly proposed language 
reauthorizing the act.

                           prepared statement

    I thank you for the opportunity to testify on these 
important bills and look forward to answering any questions 
that you may have on these bills or any other matter addressing 
the education, health or housing needs of our Hawaiian 
community. Thank you.
    Senator Inouye. Thank you very much, Ms. Akana.
    [The statement follows:]
                   Prepared Statement of Rowena Akana
    Aloha. kakahiaka: My name is Rowena Akana. I testify today as the 
Chair of the Board of Trustees of the Office of Hawaiian Affairs. I am 
especially pleased to appear before the members of our own 
congressional delegation--friends and colleagues in the fight to better 
the conditions of the native people of Hawaii. For your past efforts 
and leadership, I want to take this opportunity to thank you.
    As you know, the Office of Hawaiian Affairs is the lead agency in 
the State of Hawaii with the constitutional and statutory 
responsibility to protect and preserve the rights and interests of the 
Hawaiian community. Consistent with that responsibility to work for the 
Hawaiian People, the Office of Hawaiian Affairs is the only 
governmental entity at any level of government whose leaders are chosen 
exclusively by the Hawaiian People.
    Over much of the last century, the story of the Federal 
Government's relationship to the Hawaiian People has been a tale of 
institutionalized neglect. For many, the legacy of that past neglect is 
a present life of despair, frustration and increasing burdens of social 
and physical disease.
    Based on statistics reported by the State's Healthy Start Program, 
of every 100 Hawaiian children born today, 65 begin life ``at risk''. 
That risk continues beyond infancy. Compared to other groups within the 
State, Hawaiians are more likely to die of cancer, diabetes, heart 
disease, hypertension and stroke. They are more likely to suffer the 
disastrous effects of alcohol and drug abuse and are more prone to 
respiratory illnesses and thyroid disease. Not surprisingly then, they 
have the lowest life expectancy in the State. Hawaiians are more likely 
to be arrested and imprisoned, to be unemployed and to live below the 
poverty level. Hawaiian housing needs rank among the most critical in 
the United States and their communities, usually located on State-
managed trust lands, are all too often defined by substandard roads, 
inadequate or non-existent utility services and substandard and over-
crowded housing. Contrary to the high literacy rate among the Hawaiian 
People under the school system established in 1840 by Kamehameha III, 
our children now begin their educational experience lagging behind 
their counterparts and continue to be under-represented in institutions 
of higher education. And this list of the ills suffered by the Hawaiian 
People is merely illustrative, not exhaustive.
    In the last years of this century, the Federal Government's policy 
of neglect began to change. It is now the position of the Federal 
Executive Branch that a heightened trust and political relationship has 
existed between the United States and the Hawaiian People since at 
least 1898. With this change, it is our hope that meaningful and 
constructive actions are possible to reverse the legacy of past neglect 
and to begin the process of reconciliation Congress contemplated in the 
1993 Apology Resolution. It is against this backdrop that we approach 
federal legislation seeking to better the conditions of the Hawaiian 
People.
    Today, I will highlight our concerns with respect to proposed 
legislation in three different but related areas: housing, health and 
education. In the area of housing, the Native American Housing 
Assistance and Self-Determination Amendments of 1999, S. 225, seeks to 
extend federal low-income housing assistance to native Hawaiians. In 
the areas of health and education, federal legislation focusing on the 
needs of the Hawaiian People already exist: the Native Hawaiian Health 
Care Improvement Act and the Native Hawaiian Education Act.
                              housing bill
    The Senate is currently considering the Native Hawaiian Housing 
Assistance and Self-Determination Amendments of 1999, S. 225. That bill 
seeks to extend federal low-income housing assistance to native 
Hawaiians living on land controlled by the State's Department of 
Hawaiian Homelands (DHHL). OHA has proffered amendments to S. 225 to 
clarify the historical basis for United State's special trust 
obligation to the Hawaiian people, to broaden the beneficiary class to 
include all Hawaiians in need regardless of blood quantum, to expand 
the eligible housing area to include all Hawaiian trust lands, and to 
allow OHA to participate equally with the DHHL in addressing the 
housing needs of the Hawaiian People.
    We have been advised that recent Senate committee action has taken 
steps to expand the bill's findings and to broaden the definition of 
the beneficiary class. These are steps in the right direction, but 
after a century of neglect, strides, not steps, are required.
    Broadening the beneficiary class to include all Hawaiians has no 
real impact if, as is the case with respect to DHHL-controlled lands, 
the eligible housing area is restricted to only a portion of that 
class. Many Hawaiians living in poverty and substandard housing are 
ineligible for DHHL housing. And many who are eligible do not want 
their housing options restricted to DHHL-controlled lands. The housing 
needs of non-DHHL Hawaiian communities such as Maunalaha, Milolii, 
Kahana Valley and Kikala-Keokea (Kalapana relocatees) are just as 
compelling as those communities located on DHHL-controlled land. 
Moreover, expanding the eligible housing area to include all Hawaiian 
trust lands is consistent with the trust obligations owed to all 
Hawaiians now acknowledged by the United States. Finally, continuing 
the OHA/DHHL housing partnership will permit the development of 
coordinated housing plans serving all Hawaiians in need and not just 
those eligible for DHHL leases.
    OHA has a long-standing commitment and demonstrated track record of 
financing housing for its beneficiaries on DHHL-controlled lands. For 
example, we have provided $30 million in loans to DHHL beneficiaries 
and made available more than $4 million for the proposed Waimanalo 
kupana housing project. We are currently contemplating the allocation 
of additional millions to support other critical Hawaiian housing 
needs. Clearly, OHA has been and will continue to be prepared to put 
its money where the need is. We simply ask that the Federal Government 
do no less.
    I have appended to my testimony today communications received by 
OHA from members of non-DHHL Hawaiian communities seeking our help in 
broadening S. 225. I will also provide to the Committee our detailed 
amendments to this important housing bill under separate cover. I urge 
each member of this Committee to listen to the voices of all the 
Hawaiian People, as has OHA, and support efforts to broaden S. 225.
                              health bill
    The Native Hawaiian Health Care Improvement Act has been the law 
for approximately ten years. It is now time for reauthorization of that 
legislative program. We have been working with representatives of the 
Hawaiian health care community, including representatives of the 
Queen's Hospital and E ola Mau, to develop joint amendments. Those 
efforts have identified numerous issues involving scope of services, 
allocation of responsibilities for implementation and coordination of 
services, and the proper role of OHA and Papa Ola Lokahi for developing 
health policies and programs affecting the Hawaiian people.
    It is the position of the Office of Hawaiian Affairs that any re-
authorization of the Native Hawaiian Health Care Improvement Act must 
reflect the current legal, community and political landscape in order 
to better address the dire health statistics of our Hawaiian People. 
Among the new realities is the United States' explicit acknowledgment 
of its trust and political obligations to Hawaiians. Furthermore, the 
health care delivery system contemplated under the Act must begin to 
focus on the primary and acute care health needs of the Hawaiian 
community.
    It is our understanding that a series of community meetings on the 
proposed health bill are scheduled to take place throughout the State 
in the month of September. We plan to have representatives at each of 
these meetings and to refine our views based on the community concerns 
raised at those meetings. We ask that the record of this hearing be 
held open for at least 30 days following the completion of those 
meetings to permit the filing of written final comments to aid the 
Subcommittee in its deliberations.
                             education bill
    As in the case of health, federal legislation focusing on the 
special educational needs of the Hawaiian community currently exists in 
the form of the Native Hawaiian Education Act, 20 U.S.C. 7901 et seq. 
This legislation is also subject to reauthorization and we have been 
working closely with representatives of Hawaiian educational programs 
to develop joint amendments. That work has identified four areas that 
must be addressed in any reauthorization of the Native Hawaiian 
Education Act.
    First, the Native Hawaiian Education Act should be amended to 
require an Early Childhood Education Council to specifically focus on 
the special needs of this group. Second, early childhood education 
demonstration projects are necessary because it is time to translate 
the studies into meaningful educational programs. Third, we also 
believe that any reauthorization must include programs for youths at 
risk. Fourth, the Educational Council authorized under the Act to 
develop educational policy and coordinate the delivery of educational 
services must broadly represent the interests of the entire Hawaiian 
community. Because of the obvious conflict problems in awarding 
educational assistance funds, it cannot, as some have suggested, be 
limited to past and present grant recipients. Rather, grant recipients 
should comprise a separate advisory body to the decision-making 
Council. In this same vein, any reauthorization must recognize the 
mission of OHA mandated under State law. For example, some on the 
present Council have suggested that an organization sometimes referred 
to as PREL assume the fiscal oversight responsibility now performed by 
OHA. However, representatives of the U.S. Department of Education have 
voiced some preliminary concerns with respect to this proposal.
    Final joint amendments for reauthorization of the Native Hawaiian 
Education Act are now in their final stage. Once completed, we will 
forward to the Subcommittee for inclusion in the record our detailed 
comments on jointly proposed language.
    I thank you for the opportunity to testify on these important bills 
and look forward to answering any questions you might have on these 
bills or any other matter addressing the education, health or housing 
needs of our Hawaiian community.

    Senator Inouye. Before proceeding with questioning may I 
call upon my distinguished colleague, Senator Akaka. Do you 
have an opening statement you'd like to make?

              opening statement of senator daniel k. akaka

    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
thank you for holding this hearing and also welcome the 
Appropriations subcommittee staff to Hawaii. And also to 
welcome all of the witnesses and to hear the testimony.
    Mr. Chairman, this is an important, important time for 
Native Hawaiians. On June 7, 1999 President Clinton issued 
Executive Order 13125 to improve the quality of life of Asian 
Americans and Pacific Islanders through increased participation 
in Federal programs where they may be underserved.
    This includes the areas of health, human services, 
education, housing, labor, transportation and economic and 
community development.
    The executive order defines the term Pacific Islander to 
include the aboriginal, indigenous native peoples of Hawaii. I 
welcome this initiative by President Clinton as it acknowledges 
the United States' special responsibility for the welfare of 
Native Hawaiians.
    For far too long congressional initiatives lead by the 
senior Senator and the Hawaiian<plus-minus> delegation have 
represented the main efforts on behalf of the Federal 
Government to improve the quality of life for Native Hawaiians. 
Initiatives like this offer us new opportunities and resources 
to help the people of Hawaii.
    Mr. Chairman, I'm also looking forward to the 
implementation of a reconciliation process between Native 
Hawaiians and the Federal Government. Reconciliation efforts 
between the United States and Native Hawaiians were called for 
in Public Law 103-150 the Apology Resolution.
    Just last month the Department of Interior designated an 
official to work on implementing a reconciliation process. The 
Department of Justice has also designated an official to assist 
with the implementation of Pubic Law 103-150. Although the 
process is still in its infancy it is another step towards 
improving the future of Native Hawaiians.
    As such, I look forward to this hearing and to hear the 
witnesses discuss the reauthorization of Native Hawaiian 
Education Act, the Native Hawaiian Health Act, and in addition, 
Native Hawaiian employment and training programs.
    I am confident that this information will be of great 
interest and will benefit all of us. Mahalo nui, Mr. Chairman.
    Senator Inouye. I thank you very much, Senator Akaka.
    May I now call upon Representative Mink.

             opening statement of representative patsy mink

    Mrs. Mink. Thank you very much, Senator Inouye. I apologize 
for coming in late and missing your opening statement, but I 
thank you for this opportunity to be present here today.
    These are Senate hearings. So I feel highly privileged to 
sit in and to participate and to offer a few questions along 
the way.
    These hearings are very, very important. They will be 
recorded. They will constitute a major compendium of current 
thoughts and considerations that the Congress must take.
    Too often the efforts of the Federal Government are 
neglected in the discussions of State-related issues in State 
forums.
    So the Senator's initiative in convening this session gives 
us this marvelous opportunity to focus strictly upon the 
Federal attention that these matters have had in the past and 
must take in the future.
    So I look forward to all witnesses that have been called to 
testify today. And I'm sure that the Congress, my body 
included, will learn a great deal. Thank you very much, 
Senator.
    Senator Inouye. Thank you very much, Representative Mink. 
I'd like to advise the first panel that the committee will be 
submitting questions of a technical nature because of 
statistical information.
    However, I have just a few questions I'd like to ask. Dr. 
LeMahieu, the Heluhelu program, this is a new initiative, isn't 
it? Have you had enough experience to give us some reading on 
it?
    Dr. LeMahieu. No. As a matter of fact in preparing my 
statements, one of the things that I tried to push my staff was 
to provide any evaluation and statistical data that might speak 
to that. And, unfortunately, given its newness and the time 
that we've had to look at it it just doesn't exist yet.
    Senator Inouye. If I may ask, Dr. Anderson. About 20 years 
ago after meeting with teachers and the organization of 
teachers I was told that large numbers of Native Hawaiian 
children were either inattentive in classes or not 
participating in school activities.
    I called upon the infant Alu Like organization, at that 
time, to conduct a study. And the study showed that an 
extremely high percentage of young children in Nanakuli, for 
example, had otitis. And in some cases they were totally deaf.
    But the educational system had no way of determining the 
degree of deafness. As a result they weren't listening to 
anything and they were sitting in the back.
    Do you have any information on the statistics of otitis at 
this time?
    Dr. Anderson. What was that you said? [Laughter.]
    No, I apologize I don't. We have some representatives from 
the Department, though, in the audience here. Maybe I could ask 
anyone who does know anything about that. Not seeing anyone.
    Senator Inouye. Well, we will be submitting that question 
to you.
    Dr. Anderson. I will be happy to get back to you any 
statistics we have on that. I did have a chance to go to a 
training program in Harvard just 2 weeks ago with my fellow 
health directors.
    This problem of hearing in the schools is apparently a 
national program unrecognized. But now proposals being made 
across the country to screen children over the country to see 
if they are, in fact, deprived of any hearing that might affect 
their education.
    I think that might be something we would want to look into 
here. But I do have the statistics for you. I will try to get 
you some.
    Senator Inouye. Ms. Akiba, at the present time the national 
unemployment rate is 4.3 percent. What is the unemployment rate 
in the State of Hawaii?
    Ms. Akiba. Last month's total was about 6.2 percent 
statewide but there are pockets, of course, on the other 
islands, particularly in areas of Moloka'i, the Big Island and 
Kaua'i that are much higher. But the statewide average was 6.2 
percent.
    Senator Inouye. Do you have this statistic broken down in 
ethnic groups? If so, what is the Native Hawaiian unemployment?
    Ms. Akiba. I think if we were to look through our, actually 
combining our sources of data through some of our welfare-to-
work databases we would find the unemployment rate is much 
higher among Native Hawaiians as well as other Pacific 
Islanders who are currently either unemployed or underemployed 
at a statistically significant rate in comparison to other 
groups in Hawaii.
    Senator Inouye. Would you be able to provide us with those 
numbers?
    Ms. Akiba. Yes, I think we would be able to provide you 
with the specific numbers.
    [The information follows:]

                       Letter From Lorraine Akiba

                                   State of Hawaii,
              Department of Labor and Industrial Relations,
                                 Honolulu, Hawaii, August 24, 1999.
The Honorable Arlen Specter,
Chairperson, Senate Appropriations Committee, Subcommittee on Labor, 
        Health, Education and Human Services, Dirksen Senate Office 
        Building, Washington, DC.
    Dear Senator Specter: I am responding to questions raised at a 
Senate Appropriations Committee hearing held in Hawaii on August 16, 
1999, which was presided by Senator Daniel K. Inouye.
    In answer to Senator Inouye's question regarding the employment 
statistics for people of Hawaiian ancestry, I am enclosing a copy of 
our most recent Labor Force Information for the period ending June, 
1999. The information includes employment data about various ethnic 
groups residing in Hawaii, including Hawaiians.
    With respect to Representative Mink's question about the selection 
process for Hawaii's Job Corp program, according to information 
received form USDOL regional staff, the selection is determined through 
a Request for Proposal (RFP) process. Hawaii's present Job Corp 
contract was awarded in February of 1997 and runs through February, 
2002.
    We appreciate the opportunity to present information about federal 
programs which are very important to the Department of Labor and 
Industrial Relations and the State of Hawaii. If I can be of any 
further assistance, please call me at (808) 586-8844.
            Very truly yours,
                                         Lorraine H. Akiba,
                                                          Director.
[GRAPHIC] [TIFF OMITTED] T07AU16S.000

[GRAPHIC] [TIFF OMITTED] T07AU16S.001

[GRAPHIC] [TIFF OMITTED] T07AU16S.002

[GRAPHIC] [TIFF OMITTED] T07AU16S.003

[GRAPHIC] [TIFF OMITTED] T07AU16S.004

                     unemployed welfare recipients
Contact: Edward Nishimura, Hawaii State Department of Human Services 
        (DHS), Research Office.
Date: August 16, 1999
Comments:
    There is no unemployment rate of welfare recipients.
    Based on income data, an assumption can be made as to those 
recipients who are unemployed. Data is not readily available by 
ethnicity and areas. A memorandum must be initiated by our Department's 
Director to the DHS' Director requesting such data. (Process may take 
two weeks before we can meet with DHS research staff to discuss 
request).
    DHS is not able to determine if welfare unemployed are in the labor 
force and are available for work. DHS determination of unemployed 
differs from the Bureau of Labor Statistics definition of the 
unemployed.

    Senator Inouye. Ms. Akana, do you have the document you can 
share with us on your statement that 65 percent of the children 
born today to Native Hawaiian parents are at risk?
    Ms. Akiba. Yes, Senator. Not with my testimony but I will 
be more than happy to have it to you this afternoon. It was 
information that is gathered to put together my speech.
    [The information follows:]

                        Letter From Rowena Akana

                                  State of Hawai'i,
                                Office of Hawaiian Affairs,
                                Honolulu, Hawai'i, August 16, 1999.
Bettilou Taylor,
Clerk, Subcommittee on Labor, Health and Human Services, Education, and 
        Related Agencies, Committee on Appropriations, C/O Office of 
        Senator Inouye, Prince Kuhio Federal Building, Room 7-212, 300 
        Ala Moana Boulevard, Honolulu, Hawaii.
    Dear Ms. Taylor: In my testimony before the Subcommittee Hearing 
held August 16, 1999 in Honolulu, Hawaii, I included the following: 
``Based on statistics reported by the State's Healthy Start Program, of 
every 100 Hawaiian children born today, 65 begin life `at risk' ''. 
Following my testimony, Senator Inouye asked that I provide to the 
Subcommittee the underlying documentation for that statement.
    In reviewing the statement in question, it appears that the 
emphasis was changed in the editorial process. Based on the supporting 
documentation, the statement was to read: ``Based on statistics 
reported by the State's Healthy Start Program, of every 100 children 
identified as `at risk', 65 are Native Hawaiian.''
    The source of this statement, as corrected, is data reported by the 
Hawaii Department of Health as reported in the Native Hawaiian Data 
Book (1998), p. 296. A copy of that page and other relevant pages from 
the Data Book are attached.
    While the implication of my original statement (that 65 percent of 
all Hawaiian children are born ``at risk'') is incorrect, the ratio of 
Hawaiian children identified as ``at risk'' relative to other children 
is equally shocking. As documented in the attachments, the rate of ``at 
risk'' identification for Hawaiian children is 6.5 times higher than 
children of Filipino ancestry, almost 16 times higher than children of 
Caucasian ancestry, 54 times higher than children of Japanese ancestry 
and 325 times higher than children of Chinese ancestry. This dramatic 
over-representation of Hawaiian children among the ranks of ``at risk'' 
infants cries out for attention at all levels of government.
    In sum, I apologize for the error of emphasis in my August 16 
testimony. However, I believe that the information provided above 
points in the same direction I urged in my original testimony--the 
health needs of our Hawaiian community, with particular reference to 
our Hawaiian children, demand the immediate and meaningful attention of 
the Federal Government. The Office of Hawaiian Affairs stands ready to 
work with the Congress and the Federal Executive Branch to address the 
needs of the Hawaiian community.
    For your convenience, I have enclosed a corrected copy of my 
testimony and electronic copies in both Word 97 and WordPerfect 8.0. 
Should you require any additional information or documentation, please 
contact Mr. Kina Akana, my Chief-of-Staff, at (808) 594-0202.
            Sincerely,
                                              Rowena Akana,
                                          Chair, Board of Trustees.
                        Child Abuse and Neglect

 TABLE 5.14.--NEWBORNS AND THEIR FAMILIES SERVED BY THE HEALTHY START PROGRAM, DOH, FISCAL YEAR 1992-93TO FISCAL
                                                  YEAR 1996-97
----------------------------------------------------------------------------------------------------------------
                                                                               Fiscal year--
                         Families                         ------------------------------------------------------
                                                            1992-93    1993-94    1994-95    1995-96    1996-97
----------------------------------------------------------------------------------------------------------------
Screened.................................................      7,732      9,655      9,082      9,090      9,220
Screened Positive........................................      3,847      4,994      4,847      5,044      5,370
Assessed.................................................      3,170      3,800      3,816      3,764      4,094
Estimated High Risk \1\..................................      2,360      3,002      3,045      2,777      2,101
Documented High Risk.....................................      1,945      2,284      2,397      2,072      2,874
Accepted Services........................................        881      1,011      1,165        762      1,217
----------------------------------------------------------------------------------------------------------------
\1\ Estimated High Risk (Screened Positive/Assessed) <greek-e> Documented High Risk. This includes a projection
  of High Risk Children among missed Assessment attempts as well as Documented High Risk Children.

Source: Hawai'i State, Department of Health, Healthy Start Program. Special Tabulation.
Approximately half of all births throughout the state receive hospital based screening for factors associated
  with family dysfunction. Of the 9,220 families screened during fiscal year 1996-97, 4,094 families (44.4
  percent) were found to have risk factors that could lead to child abuse or neglect. These families were
  interviewed using a Family Stress Checklist to determine if the family is at risk for child abuse and neglect.
  A total of 2,101 families (22.8 percent) were assessed to be at risk and were offered home intervention
  services. Of this number, 1,217 families were admitted to a program for intervention services.


TABLE 5.15.--GEOGRAPHIC DISTRIBUTION OF FAMILIES IDENTIFIED AT ESTIMATED HIGH RISK BY THE HEALTHY START PROGRAM,
                                 DOH, FISCAL YEAR 1993-93 TO FISCAL YEAR 1996-97
                                                  [In percent]
----------------------------------------------------------------------------------------------------------------
                                                                        Percent Estimated High Risk
                                                          ------------------------------------------------------
                   Island/Program Site                                         Fiscal year--
                                                          ------------------------------------------------------
                                                            1992-93    1993-94    1994-95    1995-96    1996-97
----------------------------------------------------------------------------------------------------------------
O'ahu:
    Central O'ahu CFS....................................       20.1       22.9       24.8       27.0       28.4
    Diamond Head HFSC....................................       26.8       30.1       29.3       28.3       26.3
    'Ewa HFSC............................................       27.4       25.5       29.3       28.8       25.1
    Kalihi Palama........................................       42.9       43.1       47.7       40.2       42.1
    North Shore C.C......................................  .........  .........       30.0       37.1       97.7
    Wai'anae CFS.........................................       47.0       53.6       57.3       52.8       27.6
    Windward PACT........................................       27.6       29.8       36.4       33.3       51.4
    Ko'olauloa...........................................  .........  .........  .........  .........       32.9
Hawai'i:
    Hilo FSS.............................................       44.2       36.2       37.3       36.5       32.5
    Puna FSS.............................................       55.5       46.2       47.6       35.5       40.7
    West Hawai'i FSS.....................................       27.1       28.1       31.0       20.5       35.9
Kauai'i: Kaua'i CFS......................................       34.6       32.6       27.9       20.4       22.9
Lana'i: Lana'i...........................................  .........  .........       38.1       38.1       17.0
Maui: Maui FSS...........................................       19.4       23.4       25.7       24.6       23.8
Moloka'i: Moloka'i FSS...................................    ( \1\ )    ( \1\ )    ( \1\ )    ( \1\ )       73.0
Statewide................................................       30.5       31.1       33.5       30.5  .........
----------------------------------------------------------------------------------------------------------------
\1\ Pending.

Source: Hawai'i State, Department of Health, Healthy Start Program. Special Tabulation.
The percentage of high risk families out of the total screened population was highest in the North Shore area of
  O'ahu.


               TABLE 5.16.--SERVICES AVAILABLE TO FAMILIES IDENTIFIED AT HIGH RISK BY THE HEALTHY START PROGRAM, DOH, FISCAL YEAR 1996-97
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                      At Admission         Direct Service        Refer Affected         Unduplicated
                                                                 ------------------------------------------------------------------   Families Affected
                             Service                                                                                               ---------------------
                                                                               Percent               Percent               Percent               Percent
--------------------------------------------------------------------------------------------------------------------------------------------------------
Dental..........................................................        203       14.8         34        2.5        116        8.5        279       20.4
Child Care......................................................         95        6.9         41        3.0        172       12.6        247       18.0
Respite Care....................................................        145       10.6        131        9.6        146       10.7        272       19.9
Financial.......................................................        941       68.7         56        4.1        332       24.3      1,047       76.5
Emp/Adult School................................................        128        9.4         46        3.4        175       12.8        273       19.9
Housing.........................................................        278       20.3         69        5.0        146       10.7        388       28.0
Nutrition.......................................................        902       65.9         87        6.4        420       30.7      1,067       77.9
Mental Health/Family Counsel....................................         82        6.0         21        1.5        104        7.6        164       12.0
Support Group...................................................        166       12.1        330       24.1        346       25.3        503       36.7
PHN.............................................................        234       17.1         36        2.6        170       12.4        346       25.3
Substance Abuse Treatment.......................................         56        4.1          8         .6         38        2.8         84        6.1
Women's Shelter.................................................         33        2.4         14        1.0         44        3.2         69        5.0
Legal...........................................................         68        5.0         15        1.1        110        8.0        152       11.1
Material Assistance.............................................        294       21.5        609       44.5        658       48.1        817       59.7
Family Planning.................................................        511       37.3        846       61.8        682       49.8      1,177       86.0
--------------------------------------------------------------------------------------------------------------------------------------------------------
Families active between 7/1/96 and 6/30/97 = 2,350; and served 12 or more months before 6/30/97 = 1,369.

Source: Hawai'i State, Department of Health, Healthy Start Program. Special Tabulation.
The Healthy Start Program assists parents to enhance child development and parent-child interaction and promotes positive parenting through home
  intervention services. The Healthy Start Program helps them to use community resources. The largest referrals were made for financial services to the
  Medicaid Program or the State Health Insurance Program (SHIP), other referrals directed parents to health care services, respite care services, Women,
  Infant and Children (WIC) and Expanded Food and Nutrition Education Program (EFNEP) nutrition services.


  TABLE 5.17.--PERCENT DISTRIBUTION OF NEW BIRTHS IDENTIFIED AND ACCEPTED SERVICES FROM HEALTHY START PROGRAMS:
                                               FISCAL YEAR 1996-97
----------------------------------------------------------------------------------------------------------------
                                                                   Island                         Statewide
                  Child's Race                  ----------------------------------------------------------------
                                                  O'ahu   Maui   Hawai'i  Kana'i  Moloka'i               Percent
----------------------------------------------------------------------------------------------------------------
Black..........................................      13       4        4       1  ........         22        1.8
Caucasian......................................       8      19       18       4        1          50        4.1
Chinese........................................       1  ......  .......       1  ........          2         .2
Filipino.......................................      44      29       28      17        4         122       10.0
Hawaiian.......................................     386     124      233      41        7         791       65.0
Japanese.......................................       3       6        2       4  ........         15        1.2
Korean.........................................       1  ......  .......  ......  ........          1         .1
Mexican........................................  ......       5        2  ......  ........          7         .6
Portuguese.....................................  ......       2  .......       2  ........          4         .3
Puerto/Hispanic................................       7       6        2       2        1          18        1.5
Samoan.........................................      42       2        3  ......  ........         47        3.9
Other Asian....................................       8  ......  .......  ......  ........          8         .7
Other Pacific Isle.............................      22       7        9       1  ........         39        3.2
Native American................................  ......       2        3       2  ........          7         .6
Other Mixed....................................      66       2        9  ......        5          82        6.7
Vietnamese.....................................  ......       1  .......  ......  ........          1         .1
Unknown........................................       1  ......  .......  ......  ........          1         .1
                                                ----------------------------------------------------------------
      Total....................................     602     209      313      75       18       1,217    .......
----------------------------------------------------------------------------------------------------------------
Source: Hawai'i State. Department of Health. Healthy Start Program. Special Tabulation.
Early identification of families at risk is key to the Healthy Start Program. Eligible births throughout the
  state receive hospital-based screening for factors associated with family dysfunction. Over 65 percent of
  referrals to Healthy Start in fiscal year 1996-97 were Native Hawaiian newborns. In every region of Hawai'i,
  many Native Hawaiian newborns begin life in a potentially hazardous predicament, far higher than any other
  racial group. Fortunately, measures are being taken to identify high risk situations and offer support
  services.


    Senator Inouye. Dr. Anderson, does that jive with your 
numbers? That 65 percent of Native Hawaiian children are born 
at risk?
    Dr. Anderson. Let me ask, Claire, do you have any 
information that might be helpful in confirming that? Certainly 
that's not out of line when you look at the numbers that we see 
in high risk categories later on in life. But we will get the 
numbers to you.
    Senator Inouye. Obviously I have many, many other questions 
I'd like to ask but because of the time factor may I now call 
upon Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. But 
because of the time factor I'll follow your questions. I just 
want to ask Ms. Akiba, the information you will be providing 
the committee would include a breakdown of Native Hawaiians 
unemployed on each island?
    Ms. Akiba. We'll try to provide that to you per island. I'm 
not sure if we will be able to provide it per island but we 
will at least have Native Hawaiian data for the State.
    Senator Akaka. Thank you.
    Senator Inouye. Representative Mink.
    Mrs. Mink. Thank you very much. Of course lots of 
questions. But one specific challenge that Ms. Akiba made to us 
in the Congress had to do with the Job Corps. And I wonder if 
you could elaborate on that specifically what the difficulties 
are in the transfer over to the State and if the State is 
willing to run the Job Corps?
    Ms. Akiba. I think at this point the procedure is basically 
one like a request for proposal, like an RFP process. Then an 
appropriate applicant for the RFP award would apply.
    I think in the past there's been a problem in terms of 
capacity here for the State alone to run it. I don't know if 
there might be other appropriate private sector organizations, 
community-based organizations or other entities locally that 
have the same capabilities as the Utah-based organization which 
currently runs Hawaii Job Corps as well as other Job Corps 
across the country.
    I'm posing the question to the delegation to perhaps re-
look at this and maybe provide an opportunity for Hawaii's 
community-based organizations and others who might be in a 
position now to be able to take on the program and provide 
quality services, and continue the quality direction of the Job 
Corps but also with a local emphasis.
    Mrs. Mink. What is the Federal impediment right now that 
prevents the State from taking it over?
    Ms. Akiba. I'm not sure if it's totally funding. As I 
understand it it was funding limitations and just the economies 
of scale in the past. I think, perhaps, if the RFP process were 
to encourage more local people or local organizations to apply 
for the opportunity to be looked at as a potential organization 
that could manage the job, and run the Job Corps programs.
    Mrs. Mink. Could you supply the specifics as to what 
changes are in order to make it possible for the State to run 
the program? I would certainly want to support that. Thank you.
    Ms. Akiba. I will.
    Senator Inouye. Thank you very much. Before calling upon 
the next panel, I just want to advise those who may be 
interested that in 1959 when the Omnibus Statehood Act was 
passed and became law of the land, the Federal Government 
transferred title and administrative responsibilities of the 
homestead lands to the State of Hawaii.
    However, in doing so it required that the State submit to 
the Federal Government all changes to that law, the Kuhio Law.
    That has been the precedent and the custom where the State 
legislature would pass legislation and forward it to the 
Congress. The Congress in turn would either approve or 
disapprove.
    Accordingly, if the State of Hawaii is desirous of changing 
the blood quantum requirements set forth in the Kuhio Law, I 
would suggest that you call upon your State legislature, after 
adequate debate, decide upon what quantum you wish and forward 
that to the Congress of the United States.
    I think it would be wholly inappropriate for the Congress 
to initiate this change. It is a change that should be 
initiated in the State of Hawaii.
    With that I'd like to thank the first panel and we will be 
submitting questions as I noted. Thank you.
    Panel No. 2 consists of the following: The chairman of the 
board of directors of Papa Ola Lokahi, Mr. Myron Thompson; and 
Mr. Herb Campos and Ms. JoAnn Tsark of Papa Ola Lokahi; Dr. 
Naleen Andrade, department of psychiatry, John A. Burns School 
of Medicine, Dr. Chiyome Fukino, of E Ola Mau; Ms. Elizabeth 
Giesting, executive director of the Hawaii State Primary Care 
Association.
STATEMENT OF MYRON THOMPSON, CHAIRMAN, BOARD OF 
            DIRECTORS, PAPA OLA LOKAHI
    Senator Inouye. Now if I may proceed. May I call upon Mr. 
Myron Thompson, chairman of the board of Papa Ola Lokahi.
    Mr. Thompson. Aloha, Senator Inouye, Senator Akaka, 
Congresswoman Mink, your very capable staff from your 
respective offices as well as the different departments of the 
United States.
    I am Myron, ``Pinky'' Thompson. I'm actively involved with 
some of the governing boards of the Native Hawaiian 
organizations who will be presenting their testimonies to you 
today.
    They will be describing the impact that federally funded 
Native Hawaiian programs have had on the indigenous people of 
Hawaii.
    In brief, our history depicts how the Native Hawaiians went 
from being a self-sustaining society of over 800,000 people who 
are healthy safe and productive to 90,000 individuals who lost 
their form of government, land, culture, language, health and 
overall sense of self worth in a matter of just over 200 years.
    The U.S. Government understands the demise of the Native 
Hawaiian people in their own homeland and recognizes Native 
Hawaiians as having a trust relationship with the U.S. 
Government similar to that of other Native American people by 
the passage of 166 laws.
    Through various Native Hawaiian programs funded by the 
Federal Government many Native Hawaiians have changed their 
lives for the better.
    Public school kindergarten entrance scores for children who 
participated in our family-based educational center programs 
increased from the 11 percentile to the 30 percentile. Non-
Hawaiian children tested out at the 18 percentile.
    Higher education enrollment of Native Hawaiian students at 
the University of Hawaii system grew over 50 percent over the 
past decade, now making up 13.6 percent of the student body, an 
all-time high.
    Native Hawaiian job placement rate in 1998 was 73 percent 
compared to the U.S. Department of Labor's recommended 
performance standard of 52 percent.
    Native Hawaiian's substance abuse prevention projects 
working with offenders and ex-offenders resulted in a 
recidivism rate of 5 percent compared to the State's 60 percent 
for the same target group.
    Ninety-two Native Hawaiians received scholarships for 
advanced health professional education. Thirty Native Hawaiian 
physicians have now been trained through the Native Hawaiian 
Health Care Improvement Act.
    Although Native Hawaiians still lead the statistics for 
social, health and education ills, today we also have more 
Native Hawaiians serving in leadership positions in government, 
education, business, military and so forth than we have ever 
had in the past. This trend has only recently started to make 
an impact.
    Much, much more is needed to break free from the 
multigenerational cycle of interpsyche depression. We are now 
at a point where we must shift from treatment to prevention. 
And it is the Federal funds for Native Hawaiian programs that 
have given us this opportunity to make that shift.
    Native Hawaiian programs that will be coming before you are 
actively pursuing their goals toward long-term productivity.
    It is our desire that in time many of the Native Hawaiian 
programs as they exist today will not be necessary tomorrow as 
Native Hawaiians improve their quality of life and are once 
again healthy, safe and productive in their own special island 
home.
    Your continued support to these Native Hawaiian programs at 
this time is needed to achieve our common vision of success.
    We have a sense that much of the success in what these 
organizations have achieved for Native Hawaiians is 
transferable and adaptable to other communities and countries.
    We seek your assistance in achieving this outcome, thus 
reaping greater and broader benefit from the financial 
investment by our Federal Government.
    Collectively we have a vision and we need your assistance 
to bring it about. Our vision is that Native Hawaiians are once 
again healthy, safe, and productive. With the continued 
investment in Native Hawaiians by the Federal Government at 
this time we will be able to be realize our vision and beliefs 
in what we are doing.
    We believe that as individuals Native Hawaiians will be 
strong in body, mind and spirit, rooted in the values of 
Hawaii, achieve harmony and spiritual connection with their 
families and communities, be effective leaders and responsible 
citizens and attain self-reliance.
    We believe Native Hawaiian families who perpetuate Hawaiian 
culture and values have strong, successful relationships, 
support their healthy development and well-being of each member 
and achieve financial and economic success.
    We believe the Native Hawaiian communities will have 
healthy environments, social harmony with cultural respect, 
dynamic leadership, civic responsibility and economic 
opportunities.

                           prepared statement

    We envision Hawaii, our special island home, guided by the 
shared values of all of its people to be healthy, safe and 
productive.
    Thank you for your continued support and for this 
opportunity to testify before you.
    Senator Inouye. I thank you, Mr. Thompson.
    [The statement follows:]
                  Prepared Statement of Myron Thompson
    Aloha Senators of the Subcommittee and the Hawaii Congressional 
Delegation.
    I am Myron ``Pinky'' Thompson, a Native Hawaiian and very proud of 
it. I am actively involved with many of the governing boards of the 
Native Hawaiian organizations that will be presenting their testimonies 
to you today. They will be describing the impact that federally funded 
Native Hawaiian programs have had on the indigenous people of Hawaii.
    To better understand why the United States government has a ``trust 
relationship'' with the Native Hawaiians similar to Native Americans, 
one must understand a little of the history. Prior to 1778, Hawaii was 
home to an estimated population of over 800,000 people in a well-
balanced social-economic system where Native Hawaiians were, for the 
most part, healthy, safe, and productive. With the ``discovery'' of the 
Hawaiian Islands by Captain James Cook in 1778, Hawaii eventually 
became a strategic location in trade shipping routes. Trading attracted 
a variety of ``outsiders'' to the islands: first for the sandalwood, 
then whaling, then missionaries, then as sugar and pineapple plantation 
owners. Over the years Native Hawaiians lost massive amounts of land to 
these ``outsiders.'' At the same time, the indigenous population 
dropped to an estimated 90,000 as their health deteriorated with the 
introduction of diseases from which the Native Hawaiians were not 
naturally immune such as small pox, cholera, measles, etc. During this 
time of growth, the United States entered into a number of treaties and 
conventions with the Hawaiian monarchy recognizing that the Hawaiian 
Kingdom was indeed a sovereign entity.
    In January 1893, a committee of planters and businessmen from the 
United States, with the active help of the United States Minister in 
Honolulu and the United States Navy, imprisoned the reigning monarch 
and overthrew the Kingdom of Hawaii. In 1898, Congress annexed Hawaii 
to the United States without the two-thirds Senate vote required for 
annexation by treaty. With the annexation, 1.8 million acres of land 
was taken by the government and later transferred to the new 
territorial government of Hawaii. Since then, 166 bills regarding 
Native Hawaiians became law. In a 1993 Joint Resolution, Congress 
acknowledged that the 1893 overthrow of the Kingdom of Hawaii was 
``illegal.''
    Our history depicts how the Native Hawaiians went from being a 
self-sustaining society who were healthy, safe, and productive, to a 
people who lost much of their form of governance, land, culture, 
language, health, and heritage in a matter of just over 200 years. The 
United States government understands the demise of the Native Hawaiian 
people in their own home land and now recognizes Native Hawaiians as 
having a ``trust relationship'' with the United States government 
similar to that of other Native American people.
    Through various Native Hawaiian programs funded by the federal 
government, many Native Hawaiians have changed their lives for the 
better:
  --School readiness for Native Hawaiian preschoolers improved. Raised 
        average Kindergarten vocabulary scores for Family Based 
        Education Center participants to 30th percentile compared to 
        18th percentile for all State Department of Education schools 
        and 11th percentile for all Hawaiian students. (Source: 
        Kamehameha Schools report, 1995)
  --Higher education enrollment rate of Native Hawaiian students at the 
        University of Hawaii system grew over 50 percent over the past 
        decade, now making up 13.6 percent of the student body, an all-
        time high. (Source: University of Hawaii, Institutional 
        Research Office, 1997 enrollment)
  --Native Hawaiian job placement rate in 1998 was 73 percent compared 
        to the U.S. Department of Labor's recommended performance 
        standard of 52 percent. (Source: ALU LIKE, Inc. Employment and 
        Training report, August 1999)
  --Native Hawaiian Substance Abuse Prevention Project working with 
        offenders/ex-offenders resulted in a recidivism rate of 5 
        percent compared to the state's 60 percent for the same target 
        group. (Source: Hawaii Paroling Authority)
  --92 Native Hawaiians received scholarships for advanced health 
        professional education. 30 Native Hawaiian physicians have now 
        been trained through the Native Hawaiian Health Care 
        Improvement Act. (Source: Papa Ola Lokahi report, 1999)
    Although Native Hawaiians still overwhelmingly lead the statistics 
for social, health, and education ills, today we also have more Native 
Hawaiians serving in leadership positions in government, education, 
business, military, etc. than we have ever had in the past. Even with 
this trend, the various Native Hawaiian programs only recently started 
to make an impact. Much, much more is needed to break free from the 
multi-generational dependency cycle. We are now at a critical junction 
to shift from treatment to prevention. Federal funds for Native 
Hawaiian programs thus far have planted the seeds and set into motion 
the forces necessary to turn the tide around. Now is not the time to 
halt or reduce funding but to increase--double, even triple--the 
investment to reap long-term and lasting outcomes. The Native Hawaiian 
programs that will be coming before you are actively pursuing their 
goals toward long-term productivity. It is our desire that in time, 
many of the Native Hawaiian programs as they exist today, will not be 
necessary tomorrow as Native Hawaiians improve their quality of life 
and are once again healthy, safe, and productive in their own special 
island home. Your continued support to these Native Hawaiian programs 
at this time is desperately needed to achieve our common vision of 
success.
    Much of the successes in what these organizations are achieving for 
the Native Hawaiians are also transferable and adaptable to other 
communities and countries; thus reaping greater and broader benefit 
from the financial investment by the federal government.
    Collectively, we have a vision and we need your assistance in 
bringing this about:
  --We envision Hawaii, our special island home, as healthy, safe, and 
        productive, and guided by the shared values of all its people.
  --We believe that as individuals, Native Hawaiians will be strong in 
        body, mind and spirit, rooted in the values of Hawaii; achieve 
        harmony and spiritual connection with their families and 
        communities; be effective leaders and responsible citizens; and 
        attain self-reliance.
  --We believe that Native Hawaiian families will perpetuate Hawaiian 
        culture and values; have strong successful relationships; 
        support the healthy development and well being of each member; 
        and achieve financial and economic success.
  --We believe the Native Hawaiian communities will have healthy 
        environments; social harmony with cultural respect; dynamic 
        leadership; civic responsibility; and economic opportunities.
    I strongly urge this subcommittee to understand our vision and help 
us get there through increased and continued funding of Native Hawaiian 
programs. Thank you for this opportunity to testify before you.
STATEMENT OF HERB CAMPOS, PAPA OLA LOKAHI
    Senator Inouye. May I now call on Mr. Herb Campos.
    Mr. Campos. Thank you, Senator. Aloha to you, Senator, and 
to the members of your subcommittee. And a very special aloha 
nui loa to the rest of the Hawaii delegation, Senator Akaka and 
Representative Mink. And especially, Senator Akaka, it's good 
to see you again after being with you in the Oval Office to see 
that historic signing. I'm sure it will do our people a lot of 
good.
    We are particularly pleased to welcome you back, Senator 
Inouye, home for his health portion of the health agenda for 
you have shared with us and participated in our Native Hawaiian 
Health, Wellness Summit Aha in 1998, and, recently, our Native 
Health Forum held in February of this year.
    My name is Herb Campos and I am an officer of the Papa Ola 
Lokahi, the board and directors, and president of the Native 
Hawaiian Health Care System for Maui, Hui No Ke Ola Pono.
    In the few minutes available I would like to share with you 
the vision of our five Native Hawaiian Health Care Systems and 
Papa Ola Lokahi.
    I will now review with you our accomplishments since the 
reauthorization of our Act in 1992, and put forth the 
challenges we see for the Native Hawaiian health in the future.
    First, you need to know that Hawaii, known as the ``health 
care state'' is for many that. But not for Hawaiians. For many 
Hawaiians it's just the opposite. Though estimates may vary, 
currently Native Hawaiians without health insurance in Hawaii 
are as high as 30,000.
    Further, the State is jeopardy of losing up to $9 million 
in Federal aid for not initiating any program to take advantage 
of CHIP, the Children's Health Program. An estimated 12,000 
Hawaiian children would be eligible for this program under 
current Federal guidelines.
    Finally, some specific chronic disease rates for Native 
Hawaiians remain highest in the nation. Native Hawaiians of 
full Hawaiian ancestry have diabetes, morbidity rate 
approaching 65 percent.
    Additionally, Native Hawaiians account for almost half of 
the State's asthma cases. In dental health, access to services, 
particularly preventive services which are non-existent for 
those without private dental service.
    Presently the State's much praised Medquest program does 
not provide dental coverage for adults. Thus, adult Native 
Hawaiians without insurance and those on the State's Medquest 
program have no dental coverage.
    These are but some of the multitude of health issues 
currently affecting Native Hawaiians in our State.
    Mr. Myron Thompson has shared with you a vision for Native 
Hawaiians and that vision is shared by all of us in the Native 
Hawaiian health arena. As these islands' first people, the 
kanaka maoli, and our islands' host culture we Native Hawaiians 
have seen extreme changes and endured many hurts and wrongful 
acts, yet we maintain our pride in who we are and a resilience 
uncommon in many native peoples.
    You see, our culture, which has evolved for over a thousand 
years with its values, provides a solid foundation for living 
on islands in a balanced, healthy manner.
    Presently, the stated congressional policy for Native 
Hawaiian health in the Native Hawaiian Health Care Improvement 
Act, and that for American Indians and Alaskan Native Health 
Care Improvement Act is similar: To raise the health status to 
the highest possible level and to provide all resources 
necessary to make this policy effective.
    Yet, there is an extreme disparity in Federal funding to 
achieve this policy among our native peoples. By the Indian 
Health Service data, the Federal expenditure on a per capita 
basis for American Indians and Alaskan Natives is about $1,200. 
For Native Hawaiians per capita is about $16.
    We hope that beginning with this year appropriation and 
into reauthorization period for the Native Hawaiian Health Care 
Improvement Act, consideration will be given to the Native 
Hawaiians achieving some degree of funding parity with American 
Indians and Alaskan Natives.
    Now, let's look into our five Native Hawaiian health care 
systems. Each system serves as entry points for many Native 
Hawaiians into the Native health care system or as a first step 
toward a personal search for better health.
    At the systems' core are culturally-competent and dedicated 
staff determined to make their respective Native Hawaiian 
communities much healthier.
    Each system has a community-based board of directors, all 
of whom are Native Hawaiian ancestry and from their respective 
system's service area.
    Together the systems since 1992 have<plus-minus> provided a 
statewide network for health service delivery, and today 
provide services to over 20,000 Native Hawaiians. These 
services include outreach and case management whereby systems 
work with patients and clients to support their compliance in 
regards to medicine, doctors' appointments and referrals to 
specialists.
    Screenings whereby systems provide and facilitate initial 
assessments for chronic diseases in cancer, diabetes, and 
cardiovascular disease.
    Whereby systems access provide assistance to clients in 
need of health services but unable to receive such services 
whether because of lack of insurance, lack of transportation or 
feeling of an alienation from health care providers.
    Lifestyle modification. Whereby the systems provide special 
programs focusing on diet and nutrition.
    Primary care. Whereby systems provide clients with such 
care either by contract or direct service as with the Kaua'i 
system with dentistry.
    Last but not least, traditional Native Hawaiian healing. 
Whereby systems refer clients to practitioners of traditional 
Native Hawaiian healing practices including lomi-lomi, la'au 
lapa'au and ho'oponopono.
    The Native Hawaiian Health Care Systems include the island 
of Kauai, Ho'ola Lahui Hawaii, which serves native populations 
of the island of Kaua'i and Ni'ihau. Its executive director is 
David Peters.
    Ke Ola Mamo which serve the native population of O'ahu, 
executive director Dexter Soares.
    No Pu'uwai which serves the Native Hawaiian population of 
the island of Moloka'i and Lana'i. The executive director, 
Billy Akutagawa.
    The island of Maui which serves the island's native 
population Hui No Ke Ola Pono, executive director Mei-Ling 
Chang.
    Last but not least, of course is Hui Malama Ola Na `Oiwi 
serving our largest island of Hawaii and its native population. 
The executive director there is Sonny Kinney.
    Together through their work along with that of the 
community health centers and other service providers, Native 
Hawaiian morbidity rates for some cancers and diabetes have 
been reduced.
    Health is now on the Native Hawaiian personal agenda. 
Preventive health practices including screenings, nutrition-
based programs and personal health care have all now gained 
considerable acceptance in our Native Hawaiian community.
    Papa Ola Lokahi, the consortium of public agencies and 
private non-profit organizations concerned with improving 
Native Hawaiian status, is like the birth mother for our Native 
Hawaiian system.
    Since its formation in 1988 Papa has moved ahead with its 
multiple mandates identified in the Native Hawaiian Health Care 
Improvement Act.
    This has included formulating the system and providing them 
with ongoing training and technical assistance, advocating for 
Native Hawaiian health issues and concerns on the local, 
national and international scenes, supporting research efforts 
focused on Native Hawaiian health concerns and issues, 
providing support to the Native Hawaiian Health Scholarship 
Program, and undertaking special demonstration projects which 
have important significance including projects in HIV/AIDS, 
traditional healing, and diabetes and cancer.
    Papa Henry Auwae will discuss some of his thoughts as it 
relates to traditional healing.
    Ms. JoAnn Tsark, research director for Papa Ola Lokahi's 
will discuss Papa's diabetes initiative in greater detail in 
her testimony.
    Attached to my testimony today is a brief summary of the 
accomplishments to date of Papa Ola Lokahi and the other 
components of the Native Hawaiian initiative including the 
Native Hawaiian Health Systems and the Native Hawaiian Health 
Scholarship Program, if you look at attachment 1.
    I also have noted in attachment the ongoing health 
disparities in the Native Hawaiian health community. The U.S. 
Surgeon's efforts to eliminate these disparities through the 
new Healthy People 2010 initiative, if you check attachment 2.
    Finally, we have attached for your review the chronology of 
Native Hawaiian Health Care Improvement Act in attachment 3.
    Our future challenge in Native Hawaiian health is clear. We 
need to find the keys to wellness for our people.
    The Native Hawaiian Health Care Improvement Act has allowed 
us to begin that process. We are well on our way. Yet the 
journey is not complete. It is our hope that with the 
reauthorization that journey can be completed.
    We are offering recommendations for some amendments to the 
existing legislation which we feel will enable us not only to 
better serve our people but, more importantly, to enable and 
empower all Native Hawaiians to take hold of the responsibility 
for their own health and wellness.
    We know our challenge as a people is much larger than 
simply addressing those Native Hawaiian issues that are health-
related.
    Education and economic stability through employment, home 
ownership, and access and utilization of our natural resources 
from the land and sea are essential parts of the Hawaiian 
wellness and pono to our people.
    Our challenge is to prepare this and future generations of 
Native Hawaiians for living in the 21st century both as a 
native people proud of our heritage, strong in our culture and 
its values, and as positive healthy citizens of the world 
contributing to our island society, making it a healthy and 
safe place in which to live.

                           prepared statement

    On the behalf of the Native Hawaiian health care systems 
and Papa Ola Lokahi, thank you for giving us the opportunity to 
appear before you this morning. Aloha to all of you.
    Senator Inouye. Thank you very much, Mr. Campos.
    [The statement follows:]
                   Prepared Statement of Herb Campos
    The Honorable Arlen Specter, Chairman: Aloha Mr. Chairman, Members 
of your Subcommittee, and Members of our Congressional Delegation: We 
are particularly pleased to welcome Senator Inouye home for this health 
portion of the agenda as he has participated with us in our islands' 
`aha and the Native Hawaiian Health and Wellness Summit in 1998, and, 
most recently, our Native Hawaiian Health Forum held in February of 
this year.
    My name is Herb Campos and I am an officer of the Papa Ola Lokahi 
board and President of the Native Hawaiian Health Care System for Maui, 
Hui No Ke Ola Pono. In the few minutes available to me I would like to 
share with you the vision of our five Native Hawaiian Health Care 
Systems and Papa Ola Lokahi, review with you our accomplishments since 
the reauthorization of our Act in 1992, and put forth the challenges we 
see for Native Hawaiian health in the future as we begin the new 
millennium.
            hawaii not the health state for native hawaiians
    First, you need to know that Hawaii is not the ``Health State'' for 
many Native Hawaiians. Though estimates vary, currently, Native 
Hawaiians without any form of health insurance are as high as 30,000 
people. Further, the State is in jeopardy of losing up to $9 million in 
federal aid for not initiating any program to take advantage of CHIP, 
the Children's Health Insurance Program. An estimated 12,000 Native 
Hawaiian children would be eligible for this program under current 
federal guidelines. Finally, some specific chronic disease rates for 
Native Hawaiians remain the highest in the nation. Native Hawaiians of 
full Hawaiian ancestry have a diabetes morbidity rate approaching 65 
percent. Additionally, Native Hawaiians account for almost half of this 
state's asthma cases. In dental health, access to services, 
particularly preventive services, are non-existent for those without 
private dental insurance. Presently, the state's much totted MEDQUEST 
program does not provide dental coverage for adults. Thus, Native 
Hawaiians without insurance and those on the state's MEDQUEST program 
have no dental coverage. These are but some of a multitude of health 
issues currently effecting Native Hawaiian health in our state.
  native hawaiians search for health funding parity with other native 
                               americans
    Mr. Myron Thompson has shared with you a vision for Native 
Hawaiians . . . that vision is shared by all of us in the Native 
Hawaiian health arena. As these islands' first people, as native 
peoples, and as the host culture, Native Hawaiians have seen extreme 
changes and endured many hurts and wrongful acts, yet retain a pride in 
who we are and a resilience uncommon in many native peoples. You see, 
our culture which has evolved for over a thousand years with its values 
provides a solid foundation for living on islands in a balanced and 
healthful manner.
    Presently, the stated Congressional policy for Native Hawaiian 
health as stated in the Native Hawaiian Health Care Improvement Act and 
that for American Indians and Alaskan Natives as stated in the American 
Indian Health Care Improvement Act is similar . . .'' to raise the 
health status . . . to the highest possible level'' and ``to provide . 
. . all resources necessary to effectuate this policy.'' Yet, there is 
an extreme disparity in federal funding to achieve this policy among 
our native peoples. By Indian Health Service data, the federal 
expenditure on a per capita basis through the American Indian Health 
Care Improvement Act is about $1,200 per capital for American Indians/
Alaskan Natives. For Native Hawaiians through the Native Hawaiian 
Health Care Improvement Act the per capita expenditure is about $16. We 
would hope that beginning with this year's appropriation and into the 
reauthorization period for the Native Hawaiian Health Care Improvement 
Act consideration will be given to Native Hawaiians achieving some 
degree of health funding parity with that for American Indians and 
Alaskan Natives.
                the native hawaiian health care systems
    Our five Native Hawaiian Health Care Systems serve as entry points 
for many Native Hawaiians into the state's health care system or as a 
first step towards a personal search for better health. At the Systems' 
core are culturally-competent and dedicated staff determined to make 
their respective Native Hawaiian communities healthier. Each System has 
a community-based board of directors, all of whom are of Native 
Hawaiian ancestry and from their respective System's service area.
    Together, the Systems since 1992 have provided a statewide network 
for health service delivery and, today, provide services to over 20,000 
Native Hawaiians annually. These services include:
  --Outreach and case management whereby Systems' staff work with 
        patients and clients to support their compliance in regards to 
        medicines, doctors' appointments, and referrals to specialists;
  --Screenings whereby Systems' staff provide and facilitate initial 
        assessments for chronic diseases in cancers, diabetes, and 
        cardiovascular disease;
  --Access whereby Systems' staff provide assistance to clients in need 
        of health services but unable to receive such services whether 
        because of lack of insurance, lack of transportation, or 
        feeling of alienation from health care providers;
  --Lifestyle modification whereby Systems' staff provide special 
        programs focusing on diet and nutrition;
  --Primary care whereby the Systems' provide clients with such care 
        either by contract or direct service as with dentistry on 
        Kaua'i; and
  --Traditional Native Hawaiian healing whereby Systems refer clients 
        to practitioners of the traditional Native Hawaiian healing 
        practices, including lomi-lomi, la'au lapa'au, and 
        ho'oponopono.
    The Native Hawaiian Health Care Systems include:
  --Ho'ola Lahui Hawaii which serves of populations of Kaua'i and 
        Ni'ihau (Executive Director David Peters);
  --Ke Ola Mamo which serves the population on O'ahu (Executive 
        Director Dexter Soares);
  --Na Pu'uwai which serves the populations of Moloka'i and Lana'i 
        (Executive Director Billy Akutagawa);
  --Hui No Ke Ola Pono which serves the population on Maui (Executive 
        Director Mei-Ling Chang); and
  --Hui Malama Ola Na `Oiwi which serves the population on Hawaii 
        (Executive Director Everett Sonny Kinney).
    Together through their work along with that of the community health 
centers and other service providers, Native Hawaiian morbidity rates 
for some cancers and diabetes have been reduced and health is now on 
the Native Hawaiian personal agenda. Preventive health practices 
including screenings, nutrition-based programs, and personal health 
care have all now gained considerable acceptance in our Native Hawaiian 
community.
                            papa ola lokahi
    Papa Ola Lokahi, the consortium of public agencies and private non 
profit organizations concerned with improving Native Hawaiian health 
status, is like the ``birth mother'' for our Systems.
    Since its formation in 1988, Papa has moved ahead with its multiple 
mandates identified in the Native Hawaiian Health Care Improvement Act. 
This has included formulating the Systems and providing them with 
ongoing training and technical assistance, advocating for Native 
Hawaiian health issues and concerns on the local, national, and 
international scenes, supporting research efforts focused on Native 
Hawaiian health concerns and issues, providing support to the Native 
Hawaiian Health Scholarship Program, and undertaking special 
demonstration projects which have important significance including 
projects in HIV/AIDS, traditional healing, and diabetes and cancer. 
Papa Henry Auwae, with whom we work closely, will discuss with you some 
of his thoughts as it relates to traditional healing. Papa Ola Lokahi's 
Research Director, Ms. JoAnn Tsark, will discuss the organization's 
diabetes initiative in greater detail in her testimony.
   reauthorization of the native hawaiian health care improvement act
    Our future challenge in Native Hawaiian health is clear. We need to 
find the keys to wellness for our people. The Native Hawaiian Health 
Care Improvement Act has allowed us to begin that process and we are 
well on our way. Yet the journey is not complete. It it our hope that 
with reauthorization, that journey can be completed. We are offering 
recommendations for some amendments to the existing legislation which 
we feel will enable us not only to better serve our clients but, more 
importantly, to enable and empower all Native Hawaiians to take hold of 
the responsibility for their own health and wellness.
                          our future challenge
    We know our challenge as a people is much larger than simply 
addressing those Native Hawaiian issues that are health-related.
    Education and economic stability through employment, home 
ownership, and access to and utilization of natural resources from the 
land and ocean are all essential parts of the ``wellness'' equation.
    Our challenge is to prepare this and future Native Hawaiian 
generations for living in the 21st century, both as a native peoples, 
proud of their heritage, strong in their culture and its values, and as 
positive participatory healthy citizens of the world contributing to 
our island society making it a healthy and safe place in which to live.
    On behalf of the Native Hawaiian Health Care Systems and Papa Ola 
Lokahi, thank you for giving us the opportunity to appear before you 
this morning. ALOHA.
STATEMENT OF JO ANN TSARK, PAPA OLA LOKAHI
    Senator Inouye. May I now call on Ms. Tsark.
    Ms. Tsark. Aloha to you, Senator Inouye, Senator Akaka and 
Representative Mink. Thank you for giving me the opportunity to 
testify today. But before I start I'd really like to 
acknowledge in your audience we have Papa Henry Auwae, one of 
our revered Hawaiian healers. I'd like to just acknowledge him, 
Papa Auwae.
    I'm here today to give you a brief overview on three of the 
research and training initiatives that Papa Ola Lokahi is 
currently involved in. They are the Diabetes Today Resource 
Center for the Pacific which is funded by the Centers for 
Disease Control and Prevention.
    The second is the Native Hawaiian Heart Health Initiative 
which is being spearheaded by Moloka'i General Hospital with 
support from both national and local resources.
    The third is the Native Hawaiian Cancer Awareness Research 
and Training Network, which is a proposal pending at the 
National Cancer Institute.
    These initiatives address the leading causes of deaths 
among Native Hawaiians in areas where previous testimony has 
certainly told you there are great disparities in health when 
compared both locally and nationally.
    The first, the Pacific Diabetes Today Training Center 
addresses diabetes mortality, which for Native Hawaiians is 
more than two times higher than the four major ethnic groups 
combined in the State. In fact it is 130 percent higher than 
the State all races rate.
    If we disaggregate the Native Hawaiian statistics we know 
that pure Hawaiians bear the biggest burden. Their rates are 
almost 600 percent higher than the State all races. For part 
Hawaiians it's 79 percent higher than the State all races.
    In 1994 diabetes was the 7th leading cause of death in the 
United States. If we examine it by ethnicity it was seven for 
Caucasian, African Americans, Chinese and Filipinos. It was six 
for Japanese. Fifth for Hawaiians. And for Native Hawaiian 
women the fourth leading cause of death.
    The Pacific Diabetes Today Resource Center is a result of a 
contract with the Centers for Disease Control that Papa Ola 
Lokahi successfully competed for. It started last October in 
1998 and will run for five years through September the year 
2003.
    The center is currently located at Papa Ola Lokahi with a 
sister office in Ponape and the Federated States of Micronesia.
    The Hawaii area office serves Hawaii, the neighbor islands 
and American Samoa. And office in Micronesia, which is a 
subcontract with Micronesian Human Development Center. And 
you'll know that center as the one that previously ran the 
medical office and training program at Ponape.
    They're serving the Republic of the Marshall Islands, the 
Commonwealth of the Northern Marianas, the Federated States of 
Micronesia, the Republic of Palau and the Territory of Guam.
    Diabetes Today is a curriculum that was developed by the 
Centers for Disease Control. They've had it for 7 years and 
operationalizing it in the continental United States. The 
opportunity that we have with our resource center is sensitize 
that curriculum for Pacific audiences and provide training in 
the community to develop diabetes prevention and control 
programs.
    It's an interactive process. And we were currently 
completing focus groups both in Micronesia and the neighbor 
islands.
    Over the course of the next 4 years we will conduct 16 
training sites and provide technical assistance to community-
based initiatives. We're working with the Diabetes Control 
Program both in Hawaii and Micronesia who are then poised to 
provide funds to support programs in the community.
    We know that diabetes contributes to heart disease which is 
the leading cause of death in the nation and particularly among 
Native Hawaiians.
    For pure Hawaiians the mortality rates for cardiovascular 
disease is 282 percent higher than non-Hawaiians in our State. 
For part-Hawaiians it's 41 percent higher.
    The second initiative, the Native Hawaiian health 
initiative, is actually one I'm very proud to talk about. It 
was initiated on the island of Moloka'i.
    As you know in 1985 the Na Pu'uwai heart study was done. It 
still remains the only heart study in cardiovascular disease 
risk factors among Native Hawaiians. That program, then, 
through the Native Hawaiian Health Care Systems utilized direct 
service delivery to provide at cardiovascular risk clinics.
    Today it's a model that Na Pu'uwai on Moloka'i is sharing 
with all the islands, to not just look at their model because 
we know it's not a one-size-fit-all, but to look at what other 
islands are doing in the area of cardiovascular disease.
    This program that Moloka'i General is doing--and I know 
there is a site visit scheduled to Moloka'i, so you'll get more 
information in depth--but it's supported by the National Heart, 
Lung, and Blood Institute, the Native Hawaiian Physicians 
Associations, which is newly formed which comprises 
approximately 63 members of the 191 Native Hawaiian physicians 
that we know of today.
    Also Na Pu'uwai, the Office of Hawaiian Affairs, Papa Ola 
Lokahi, the Queen's Health Systems, the area health education 
centers and the Hawaii Medical Services Association.
    Native Hawaiian Heart health initiative's short-term goals 
are to increase awareness on community-based interventions 
addressing heart disease and to involve Native Hawaiian 
physicians in community-based efforts.
    We know that there's a handful of Native Hawaiian doctors 
that have devoted their life to community health and Hawaiian 
health statistics. The whole issue and the purpose of the 
Ahahui O Na Kauka newly formed Native Hawaiian Physicians 
Association is to involve more Native Hawaiian doctors in 
community efforts. The Heart Health Initiative is one of the 
first that they have really gotten involved in.
    The long-term goal for the Hawaiian heart initiative is to 
develop a conceptual framework so we too can have a 
longitudinal study looking at prevention and control of heart 
disease for Native Hawaiian by Native Hawaiians.
    The last initiative is our recent submittal to National 
Cancer Institute to establish a Native Hawaiian cancer 
awareness research and training network. This application was 
built on a series of leadership initiatives that NCI launched 
in 1989.
    It currently funds one African American leadership 
initiative, two Hispanic and one Appalachian white initiative. 
The last round went out to all minorities, including Native 
American Indians, Native Hawaiians and Pacific Islanders and 
Asian Americans.
    The grant was submitted in July and we expect to hear in 
March. It's a capacity building grant. The purpose is to 
increase cancer awareness among Native Hawaiians, increase 
accrual to and retention of Native Hawaiians in cancer clinical 
trials. Like other minority groups we know they're 
underrepresented in clinical trials. So any positive results 
that come out of these are not reflective of our population of 
rural communities.
    The other is to increase the number of Native Hawaiian 
researchers. In this initiative we are partnering with 
institutions like the university at the Native Hawaiian Center 
of Excellence, the Pacific Biomedical Research Center and other 
areas that support Native Hawaiian researchers.
    It's also to increase the number of research grants 
addressing cancer in Native Hawaiians and to establish 
participatory research protocol to support rigorous research 
that respectful of cultural beliefs, practices and customs. 
It's not the first time you've heard it. Hawaiian communities 
are really tired of being guinea pigs in research. The would 
like to control and conduct research that's relevant and has 
immediate benefits to the community.

                           prepared statement

    These projects reflect the research and training priorities 
that Papa Ola Lokahi is emphasizing in the reauthorization. 
That's to provide a clearinghouse for research and training 
opportunities, to develop and maintain an infrastructure to 
support participatory research that is relevant and respectful 
of Native Hawaiian communities, and to identify and provide 
venues for the development of Native Hawaiian researchers. 
Thank you.
    Senator Inouye. Thank you, very much, Ms. Tsark.
    [The statement follows:]
                   Prepared Statement of JoAnn Tsark
    Aloha Mr. Chairman, members of your Subcommittee and members of our 
Hawaii Congressional Delegation: My name is JoAnn Tsark and I am here 
on behalf of Papa Ola Lokahi, where I serve as the Research Director.
    In addition to the testimony by Mr. Myron Thompson and Mr. Herb 
Campos, I would like to give you a brief overview of 3 research and 
training initiatives that Papa Ola Lokahi is currently involved in.
    They address leading causes of death among Native Hawaiians--areas 
where there are great disparities in health when compared to both local 
and national populations.
    The three initiatives are:
  --Pacific Diabetes Today Resource Center, funded through a contract 
        with the Centers for Disease Control and Prevention,
  --Native Hawaiian Heart Health Initiative, spearheaded by Moloka'i 
        General Hospital with support from the National Institutes of 
        Health--National Heart Lung and Blood Institute, The Queens 
        Medical Center, the Association of Native Hawaiian Physicians 
        ('Ahahui O Na Kauka), the Hawaii Medical Services Association, 
        and others; and
  --Native Hawaiian Cancer Awareness Research and Training Network, a 
        proposal recently submitted for consideration to the National 
        Cancer Institute.
    The first initiative, the Pacific Diabetes Today Resource Center 
(PDTRC) addresses the disparate rates of diabetes among our population. 
For the years 1989-1991, Native Hawaiians had the highest mortality 
rate due to diabetes mellitus (34.7/100,000) in Hawaii--130 percent 
higher than the state all races rate of 15.1/100,000. The age-adjusted 
diabetes mortality rate for Native Hawaiians is more than two times 
higher than the other four major ethnic groups combined.
    Disaggregating the Native Hawaiian population, it is clear that our 
pure Hawaiians have the largest burden with a diabetes mortality rate 
518 percent higher than the state all races. Part-Hawaiians were 79 
percent higher than the state all races (Johnson, Oyama, LeMarchand, 
1998).
    In 1994, diabetes was the 7th leading cause of death in the United 
States. When examined by race, it was 7th for Caucasians, African 
Americans, Chinese, and Filipinos; 6th for Japanese and 5th for 
Hawaiians and 4th for Native American Indians. For Hawaiian females, 
it's the 4th leading cause of death (U.S.--Diabetes Surveillance 1997).
    Last year Papa Ola Lokahi successfully competed for a $2.3 million 
contract with the Centers for Disease Control (CDC) for 5 years to 
establish and maintain the Pacific Diabetes Today Resource Center. The 
Center is currently located at Papa Ola Lokahi with an office in 
Pohnpei, the Federated States of Micronesia. The Hawaii Area Office 
serves the state of Hawaii and American Samoa. The Micronesian Area 
Office serves the Western Pacific region, including the Federates 
States of Micronesia, the Republic of the Marshall Islands, the 
Republic of Palau, the Commonwealth of the Northern Mariana Islands and 
Guam.
    ``Diabetes Today'' is a course developed by CDC on how to build 
skills to plan and implement community-based programs for persons with 
diabetes. The course trains community leaders who in turn apply these 
skills with others in the community to plan and implement programs.
    Our (Papa Ola Lokahi) charge is to adapt this curriculum for 
Pacific audiences and implement training. It is an interactive planning 
process and we are completing focus groups throughout the Western 
Pacific and neighbor islands and Oahu and will pilot test the revised 
curriculum next year. Over the course of the next 4 years we will 
conduct 16 training initiatives and provide technical assistance to 
community-based initiatives.
    We are working with the CDC Diabetes Control Program staff in 
Hawaii and Micronesia, who are poised to provide program monies for 
implementation of community-based projects.
                native hawaiian heart health initiative
    The 2nd Initiative addresses heart disease, another area of great 
disparity, where Pure Hawaiians have a mortality rate due to heart 
disease that is nearly 300 percent higher than non-Hawaiians in the 
state and Part Hawaiians a rate 41 percent higher than others in the 
State. The only study of heart disease among Native Hawaiians was 
conducted in 1985 on the Island of Moloka'i, entitled the Na Pu'uwai 
Heart Study. Moloka'i continues to provide strong leadership in 
increasing awareness of heart disease and developing solutions to 
address this burden.
    With broad based support both national and local, Dr. Emmett Aluli 
and Dr. Phillip Reyes Tom Moloka'i General Hospital on Moloka'i have 
launched the Native Hawaiian Heart Health Initiative. The program's 
short and long term goals to address heart disease in Native Hawaiians 
are:
    Short Term Goals:
  --To increase awareness of community-based interventions addressing 
        heart disease among Native Hawaiians.
  --To involve Native Hawaiian physicians in these community-based 
        efforts.
    Long Term Goal:
  --To develop a conceptual framework for a longitudinal study 
        addressing the prevention and control of heart disease for 
        Native Hawaiians by Native Hawaiians.
    This initiative is supported on the national as well as the local 
level with monetary support from:
National
  --NIH: National Heart, Lung and Blood Institute
Hawaii State
  --Moloka'i General Hospital
  --'Ahabui O Na Kauka--Native Hawaiian Physicians' Assn.
  --Na Pu'uwai Native Hawaiian Health Care System
  --Office of Hawaiian Affairs
  --Papa Ola Lokahi
  --The Queen's Health System
  --Area Health Education Centers
  --HMSA--Hawaii Medical Services Association
    This initiative is a powerful example of solutions, which are 
generated from within the community, around a common vision.
     native hawaiian cancer awareness research and training center
    The last initiative is Papa Ola Lokahi's recent grant submission to 
the NCI to establish the Native Hawaiian Cancer Awareness Research and 
Training Center. This NCI initiative builds upon their past series of 
``Leadership Initiatives on Cancer'' launched in 1989 as part of NCI's 
response to the disproportionate burden of cancer on minority and 
medically undeserved populations.
    The objectives of the Native Hawaiian Cancer Awareness Research and 
Training Center are:
    1. To increase cancer awareness among Native Hawaiians,
    2. To increase accrual to and retention of Native Hawaiians in 
clinical trials,
    3. To increase the number of Native Hawaiian researchers,
    4. To increase the number of research grants addressing cancer in 
Native Hawaiians, and
    5. To establish participatory research protocol to support 
scientifically rigorous research that is respectful of cultural beliefs 
practices and customs.
    The grant proposal was submitted to NCI in July 1999 and we 
anticipate word from NCI in March 2000.
    These initiatives reflect the following priorities, which Papa Ola 
Lokahi plans to operationalize to support research and framing:
  --Provide a clearinghouse for research and training opportunities and 
        resources,
  --Develop and maintain an infrastructure to support the participatory 
        research which is relevant and respectful of Native Hawaiian 
        communities, and
  --Identify and provide venues for the development of Native Hawaiian 
        researchers.
                               conclusion
    We recognize the disproportionate burden of diabetes and other 
chronic diseases among Native Hawaiians. We believe the solutions for 
addressing these disparities are emerging from within our own Native 
Hawaiian communities and ask for federal support--financial and 
philosophical--to enhance our work in reducing chronic diseases among 
our people.
    Thank you for this opportunity to speak before you.

    Senator Inouye. Before proceeding the Chair has been 
advised that people sitting in the back rows have difficulty 
hearing witnesses. Can you all hear us? Are we getting across 
to you? Thank you very much.
STATEMENT OF NALEEN N. ANDRADE, M.D. PROFESSOR AND 
            CHAIR, DEPARTMENT OF PSYCHIATRY, JOHN A. 
            BURNS SCHOOL OF MEDICINE
    Senator Inouye. If not, may I call on Dr. Naleen Andrade.
    Dr. Andrade. Aloha, Senator. I went to the wrong building. 
I'd like to--I've copies of my testimony but to give members of 
this distinguished panel an update on the status report of the 
Native Hawaiian Mental Health Research Development Program.
    I'd be remiss not to at this point to recognize our two 
senior Senators from Hawaii, in particular Senator Inouye for 
his work and untiring efforts over the last 8 years in enabling 
our research group to really have a voice in the National 
Institutes of Health, and to get the required funding that we 
needed in order to get this job done.
    Let me very briefly go through a history of events of this 
particular program. We were established in 1991 with our first 
grant from the National Institutes of Mental Health and we 
established a mission among the small group of Native Hawaiians 
in the Department of Psychiatry at the John A. Burns School of 
Medicine.
    Our mission was simple: To create a cadre of mental health 
researchers whose scientific investigations result in effective 
culturally-appropriate prevention, intervention and clinical 
treatment strategies which improve the mental health status of 
Native Hawaiians to the highest level possible.
    We had four overall research goals. First, to determine the 
rates of mental disorders among Native Hawaiians within the 
general population.
    The second was to establish a comprehensive database from 
which researchers can identify and study the effects of 
psychological, social and cultural factors which underpin the 
genesis and alleviation of mental illness among Native 
Hawaiians.
    The third was to determine the patterns of help-seeking 
behaviors by Native Hawaiians, to use traditional Western and 
alternative native healing practices and the effects of those 
healing practices on mental illness.
    The fourth and final goal was to establish a Native 
Hawaiian Pacific Islander Minority Mental Health Research 
Center to support a cadre of experts within the University of 
Hawaii to study the causes, prevention and treatment of mental 
illness among Native Hawaiians and Pacific Islanders.
    The significance of this particular program cannot be 
overestimated. In the 1985 E Ola Mau report, which began our 
work, emphasis and efforts, showed that Native Hawaiians had 
the worst mental health statistics by all measures of all the 
ethnic groups in the State of Hawaii.
    What we did, because at that time there was not a single 
Hawaiian researcher in the entire University of Hawaii system 
of Hawaiian ancestry doing mental health research.
    So which had to start from ground zero to begin to build 
the skills needed in order for us to have within ten years a 
cadre of Native Hawaiians with the kind of skills and knowledge 
base to not only be scholars within the University of Hawaii, 
but to competitively go up against other scholars nationally 
and to be able to publish our work and to gain peer review 
grants from the National Institutes of Health.
    In that effort, as you all know, without a cadre of Native 
Hawaiians we had to recruit a cadre of non-natives to help us 
and to give us the technical skills in order to teach us the 
quantitative analysis.
    But with that we've had some amazing results which I'd like 
to briefly go over and highlight with you.
    At the core of our Native Hawaiian Mental Health Research 
and Development Program is a huge longitudinal study of about 
7,000 Native Hawaiian and non-Hawaiian adolescents located on 
three islands within the State. We have followed these kids for 
5 years, at five high schools throughout the islands.
    We are just publishing some of the more important findings. 
And I'd like to specify some of these outcomes that I think are 
most salient to this effort.
    The first outcome is creating a cadre of Native Hawaiian 
mental health researchers and scholars. Establishing an 
undergraduate, graduate, student and psychiatry resident 
student researcher component was core to our task in doing 
this.
    Through the program we have provided training opportunities 
to seven undergraduates, five graduate students in the schools 
of Social Work, Sociology and the Department of Psychology at 
the University of Hawaii.
    We've trained eight psychiatry residents who have gone on 
to become physicians in the community. And we have also trained 
one junior faculty, myself.
    Now, of these 21 individuals three are Asian, one is Samoan 
and 17 or 81 percent are Native Hawaiian. Of the 17 Hawaiians 
that we trained, one is a psychiatry technician and 
professional athlete. Two became Hawaiian language teachers, 
and are working on the neighbor islands.
    Five are in graduate schools in the School of Medicine, 
Law, Pacific Studies, Clinical Psychology and Public Health. 
All on their way, by the way, to getting their doctoral 
degrees.
    Two are triple board psychiatry residents, which means at 
the time they graduate, which will be within the next 2 years, 
one next year and the following after that, in 3 years, they 
will be boarded in Pediatrics, General Psychiatry and Child and 
Adolescent Psychiatry.
    Two are practicing child psychiatrists in rural O'ahu. Five 
became psychiatrists and professors of Psychiatry and are on 
the faculty.
    Now, let me briefly go through some of the very significant 
findings of our work which we are publishing. We published 11 
articles already in refereed scientific journals.
    We have 14 articles submitted and are currently in journal 
peer review. We are working on an additional 19 manuscripts for 
submission and, hopefully acceptance by December of this year.
    We are also working on a year 2001 update of the status of 
Native Hawaiian mental health which will be a comprehensive 
review that examines the E Ola Mau report updates it for this 
new century that we are entering.
    Now, of these scientific publications that I mentioned, the 
most salient which we anticipate publishing in the spring of 
2000 are three landmark articles that I would like to highlight 
for your information.
    The first is entitled ``Socialcultural Factors Influencing 
Adolescent Preference and Use of Native Healers.''
    The second is, ``The Role of Culture and Ethnicity in 
Psychopathology and Psychosocial Adjustment Among Native 
Hawaiian Adolescents.''
    The third is, ``Prevalence of Mental Disorders in Native 
Hawaiian Adolescents.''
    The first article presents our findings on a study of 4,182 
Hawaiian and non-Hawaiian students in which we looked at the 
sociocultural factors which most influence who they seek help 
from, whether they be Native healer, an allopathic provider, 
which is a doctor or nurse or a school teacher or counselor.
    Who do they seek for both physical and cultural needs? What 
our findings show is cultural identity and specifically 
Hawaiian cultural identity is the strongest predictor above all 
others for determining who will prefer a Native Hawaiian 
healer.
    The higher the cultural identification the higher the 
student's preference for Native Hawaiian healer.
    We also, surprisingly, found that Hawaiian males, not 
Hawaiian females, which all the other studies of this type have 
shown, but that Hawaiian males are more likely to use healers 
than females for their problems. Which is an astounding 
finding.
    No other study anywhere that is published today has that 
same finding. This is ramifications for us in terms of 
treatment interventions and prevention strategies, which I will 
again reiterate in the second article.
    If I could highlight the second article which is about the 
role of Native Hawaiian culture in examining the relationship 
of Native Hawaiian culture among these groups of adolescents 
that we studied.
    Our thesis being that we needed to discern whether or not 
culture was a risk factor for mental health or a protective 
factor.
    We have, in fact, found the role that culture plays for 
Native Hawaiian kids is neither. It is not a risk factor nor is 
it a protective factor. In fact, what our findings found is 
that psychosocial factors such as major life events, in other 
words, an example would be a parent is put in jail, has a far 
more profound effect on determining whether or not a child will 
become mentally ill or be incapacitated with a conduct 
disorder.
    We've found that far more significant in the area of family 
and friend support, socioeconomic status and interestingly 
enough, one of the most significant protective factors was 
optimism. In other words, a child's capacity to hope and see a 
new future.
    Again it has tremendous implications for the other part of 
this hearing which is on education. The fact that young 
Hawaiians are demanding a free education at the University of 
Hawaii is, perhaps, one of the most significant social events 
for our people. It bodes well for their futures.
    The role of culture is most pronounced not in how teenagers 
see it as a risk or protective but rather that it is most 
significant in how teenagers and, we feel adults as well, seek 
education about their health care and seek help for 
psychosocial problems.
    In other words, culture appears to be most important in 
determining how people seek and understand help prevention 
strategies, how they choose providers of care, and how they 
engage and participate in these treatments.
    This is a critical finding that really has not been 
published with hard data in the scientific journals. It's been 
something we sort of feel is intuitively sounds correct, but we 
have never had hard data to really test that hypothesis until 
now.
    The third article presents for the first time in Hawaii 
prevalence data on Native Hawaiian mental health disorders in a 
community-based sample.
    We based that on the DISC data of about a little over 600 
adolescents using NIMH's Diagnostic Interview Schedule for 
Children, which you may know is the gold standard right now for 
epidemiological research in America.
    I'd like to just summarize for you our prevalence rates 
which we will finalize within the next few weeks and publish. 
For any disorders, any mental disorder, for Hawaiian males 26.8 
percent. For Hawaiian females 37.7. For non-Hawaiian males 19.6 
percent. For non-Hawaiian females 27.9 percent. Now as a 
comparison the national comparison for these same, any disorder 
prevalence rate is 29.9.
    What this tells us is that Hawaiian females are in trouble. 
We need to pay attention to what is going on in that particular 
population.
    Among mood disorders, this is major depression, dysthymic 
disorder and bipolar illness. Hawaiian males 6.8 percent. 
Hawaiian females 9.5 percent. This is compared to the national 
average of 7.2. Again Hawaiian females are in trouble. They are 
higher than the national average.
    Non-Hawaiian males 1.0. They're very healthy, at least in 
our sample which I must share this caveat, was not 
representative of non-Hawaiian kids in Hawaii.
    That is primarily because our sampling occurred in 
predominantly Native Hawaiian communities. We wanted to make 
sure that we tested as many Native Hawaiian adolescents as 
possible. And, in deed, we succeeded in that effort. We got 
nearly 30 percent of all Native Hawaiian teenagers in the State 
of Hawaii within our sample size.
    The downside was that because we pre-selected for Native 
Hawaiian kids we were not able to get a representative, strong 
representative sample of non-Hawaiian kids.
    Non-Hawaiian females 6.9, again below the national average. 
This shows us that basically our Hawaiian females have more 
significant problems with major depression and dysthymic 
disorders in particular.
    This is major impact when we look at some of the more 
recent studies coming out that one of the major reasons for 
depression in adulthood is child rearing practices among young 
mothers and children. If we have depressed and stressed young 
mothers we can only participate with the high birth rates we 
will have, we will have problems with the next two generations 
of our children.
    Among anxiety disorders I would like to highlight two 
things that are very surprising and quite shocking, actually. 
For any anxiety disorder Hawaiian males are 14.5 percent, which 
is actually below the national average of 20.5 percent.
    But again Native Hawaiian females 26.1 percent, above the 
national average of 20.5 percent. Non-Hawaiian males 7.5 
percent and non-Hawaiian females 17.6 percent.
    Now, I wanted to highlight under anxiety disorders 
Obsessive-compulsive disorders. These are disorders in which we 
are beginning to find that previously under Freudian theory we 
thought that this was bad rearing practices basically, and that 
a child went through these very compulsive ritualistic 
behaviors to create magic to keep bad things from happening.
    We now find from the Brown University's research over the 
last 8 years that in fact obsessive-compulsive disorders are 
brain dysfunction that's created, they think--they're still 
hypothesizing this--that may be related to Streptococcul 
infections particularly of the type from rheumatoid, rheumatic 
heart disease. Excuse me.
    There may be similar toxins with otitis media. I mention 
this as a caveat because I know, again, the congressional 
delegation has worked very hard in championing, getting 
research dollars for otitis media.
    What Hawaiian kids, grade school and young children have 
the highest rates, prevalence rates of otitis media in the 
nation. It makes us wonder as to whether or not it may explain 
the extraordinarily high obsessive-compulsive rates.
    Let me give you an idea. The national prevalence rates for 
obsessive-compulsive disorders among adolescents is less than 2 
percent.
    In our sample Hawaiian males 9.2 percent. Hawaiian females 
17.7 percent. This is an astounding figure. So much so that we 
have done additional research with the creators of this 
particular module to see whether or not the way the questions 
were framed might have been misunderstood.
    However, in my random study of actually adolescents their 
of the DISC, the children understood the questions and had no 
problems answering the questions as they did, for example in 
psychosis where when you ask them, ``Do you hear voices?'' They 
say, ``Sure. I hear yours.''
    We had no problems of understanding the actual diagnostic 
questions under this module. Yet we have this astoundingly high 
figures. Among the non-Hawaiian males 3.6 percent and non-
Hawaiian females 9.2 percent. Again they're higher than the 
national average. Could it be a cultural pickup that we've 
missed on the instrument? We think not.
    But certainly even if it were, the rates that the Native 
Hawaiian children are scoring are much too high to account 
simply for a structural question defect which we did not find 
on our focus group analysis.
    Our disruptive disorders, these are attention deficit 
disorder and conduct disorders of children, we found that the 
national average is 11.5. In this area, interestingly enough, 
our Hawaiian adolescents do very well. The males are 5.7 and 
females 7.3, below the national average.
    Non-Hawaiian males are 2.9 and females 6.7. Why is this 
significant? Significant because it defies the stereotypes. 
We've heard teachers, educators keep saying that Native 
Hawaiian kids are troublemakers in school and they end up in 
jail.
    What our study finds is that they have actually rates, 
prevalence rates among the disruptive records that are below 
the national average. They are, in fact, healthy in this area.
    So that the disruption we are seeing in schools are 
probably not due to attention deficit disorder, nor is it due 
to any conduct disorder. It probably is a depression or an 
anxiety disorder of some sort. This is a significant focus for 
us, again, with regard to prevention and intervention 
strategies.
    Finally, I think the other very shocking result for us is 
in the area of substantial abuse and dependence disorders. This 
for us again was extraordinarily high.
    The national average is 2.2 percent right now from most 
studies quoted. Now that rate is slowly climbing very quickly 
with newer research that's much more comprehensive that's going 
on throughout the nation.
    But for Hawaiian males it's 26.8 percent. Off the wall. 
Alcohol was one of the largest contributors to this statistics, 
but also cannabis or marijuana and crystal methamphetamine, 
very disturbingly increasing in this population. Females 37.7 
percent, again compare that to national average of 2.2 percent.
    Now seems extraordinarily high. Indeed it is. But Native 
American populations fall very closely in parallel to us in 
these same statistics. That's why we have a very strong 
collaboration with the Native American Alaskan Native Center 
which Mr. Darryl Manson heads in Colorado to compare our 
findings.
    Among non-Hawaiian males, again we should be concerned, 
19.6 percent. Still very high compared to the national average 
and 27.9 percent for non-Hawaiian females. Now, one could say 
perhaps the mainland studies that have been sampled the kids 
were more conservative.
    Yes, most of the studies that have been done have been done 
among white Anglo-Saxon middle class children with the 
exception of the Puerto Rico study which sampled Puerto Rican 
children.
    This is some of the--as I mentioned this is preliminary 
data. We are doing a Met analysis. What that means we're taking 
all the studies that were done with DISC, the DISC interview 
and we are comparing them to get a single statistic of all of 
those studies and then compare them to our study to see whether 
or not these findings still hold up.
    That's exactly what we're doing right now as we finalize 
this paper that we will publish. We want to make absolutely 
sure that we are not overinflating these numbers.
    But even if we factor in overinflation the trends are 
there. They are very worrisome. Our children do need help in 
some specific areas that are very treatable.
    We have very treatable interventions for both anxiety and 
depression. We have some very successful interventions for 
substance abuse and alcohol use. And it behooves us to really 
address those.
    The final thing I would say is in creating these prevention 
and treatment strategies we must look at culture. It is an 
essential component to the success of these programs.
    What we have found so far is that too many of the existing 
interventions that exist in Hawaii are not culturally 
appropriate for Hawaiian kids.
    Just as an example, in our school-based learning right now 
when a child has problems the idea is that the school sort of 
sequesters the child and creates the support for the child. The 
family is left outside of that cord loop.

                           prepared statement

    We know by Hawaiian cultural practices that the family is 
essential to creating the structure for child. Yet we do not 
have culturally appropriate opportunities, really, to make that 
happen in our school system. I will stop with that. Thank you.
    Senator Inouye. It was not only fascinating but most 
important. Thank you very much, Dr. Andrade.
    [The statement follows:]
                Prepared Statement of Naleen N. Andrade
                       a brief history of events
    Led by a small group of Native Hawaiians within the UH Department 
of Psychiatry, the NHMHRDP was established in 1991 with federal funding 
from the National Institute of Mental Health (NIMH). Its mission: To 
create a cadre of mental health researchers, whose scientific 
investigations result in effective, culturally-appropriate prevention, 
intervention and clinical treatment strategies, which improve the 
mental health status of Native Hawaiians to the highest level possible.
    Four overall research goals have been, and continue to be pursued 
by the research and staff members of the NHMHRDP:
Overall research goals
    1. Determine the rates of mental disorders among Native Hawaiians 
within the general population of Hawaii.
    2. Establish a comprehensive database from which researchers can 
identify and study the effects of psychological, social and cultural 
factors which underpin the genesis and alleviation of mental illness 
among Native Hawaiians.
    3. Determine the patterns of help seeking behaviors by Native 
Hawaiians to use traditional western and alternative native healing 
practices and the effects of these healing practices on mental illness.
    4. Establish a Native Hawaiian Pacific Islander Minority Mental 
Health Research Center to support a cadre of experts at UH to study the 
causes, prevention, and treatment of mental illness among Native 
Hawaiians and Pacific Islanders.
                              significance
    UH Department of Psychiatry faculty began their work in 1987, in 
response to the seminal E Ola Mau Report: A Study of the Health Needs 
of Native Hawaiians (1985). The E Ola Mau Report showed that Native 
Hawaiians had the worst mental health statistics among all ethnic 
groups in Hawaii with higher rates of alcohol and substance abuse, 
depression, suicide, abuse, incarceration, and disruptive disorders. 
Further, Native Hawaiians were under-represented in the mental health 
professions. And, there were no Native Hawaiian mental health 
researchers at the UH. Major recommendations of the report included 
increasing the numbers of Native Hawaiians in mental health 
professions, training Native Hawaiian mental health researchers, 
conducting research on mental disorders among Native Hawaiians, and 
designing prevention and intervention strategies which addressed the 
unique cultural needs of Native Hawaiians.
    Mentored by senior researchers, Drs. John McDermott Jr. and Ronald 
Johnson, Dr. Naleen Andrade (then an Assistant Professor) designed a 
ten-year Plan, to achieve the overall research goals outlined above. 
The Plan proposed that the NHMHRDP recruit and train promising Native 
Hawaiians from JABSOM, the UH Psychiatry Residency Training Program, as 
well as the School of Social Work and the UH Department of Psychology, 
in quantitative analysis, research design, conducting field studies, 
research manuscript publication, and grant proposal writing. A cadre of 
local and national technical experts (e.g., statisticians, behavioral 
researchers), most of who were not Hawaiian, were recruited to train 
and build the Native Hawaiian research team and establish a competitive 
research track record. Now in the eighth year of their ten-year plan to 
establish a Native Hawaiian Pacific Islander Minority Mental Health 
Research Center, this faculty group, led by Native Hawaiians, are 
actively publishing to establish the needed track record to 
successfully compete within the National Institutes of Health agencies.
                  the hawaii high schools health study
    To achieve the goals of the NHMHRDP, its researchers designed and 
implemented the Hawaii High Schools Health Study, a five-year, 
epidemiologic study of 7,000 adolescents in five Hawaii High Schools. 
This study remains the primary vehicle through which the Native 
Hawaiian researchers have been building the required track record to 
compete for federal research grants and to establish a Minority Mental 
Health Research Center. Funding for the Hawaii High Schools Health 
Study came from NIMH during its first five years (1991-96) and from 
private Foundations during the past two and a half years (1996-99).
                           specific outcomes
  --Creating a cadre of Native Hawaiian Mental Health Researchers & 
        Scholars.--Establishing an undergraduate, graduate student, and 
        psychiatry resident student researcher component, the NHMHRDP 
        has provided research training opportunities to 7 
        undergraduates, 5 graduate students (in Psychology, Social 
        Work, and Sociology), 8 psychiatry residents, who had been 
        identified and recruited when they were medical students, and 1 
        junior faculty. Of these 21 individuals, 3 are Asian, 1 is 
        Samoan, and 17 (81 percent) are Native Hawaiian.
    Of the 17 Hawaiians trained: 1 is a psychiatry technician and 
professional athlete; 2 became Hawaiian language teachers; 5 are in 
graduate schools of Medicine, Law, Pacific Studies, Clinical 
Psychology; and Public Health; 2 are in Triple Board Residency training 
(Pediatrics, General Psychiatry, and Child and Adolescent Psychiatry); 
2 are practicing Child Psychiatrists in rural Oahu; and 5 became 
psychiatrists and professors of Psychiatry.
  --Publishing Significant Findings on Native Hawaiian Adolescents.--We 
        have published 11 articles in refereed scientific journals; 
        have 14 articles submitted and in journal peer review; and are 
        working on 19 additional manuscripts in preparation for 
        submission by December 1999. We are also working on a Year 2001 
        Update of the Status of Native Hawaiian Mental Health.
    Of these scientific publications the most salient, which we 
anticipate publishing in the Spring of 2000, are three landmark 
articles entitled: ``Sociocultural Factors Influencing Adolescent 
Preference and Use of Native Healers; ``The role of culture and 
ethnicity in psychopathology and psychosocial adjustment among Native 
Hawaiian adolescents;'' and, ``Prevalence of mental disorders in Native 
Hawaiian Adolescents.''
    The first article presents our findings on a study of 4,182 
Hawaiian (2,698) and Non-Hawaiian (1,438) Students what sociocultural 
factors most influence who--whether Native Healer vs. Allopathic 
providers (doctors and nurses) vs. School teachers and counselors--
adolescents seek for help with their physical and emotional needs. The 
findings show that identification with the Hawaiian culture is the 
strongest predictor for preference of Native Hawaiian healer use. 
Surprisingly, Hawaiian males were more likely to use healers than 
females.
    The second article examines the relationship of Native Hawaiian 
culture and ethnicity among 1,805 Hawaiian and 942 Non-Hawaiian 
adolescents. The thesis of the article to discern what role, if any, 
does Native Hawaiian culture have in the cause or risk of 
psychopathology or in the protection from psychopathology. Our findings 
indicate that Hawaiian culture does NOT create risk, nor does it 
protect a teenager from psychopathology. Psychosocial factors such as, 
Major Life Events (when bad things happen such as a parent going to 
jail), Family and Friend Support, Socioeconomic status, and Optimism, 
are the more important risk and protective factors influencing health 
and illness among teenagers. The role of culture is most pronounced NOT 
in how teenagers seek education and help for their psychosocial 
problems, i.e., culture appears to be most important in determining How 
people seek and understand health prevention strategies, how they 
choose providers of care, and how they engage and participate in their 
treatments.
    The third article presents, for the first time in Hawaii, 
prevalence data on Native Hawaiian mental disorders in a community-
based sample. Based on our DISC data of 615 adolescents (355 Hawaiian 
and 256 Non-Hawaiian), using the NIMH Diagnostic Interview Schedule for 
Children and Adolescents, the following significant findings were 
determined for Mood Disorder, Anxiety Disorder, Disruptive Behavioral 
Disorder, and Substance Abuse/Dependence:

                                                                 Percent
Any Disorder:
    Hawaiian male.................................................  26.8
    Female........................................................  37.7
    Non-Hawaiian male.............................................  19.6
    Female........................................................  27.9
    National Comparison of Prevalence rates: Preliminary..........  29.9
Mood Disorders:
    Hawaiian male.................................................   6.8
    Female........................................................   9.5
    Non-Hawaiian male.............................................   1.0
    Female........................................................   6.9
    National Comparison of Prevalence rates: Preliminary..........   7.2
Anxiety Disorder:
    Any anxiety disorder:
        Hawaiian male.............................................  14.5
        Female....................................................  26.1
        Non-Hawaiian male.........................................   7.5
        Female....................................................  17.6
    National Comparison of Prevalence rates: Preliminary..........  20.5
    Obsessive-Compulsive disorder:
        Hawaiian male.............................................   9.2
        Female....................................................  17.7
        Non-Hawaiian male.........................................   3.6
        Female....................................................   9.2
    National Comparison of Prevalence rates: Preliminary..........    <2
Disruptive Disorders:
    Hawaiian male.................................................   5.7
    Female........................................................   7.3
    Non-Hawaiian male.............................................   2.9
    Female........................................................   6.7
    National Comparison of Prevalence rates: Preliminary..........  11.5
Substance Abuse/Dependence:
    Hawaiian male.................................................  26.8
    Female........................................................  37.7
    Non-Hawaiian male.............................................  19.6
    Female........................................................  27.9
    National Comparison of Prevalence rates: Preliminary..........   2.2
STATEMENT OF DR. CHIYOME L. FUKINO, E OLA MAU
    Senator Inouye. Dr. Fukino.
    Dr. Fukino. Aloha, Senator Inouye, members of the Senate 
Appropriation Subcommittee. I'm Chiyome Leinaala Fukino, M.D., 
president of E Ola Mau, a nonprofit corporation of Native 
Hawaiian Health Care Providers dedicated to improving the 
health of Native Hawaiians.
    We are testifying in support of authorization of 
appropriations for fiscal years 2000 through 2010 for the 
Native Hawaiian Health Care Improvement Act. Since our 
incorporation in 1986 E Ola Mau has consistently advocated for 
culturally appropriate delivery of health care services to 
Native Hawaiians.
    The landmark study, from which our name is derived, 
documented for the first time the abysmal health status of 
Native Hawaiians in this our aina hanau, native land, 
birthplace.
    As a member of the Board of Papa Ola Lokahi, we have 
watched the struggling emergence of the Native Hawaiian Health 
Care Systems. We continue to advocate for coordination of 
health care services between the Native Hawaiian Health Care 
Systems and other providers within Hawaii's health care 
community.
    Native Hawaiian health statistics continue to be collected 
by multiple agencies using widely disparate parameters. Uniform 
statewide ethnicity tagging has not been established.
    Current sources of data require one to three years for data 
compilation and publication, making timely health needs 
assessments and program outcomes reporting difficult.
    Nevertheless, more readily available death statistics 
underscore the continuing poor health status of Native 
Hawaiians. Our participation for more than a decade in numerous 
matters pertaining to Native Hawaiian health has culminated in 
the development of the E Ola Mau Native Hawaiian Health 
Statistics Database.
    E Ola Mau believes that a unified relational database that 
includes both static and real-time data is essential in the 
planning of cost-effective health related programs.
    The E Ola Mau Native Hawaiian Health Statistics database 
introduces a standard data collection methodology. Our database 
currently contains information from Sate and private sector 
published reports.
    We are working with some of the agencies that have 
published these reports to begin real-time data input and 
design customized output report layouts that facilitate rapid 
compilation, analysis and dissemination of collected data.
    E Ola Mau has designed a preliminary research program based 
on information contained in the Native Hawaiian Health 
Statistics database to enter real-time data and longitudinally 
monitor critical outcomes data.
    The program monitors hypertension, diabetes mellitus, 
coronary artery disease, congestive heart failure and 
hyperlipidemia, five chronic illnesses which account for the 
majority of health care costs in both in-patient and out-
patient settings.
    The E Ola Mau La'au Lapa'au Database contains information 
gathered by E Ola Mau over the past decade while working with 
Kupuna La'au Lapa'au throughout the State of Hawaii.
    Published scientific research already done on identified 
la'au is included in the database which will serve as a 
resource for Western trained health care providers who treat 
Native Hawaiian patients who utilize traditional remedies.
    E Ola Mau recommends adoption of statewide uniform 
ethnicity tagging to improve the monitoring and assessment of 
Native Hawaiian health status. Current methods of ethnicity 
identification include a mixture of self-identification, 
surname and ``eyeball'' recognition.
    Of the approximately 17,000 records included in the E Ola 
Mau Native Hawaiian Health Statistics Database, less than 5 
percent are identified as Native Hawaiian statistics.
    While there is increasing awareness among academic and 
governmental agencies of the need for research and service 
allocation for Native Hawaiian health, there is still much more 
work to be done in order to improve the health of Native 
Hawaiians.
    The Native Hawaiian Health Care Improvement Act is one 
critical component of this journey. E Ola Mau will continue to 
work with the Office of Hawaiian Affairs and Papa Ola Lokahi to 
draft appropriate language for the reauthorization of the 
Native Hawaiian Health Care Improvement Act.

                           prepared statement

    It is imperative that the Native Hawaiian Health Care 
Improvement Act accurately reflects the evolution of Native 
Hawaiian agencies and their increasing capacities to 
participate in improving the health of Native Hawaiians thereby 
allowing Papa Ola Lokahi to focus more specifically on its area 
of expertise which is now available. Mahalo.
    Senator Inouye. Thank you very much, Doctor.
    [The statement follows:]
              Prepared Statement of Dr. Chiyome L. Fukino
    Honorable Daniel K. Inouye, Hearing Chair: I am Chiyome Leinaala 
Fukino, M.D., President of E Ola Mau, a nonprofit corporation of Native 
Hawaiian Health Care Providers dedicated to improving the health of 
Native Hawaiians. We are testifying in support of authorization of 
appropriations for fiscal years 2000 through 2010 for the Native 
Hawaiian Health Care Improvement Act.
    Since our incorporation in 1986, E Ola Mau has consistently 
advocated for culturally appropriate delivery of health care services 
to Native Hawaiians. The landmark study, from which our name is 
derived, documented for the first time the abysmal health status of 
Native Hawaiians in this our aina hanau (native land, birthplace). As a 
member of the Board of Papa Ola Lokahi, we have watched the struggling 
emergence of the Native Hawaiian Health Care systems. We continue to 
advocate for coordination of health care services between the Native 
Hawaiian Health Care Systems and other providers within Hawaii's health 
care community.
    Native Hawaiian health statistics continue to be collected by 
multiple agencies using widely disparate parameters. Uniform statewide 
ethnicity tagging has not been established. Current sources of data 
require 1 to 3 years for data compilation and publication, making 
timely health needs assessments and program outcomes reporting 
difficult. Nevertheless, more readily available death statistics 
underscore the continuing poor health status of Native Hawaiians.
    Our participation for more than a decade in numerous matters 
pertaining to Native Hawaiian health has culminated in the development 
of the E Ola Mau Native Hawaiian Health Statistics Database (NHHS). E 
Ola Mau believes that a unified relational database that includes both 
static and real-time data is essential in the planning of cost-
effective health related programs. The E Ola Mau NHHS Database 
introduces a standard data collection methodology. Our Database 
currently contains information from state and private sector published 
reports. We are working with some of the agencies that have published 
these reports to begin real-time data input and design customized 
output report layouts that facilitate rapid compilation, analysis and 
dissemination of collected data.
    E Ola Mau has designed a preliminary research program based on 
information contained in the NHHS Database to enter real-time data and 
longitudinally monitor critical outcomes data. The program monitors 
Hypertension, Diabetes Mellitus, Coronary Artery Disease, Congestive 
Heart Failure and Hyperlipidemia, five chronic illnesses which account 
for the majority of health care costs in both in-patient and out-
patient settings.
    The E Ola Mau Laau Lapaau Database contains information gathered by 
E Ola Mau over the past decade while working with Kupuna Laau Lapaau 
throughout the state of Hawaii. Published scientific research already 
done on identified laau is included in this Database which will serve 
as a resource for Western trained health care providers who treat 
Native Hawaiian patients who utilize traditional remedies.
    E Ola Mau recommends adoption of statewide uniform ethnicity 
tagging to improve the monitoring and assessment of Native Hawaiian 
health status. Current methods of ethnicity identification include a 
mixture of self-identification, surname, and ``eyeball'' recognition. 
Of the approximately 17,000 records included in the E Ola Mau NHHS 
Database, less than 5 percent are identified as Native Hawaiian 
statistics.
    While there is increasing awareness among academic and governmental 
agencies of the need for research, and service allocation for Native 
Hawaiian health, there is still much more work to be done in order to 
improve the health of Native Hawaiians. The Native Hawaiian Health Care 
Improvement Act is one critical component of this journey.
    E Ola Mau will continue to work with the Office of Hawaiian Affairs 
and Papa Ola Lokahi to draft appropriate language for the 
reauthorization of the Native Hawaiian Health Care Improvement Act. It 
is imperative that the Native Hawaiian Health Care Improvement Act 
accurately reflects the evolution of Native Hawaiian agencies and their 
increasing capacities to participate in improving the health of Native 
Hawaiians thereby allowing Papa Ola Lokahi to focus more specifically 
on its area of expertise.
STATEMENT OF BETH GIESTING, EXECUTIVE DIRECTOR, HAWAII 
            STATE PRIMARY CARE ASSOCIATION
    Senator Inouye. May I now call upon the executive director 
of the Hawaii State Primary Care Association, Ms. Giesting.
    Ms. Giesting. Thank you very much, Senator Inouye, Senator 
Akaka, Representative Mink and congressional staff. My name is 
Beth Giesting, the executive director of the Hawaii State 
Primary Care Association. And it is my honor to be here to 
address you this morning.
    As you have heard, ample data exist describing Native 
Hawaiian disproportionate rates in mortality and morbidity. 
Only Native Hawaiians themselves can change the status of their 
health and with the aid and support of select institutions they 
are eager to do so.
    We believe programs that are already established are 
helping Native Hawaiians and with expansion can support even 
more Kanaka Maoli succeed to better health.
    Authorities on Native Hawaiian health emphasize that health 
and healing among Kanaka Maoli are part of a culturally-
centered process balancing spirituality, personal relationships 
and the natural environment.
    Clearly then, the means to improve the health of Native 
Hawaiians is not via the Western medical system, although that 
system has tools that can be used, nor is the solution quick, 
easy, or inexpensive.
    Improving diet and nutrition, increasing levels of exercise 
and reducing smoking, drinking and use of illicit drugs will 
greatly advance the health of Native Hawaiians. And such 
lifestyle changes can only be the result of culturally-based, 
integrative approaches.
    The Native Hawaiian Health Care Act recognizes both the 
need to provide help and the fundamental difference in how to 
achieve the goal of better health status for Native Hawaiians.
    The Native Hawaiian Health Care Systems and the Native 
Hawaiian Health Professions Scholarship Program established 
under the act are examples of two programs that, in 
collaboration with community health centers, can have a 
tremendous affect on the health status of Kanaka Maoli over 
time.
    These programs are part of mid-and long-term strategies. 
The system's aim to inculcate healthy lifestyles in the context 
of Native Hawaiian culture, as well as meeting more immediate 
needs through outreach, case management, referral and enabling 
services.
    The scholarship program seeks to encourage appropriate and 
timely use of health care services among Native Hawaiians by 
helping those who understand and are of the culture become the 
providers of health care.
    A secondary benefit of the scholarship program is 
encouraging Kanaka Maoli to help themselves and their 
communities as health care professionals. Community Health 
Centers also play a key role in helping Native Hawaiians 
improve their health status. They already meet many of those 
health needs, having served 20,500 Native Hawaiians on three 
islands during fiscal year 1998.
    Health centers' programs exist in areas where many Native 
Hawaiians live, notably, Waianae, Waimanalo, Windward and North 
Shore O'ahu, Hana, Hilo, Pahoa and Ka'u.
    Health centers specialize in serving those who experience 
barriers to the mainstream health system. These barriers may 
include poverty and lack of insurance, lack of transportation, 
and cultural dissonance.
    Centers provide a wide range of community-appropriate 
primary care that often includes dental, mental and behavioral 
health, urgent care and nutrition.
    Health centers employ Native Hawaiian scholars and, with 
additional resources, would be able to hire more. What 
community health care centers want to do more of is help their 
patients, Native Hawaiians and others, get and stay healthier.
    Although that is their goal, health and prevention programs 
are generally beyond the means of financially strapped health 
centers.
    An example of a program that other health centers would 
like to emulate is Waimanalo Health Center's' Ai Kupele, a 
culturally-centered approach to promoting healthy behaviors 
such a nutrition and exercise, and preventing substance abuse 
and domestic violence.
    Programs such as 'Ai Kupele, supported by short-term 
grants, are in danger when funding cycles ends.
    Three elements are critical to the success of the 
approaches that we must take to improve the health of Native 
Hawaiians. They include financial resources, policy support, 
and time.
    Our Western health care system is centered on medical 
rather than health care and is funded almost exclusively by 
public and private health insurance.
    A medical model supported by diminishing insurance dollars 
does not support the activities most likely to influence health 
lifestyles among Kanaka Maoli.
    Traditional fee-for-service health insurance pays 
physicians for medical diagnoses and procedures performed on 
people with medical conditions. managed care should in theory 
support health promotion and a broader spectrum of 
practitioners.
    In realty, however, it does not. There is no financial 
incentive for prevention as long as individuals are in and out 
of managed care programs with little or no long-term 
enrollment.
    Moreover, many of the people who are most in need of health 
care interventions are uninsured. They can little afford to 
avail themselves of timely and preventive clinical care much 
less get health advice and counseling.
    This committee can advance efforts to reduce health 
disparities among Native Hawaiians by providing the resources 
that are needed to help fund activities that promote healthy 
lifestyles.
    Working with established community-based organizations, 
that is Community Health Centers and the Native Hawaiian Health 
Care Systems and the Health Professions Scholarship, these 
things are the most effective means to accomplish this goal.
    These efforts may be expensive, although not as expensive 
as maintaining the health status of Native Hawaiians as it is.
    The commitment also has to be for the long haul. It takes 
ample time and consistent work to help people improve their 
health habits. Even when more salubrious practices replace bad 
habits, it can take years before these changes result in 
measurable improvements. Training an adequate Native Hawaiian 
health professional workforce also takes decades.

                           prepared statement

    Finally, I would say this committee might also take on the 
more far-reaching and visionary role and that would be 
considering a national health care program. Such a program 
would have the virtues of eliminating the barriers of poverty 
and lack of insurance while giving the health care system an 
incentive to support wellness activities. Thank you very much.
    Senator Inouye. Thank you, very much.
    [The statement follows:]
                  Prepared Statement of Beth Giesting
    Mr. Chairman, Members of the Committee, and Members of our 
Congressional Delegation: Ample data exist describing Native Hawaiians' 
disproportionate rates of
  --Asthma and other respiratory conditions
  --Diabetes
  --Hypertension and chronic heart disease
  --Cancer
  --Dental caries
  --Substance abuse
  --Teen pregnancy
  --Late entry to and lack of prenatal care
  --And other conditions
    Only Native Hawaiians themselves can change the status of their 
health and, with the aid and support of select institutions, they are 
eager to do so. We believe established programs are helping Native 
Hawaiians, and, with expansion, can support even more Kanaka Maoli (the 
native people of Hawaii) succeed to better health.
    The Approach to Health and the Native Hawaiian Health Care Act.--
Authorities on Native Hawaiian health emphasize that health and healing 
among Kanaka Maoli are part of a culturally-centered process balancing 
spirituality, personal relationships and the natural environment. 
Clearly then, the means to improve the health of Native Hawaiians is 
not via the Western medical system (although that system has tools that 
can be used), nor is the solution quick, easy, or inexpensive. 
Improving diet and nutrition; increasing levels of exercise; and 
reducing smoking, drinking and use of illicit drugs will greatly 
advance the health of Native Hawaiians, and such lifestyle changes can 
only be the result of culturally-based, integrative approaches.
    The Native Hawaiian Health Care Act and its successor Native 
Hawaiian Health Care Improvement Act recognize both the need to provide 
help and the fundamental difference in how to achieve the goal of 
better health status for Native Hawaiians. The Native Hawaiian Health 
Care Systems and the Native Hawaiian Health Professions Scholarship 
Program, established under the Act, are examples of two programs that, 
in collaboration with community health centers, can have a tremendous 
affect on the health status of Kanaka Maoli over time. These programs 
are part of mid- and long-term strategies. The systems aim to inculcate 
healthy lifestyles in the context of Native Hawaiian culture, as well 
as meeting more immediate needs through outreach, case management, 
referral, and enabling services. The scholarship program seeks to 
encourage appropriate and timely use of health care services among 
Native Hawaiians by helping those who understand and are of the culture 
become the providers of health care. A secondary benefit of the 
scholarship program is encouraging Kanaka Maoli to help themselves and 
their communities as health care professionals.
    The Critical Role of Community Health Centers.--Community Health 
Centers also play a key role in helping Native Hawaiians improve their 
health status. They already meet many of those health needs, having 
served 20,500 Native Hawaiians on three islands during fiscal year 
1998.
  --Health centers' programs exist in areas where many Native Hawaiians 
        live, notably, Wai`anae, Waimanalo, Windward and North Shore 
        O`ahu, Hana, Hilo, Pahoa, and Ka`u.
  --Health centers specialize in serving those who experience barriers 
        to the ``mainstream'' health system. These barriers include 
        poverty and lack of insurance, transportation, and cultural 
        dissonance.
  --Centers provide a wide range of community-appropriate primary care 
        that often includes dental, mental and behavioral health, 
        urgent care, and nutrition.
  --Health Centers employ Native Hawaiian Scholars and, with additional 
        resources, would be able to hire more.
    What community health centers want to do more of is help their 
patients--Native Hawaiians and others--get and stay healthier. Although 
that is their goal, health and prevention programs are generally beyond 
the means of financially strapped health centers. An example of a 
program other health centers would like to emulate is Waim--nalo Health 
Center's 'Ai Kupele, a culturally-centered approach to promoting 
healthy behaviors such as nutrition and exercise, and preventing 
substance abuse and domestic violence. Programs such as 'Ai Kupele, 
supported by short-term grants, are in danger when funding cycles ends.
    What These Programs Need to Succeed.--Three elements are critical 
to the success of these approaches:
  --Financial resources.
  --Policy support.
  --Time.
    Our Western health care system is centered on ``medical'' rather 
than ``health'' care and is funded almost exclusively by public and 
private health insurance. A medical model supported by diminishing 
insurance dollars does not support the activities most likely to 
influence healthy lifestyles among Kanaka Maoli. Traditional fee-for-
service health insurance pays physicians for medical diagnoses and 
procedures performed on people with medical conditions. In theory, 
managed care supports health promotion and a broader spectrum of 
practitioners. In reality, it does not--there is no financial incentive 
for prevention as long as individuals are in and out of managed care 
programs with little or no long-term enrollment. Moreover, many of the 
people who are most in need of health care interventions are uninsured. 
They can little afford to avail themselves of timely and preventive 
clinical care much less get health advice and counseling.
    The Committee on Appropriations, Subcommittee on Labor, Health and 
Human Services, and Education can advance efforts to reduce health 
disparities among Native Hawaiians by providing the resources that are 
needed to fund activities that promote healthy lifestyles. Working with 
established community-based health organizations (i.e., Community 
Health Centers and the Native Hawaiian Health Care Systems) and the 
Health Professions Scholarship Program is the most effective means to 
accomplish this goal.
    These efforts may be expensive: They must target all the 
approximately 220,000 Kanaka Maoli in Hawaii, not just those in 
selected communities or defined socio-economic groups. The scholarship 
program is a necessary tool to assure that Native Hawaiians can find 
competent professionals from whom they will be comfortable seeking 
care. It is also important that Native Hawaiians be proportionately 
represented among the health professions and future health policy 
makers.
    The commitment has to be for the long haul. It takes ample time and 
consistent work to help people improve their health habits. Even when 
more salubrious practices replace bad habits, it can take years before 
these changes result in measurable improvements. Training an adequate 
Native Hawaiian health professional workforce also takes decades.
    This Committee might also take on the more far-reaching and 
visionary role of considering a national health care program. Such a 
program would have the virtues of eliminating the barriers of poverty 
and lack of insurance while giving the health care system an incentive 
to support wellness activities
    Thank you for giving us this opportunity to testify.

    Senator Inouye. Before proceeding I'd like to announce that 
2 years ago, as some of you are aware, we began the 
consultation process with E Ola Mau and Papa Ola Lokahi to 
draft the appropriate measure for the Native Hawaiian Health 
Care Improvement Act reauthorization.
    The consultation process will be completed this September, 
which is just about a month from now. And after the conclusion 
of that process the draft bill will be submitted to us. And we, 
in turn, will call upon the Senate legislative counsel for 
drafting it into a formal Senate format.
    When that is completed we will introduce the measure. And 
after the introduction we will conduct hearings in Hawaii as a 
final step.
    What I'm trying to point out is that as a result of this 
consultation process the Health Bill for Native Hawaiians will 
be the product not of Washington but of Hawaii.
    As some of you may be aware the Native Hawaiian Health 
Improvement Act includes, among other things, recognition of 
native doctors. This is the first time that this nation has 
recognized native doctors or kahunas.
    We also have the reauthorization of the Education Act. We 
will be conducting hearings on this measure together with that 
of the health measure beginning, hopefully, in November after 
the session is ended in the Congress.
    So be ready for important hearings because this will be the 
hearing to determine the scope of the measure that we hope the 
Congress of the United States will approve.
    Mr. Thompson, we have heard some statistics from you and 
your Papa Ola Lokahi team that substantiate the findings of 
many studies that have been conducted which show that the 
native peoples of the United States the Indians, the Aleuts, 
the Alaskan Natives, and Native Hawaiians, have conditions on 
health that are in many cases in some categories worse than 
Third World countries. It is a national disgrace.
    One statistic interested me: $1,200 per capita for Native 
Indians and Alaska Natives and $16 for Native Hawaiians.
    Looking at those numbers as presented would conjure up a 
horrendous picture. But it should be noted that as a result of 
treaty obligations, 100 percent of the cost of health care in 
Indian Reservations are paid for by the Federal Government. 
There are no funds from the State or the county.
    In the case of Native Hawaiians there are many dollars that 
utilize to benefit Native Hawaiians which may not show up slow 
up on your $16. For example, the funds that Dr. Andrade has 
spoken of.
    So these statistics, unless you analyze, it may be 
distorted. I believe that dollar for dollar Native Hawaiians 
receive more per capita than other indigenous people of the 
United States, which doesn't say much.
    I think all should be receiving much more so that our 
health status could be better than Third World countries.
    Are you people agreeing to the 65 percent of children born 
today at risk? Is that the finding of Papa Ola Lokahi also?
    Mr. Thompson. I'm not aware of it, Senator, at this point 
in time. I was surprised to hear it. We would like to pursue in 
talking to people about that.
    Senator Inouye. Because I've never heard of any numbers 
worse than that even for Third World countries. Sixty-five 
percent. Can you check that out for us?
    Mr. Thompson. We shall.
    Senator Inouye. Of the programs that are now in progress in 
your organization are you satisfied with the results?
    Mr. Thompson. Some of our programs have been very 
productive in terms of prevention. And I alluded to that in 
our--by referring to our early childhood development program in 
our family-based education centers where the pregnant mother is 
addressed and new fetus is also addressed in terms of its well-
being. The results of that program have been quite impressive, 
I think.
    It's those kinds of programs we need to look at and 
possibly improve and expand not only for our youngsters but for 
all the youngsters of Hawaii.
    Senator Inouye. Is your team satisfied with the 
consultation process that has been conducted over the last 2 
years in the drafting of the new bill?
    Mr. Thompson. Oh, yes. We're very pleased with the 
opportunity to work with the Federal people in relation to the 
consultation.
    Senator Inouye. Well, we're all set to introduce the 
measure as soon as the final process has ended. I am enthused 
about the new product that will be coming up.
    Mr. Thompson. We are too, Senator.
    Senator Inouye. The congressional delegation is prepared to 
jointly introduce this in the House and in the Senate. So we 
look forward to successful advocacy of Native Hawaiian health.
    Mr. Thompson. This brings it right back to the community in 
determining the priorities and the programs. Thank you.
    Senator Inouye. Dr. Andrade, you know, I could have sat 
here for hours listening to you. We will be submitting 
questions, statistical types, that we hope you will respond to.
    In listening to your testimony it reminded me that in 
Indian Reservations at the present time 28 community colleges, 
there are no universities yet. They're all supported by the 
Federal Government, very miniscule support, but they're 
supported by the Federal Government. They receive no State 
funds or county funds.
    In your case we do receive State funds to assist Native 
Hawaiians, don't we?
    Dr. Andrade. That's minimal, Senator. It comes primarily 
from because I'm a tenured professor, the contribution I give 
my research is in kind. That's our primary contribution to our 
research effort which is about 40 percent time which I give. 
That's really--and the facilities that we utilize.
    Our major source of funding has been from the National 
Institutes of Mental Health. I have to say Dr. Patrick Deleon 
from your office has been our champion in terms of really 
getting to NIH and making them aware of how important our grant 
is.
    We compete with everyone else. But without that extra voice 
in Washington bringing us to the forefront of NIMH 
administrators it would be very difficult for us to have a 
voice because we're geographically so isolated.
    The other area where we have been very fortunate is private 
foundations. We've sought moneys from there as well. They have 
been most helpful in helping us fund our efforts.
    We right now have a grant, a 5-year grant that we are 
hoping will get funded. It has been approved. We're waiting for 
the funding notice from NIHM.
    Senator Inouye. I have been accused of maintaining an in-
house mental health lobbyist. Now the secret's out. [Laughter.]
    We'll admit to that. When will your paper be published?
    Dr. Andrade. I'll make sure your committee gets copies of 
all, the especially those three papers, which are all in 
manuscript form. As soon as we just finish up on the MET 
analysis, especially for the prevalence rates, I will send 
copies to your committee to make sure you have them available.
    Senator Inouye. Thank you very much. Dr. Fukino, what sort 
of collaboration or liaison do you maintain with the State 
Board of Health?
    Dr. Fukino. We have, as part of our membership, members of 
the Department of Health--wait the State Board of Health?
    Senator Inouye. I mean State Department of Health, I'm 
sorry. Yes.
    Dr. Fukino. I know that we are supposed to be meeting with 
director Anderson probably in the next couple of weeks. I don't 
know if we have an appointment scheduled yet.
    We have met with smaller branches within the Department of 
Health to look at their data and to assist them in aggregating 
in a faster way.
    Actually this is a relatively new program that we have 
started within this past year in part because of grant money 
that we received from the Queen Emma Foundation.
    We also were told recently that our grant proposal to NIH 
is in the stage where it goes to scientific merit review I 
think sometime in October of this year with regards to the 
database in particular, the cardiovascular risk assessment 
monitoring program that we have been monitoring.
    Senator Inouye. Ms. Giesting, I was most pleased to learn 
of your assessment of the Waimanalo Health Center. How would 
you assess the other centers?
    Ms. Giesting. I believe that the other centers, to the 
extent they serve very high proportions of Native Hawaiians, 
also have special programs and make special efforts to meet 
those needs.
    As you know not all of the heath centers are providing 
services to very large numbers of Native Hawaiians. So they all 
do have a number of ways to overcome cultural language, income, 
other kinds of barriers, but not necessarily special programs 
for Native Hawaiians.
    Senator Inouye. Finally, if I may get back to you, Dr. 
Andrade. I was most interested in your statement that cultural 
values have a major impact upon the health conditions of native 
peoples.
    This panel here, your congressional delegation, over the 
years have been involved in a lot of cultural programs. For 
that we have been receiving a lot of criticism. For example, 
funds for the construction of the Hawaii Loa or the Hokule'a 
headlines ``A Million Dollars For A Canoe.''
    But we have been told that these canoes have done a lot to 
restore pride not only in navigation but in the Polynesian 
people and their history. Would those programs help?
    Dr. Andrade. In a phrase, absolutely. What we believe from 
the findings that we see, and in particular the paper on the 
native healers, for those young Hawaiian boys soon to be men 
and how they seek native traditional methods for their 
problems, tell us that a forum like the Hokule'a opens the door 
for us to then introduce ideas about: Whether or not you should 
use drugs or alcohol.
    How you communicate with your parents about problems you 
may have. How do you communicate with your siblings about 
problems that you have.
    Also that we have to remember that our existing school 
systems, for the most part, are measures of conformity in terms 
of success. They are not measures of esteem, of optimism. That 
kids do best when they feel hopeful and when they feel cared 
for.
    Really successful kids sort of turn things around when you 
ask them will usually focus in on a counselor or teacher that 
has personalized their experience, and made that translation 
for them of the existing Western school system into something 
that's personal, that's relevant, if you will, is cultural.
    What the Hokule'a does and other initiatives like the 
Hokule'a within schools like alternative school base--and one 
that comes to my mind immediately that I know is affected by 
the Kamehameha Schools Bishop Estate pull back of funding was 
at Honaunau, the Hale Ho'oponopono project which was pulled 
back early on.
    That was a superb project for keeping kids who would 
otherwise never stay in school and get into serious abuse 
problems, stay in school and become successful men and women.
    Not many of them, perhaps, went on to college. The fact of 
the matter is they're productive citizens today. That's the 
difference.
    I also believe, if I can just extrapolate, a lot of people 
have said 10 years later all the money from the Hawaiian Health 
Care Act why have we not seen more appreciable changes in the 
positive direction with the health status?
    Because it's sort of chilling when you realize, Senator, 
we're sitting here 10 years later. We're hearing the same 
litany of statistics, if not worse, in some cases.
    I believe the reason why the Native Hawaiian health care 
centers and that system has not been able to make the impact 
they need to is because we do not have individuals who are 
trained in both worlds.
    In other words, they have the technical skills and the 
cultural skills. We don't have enough of them to make that 
transition with the population out there.
    So what happens? It's easier when you have a grant to use a 
preformed set of protocols and say: This is how we treat 
substance abuse. Then impose that on this population. This is 
how we treat depression. This is how we treat this or that.
    That just doesn't jive for Native Hawaiians in a cultural 
way. I believe our research is one of the first research 
studies to really look at that question from an objective 
standpoint and, indeed, show evidence that that's what we're 
missing. We need to put that component in.
    One specific example I can give you of the success of that 
is the Hale Ko'o Pa--excuse me. It's the substance abuse 
program that I'm absolutely blocking on in Waianae for Native 
Hawaiians which Ho'oipo DeCambra oversees. Ho'o Mau Keola. 
Thank you. This is a marvelous program.
    What they did is they got the package deal from the Feds. 
They realized this was not working. It was a great 12 step 
program, well established nationally. But it wasn't working for 
their clients who kept coming back in a revolving door, 
predominantly Native Hawaiian clients from every socio-economic 
background throughout the State.
    What they did is they got cultural experts, and they 
reframed the 12 step program utilizing ho'oponopono stages and 
inputting through cultural experts traditional Native Hawaiian 
psycho-education, psycho-drama.
    Incredibly creative but culturally so appropriate. Their 
recidivism rate went from, I think they had a recidivism rate 
of about 60 percent.
    Within 2 years of implementing these changes and programs 
it went down to less than 1 percent. Those people are still out 
5 years later. This is an incredible change.
    This, I think, is an example of what can happen when you 
get qualified people. Because what the leaders did at Ho'o Mau 
is that they brought people with expertise on both sides, 
cultural experts and Western-trained doctors, experts, and then 
brainstormed together and produced the product that had both.
    I believe this is what this next phase of the Hawaiian 
Health Care Act really needs to look at and put monies into 
that particular area of focus.
    Senator Inouye. Your answers make me feel so good. Then you 
would say that your studies would support programs like 
language immersion?
    Dr. Andrade. Again, absolutely.
    Senator Inouye. What about the restoration of fishponds?
    Dr. Andrade. Oh, God. I could go on: Yes, yes, yes. 
[Laughter.]
    Senator Inouye. So we're on the right track?
    Dr. Andrade. Absolutely. Absolutely.
    Senator Inouye. So we're not wasting money?
    Dr. Andrade. Every time in our people's environment whether 
it's in our homes, outside our homes, walking to school, going 
to work, you see a fishpond that's restored that brings mullet 
and moi into the supermarket.
    When you have lunch wagons that serve Hawaiian plate 
lunches that are very healthful, what you're doing is you are 
reaffirming for that ethnic group that what they have is sound, 
it is nutritious, it is long lasting.
    It brings to a group of people the reaffirmation which is 
what culture is. If you think about it, what is culture? 
Culture is a means by which we reaffirm our sense of morality.
    It is that yardstick that a group has to measure what 
within itself makes it bigger than itself. And all of the 
physical and educational and social institutions that reinforce 
that concept only bring home again to the Hawaiian people that 
what you have is something very special, that we are not going 
to let go away.
    Senator Inouye. Thank you. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. It's 
delightful to hear what we've heard about our Hawaiian people 
and also to hear the problems that the Hawaiian people have.
    Coming back to the 64 percent, it's really unreal for me to 
think that any ethnic group would have that kind of statistic. 
I certainly want to have this confirmed, that may be in future 
hearings, to hear what has happened since all of these programs 
are in place.
    Pinky, I want to congratulate you and Papa Ola Lokahi in 
particular for your vision and what you're trying to do in 
understanding the Hawaiians, their problems and their future. 
With that that helps us to determine what we need to support 
your vision and your programs.
    I always felt that the Hokule'a was helping the Hawaiians. 
Because I believe that one of our problems that's deep-seated, 
Dr. Andrade, is that of self-esteem and pride. As you 
mentioned, even the plate lunch, it's self-esteem and pride 
when they feel, ``That's our own. It's good for us. It helps us 
to be healthy.'' I think we need to do more of this as we can.
    But first but what we're doing now is trying to understand 
what the Hawaiians are. Another part to this I'm interested in 
finding out--I think I'm certain that the surveys and 
statistics you have are--and maybe I'm wrong so correct me--are 
of the Hawaiians who live in Hawaii.
    What I am interested in knowing also is how do these 
compare with Hawaiians who live on the mainland. Also to look 
at that and to see if there is a difference, what difference it 
makes living in a different environment.
    From the Papa Ola Lokahi, Mr. Campos, I was interested in 
the CHIP program that you mentioned and especially mentioning 
how this was not used to its fullest.
    I would ask you is there something that we can do about 
that at the present time or it's just too late?
    Mr. Campos. It's not too late. We're still going to lobby 
in the State Legislature next year to make sure this program 
passes and the State keeps it going. We will be working with 
Dr. Anderson and the Legislature to make sure that it doesn't 
fall through. Hopefully it doesn't. It means a lot to the 
Hawaiian people, especially our children.
    Senator Akaka. I was also intrigued with your lifestyle 
modification part about nutrition and diet. I think basically 
this is another part of the Hawaiians that can certainly help 
their health. A Hawaiian word that we sometimes live by is ono. 
As long as it's ono we eat it. Sometimes it doesn't help us 
healthwise.
    Dr. Andrade, marvelous hearing from you always. And to hear 
the depths of your understanding of psychiatry and particularly 
your understanding of Hawaiians, and also telling us about the 
problems that Hawaiians have.
    I wondered whether--and I feel that at the bottom of all 
this is self-esteem and pride--whether anything is being done 
with the Department of Education along these lines to try to 
reach the Hawaiians in Hawaii?
    Dr. Andrade. I know from the high schools that we have 
worked on there is a profound dedication by top leadership in 
these schools to really perpetuate Hawaiian ethnic pride. They 
take it very seriously.
    I don't know if I could make the same statement statewide 
but I venture to guess that because most educators I mean I 
think, refreshingly to me, I found cared very deeply about the 
students they cared for and they teach. I mean I think 
overwhelmingly so. They very much welcome any kind of input.
    For example, one of the major things that our research 
group does for the school that we work in give annual workshops 
on dealing with Hawaiian issues, dealing with kids who may be 
threatening or just not in sync with the rest and how to get 
teachers who are recently recruited from the continent 
understanding and more fluent in the local culture. So I think 
that those things are happening as well.
    Senator Akaka. One interesting thing about your testimony, 
particularly, was when you mentioned about males, Hawaiian 
males seeking treatment by native healers. You mentioned that, 
I wonder in particular, what significance does this have?
    Dr. Andrade. The question is really a complex one. I'm not 
saying that by way of not answering you. But it's just that I 
think one of the major mistakes we can make when we try to 
shape public policy is to find the quick answer.
    Because obviously just the data I showed on the cultural 
scale and the native healers really showed us the depth to the 
whole role of culture that we hadn't even anticipated as 
scientists. It's a totally different point of view.
    Had we just kind of looked for, oh, great it's a risk 
factor or it's a protective factor, we really would have missed 
the entire boat which is the really major focus for culture is 
really on intervention and prevention strategies.
    It's not worrying about risk or protective factors. Take 
that then with why do boys choose then to go to traditional 
healers?
    I believe some highlight may be shown in one of the 
findings that we found in our Native Hawaiian culture scale. In 
that scale we have subscales of culture, cultural elements.
    For example, we have elements of spiritual religious 
beliefs and practices, lifestyle practices, things that kids 
get together and do.
    The example with lifestyles those are things like 
traditional opelu fishing, lohi farming, hunting, pig hunting, 
which is considered very much for Hawaiian young men and 
fathers very important part of the culture because it's food 
gathering practices, opihi, limu all of the things that you 
really have to sort of learn the ritual to get and gather these 
things.
    As opposed to the social activities subscale which is 
things like going to the Merry Monarch Hula Festival, listening 
to Da Kine radio station which is the most popular on O'ahu, at 
least, Hawaiian music station, and those kinds of activities 
that kids get together and a lot of kids do.
    What we find is that among the Native Hawaiian males they 
tended to--that were in trouble, that get into trouble--they 
tended to score much higher on the lifestyles.
    What that we think that indicates that developmentally 
they're at a stage that they're really, kids and adolescents 
are trying to sort of consolidate their behavior and their 
identity. That's where cultural identity becomes a major factor 
in that phase of development.
    What we believe is that among the Native Hawaiians males 
who really resonate towards the food gathering practices, that 
an extension, traditional healers basically who follow those 
rituals in gathering because you gather food and you gather 
herbs, and going out into the forest and learning about the 
forest when you hunt. You learn about the native remedies that 
are in the forest in case you get injured.
    How do you use fern, a fern poultice to stop the bleeding 
if you cut yourself from a boar.
    So what we think for these Hawaiian males which 
traditionally practice food gathering practices that they in 
fact will tend to go to traditional healers just by virtue of 
the environment that they are comfortable in.
    The traditional healers are comfortable in forests. They're 
comfortable in the ocean and sea where they gather a lot of 
their la'au.
    We believe this is the connection. Dr. Cathy Bell who is 
one of the young triple board residents, she will graduate next 
year, she was an honor student at Yale. She has already won two 
national awards for the research work is the first author of 
that people on native healers.
    Her plan is to go for a first time investigated grant to 
study this question more carefully so that we might be able to 
make some interventions for adolescents and families that are 
much more meaningful.
    Senator Akaka. Thank you so much for your response. Mr. 
Chairman, thank you.
    Senator Inouye. Representative Mink.
    Mrs. Mink. Thank you, Senator. I have a million questions. 
I know there's no time for all of them. I merely want to say 
how much I learned from your testimony today, some startling 
statistics like the Native Alaskan comparison with the Native 
Hawaiian expenditure.
    All of the questions having to do with Western medicine 
versus Hawaiian medicine, one that's more culturally relevant.
    It raises a question that I think would be helpful if we 
had it in the record if not today perhaps supplied, that is in 
the nonparticipation in Western medicine, which can cause some 
very serious complications for people who reject it.
    What is the ratio of participation in the Native Hawaiian 
community in Hawaii with respect to programs like Medicare? Do 
they participate? Do they not participate? Is the level of 
participation much lower in that program than the regular 
population? Are there some answers on that?
    Because that would surely be indicative of a criterion of 
need with respect to the Native Hawaiian community.
    Mr. Thompson. Congresswoman Mink, I'm not aware of any 
statistics at this point in time regarding the participation of 
Native Hawaiians in the Medicare program. But it's certainly a 
question that needs to be addressed, and we shall.
    Mrs. Mink. I think that outreach is always a problem. 
That's certainly the finding of Congress with reference to 
Children's Health Insurance Initiative, the CHIP program.
    It's really tragic that the State Legislature did not come 
up with the monies to match the $9 million which was made 
available by Congress.
    But there again, the level upon which the Native Hawaiian 
community would come forward and participate in even CHIP is 
something that I think bears watching.
    Maybe we might find that additional funding would be 
necessary in order to level off the participation in these 
generally available health related funds for the Native 
Hawaiian community. Thank you very much, Senator.
    Dr. Fukino. If I could respond to Representative Mink for 
just a while. The question of participation with programs like 
Medicare or any kind of health insurance I think is important. 
But it's also important to look at not just whether or not you 
have access to the program but whether or not you use it.
    One of the concerns that E Ola Mau has had is that there is 
I think a general feeling that the middle class Native Hawaiian 
is adequately cared for and looked after because they work and 
they carry health insurance.
    As a private practitioner I can tell you the cultural bias 
of Native Hawaiians are present even if you do have health 
insurance and own a house.
    E Ola Mau has looked at this data from a statistical 
standpoint. HHC data, Healthy Hawaiian Communities data that 
looked at where Native Hawaiians are socio-economically. We 
have identified what we call the Honolulu corridor which by 
ahupua'a definitions brought us east Hawaii all the way to the 
Ewa Plains.
    Native Hawaiians in this area are viewed as being okay 
because they are employed and they have health insurance. Yet 
when you look at the health statistic, death statistics and 
incidence of disease these Native Hawaiians also participate in 
the poor health status.
    So the concern that I think we as Native Hawaiian 
practitioners have is not just the accessibility but the use of 
these services.
    Senator Inouye. I'd like to thank all--yes?
    Dr. Andrade. Yes. I just want, Senator, to add onto my 
colleague's comments in terms of, for Representative Mink, the 
use of insurance and statistics.
    I believe if we look at the blood quantum issue you will 
find that the higher the blood quantum the worse the problems. 
Now, people might jump to the conclusion that there is 
something genetic because it's blood quantum.
    That, in fact, is not the case at least from what we are 
finding in our studies. What we found is that blood quantum had 
very little to do in terms of creating variance. In other words 
what accounts for the difference or changes that we find 
between one group and another, in this case Native Hawaiians.
    So it wasn't something genetic. In fact what we think has 
more to do with it is that most Hawaiians with higher blood 
quantums are in enclaves. And those enclaves like Nanakuli, 
Waianae, Keaukaha and so forth are in economically very 
depressed--Moloka'i is another predominantly Hawaiian 
community--very economically depressed communities.
    So, in fact, the causes are really social and economic 
rather than racial. I really wanted to make that point really 
clear.
    Because I think the economic trends which would presuppose 
somebody qualifying for Medicare, for example, really would 
show that trend as well.
    Senator Inouye. I thank you very much. It appears at this 
stage we will not be able to conclude our hearings at 12:00. 
But fear not, I'll be around.
    Our next panel consists of the director of the Native 
Hawaiian Health Scholarship Program, Dr. Sita Nissanka; Dr. 
Michelle Suber, Dr. Nanette Judd, Mr. Henry Auwae, Mr. 
Kawaikapuokalani Hewett, director of the Cultural Health 
Program. Waimanalo Health Center. I thank you all for 
attending.
    May I call on Dr. Nissanka. Will the witnesses come 
forward. Is Mr. Henry Auwae here? Oh, here. Now we can start 
with you. Is Mr. Hewett here? If not, I thank all of you for 
attending. May I call upon Dr. Nissanka.
STATEMENT OF DR. SITA NISSANKA, DIRECTOR, NATIVE 
            HAWAIIAN HEALTH SCHOLARSHIP PROGRAM, 
            KAMEHAMEHA SCHOOLS BISHOP ESTATE
    Dr. Nissanka. Senator Inouye, Senator Akaka, Representative 
Mink, and the staff. Can you hear me now?
    My name is Sita Nissanka. I'm the director of the Native 
Hawaiian Health Scholarship Program at Kamehameha Schools 
Bishop Estate. And I'm honored to be provided this opportunity 
to testify.
    The purpose of the Native Hawaiian Health Scholarship 
Program is to improve the health status of the Native Hawaiians 
by selecting Native Hawaiians for scholarships, to be trained 
in selected health professions, prepare scholarship recipients 
to deliver primary health care services to Native Hawaiians as 
well as disadvantaged and vulnerable populations in underserved 
communities.
    The Native Hawaiian Health Scholarship Program was 
implemented October 1, 1990 and is currently authorized by the 
Native Hawaiians Health Care Improvement Act.
    The program is funded through a cooperative agreement 
between the Public Health Service Division of Programs of 
Special Populations and Kamehameha Schools Bishop Estate.
    The Kamehameha Schools Bishop Estate is responsible for 
recruiting, screening, retention counseling and preparing 
students to give their services in health professional shortage 
and medically underserved areas.
    The program applicants must be Native Hawaiians, citizens 
of the United States and enrolled or accepted into accredited 
health professional training programs.
    The eligibility requirements are judged based on work 
experience, academic record, demonstrative interest in 
providing primary health care services, experience or interest 
in working with the Native Hawaiian population and knowledge of 
Native Hawaiian culture and values.
    The Hawaii State Primary Health Care Association is 
responsible for placing scholarship recipients after graduation 
and monitoring their services. The Federal Government directly 
awards and disburses the scholarship funds.
    The scholarship assistance includes full tuition, related 
educational expenses such as books and supplies, and other 
reasonable educational expenses as well as a monthly stipend of 
approximately $1,000. And this amount increases by 10 percent 
each year.
    The scholarship recipients are committed to a service 
obligation of 1 year of service for each year of scholarship 
assistance with a minimum of 2 years and maximum of 4 years.
    The obligated service requirement is fulfilled through 
services in order of priority in any one of the five health 
care, Native Hawaiian Health Care Systems, a health 
professional shortage area or medically underserved area 
located in the State of Hawaii or any geographic area or 
facility similarly designated by the U.S. Public Health Service 
in the State of Hawaii.
    The scholarship recipients are required to engage in full 
time clinical or non-clinical practice of the profession for 
which the scholarships were awarded.
    The total number of scholarship recipients to date is 92. 
Thirty-seven are currently in service. Sixteen of these health 
professionals have completed their services, service 
obligations and still remain in service in underserved areas.
    A detailed status report on scholarship recipients is also 
attached with the testimony.
    Scholarship recipients in training and in service are 
active participants in rural communities and in Native Hawaiian 
cultural activities, and have developed very innovative 
programs to get communities involved in their own health and 
disease prevention activities.
    I want to add this. Dr. Andrade's testimony mentioned 
several doctors in her triple board particularly Dr. Bell. 
These are our students. They have been. They are scholarship 
recipients now in medical school and going into residency.

                           prepared statement

    We have more and more Native Hawaiian medical students now 
interested in the mental health field because there is a great 
need and we do encourage that. Thank you very much.
    Senator Inouye. Thank you very much.
    [The statement follows:]
                Prepared Statement of Dr. Sita Nissanka
    Good morning, Mr. Chairman and distinguished committee members. My 
name is Sita Nissanka, Director of the Native Hawaiian Health 
Scholarship Program (NHHSP) at Kamehameha Schools Bishop Estate (KSBE). 
I am honored to be provided this opportunity to testify.
    The purpose of the Native Hawaiian Health Scholarship Program is to 
improve the health status of the Native Hawaiians by selecting Native 
Hawaiians for scholarships, to be trained in selected health 
professions, prepare scholarship recipients to deliver primary health 
care services to Native Hawaiians as well as disadvantaged and 
vulnerable populations in underserved rural communities.
                          program description
    The Native Hawaiian Health Scholarship Program was implemented 
October 1, 1990 and is currently authorized by the Native Hawaiian 
Health Care Improvement Act of 1992 (Public Law 102-396).
    The Program is funded through a cooperative agreement between the 
Public Health Service, Division of Programs for Special Populations and 
Kamehameha Schools Bishop Estate.
    Kamehameha Schools Bishop Estate is responsible for recruiting, 
screening, retention counseling and preparing students to give their 
services in health professional shortage and medically underserved 
areas.
    The program applicants must be Native Hawaiians, citizens of the 
U.S. and enrolled or accepted into accredited health professions 
training programs. The eligibility requirements are judged based on 
work experience, academic record, demonstrated interest in providing 
health primary care service, experience or interest in working with the 
Native Hawaiian population and knowledge of Native Hawaiian culture and 
values.
    The Hawaii State Primary Health Care Association is responsible for 
placing scholarship recipients after graduation and monitoring their 
services.
    The Federal Government directly awards and disburses the 
scholarship funds. The scholarship assistance includes full tuition, 
related educational expenses, such as books and supplies, and other 
reasonable educational expenses as well as a monthly stipend of 
approximately $1,000. This amount increases by 10 percent each year.
    The scholarship recipients are committed to a service obligation of 
one year of service for each year of scholarship assistance, with a 
minimum of two years and maximum of four years.
    The obligated service requirement is fulfilled through service in 
order of priority, in (1) any one of the five Native Hawaiian Health 
Care Systems, (2) a health professional shortage area or medically 
underserved area, located in the State of Hawaii or any geographic area 
or facility similarly designated by the U.S. Public Health Service in 
the State of Hawaii. The scholarship recipients are required to engage 
in full time clinical or non-clinical practice of the profession for 
which the scholarships were awarded.
    The total number of scholarship recipients to date is 92. Thirty-
seven (37) are currently in service, sixteen (16) of these health 
professionals have completed their service obligations and still remain 
in service in underserved areas. A detailed status report on 
scholarship recipients is attached.
    Scholarship recipients in training and in service are active 
participants in rural communities and in Native Hawaiian cultural 
activities and have developed very innovative programs to get 
communities involved in their own health and disease prevention 
activities.
STATEMENT OF DR. MICHELLE SUBER, RESIDENT, NORTH HAWAII 
            COMMUNITY HOSPITAL
    Senator Inouye. Doctor Suber.
    Dr. Suber. Senator Inouye, Senator Akaka and Representative 
Mink, it's a pleasure and an honor to present to you today the 
practice of Naturopathic medicine as it relates to Native 
Hawaiians.
    I have had the opportunity to be a resident at North Hawaii 
Community Hospital on the Big Island doing a program in 
integrated medical care during the past year.
    In the draft of the National Plan to Advance Integrated 
Health Care, three priorities have been identified: Fund the 
development of research infrastructure at the accredited 
naturopathic medical schools and programs.
    Provide funding to identify and replicate models of 
integrated care in which naturopathic physicians and other 
credentialed complementary and alternative providers 
participate on a level playing field with conventional 
providers.
    Eliminate the statutory and regulatory barriers to the 
participation of naturopathic doctors in the nation's Public 
Health Service.
    My relationship to the health of Native Hawaiians in 
particular has been primarily through private practice in 
naturopathic family care, as well as through work with four 
medical doctors on staff at North Hawaii Community Hospital.
    Based on my experience with caring for the Native Hawaiian 
population, it's essential that these national priorities set 
forth for safe, accountable and complete healthcare also be 
approached at a local level, participation in the nation's 
Public Health Service having the most immediate and profound 
effect for Native Hawaiians.
    Sensible places to begin are Hawaii's six sites designated 
as Health Professional Shortage Areas for primary care. These 
are: Hana/Haiku; Lana'i Island, Moloka'i Island, Puna; Ka'u and 
Hamakua.
    The people of Hawaii require competent care particularly in 
the treatment and very importantly, the prevention of certain 
chronic diseases. The application of the founding principles of 
naturopathic medicine, such as nutrition, exercise, and a 
healthy lifestyle, are critical. Native Hawaiians have 
impressive statistical rates of chronic degenerative diseases, 
such as cancer, hyperlipidemia, and diabetes mellitus.
    According to the 1996 study entitled, ``Creating a 
Surveillance System for Diabetes in Hawaii,'' approximately 
52,000 people in Hawaii have some form of diabetes.
    This is 48 percent higher than the national rate. The 
prevalence rate among residents of the Big Island is nearly 50 
percent higher than the statewide prevalence rate which appears 
to be related to the higher number of people of Hawaiian and 
part-Hawaiian ancestry on the Big Island.
    Obesity is also a major health issue in our State. The 
statewide average 21.8 percent for Native Hawaiian's and part-
Hawaiians it is 46.2 percent. This is from the ``Hawaii Health 
Performance Plan, Optimum Health for Hawaii's People.''
    Naturopathic physicians are licensed in twelve States to 
provide primary care medical services. The tenets of 
naturopathic medicine include the following: Treating the whole 
person, educating our patients in their own care, utilizing the 
healing power of nature and seeking and treating the cause of 
illness versus merely treating symptoms.
    Using science-based tradition we focus not only on the 
prevention of disease but also on the wellness and vitality of 
our patients and our communities.
    On our own accord we participate in all of the major models 
of accreditation and certification to certify our safety and 
accountability.
    There is a natural affinity in both goals and values 
between the naturopathic profession and the Public Health 
Service.
    The emphasis on prevention and training for self-care, the 
deep caring for the underserved and the systemic view of 
complex relationships among patient, family and society, these 
are aspects where the mutuality of goals and values become 
apparent.
    Opening the Public Health Service to naturopathic 
physicians will serve Native Hawaiians by increasing the scope 
of primary care and preventive services offered to the 
underserved.

                           prepared statement

    It will help the profession to be at the forefront of 
developing models of integrated service delivery. Thank you 
very much.
    Senator Inouye. Thank you very much, Doctor.
    [The statement follows:]
                Prepared Statement of Dr. Michelle Suber
the practice of naturopathic medicine as it relates to native hawaiians
    In the draft of the National Plan to Advance Integrated Health 
Care, three priorities have been identified:
    1. Fund the development of research infrastructure at the 
accredited naturopathic medical schools and programs.
    2. Provide funding to identify and replicate models of integrated 
care in which naturopathic physicians and other credentialed 
complementary and alternative (CAM) providers participate on a level 
playing field with conventional providers.
    3. Eliminate the statutory and regulatory barriers to the 
participation of naturopathic doctors in the nation's Public Health 
Service.
    During the past eleven months I have had the distinct honor of 
being the only naturopathic physician doing a residency program on the 
staff of a conventional hospital in the United States. My relationship 
to the health of Native Hawaiians in particular has been primarily 
through private practice in naturopathic family care, as well as 
through work with four medical doctors also on staff at North Hawaii 
Community Hospital on the Big Island. Based on my experience with 
caring for the Native Hawaiian population, it is essential that these 
national priorities set forth for safe, accountable, and complete 
healthcare also be approached at a local level, participation in the 
nation's Public Health Service having the most immediate and profound 
effect.
    Sensible places to begin are Hawaii's six sites designated as 
Health Professional Shortage Areas (HPSA) for primary care: Hana/Haiku; 
Lana'i Island, Moloka'i Island; Puna; Ka'u; and Hamakua.
    The people of Hawaii require competent care particularly in the 
treatment and very importantly, the prevention of certain chronic 
diseases. The application of the founding principles of naturopathic 
medicine, such as nutrition, exercise, and a healthy lifestyle, are 
critical. Native Hawaiians have impressive statistical rates of chronic 
degenerative diseases, such as cancer, hyperlipidemia, and diabetes 
mellitus.
    For example, according to the 1996 study entitled ``Creating a 
Surveillance System for Diabetes in Hawaii,'' approximately 52,000 
people in Hawaii have some form of diabetes. This is 48 percent higher 
than the national rate; the prevalence rate among residents of the Big 
Island is nearly 50 percent higher than the statewide prevalence rate 
which appears to be related to the higher number of people of Hawaiian 
and Part-Hawaiian ancestry on the Big Island. Obesity is also a major 
health issue of our state, the statewide average 21.8 percent, for 
native Hawaiians/Part Hawaiians it is 46.2 percent. (Hawaii Health 
Performance Plan, Optimum Health for Hawaii's People, draft 11/09/98.)
    Naturopathic physicians are licensed in twelve states to provide 
primary care medical services. The tenets of naturopathic medicine 
include the following: Treating the whole person, educating our 
patients in their own care, utilizing the healing power of nature, and 
seeking and treating the cause of illness (versus merely treating 
symptoms). Using science-based tradition, we focus not only on 
prevention of disease, but also on the wellness and vitality of our 
patients and our communities. On our own accord, we participate in all 
of the major models of accreditation and certification to assure our 
safety and accountability.
    There is a natural affinity in both goals and values between the 
naturopathic profession and the Public Health Service. The emphasis on 
prevention and training for self-care, the deep caring for the 
underserved, the systemic view of the complex relationships among 
patient, family and society--these are aspects where the mutuality of 
goals and values becomes apparent. Opening the Public Health Service to 
naturopathic physicians will serve Native Hawaiians by increasing the 
scope of primary care and preventive services offered to the 
underserved, and it will help the profession to be at the forefront of 
developing models of integrated service delivery.
STATEMENT OF HENRY AUWAE, KUPUNA LA'AU LAPA'AU O HAWAII
    Senator Inouye. Now may I call on Mr. Auwae.
    Mr. Auwae. Aloha, Senator Inouye, Senator Akaka, 
Representative Mink and your staff. I'd like to introduce 
myself. My name is Papa Henry Auwae. I'm head of all the La'au 
Lapa'au kupuna in the State of Hawaii and also traditional 
healers for, and teacher and instructor for 100 students from 
Hawaii, Moloka'i, O'ahu and also teach people from Ni'ihau, 
Kaua'i or Maui.
    I work with all ethnic group of people in treating and 
teaching the art of healing. I have, I was taught by my great 
great grandmother who was 114 years when she passed on. I 
started when I was 7 years old. I'm 93 years old now.
    I also have 16 children, 7 boys and 9 daughters. As of 
today I have 300 grandchildren, great grandchildren, and great 
great grandchildren.
    I come before this committee to support Papa Ola Lokahi for 
their endeavor in helping training and the group that I'm 
teaching for the last 5 years training people for la'au lapa'au 
healers.
    I have worked with 2,500 different kind of medicine, 
different kind of herbs. But the main training I have I learned 
from my great great grandfather it's spiritual learning.
    Spiritual learning is pule to help heal people. If you 
don't have a love for the people then it's not your business to 
heal people. You have to train, have compassion, have aloha, 
have all the making of learning and helping other people to get 
well.
    This is the things that I support Papa Ola Lokahi for their 
effort of helping me help other people in the healing process. 
Not only Hawaiians. I learned from my great great grandmother 
that God put all herbs on earth. He didn't say not only for 
Hawaiians but for all mankind. This is what I learned. This is 
what I pass on to my students.
    I have a lot of different type of people in my group. And 
we need more people to learn to teach, but people that have 
heart, that believe and a little bit head to think.
    You know today a lot of people they only think about money. 
But my days when I learned until today money doesn't come first 
to me. Health comes first. Life come first. Not the cost. But 
in today's world we need the kala. We need the money to go 
ahead with all the different trainings we have.
    I have also kupuna. I'm the head of all the kupuna la'au 
lapa'au in the State. But I have to work together with the 
Western doctors and make our kupunas realize that Western 
doctors' also a big help to our kupunas.
    Because the Western doctors they went to school, they know 
all about the different medicine, the different ways to help 
us. Sure, we know about Hawaiian medicine but we don't know 
everything. This is the kind of thing that we have to build a 
bridge between each group of people so that we understand each 
other.
    That's where the aloha come in. That's where we have to 
think for the life of the land and life of the people. We have 
to get a way for our Western doctors to help our kupunas.
    The bill 1946 that we were studying, I looked over last 
year and it came to us as kupunas to work on the bill and we 
had seven of the utmost kupuna in the State of Hawaii. And we 
acted on the bill. Took us several days but we came to a 
conclusion. And we gave the report to Papa Ola Lokahi. They 
will let the legislature know what the bill calls for.

                           prepared statement

    But, you know, for kupunas to make up and give license to 
any other people I don't think so it's right. The only person 
that give you license for any kind of healing is God. There's 
nobody that can tell us Hawaiians how to vote and how to tell 
us what medicine to use because these different people. We all 
have different directions, different way of healing. This is 
something that we have to really study hard to come to a 
conclusion of what that bill should be. Thank you very much.
    Senator Inouye. Thank you very much, Mr. Auwae.
    [The statement follows:]
               Prepared Statement of ``Papa'' Henry Auwae
    Aloha: My name is ``Papa'' Henry A. Auwae, master of laau lapaau, 
traditional herbal medicine. My genealogical line consist of healers 
and I am a seventh generation Hawaiian healer. I was trained by my 
great great grandmother at the age of seven and have been practicing 
la'au lapa'au for over 75 years. I am 93 years old and have been 
recognized, honored and acknowledged by the State of Hawaii as a master 
in la'au lapa'au. I am committed to maintaining the ways and methods of 
my ancestors and support efforts to perpetuate this Hawaiian 
traditional art. Presently, I am teaching 100 haumana (students) 
apprentice of different ethnicity in la'au lapa'au on the islands of 
O'ahu, Hawaii and Moloka'i. I am also Po'okela (master) of Kupuna Laau 
Lapaau O Hawaii, a non-profit organization of kupuna who are practicing 
this art statewide. I have intimate knowledge of over 2,500 herbs and 
in my lifetime have treated thousands of people from Hawaii and around 
the world with health problems such as cancer, diabetes, heart, HIV/
AIDS, broken bones, skin problems, etc. I do not charge for my services 
or for the la au (herbs), have worked with other indigenous healers and 
Western doctors and have participated in many conferences and 
workshops. Presently, I have an active patient load of approximately 
300 people and treat patients from all over the state on the islands of 
Hawaii, O'ahu and Moloka'i.
    As Po'okela I come before you to testify in support of the Native 
Hawaiian Health Care Improvement Act and its traditional Native 
Hawaiian healing practices amendments as recommended by Papa Ola 
Lokahi. I am very pleased with their continued support of my work and 
appreciate their efforts to help perpetuate all traditional Hawaiian 
healing practices. Within the last five years, we have lost many of our 
practitioners. It is imperative now that we must all work together 
unconditonally to make sure that our ancestors' knowledge is not lost.
    My great great grandmother taught me that la'au (herbs) was placed 
on earth for ALL mankind and our healing powers are from God. As one of 
a small group of traditional healers left, I offer my services to help 
our people and to this organization to assist in their objectives and 
goals relating to health and healing with all the knowledge that I was 
taught by my great great grandmother.
    In 1998, the 19th State Legislature passed Senate Bill 1946, 
Relating to the Practice of Medicine, and the Governor signed it into 
law as Act 162 on July 14, 1998. This act clarifies that those 
individuals of Hawaiian ancestry who are practicing traditional 
Hawaiian healing including, but not limited to, la'au lapa'au, la'au 
kahea, lomilomi and ho'oponopono and who have attained a high level of 
proficiency as determined by their respective Hawaiian teacher(s) are 
exempt from state licensure for practicing medicine. It further 
directed Papa Ola Lokahi to convene a panel of traditional native 
Hawaiian healers to address issues and recommend legislation relating 
to the permanent implementation of the purpose of this Act, 
specifically to discuss the question of ``recognition'' and 
``certification'' of practitioners.
    As culturally appropriate, seven respected master kahuna and their 
kako'o (assistants) were invited to discuss this issue at the King 
Kamehameha Hotel from October 29-31, 1998. I was elected chairman of 
this Council and after several kukakuka sessions, we agreed that the 
Almighty, known as Akua, 'Io or God is the source of our healing gifts 
and that while we are grateful that the Legislature has passed this 
Bill, the blood quantum, licensure and certification issues raised in 
the legislation are inappropriate and culturally unacceptable for 
government to ascertain. These are the kuleana of the Hawaiian 
community itself through kupuna who are perpetuating these practices. 
It is important that we, as master practitioners, continue to protect 
and control our own traditional healing practices.
    Mahalo for this opportunity to testify.

    Senator Inouye. Dr. Nissanka, you've had 92 recipients of 
the scholarship grants. Are you satisfied with the quality of 
recipients?
    Dr. Nissanka. Yes, we are. We have to work really hard with 
some of the students who come from dysfunctional families and 
also disadvantaged backgrounds.
    We work, we monitor them very closely and we have a ranking 
committee who rank the students once when they apply, and see 
that we take the appropriate students who are really committed 
to the profession as well as serving the Native Hawaiians.
    So far we haven't had, we have had only one student who was 
asked to leave the medical school. One student passed away. One 
student through religious beliefs and family perhaps had to 
give up his studies after one summer. We haven't had any 
dropouts from the program.
    We do counselling, extensive counselling as well as we give 
in-service training and seminars and workshops with students 
after school, in the evenings. And we bring the community 
leaders and health professionals and from the Department of 
Health, and from the university to speak to the students so 
that they get additional information to prepare them to go to 
areas that really needs their services.
    We have four students with Papa Henry. This is their second 
year of training on herbal medicine, and none of them have 
dropped out. They have been diligently following his classes.
    Most of the students that have been placed are doing and 
have developed very innovative programs in Hau'ula and in 
Kahuku. Also we have students in Hana and Lana'i and Moloka'i, 
all the islands at the moment.
    Senator Inouye. Are there sufficient numbers of the 
students to justify an increase in funding for scholarship 
grants?
    Dr. Nissanka. We are, we hope we could give more 
scholarships to students this year. We only got eight students 
with this current year 1999-year 2000 scholarship grantees. We 
had over 30 and they selected eight students because, of 
course, the limitation of funding is concerned.
    But I would very much like to add, other than primarily 
health care services fields, maybe some occupational therapist, 
physical therapists. We have an aging population, an aging 
Hawaiian, aging population needs to be taken care of. Those who 
will major in gerontology and also some speech therapists 
because we heard a number of students, school children who have 
otitis media tend to drop out of school.
    We need to take care of the younger generation. So we wish 
we could have a few more health professionals added to the list 
that we have now. These are the ones that I mentioned most 
important.
    Now there is a new program in Hawaii. It's accredited and 
licensed. It's a master's degree in family therapy. It's from 
the Professional School of Psychology. We hope to take some 
students if the Federal Government accept that field of study.
    Senator Inouye. Thank you. Dr. Suber, about 28 years ago a 
national study indicated that Americans were spending on a per 
capita basis about $1,500 per person man, woman and child for 
curative medicine, and at the same time 50 cents per capita for 
preventive medicine.
    Are we spending enough for prevention here in Hawaii?
    Dr. Suber. Well, I think that prevention is the most, one 
of the most important areas that we can spend more. I don't 
have the figures with me right now but I can research those for 
you and present them to your committee on exactly how much 
Hawaii is spending on preventive care.
    I believe that our priorities really should be funneled 
into preventive care because what you'll be able to--well, 
there are some studies that suggest that preventive care will 
save a great deal of money in the long run. More studies need 
to be done to determine that that indeed is so.
    Then that would be in my opinion our first step to really 
take a good look at what is really working. Then put all that 
we can, not only into prevention but into what it will take for 
individuals to be vital, to take the next step beyond just the 
absence of illness and to take the next step what will it take 
to have vitality and total wellness that involves the physical 
body the spiritual body the mental and emotional body as well.
    Senator Inouye. Thank you, very much. Mr. Auwae, you have 
given credibility to our effort in adding native doctors and 
native healers to the Native Hawaiian health bill. As you know 
you've made history by becoming the first participant in the 
native healing process.
    We're extremely proud of the work you're doing. How many 
Native Hawaiian men and women are participating in your program 
at this time?
    Mr. Auwae. Right now I have 100 students. I have patients 
that I see from O'ahu here, 300, and 100 from the outer 
islands, Moloka'i and Hawaii. I have also all the kupunas in 
the State of Hawaii, that's in the group that I have with less, 
about 10 of them died from 1989 to this year. Ten of the top 
healers.
    But as of today we have about 30 of them. The ages run from 
70 to 90 years old. They are, they come from Ni'ihau, Kaua'i, 
Moloka'i, Lana'i, Maui, and Hawaii. Scattered all over.
    As I said we need to train people now, people that want to 
learn, but the training is going to take at least 5 years so 
you can make sure that the person is qualified to work with 
people and not take their life.
    People that can learn and study hard and make sure that the 
methods they use for a person is the right medicine. Because 
right now I'm treating a lot of cancer patients, a lot of 
heart, a lot of diabetic people. A lot of diabetic people in 
Moloka'i. A lot of people that are under alcohol, a lot of 
people that have bad habits of drugs. People that are matured 
very matured. What I mean very matured people 70 years old on 
drugs and the young children about 6 or 7 years.
    This is the kind of thing that we'd like to, I like to work 
with and treat the young people with herbs that can prevent 
them from taking any more drugs. But a lot of time I like to do 
the prevention work with a child but the parent don't want 
their children to go through that kind of involvement to detox 
them from drugs.
    In Hawaii we have medicine to do that and they never want 
to take no more drugs anymore. We know how to do it. But, 
again, I don't have the authority to do it.
    I have used certain herbs to make people stop smoking. One 
day from the first day they start smoking they don't want to 
smell no cigarette again. But it's something that we have to 
take care and watch what you're doing.
    People that I can train and people that is willing to take 
a responsibility. Same with any other medicine, any other 
problem, cancer, treating cancer, heart problem. Diabetic. 
Diabetic is hard to take care, very hard.
    But other type of problem, broken bones. I worked with a 
lot of people with broken bones. I work with people, thousands 
of people not only from Hawaii but from all over the world. 
People from Germany, the South Pacific. I have traveled. I 
traveled to Japan several times. I helped the elders that came 
here, medicine people. We exchange our views of different 
medicines.
    They invited me to Japan. I went to Japan. I like their 
way. They have their medicines the way they believe, a lot of 
spiritual. This is the kind of people I wan't to work with. 
Spiritual.
    Senator Inouye. Thank you very much, Mr. Auwae. Senator 
Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. Dr. 
Nissanka, I was particularly interested in the obligated 
service that has to be rendered by the recipients of the 
scholarships.
    I see where they may spend 1 year, even up to 2 years doing 
this. One thing in this obligation service are they 
compensated?
    Dr. Nissanka. Yes. They get paid salaries like any other 
health care professional. Many in some areas, doctors in the 
community health clinics may not get as much as you'd get in 
Straub Clinic or Queen's Hospital.
    The purpose of the program is to encourage students to work 
for less salaries if they can possibly do it because some of 
the clinics don't have that much money to pay.
    But they do. They get paid substantially going rate most of 
the areas. Except maybe some of the doctors who have to go into 
remote clinics, their funding is not as good as in most 
hospitals where they do a lot of research. But so far they have 
been paid.
    Senator Akaka. Dr. Suber, you point out that prevention is 
of the highest priority for chronic diseases and in particular 
in areas of nutrition, disease, health style, lifestyles.
    Is there any other area besides those that you deal with?
    Dr. Suber. Yes. The other modalities the naturopathic 
physicians are trained in are botanical medicine, homeopathy, 
hydrotherapy, clinical nutrition, as I mentioned, lifestyle 
counseling and natural childbirth.
    Senator Akaka. Have you done any studies or completed any 
studies dealing with Native Hawaiians and naturopathic 
medicine?
    Dr. Suber. Well, this particular year that I'm doing in 
residency with the four medical doctors that I work with serves 
as quite a pilot program for just that.
    So we are keeping detailed records at this point of all of 
the patients that I see. We're gathering as much data as we can 
about really what makes the difference and what level of 
integrated care really makes a difference in the areas that 
count. We're working on that right now. But no studies are 
complete at this time.
    Senator Akaka. Po'okela Auwae or Papa Auwae, we're 
certainly happy to have you here to testify before this 
committee. You are a giant, in my opinion, in Hawaiian health. 
You've helped thousands of people as you pointed out not only 
in Hawaii but elsewhere.
    I just wish that, you know, more Hawaiians or young 
Hawaiians can also attain your kind of stature in healing.
    As you point out it's very deep. It's very spiritual. You 
draw on the gods as well as nature in prescribing your kind of 
medicine to help people.
    We heard from Dr. Andrade on the positive effect of culture 
on the health of Native Hawaiians. Have you had any opportunity 
to work with young Native Hawaiians in traditional practices?
    Do you have any suggestions as a kupuna to incorporate 
culture into health care?
    Mr. Auwae. Yes. That's my main objective is to train young 
people. Right now, as I said, I have 100 students that we 
already assigning patients to them. You name it, what kind 
Japanese, Filipino, Hawaiians, Haoles I have those. Men, woman, 
we have all those. Young people up to older people.
    They train. They use protocol. They use all the learning 
that they have from me. When I started the classes 5 years ago 
I wanted to make sure that this class is ready for the year 
2000. So if anything happen during that time we have people 
that can help whatever disaster or whatever help can be brought 
forward to anyone that need help. That you don't have to spend 
your kala because these people will work and will do what they 
have trained to do.
    Your heart and your pu'uwai have to be pono. If not, I 
won't allow these people to touch any patients. No. They're 
here to save life, not to destroy life. This is what we 
believe. This is what we practice. Not to destroy but to save, 
save life, pule, spiritually. This is very, very important.
    Eighty percent of healing I believe is spiritually, 20 
percent la'au, herbs. This is the way I train the people that 
it's also by direction. That's why I say we need people that 
can learn.
    There's a lot of people that walking the streets they tell 
you they la'au lapa'au people, they make medicine. By God if 
you use those medicines you're gonna die. They don't know the 
difference from internal medicine and external medicines.
    Hawaiians they have that. Hard to kahi you know where you 
eha. When you get hurt over here above the elbow you don't kahi 
where the hurt is. You kahi below the, below the place that 
hurts you.
    When a person have broken bones you can feel where the 
bone's cracked or broken. You put the la'au on top. But pule. 
Kapa practice the same thing. You put the la'au on top, you 
give chance. Five days the person can walk.
    When I made compound fracture this is the kind thing we 
believe in. This is the kind of thing I teach.
    Senator Akaka. My last question, Mr. Auwae. Do you depend a 
lot of pule and also upon the natural resources and probably 
much on plants?
    Mr. Auwae. Yes.
    Senator Akaka. Trees?
    Mr. Auwae. Barks.
    Senator Akaka. How prevalent is that? Are we having 
trouble?
    Mr. Auwae. Yes, we having a lot of trouble in acquiring a 
lot of the medicines in our forests, in the areas that we like 
to get. Very scarce. Some of the medicine we have I go up Mauna 
Loa get. They grow around the Silver Sword Tree. That's the 
kind ihi kuahiwi. It's dark, got a dark purple. No leaves. No 
nothing. Just wiry. That kind of medicine that we use for 
cancer, certain cancer. It's sure cure.
    Well, that, some other medicines in the ocean too you know, 
you have to dive. You have to go get it. Dive in the ocean, go 
in the caves. It's all over the place. But you have to go.
    This kind things I like to teach by young people. You be 
surprised the kind of people we have. They are people that have 
a lot of faith, a lot aloha for humanity, not because they 
haole on Kepani or Filipino you're going to put them on the 
side and say no, no.
    They one of the best students because they want to learn 
and they learn from the heart and they give you all the help. 
They go out of their way to have a lot of love.
    Senator Akaka. Mahalo nui loa. Thank you very much.
    Mr. Auwae. Mahalo kakou.
    Senator Inouye. Thank you, sir. Representative Mink.
    Mrs. Mink. Thank you, Mr. Chair. Papa Auwae, you certainly 
have a remarkable power and you serve as the inspiration to 
many people for whom you're not only legendary but have a 
phenomenal reputation.
    I know that your belief in faith and spirituality and 
culture and healing is the reason for your phenomenal power.
    Now, how many others in Hawaii today have that same belief 
and capacity and are able to take on the training and 
inspiration of other people as you have or as you are doing 
today?
    Mr. Auwae. Right offhand I can tell you only one.
    Mrs. Mink. Only one other?
    Mr. Auwae. Only one other? He come from Ni'ihau.
    Mrs. Mink. He's on Ni'ihau now? How old is he?
    Mr. Auwae. In the eighties.
    Mrs. Mink. Eighties?
    Mr. Auwae. Late eighties.
    Mrs. Mink. My goodness. How many young people have you been 
able to successfully inspire in continuing on in your 
methodology?
    Mr. Auwae. I have, right now I have a 100 of them that I 
can pick for any island and assign anyone to them.
    Mrs. Mink. Before the 100 did you have any before this 100?
    Mr. Auwae. I only had one. That's the one from Ni'ihau. The 
rest of them have died. They keep on dying because the 
medicines that they took to help themself for prevention killed 
them, medicines that they shouldn't have taken, medicines I 
told them not to take.
    They say, ``No problem, Papa Auwae. I know how to do it.'' 
But it didn't take more than 3 years after they took that kind 
of medicine they died. One island. Ten of them died.
    From the other islands two died but they died of old age. 
But 10 from one island they, the others that did not learn to 
listen, they died. For those people, the younger people they 
learn, they get afraid.
    But we have people that after so many years working with me 
they like to try the other medicines that I don't want anyone 
to try. No. You only try it once and that's enough.
    That type of herbs that you take will stay in your body. It 
makes your body calm. You can take, you can feel very calm, 
nothing happening. But it's eating up your body inside. It eats 
up your liver, it eats up your lungs and the heart. The heart 
is the last thing it starts eating. By the time you know, too 
late.
    Every one of them when they died, they called me and told 
me, ``Papa Auwae, I seek you can come pule for me?'' I said, 
``Yes, I can come pule for you but I cannot help you.''
    But it's a waste when you have that kind. It broke my 
heart. My heart cry inside because you teach them, you share 
with them all these things, but they don't take heed, you know.
    This is what I like to get the young people to train.
    Mrs. Mink. Thank you very much, Mr. Chairman. Appreciate 
it.
    Senator Inouye. Thank you. Thank you, doctors. Thank you, 
Henry.
    Mr. Auwae. Mahalo.
    Senator Inouye. Now we'll begin with another panel. The 
chair of the Native Hawaiian Education Council, Mr. Stanley 
Kiope Raymond; director, University of Hawaii Community 
College, Mr. Thomas Kamuela Chun; director of the Native 
Hawaiian Higher Education Program, Ms. Nani Espinda; and 
director of the Na Pua Noeau Center for Gifted and Talented 
Hawaiian Children, University of Hawaii Hilo, Dr. David Sing.
    Before I call upon Mr. Raymond, I thought you'd like to 
know what led me to sponsoring legislation on Hawaiian 
education.
    About 30 years ago I was invited to address the student 
council of the Nanakuli High School. While there I learned that 
there wasn't a single Native Hawaiian teacher on the faculty. 
The closest was a basketball coach who was half Samoan.
    There was no special education course in Native Hawaiian 
history. However, there was a class after school conducted by a 
very inspiring teacher, but of Filipino ancestry, who used as 
her textbook James Mitchner's ``Hawaii'' because no textbooks 
were available.
    The only Native Hawaiians employed at the school were 
janitors and those who worked in the kitchen. I just hope that 
the situation has changed. Mr. Raymond.
STATEMENT OF STANLEY KIOPE RAYMOND, CHAIR, NATIVE 
            HAWAIIAN EDUCATION COUNCIL
    Mr. Raymond. Mahalo. Aloha mai, Senator Inouye, Senator 
Akaka, Representative Mink. I am pleased and honored to testify 
before you today in my capacity as Chair of the Native Hawaiian 
education council.
    By way of introduction, the Native Hawaiian education 
council is a community-inspired, federally-established entity 
comprised of Native Hawaiian educators, administrators and 
community members.
    The council was created by the U.S. Congress under the 
Native Hawaiian Education Act amendments of 1994 to: Coordinate 
the educational and related services and programs available to 
Native Hawaiians.
    Assess the extent to which such services and programs meet 
the needs of Native Hawaiians.
    Provide direction and guidance through the issuance of 
reports and recommendations to appropriate Federal, State, and 
local agencies in order to focus and improve the use of 
resources funding of Hawaiian education.
    The act requires the council to be made up of not more than 
25 members of Federal, State, and private educational 
organizations serving Native Hawaiians including Pihana Na 
Mano; Na Pua No`eau, `Aha Pumana Leo; Queen Liliu'okalani 
Childrens Center, Kamehameha Schools Bishop Estate, the Office 
of Hawaiian Affairs, Alu Like and the State Department of 
Education.
    In addition in order to ensure adequate island and 
community input, the law authorized the creation of island 
councils on Hawaii, Maui and Lana'i, Moloka'i, Kaua'i and 
Ni'ihau and O'ahu, guaranteeing each island council a seat on 
the council.
    Over the course of the last 2 years the council has met on 
a bi-monthly basis and has held two annual retreats resulting, 
in part, in the development of three goals.
    The first to empower and support communities in the 
development of successful Hawaiian educational programs.
    Second, to improve the experiences of Native Hawaiians 
especially those within the public school system through 
institutional change.
    Third, to establish a Native Hawaiian educational system. 
Native Hawaiian children and youth represent the largest single 
ethnic group in Hawaii's schools and their numbers are growing.
    Although Native Hawaiians comprise 19.3 percent of the 
population of the State of Hawaii they comprise over 25 percent 
of the public school population.
    Unfortunately, statistics have also repeatedly shown that 
Native Hawaiians do not fare well under the current public 
educational system. In achievement tests of basic skill, Native 
Hawaiians students perform below national norms than other 
groups in Hawaii.
    For example, in 1991, on SAT scores for math, Hawaiian 
sixth graders scored at the 47th percentile, compared to 
Filipinos at the 57th percentile, Caucasians at the 71st 
percentile and Japanese students as the 85th percentile.
    Native Hawaiian students rank highest in terms of alcohol 
and drug abuse in the State, and Native Hawaiians experience 
higher than normal dropout rates. Native Hawaiians represent 35 
percent of students with needs in special education, with 
representation in one district reaching 48 percent.
    Low self-esteem is a major contributor to these statistics 
as we've heard from Dr. Naleen Andrade. How the educational 
system, their teachers, counselors and administrators view 
Native Hawaiian students, how other children view them, and 
ultimately how they view themselves.
    However, programs funded under the Native Hawaiian 
Education Act have shown that when Hawaiian language, culture, 
and values are infused into the system, when programs are 
culturally relevant and community-based, then Native Hawaiians 
students can and do excel.
    Unfortunately, while programs funded under the Native 
Hawaiian Education Act have had a substantial meaningful impact 
on the lives of thousands of Native Hawaiian children and 
families, much work needs still to be done.
    Early education and care and beginning reading and literacy 
are two areas identified as needing more resources.
    Once upon a time, Native Hawaiians were among the most 
literate people in the world, a reflection of the high value 
traditional Hawaiian society placed on education and learning.
    In 1840, our ali'i Kamehameha III, had the foresight to 
establish a public school system which was taught entirely in 
Hawaiian.
    Two weeks ago thousands of indigenous peoples from all 
across the globe converged in Hilo, HI for the 5th tri-annual 
World Indigenous Peoples' Conference on Education. The 
conference theme was ``Aia Na Ha'ina i Loko o Kakou--the 
Answers Lie Within Us.''
    We know where we have been, what our kupuna have taught us. 
We have borne witness to what has not worked and what has 
inhibited the growth and success of our children.
    Aia na Ha'ina i Loko o Kakou. We know what works and what 
we must do to effectuate change and create meaningful 
educational environments.

                           prepared statement

    With your support we look forward to continuing this 
partnership with the Federal Government to improve and enrich 
the lives of our Hawaiian children.
    Mahalo no for your commitment to the Hawaiiana community 
and especially to Native Hawaiian education.
    Senator Inouye. Thank you very much, Mr. Raymond.
    [The statement follows:]
              Prepared Statement of Stanley Kiope Raymond
    Aloha mai, Senator Inouye, Senator Akaka, Representative Mink, and 
Representative Abercrombie. I am pleased and honored to testify before 
you today in my capacity as Chair of the Native Hawaiian Education 
Council.
    By way of introduction, the Native Hawaiian Education Council is a 
community-inspired federally-established entity comprised of Native 
Hawaiian educators, administrators, and community members. The Council 
was created by the U. S. Congress under the Native Hawaiian Education 
Act Amendments of 1994 to:
  --coordinate the educational and related services and programs 
        available to Native Hawaiians,
  --assess the extent to which such services and programs meet the 
        needs of Native Hawaiians, and
  --provide direction and guidance, through the issuance of reports and 
        recommendations, to appropriate Federal, State and local 
        agencies in order to focus and improve the use of resources on 
        Native Hawaiian education.
    The Act requires the Council to be made up of not more than 25 
members of federal, state, and private educational organizations 
serving Native Hawaiians, including Pihana Na Mamo; Na Pua No'eau; `Aha 
Punana Leo; Queen Liliu'okalani Childrens Center; Kamehameha Schools/
Bishop Estate; the Office of Hawaiian Affairs; Alu Like; and the State 
Dept. of Education (DOE). In addition, in order to ensure adequate 
island and community input, the law authorized the creation of island 
councils on Hawaii, Maui/Lana'i, Moloka'i, Kaua'i/Ni'ihau, and O'ahu, 
guaranteeing each island council a seat on the Council.
    Over the course of the last 2 years, the Council has met on a bi-
monthly basis and held two annual retreats, resulting, in part, in the 
development of three goals: (1) to empower and support communities in 
the development of successful Hawaiian educational programs; (2) to 
improve the experiences of Native Hawaiians, especially those within 
the public school systems, through institutional change; and (3) to 
establish a Native Hawaiian Educational system.
    Native Hawaiian children and youth represent the largest single 
ethnic group in Hawaii's schools and their numbers are growing. 
Although Native Hawaiians comprise 19.3 percent of the population of 
the State of Hawaii, they comprise at least 24 percent of the public 
school population.
    Unfortunately, statistics have also repeatedly shown that Native 
Hawaiians do not fare well under the current public educational system. 
In achievement tests of basic skill, Native Hawaiian students perform 
below national norms and other groups in Hawaii. For example, in 1991, 
on, SAT scores for math, Hawaiian sixth graders scored at the 47th 
percentile, compared with Filipinos at the 57th percentile, Caucasians 
at the 71st percentile, and Japanese students at the 85th percentile. 
Native Hawaiian students rank highest in terms of alcohol and drug 
abuse in the state, and Native Hawaiians experience higher than normal 
drop out rates. Native Hawaiian are also over-represented in special 
education, with representation in some districts exceeding 36 percent.
    Low self-esteem is a major contributor to these statistics--how the 
educational system, their teachers, counselors, and administrators view 
Native Hawaiian students, how other children view them, and ultimately, 
how they view themselves. However, programs funded under the Native 
Hawaiian Education Act have shown that when Hawaiian language, culture 
and values are infused into the system--when programs are culturally-
relevant, and community-based, then Native Hawaiian students can and do 
excel.
    Unfortunately, while programs funded under the Native Hawaiian 
Education Act have had a substantial meaningful impact on the lives of 
thousands of Native Hawaiian children and families, much work still 
needs to be done. Early education and care and beginning reading and 
literacy are two areas identified as needing more resources.
    Once upon a time, Native Hawaiians were among the most literate 
people in the world--a reflection of the high value traditional 
Hawaiian society placed on education and learning. In 1840, our ali'i, 
Kamehameha III, had the foresight to establish a public school system 
which was taught in Hawaiian. Two weeks ago, thousands of indigenous 
peoples from all across the globe converged in Hilo, Hawaii for the 
fifth tri-annual World Indigenous Peoples' Conference on Education. The 
conference theme was ``Aia Na Ha'ina i Loko--Kakou--the Answers Lie 
Within Us.''
    We know where we have been, what our kupuna have taught us. We have 
born witness to what has not worked, and what has inhibited the growth 
and success of our children. Aia na Ha'ina i Loko o Kakou--we know what 
works, and what we must do to effectuate change and create meaningful 
educational environments. With your support, we look forward to 
continuing this partnership with the federal government to improve and 
enrich the lives of our Hawaiian children. Mahalo no for your 
commitment to the Hawaiian community and especially to Native Hawaiian 
Education.
STATEMENT OF THOMAS KAMUELA CHUN, DIRECTOR, UNIVERSITY 
            OF HAWAII COMMUNITY COLLEGE
    Senator Inouye. Mr. Chun.
    Mr. Chun. Aloha, Senator Inouye, Senator Akaka, 
Representative Mink, and to your staff, aloha no kakou.
    Thank you for the opportunity to testify today in support 
of the Native Hawaiian Community Based Educational Learning 
Centers. I'm here on behalf of Joyce S. Tsunoda, Sr. Vice 
President for the University of Hawaii and Chancellor for the 
Community Colleges.
    My role in this is as the director. I'm the statewide 
director within the community colleges for the Native Hawaiian 
Community Based Education Learning Centers.
    With funds provided we have established centers at Hawaii, 
Kaua'i, Leeward, and Maui Community Colleges. These centers 
have the responsibility to coordinate and deliver islandwide 
services and activities. Administration is coordinated through 
the Office of the Chancellor for Community Colleges.
    The need for community-based programs was identified and 
called for at both the 1993 and the 1997 Native Hawaiian 
Education Summits. As you've just heard, additionally in 1997 
the statewide Native Hawaiian Education Council set forth those 
three goals that Kiope Raymond just mentioned.
    They are to empower and support communities in the 
development of successful Hawaiian educational programs. To 
improve the experiences of Native Hawaiians especially those 
within the public school systems through institutional change. 
And to establish a Native Hawaiian educational system.
    As the council itself is not charged with nor funded for 
direct implementation of programs and services, the Native 
Hawaiian Community Based Centers' goals, activities and 
services are designed to complement and support these goals of 
the Native Hawaiian Education Council.
    Meeting these goals and the success of activities and 
services offered are in a large part due to the collaborations 
and partnerships developed by each center in their respective 
community and private organizations.
    Each center solicits input from members of an islandwide 
community advisory group in the development of activities and 
services. And in this manner we see Native Hawaiian communities 
are becoming more active in controlling their educational 
destiny.
    Additionally, with the centers housed within the community 
colleges, these centers have become an open door welcoming 
Native Hawaiians into higher education.
    Significant progress has been made at each of the centers 
in the delivery of a wide variety of activities and services 
that increase the educational opportunities for Native 
Hawaiians.
    This year alone over 4,500 Native Hawaiian participants 
engaged in activities and services provided through the four 
centers around the State of Hawaii. Participants vary in age, 
from youth to kupuna, at-risk youth, incarcerated Native 
Hawaiians, native speakers, non-native speakers and rural and 
urban Hawaiians.
    Given the parameters of the program and the intent of the 
grant, a wide variety of educational activities and services 
are offered much of which are culturally-driven, community-
based and family oriented.
    These activities provide the foundation upon which Native 
Hawaiians can build upon in the movement towards self-
determination.
    Some of the activities and services include things like: 
computer literacy courses delivered in various communities. 
Language courses delivered out in the communities. Financial 
assistance to overcoming barriers to higher education.
    Summer bridge programs bringing students into higher 
education and continuing education. There are things like 
construction management programs.
    The Native Hawaiian Community Based Educational Learning 
Centers was also involved in coordinating the Native Hawaiian 
Education Summit. We have activities for the recruitment of 
teachers especially on the island of Maui. Teacher training. 
There's a wide variety of activities, as I mentioned, that we 
have been involved in. And those activities, some of those 
activities--those activities are listed in an annual 
performance report that I've submitted as part of our 
testimony.
    As I said most of these activities are conducted out in the 
community. And these activities have been well received. In 
fact there are a waiting list for some of these activities, in 
particular the language courses. That continues to be a great 
interest in the Hawaiian language learning Hawaiian.
    The Native Hawaiian Community Based Educational Learning 
Centers have and will continue to have a great impact on Native 
Hawaiian community. The Centers' educational activities and 
services provide a broad foundation upon which Native Hawaiians 
are able to build, strengthen, and elevate their academic, 
spiritual, social, political and economic skills.
    From activities that include the revival of ancient arts 
like canoe culture, holua sledding, to participation in cutting 
edge technology, computer training, graphic designs, Native 
Hawaiian participants are acquiring skills and knowledge 
applicable in today's society.
    With the integration of culture, there is also a renewed 
pride and esteem, not just in one's self but in one's 
community.
    Participants continue to express their appreciation for 
what is offered through the Native Hawaiian Community Based 
Education Learning Centers. As I mentioned, I share with you 
the portion of our annual narrative report we submitted to the 
U.S. Department of Education. The report provides detailed 
progress made over this past year.
    On behalf of Dr. Tsunoda, we ask for your continued support 
and approval of funds to continue the work of the Centers as we 
seek to increase the educational opportunities for Native 
Hawaiians to engage, develop, and enhance their economic and 
social status in the State of Hawaii.
    I anticipate Native Hawaiians' participation in Center's 
activities will increase. Thank you very much. Aloha.
    Senator Inouye. Thank you very much.
    Ms. Espinda.
STATEMENT OF S. NANI ESPINDA, DIRECTOR, NATIVE HAWAIIAN 
            HIGHER EDUCATION PROGRAM KSBE
    Ms. Espinda. Good morning, Senator Inouye, and 
distinguished members. My name is Nani Espinda. I am the 
director of the Kamehameha Schools Bishop Estate Native 
Hawaiian Education Program.
    I am honored to be provided this opportunity to testify 
this morning.
    Kamehameha Schools Bishop Estate has administered this 
program from its inception in July 1989 until the present. The 
program continues to be successful in increasing the numbers of 
Hawaiian students enrolling in and completing college, 
developing innovative, proactive strategies which help 
fellowship recipients identify barriers to academic success and 
formulate solutions.
    Developing culturally appropriate support strategies such 
as including the student's family and significant others in the 
decision making and problem solving process.
    Incorporating culturally appropriate support strategies 
such as referring students attending mainland post-secondary 
institutions to a Kamehameha Schools college support member and 
Native Hawaiian organization such as the Hawaii Civic Clubs on 
the mainland.
    Establishing and maintaining partnership with the various 
post-secondary institutions in the State of Hawaii and on the 
mainland.
    Establishing and maintaining partnerships with the various 
Hawaiian communities and organizations in Hawaii and on the 
mainland.
    The goals of the Native Hawaiian Higher Education Program 
are:
    (1) To further the attainment of educational success among 
Native Hawaiians by providing fellowships and related services 
to post-secondary students at undergraduate and graduate 
levels.
    (2) To provide assistance and support to recipients to 
develop a sense of commitment to the Native Hawaiian community 
as they complete their service project responsibilities in 
Native Hawaiian communities in Hawaii and/or on the mainland.
    (3) To provide direction and guidance to secondary level 
Native Hawaiian students to focus on higher educational 
resources including access to post-secondary educational 
institutions, family and institutional support and financial 
aid resources.
    Throughout the four grant periods the higher education 
program has provided fellowship assistance and counseling 
support services to 194 Native Hawaiians enrolled at two-or 
four-year degree granting institutions of higher education in 
Hawaii and on the mainland with awards based on academic 
excellence and financial need.
    The program staff maintained a monthly contact with program 
recipients throughout the grant years focusing on retention and 
completion.
    Our programs use a counselling technique known as intrusive 
or proactive counseling as opposed to reactive counseling. This 
technique, as applied to the special needs of Native Hawaiian 
students is a critical component in retention counseling.
    The constant close monthly contacts with the program staff 
provide the students with support needed for success. The 
Native Hawaiian Higher Education Program has established and 
maintained a network of support services at post-secondary 
institutions and Hawaiian organizations in Hawaii and on the 
mainland.
    The need to expand a network of support and identify Native 
Hawaiian organizations, programs and communities in States, 
districts, and counties where program recipients were enrolled 
outside the State of Hawaii were program goals.
    To help program participants adjust at the mainland 
institutions, the Native Hawaiian Higher Education Program 
enlisted the assistance of the Kamehameha Schools Alumni 
Association during the 1995-1998 grant periods.
    The alumni college support volunteers served as host 
families for program students enrolled at nearby institutions. 
This positive connection enhanced monitoring of the students' 
progress on an academic and personal level.
    Introduction between the student and alumni member evolved 
in an 'ohana relationship. This relationship created a sense of 
belonging on the part of the student, facilitated associations 
with other Hawaiians living in the area, and helped the student 
adjust to his or her new living environment.
    In regards to retention rates the program attributes much 
of its success to pre-enrollment interviews utilizing the use 
of proactive counseling. Reaching out early to assess the 
recipients' strengths, assets and liabilities and plan their 
academic, community service, and career goals have proven to be 
beneficial.
    Rapport between student and program staff is extremely 
important to the success of each student. Reaching out early 
and providing continuous counseling support to program 
recipients on a monthly basis was a contributing factor to 
higher graduation rates, graduation and retention rates.
    As the table that you see in front of you we are proud to 
say that our retention rates for each year was 90 percent and 
above.
    Our fellowship recipients had given their services to a 
variety of organizations, institutions and Hawaiian communities 
within the State of Hawaii and/or on the mainland.
    Some of the professional services performed by the program 
recipients include clerical assistance, tutorial, legal 
assistance, peer counseling, kumu' olelo Hawaii, kumu kokua, 
data processing, reforestation of indigenous Hawaiian plants, 
archival assistance, maintaining archeological sites, clinical 
health assistance, nursing curriculum development, technology 
consultant, project coordination and facilitation, 
congressional staff assistance, national/state park 
interpreter, preservation of Hawaiian habitat or ecosystems, 
and navigation assistance.
    An important outcome of these professional services is that 
the Native Hawaiian Higher Education Program students and the 
Native Hawaiian communities have formed long-term partnerships 
and commitments with each other.
    It is important to note the link in placement in Native 
Hawaiian communities, the needs of the community and the areas 
of interest and project site locations chosen by the students 
entail college retention, degree completion, community service 
awareness and involvement, development of professional 
community networks, personal growth, student persistence and 
success.
    Programs which address the unique educational needs of 
Native Hawaiians, such as the Native Hawaiian Higher Education 
Programs, are beginning to have an impact on the educational 
needs identified in studies such as the Native Hawaiian 
Educational Assessment.
    The Native Hawaiian Higher Education program has been 
successful in assisting a total of 194 college recipients 
throughout the four grant year periods.
    Outcomes indicated that these students were focused 
academically and that they completed or continued to pursue 
their degree-seeking programs successfully and in a timely 
manner.
    Tracking and monitoring of former Native Hawaiian Higher 
Education recipients indicated that these students gained a 
sense of value and importance of education for themselves, 
continued their community involvement within their communities, 
and increased awareness and appreciation for Hawaiian culture, 
values, language and traditional practices.
    In contrast to this, the Kamehameha Schools Bishop Estate 
Financial Aide Department has conducted a determination of 
financial need and an assessment of academic need for all 
financial aid applicants.
    For the academic year 1998-1999, the number of awards for 
the Native Hawaiian Higher Education Program was 99. 
Unfortunately, totals of 369 potential fellowship recipients 
were eligible for financial aid consideration but did not 
receive any fellowship award.
    To add to that a total of 3,024 students were awarded for 
the Kamehameha Schools Post-high need-based aid; 459 for the 
State government and community/private-funded programs.
    Unfortunately a total of 2,260 potential scholarship 
recipients were eligible for financial aid consideration but 
did not receive a KSBE scholarship award. The reason for this 
is that Federal and KSBE funds were depleted.
    The Native Hawaiian Higher Education Program is committed 
to assisting current and potential Native Hawaiian Higher 
Education Program fellowship recipients. We at Kamehameha 
Schools Bishop Estate would like to see Native Hawaiians given 
the opportunity to enroll in and complete their educational 
goals in concert with their peers nationally.
    We believe that continuing need still exist and much work 
remains to be done to accomplish the program's goal of 
educational parity for Native Hawaiians.
    The community, State, Federal, and private institutions 
must join together once again to invest for the benefit, 
betterment and increasingly important, promising and successful 
future of Native Hawaiians in higher education.

                           prepared statement

    Senator Inouye, mahalo to you and your committee for the 
support of Native Hawaiians in Hawaii and on the mainland and 
for investing, nurturing and caring so much about their 
educational aspirations and success. Mahalo.
    Senator Inouye. Thank you, Ms. Espinda.
    [The statement follows:]
                 Prepared Statement of S. Nani Espinda
    Good morning, Mr. Chairman and distinguished committee members. My 
name is Nani Espinda, Director of the Native Hawaiian Higher Education 
(NHHEP) Program at Kamehameha Schools Bishop Estate (KSBE). I am 
honored to be provided this opportunity to testify on behalf of 
reauthorizing the Native Hawaiian Education Act.
    In 1994, the Native Hawaiian Higher Education Program was 
reauthorized by Title IX of Public Law 103-382, Native Hawaiian 
Education Act. The applicant, KSBE has administered this Program, from 
its inception in July 1989 until the present. The Program continues to 
be successful in:
    1. increasing the numbers of Hawaiian students enrolling in and 
completing college;
    2. developing innovative proactive strategies which help fellowship 
recipients identify barriers to academic success and formulate 
solutions;
    3. developing culturally-appropriate support strategies, such as 
including the student's family and significant others in the decision-
making and problem-solving process;
    4. incorporating culturally-appropriate support strategies, such as 
referring students attending mainland post-secondary institutions to a 
Kamehameha Schools college support member and Hawaiian organization 
(i.e. Hawaiian Civic Club);
    5. establishing and maintaining partnerships with the various post-
secondary institutions in the State of Hawaii and on the mainland; and
    6. establishing and maintaining partnerships with the various 
Hawaiian communities and organizations in Hawaii and on the mainland.
    The goals of the Native Hawaiian Higher Education are: (1) to 
further the attainment of educational success among Native Hawaiians by 
providing fellowships and related services to post-secondary students 
at undergraduate and graduate levels; (2) to provide assistance and 
support to the recipients to develop a sense of commitment to the 
Native Hawaiian communities as they complete their service project 
responsibilities in Native Hawaiian communities in Hawaii and/or on the 
mainland; and (3) to provide direction and guidance to secondary-level 
Native Hawaiian students to focus on higher educational resources, 
including access to post-secondary educational institutions, family and 
institutional support, and financial aid resources.
                         program accomplishment
    Throughout the four grant periods, NHHEP has provided fellowship 
assistance and counseling support services to 194 Native Hawaiians 
enrolled at two- or four-year degree granting institutions of higher 
education in Hawaii and on the mainland with awards based on academic 
excellence and financial need.

                     TABLE 1.--NUMBER OF PROGRAM PARTICIPANTS SERVED GRANT--YEARS 1995-1998
----------------------------------------------------------------------------------------------------------------
                                                                 Hawaii                Mainland
                       Grant year                       ----------------------------------------------   Total
                                                         Undergrads  Graduates  Undergrads  Graduates    awards
----------------------------------------------------------------------------------------------------------------
1995-1996..............................................          20         11          29          4         64
1996-1997..............................................          13          7          29          7         56
1997-1998..............................................          44         12          48         15        119
1998-1999..............................................          14         11          63         11        99
----------------------------------------------------------------------------------------------------------------
Note.--The number of participants served for the second, third and fourth grant years include a mix of carry-
  over and new participants. Thus, these figures do not represent an unduplicated count of the number of
  participants served.

                      counseling support services
    The Program staff maintained a monthly contact with Program 
recipients throughout the grant years, focusing on retention and 
completion. NHHEP uses a counseling technique known as ``intrusive'' or 
proactive counseling (as opposed to reactive counseling). This 
technique, as applied to the special needs of Native Hawaiian students, 
is a critical component in retention counseling. The constant close 
monthly contacts with the Program staff provide the students with 
support needed for success.
    The NHHEP has established and maintained a network of support 
services at post-secondary institutions and Hawaiian organizations in 
Hawaii and on the mainland. The need to expand a network of support and 
identify Native Hawaiian organizations, programs and communities in 
states, districts, and counties where Program recipients were enrolled 
outside the State of Hawaii were Program goals.
    To help Program participants adjust at mainland institutions, NHHEP 
enlisted the assistance of the Kamehameha Schools Alumni Association 
during the 1995-1998 grant periods. The alumni college support 
volunteers served as host families for Program students enrolled at 
nearby institutions. This positive connection enhanced monitoring of 
the students' progress on an academic and personal level. Introduction 
between the student and alumni member evolved into an `ohana (family) 
relationship. This relationship created a sense of belonging on the 
part of the student, facilitated associations with other Hawaiians 
living in the area, and helped the student adjust to his or her new 
living environment.
              program impact/outcomes: student achievement
    In regards to retention rates, the Program attributes much of its 
success to pre-enrollment interviews utilizing the use of proactive 
counseling. Reaching out early to assess the recipients' strengths, 
assets and liabilities and plan their academic, community service, and 
career goals have proven to be beneficial. Rapport between student and 
NHHEP staff is extremely important to the success of each student. 
Reaching out early and providing continuous counseling support to 
Program recipients on a monthly basis was a contributing factor to 
higher graduation and retention rates.

                         TABLE 2.--GRADUATION AND RETENTION RATES--GRANT YEARS 1995-1998
----------------------------------------------------------------------------------------------------------------
                                          1995-1996          1996-1997          1997-1998          1998-1999
             Grant year              ---------------------------------------------------------------------------
                                       Hawaii  Mainland   Hawaii  Mainland   Hawaii  Mainland   Hawaii  Mainland
----------------------------------------------------------------------------------------------------------------
Undergrad...........................       20        29       13        29       43        47       14        63
Graduates...........................       11         4        7         7       13        16       11        11
                                     ---------------------------------------------------------------------------
      Total.........................       31        33       20        36       56        63       25        74
                                     ===========================================================================
A.S./A.A............................        4  ........        2  ........        1  ........        2
B.A./B.S............................        1         5        2         6        5         3        1        11
M.A./M.S............................        2         2        2         1        3         4  .......         2
Ph.D................................  .......  ........  .......  ........  .......  ........  .......         1
                                     ---------------------------------------------------------------------------
      Total.........................        7         7        6         7        9         7        1        16
                                     ===========================================================================
Grad (percent)......................     22.6      21.2     30.0      19.4     16.1      11.1      4.0      21.6
Non-Graduates.......................       24        26       14        29       47        56       24        60
Continuing Graduates................        6         2        2         3        6         1        1         3
                                     ---------------------------------------------------------------------------
      Total.........................       30        28       16        32       53        57       25        63
                                     ===========================================================================
Fall Non-Enrollment.................  .......         1  .......  ........        1         3  .......  ........
Fall Enrollment.....................       30        27       16        32        5        54   \1\ 25    \1\ 63
Retention Rates (per-  cent)........    100.0      96.4    100.0     100.0     98.1      94.7    100.0    100.0
----------------------------------------------------------------------------------------------------------------
\1\ Projected Fall 1999 enrollment.

                           community service
    In accordance with the 1994 enabling legislation, fellowship 
recipients have given their services to a variety of organizations, 
institutions and Hawaiian communities within the State of Hawaii and/or 
on the mainland. Some of the professional services performed by Program 
recipients include clerical assistance, tutoring, legal assistance, 
peer counseling, kumu `olelo Hawaii (Hawaiian language teaching), kumu 
kokua (teaching assistance), data processing, reforestation of 
indigenous Hawaiian plants, archival assistance, maintaining 
archaeological sites, clinical health assistance, nursing curriculum 
development, technology consultant, project coordination and 
facilitation, congressional staff assistance, national/state park 
interpreter, preservation of Hawaiian habitat or ecosystems, and 
navigation assistance. An important outcome of these professional 
services is that the NHHEP students and the Native Hawaiian communities 
have formed long-term partnerships and commitments with each other.

 TABLE 3.--COMMUNITY SERVICE PLACEMENT AND COMPLETION RATES--GRANT YEARS
                                1995-1998
------------------------------------------------------------------------
                                              Grant year
  Community Service Status   -------------------------------------------
                              1995-1996  1996-1997  1997-1998  1998-1999
------------------------------------------------------------------------
Service Completion..........         62         37         97          9
    Percentage..............       96.9       66.1       81.5        9.1
Service Completion Pending    .........         13         11         56
 Document(s)................
    Percentage..............  .........       23.2        9.2       56.6
                             -------------------------------------------
      Sub-total.............         62         50        108         65
Service Performance at        .........          2          6         24
 Project Site...............
                             -------------------------------------------
      Total project                  62         52        114         89
       placement............
    Percentage..............       96.9       92.9       95.8       89.9
Service Performance Upon      .........  .........          1  .........
 Graduation.................
Non-Placement at Project              2          4          4          4
 Site.......................
                             -------------------------------------------
      Total Program                  64         56        119         99
       Participants.........
------------------------------------------------------------------------

    Linking placements in Native Hawaiian communities, the needs of the 
communities, and the areas of interest and project site location chosen 
by the fellowship recipients entail college retention, degree 
completion, community service awareness and involvement, development of 
professional community networks, personal growth, student persistence 
and success.
                               conclusion
    Programs which address the unique educational needs of Native 
Hawaiians, such as the Native Hawaiian Higher Education Program, are 
beginning to have an impact on the educational needs identified in 
studies such as the Native Hawaiian Educational Assessment, 1993 
(Kamehameha Schools Bernice Pauahi Bishop Estate, Office of Program 
Evaluation and Planning, 1993), a ten-year update of the Native 
Hawaiian Education Assessment Project (NHEAP).
    The Native Hawaiian Higher Education Program has been successful in 
assisting a total of 194 fellowship recipients throughout the four 
grant years. Outcomes indicated that these students were focused 
academically and that they completed or continued to pursue their 
degree-seeking programs successfully and in a timely manner. Tracking 
and monitoring of former NHHEP fellowship recipients indicated these 
students gained a sense of value and importance of education for 
themselves, continued their community involvement within their 
communities, and increased awareness and appreciation for Hawaiian 
culture, values, language and traditional practices.
    In contrast to this, a determination of financial need and an 
assessment of academic need has been conducted for all financial aid 
applicants, by the Kamehameha Schools Bishop Estate Financial Aid 
Department. For the academic year 1998-1999, the number of awards for 
NHHEP was 99. Unfortunately, a total of 369 potential fellowship 
recipients were eligible for financial aid consideration but did not 
receive any fellowship award. To add to that, a total of 3,024 students 
were awarded for the KSBE Post-High need-based aid; 459 for the state 
government and community/private-funded programs. Unfortunately, a 
total of 2,260 potential scholarship recipients were eligible for 
financial aid consideration but did not receive a KSBE scholarship 
award. The reason for this is that federal and KSBE funds were depleted 
(KSBE Financial Aid Department, 1999).
    The Native Hawaiian Higher Education Program is committed to 
assisting current and potential NHHEP fellowship recipients. We at 
Kamehameha Schools Bishop Estate would like to see Native Hawaiians 
given the opportunity to enroll in and complete their educational goals 
in concert with their peers nationally. We believe that continuing 
needs still exist, and that much work remains to be done to accomplish 
the Program's goal of educational parity for Native Hawaiians. The 
community, state, federal and private institutions must join together 
once again to invest for the benefit, betterment, and, increasingly 
important, promising and successful future of Native Hawaiians in 
higher education.
    Senator Inouye, mahalo nui to you and your committee for the 
support of Native Hawaiians in Hawaii and on the mainland, and for 
investing, nurturing and caring so much about their educational 
aspirations and success.
STATEMENT OF DR. DAVID K. SING, DIRECTOR NA PUA NO'EAU
    Senator Inouye. Dr. Sing.
    Dr. Sing. Aloha Senator Inouye, Senator Akaka and 
Representative Mink. My name is David Sing and I'm Director of 
Na Pua No'eau, Center for Gifted and Talented Native Hawaiian 
Children at the University of Hawaii at Hilo.
    I'm pleased this afternoon I guess, to testify on behalf of 
the Gifted and Talented Program for Native Hawaiian Children.
    Mahalo for your leadership and your support to raise the 
educational status of Hawaiian students through legislative 
action. In the past 10 years I have seen more impact in the 
education of Native Hawaiians than in any other time in my 25 
years with the University of Hawaii and in education. Your 
leadership is much valued and appreciated.
    Within the allotted time I'll briefly offer you responses 
to three questions.
    (1) What are the needs of Hawaiian students in gifted and 
talented education?
    (2) What work has our center done and what impact has been 
made?
    (3) What work still needs to be continued in the area of 
gifted and talented education for Native Hawaiian students?
    Question (1). What are the needs of Hawaiian students in 
gifted and talented education? When we first opened Na Pua 
No'eau 10 years ago, among others, we found the following 
specific needs: As a group Hawaiian students did not have the 
same amount and kinds of educational enrichment opportunities 
as other student groups.
    The opportunities and levels of student aspirations and 
achievements were below parity. There was underrepresentation 
of Hawaiian students in state-sponsored, gifted and talented 
programs and an overrepresentation of Hawaiian students in 
remedial and special education programs.
    Many Hawaiian students and their families couldn't even 
begin to believe that they had the potential to become a 
doctor, engineer or teacher. Most had neither visualized these 
paths nor had any personal contact with Hawaiian role models in 
those professions.
    Today through our work and other programs we have found 
that conventional models and measures still do not provide 
sufficient information or opportunities for Native Hawaiian 
students to demonstrate their potential.
    While much educational initiatives at the local level 
continue to incorporate instructional and learning strategies 
to meet our diverse student population needs, the initiatives 
have yet to be felt system wide.
    The answer to question one, then, is that the needs remain 
the same. The attitudes and perceptions Hawaiian students have 
about their abilities and potential are often blurred by the 
societal challenges Hawaiians as a people have faced.
    The needs of Hawaiian students in gifted education continue 
to revolve around how their gifts and talents are defined, 
recognized and nurtured.
    They need to know that they have potential for outstanding 
performance and are capable of doing so. Students themselves, 
educators, parents and communities need to be more aware of and 
know of the expanding theoretical and operational definitions 
of giftedness; additional and different ways to recognize 
potential; delineate and use qualities of program curriculum 
and inspection that produce optimum learning.
    Question (2). What has our center done and what impact have 
we made? Within the last 10 years some of the crucial works 
conducted include the following: Development of a program 
continuum for students that range from enrichment to intense 
specialization.
    Development of a program model that weaves conditions which 
optimize learning for Hawaiian students and best practices 
found in gifted education.
    Establishment of Center Outreach sites on Maui, Moloka'i, 
O'ahu and Kaua'i. Direct programming for approximately 2500 
students per year statewide, inclusive of Hawaiian students 
from various mainland communities.
    Qualitative research study on the giftedness construct as 
perceived by the Hawaiian community. Development of more 
culturally sensitive assessment practices for various center 
programs.
    Qualitative research study delineating promising qualities 
for effective curriculum design. Establishment of school and 
community endeavors in providing educational enrichment to more 
Hawaiian students.
    Develop and maintain a network with other national and 
international educators in native and gifted education.
    Our known impact to date revolves mostly around our 
students. Parents, educators, and communities are soon to be 
systematically involved in our impact assessment. As we spoke 
with the students who have anticipated in Na Pua No'eau 
programs, they tell us that:
    (1) The more they participate, the greater the positive 
influence in what they do.
    (2) Having participated in Na Pua No'eau programs, they 
seek other educational enrichment opportunities they had not 
thought of before.
    (3) They gain a greater awareness of and appreciation of 
the Hawaiian culture and values.
    (4) They have a better sense of themselves that permeates 
into other situations.
    Additionally, for the students who reparticipate and 
progress through the various programs, they tell us that the 
many experiences of the wide variety of programs and resources 
have allowed them to, to name a few, venture over volcano 
flows, navigate ocean voyaging canoes, develop web sites and 
create original art pieces.
    These experiential learning opportunities have motivated 
them to learn for learning sake and expanded their areas of 
education and career interest. They say that these 
opportunities have allowed them to sit shoulder to shoulder 
with geophysicists, navigators, medical doctors, accomplished 
artists, teachers as they steer their course towards 
educational and career goals far beyond what their parents may 
have dreamt.
    Through the expansion of the center sites and community 
developments and endeavors at this time we can guess that 
center impact has begun to influence a broader arena.
    Question (3). What important work still needs to continue? 
We have found that the program activities that nurture them as 
individuals in the talents and interests that they are still 
discovering, best enhance the gifts and talents of our Hawaiian 
children.
    We have found that it is clearly not a case that some 
children are gifted and some aren't. Rather that there are so 
many of our Hawaiian children who have great potential, but for 
many reasons are not provided challenging educational 
opportunities.
    We do know that our Hawaiian children have great abilities 
and talents, are capable of outstanding performance and will 
become contributors to our society through many positive ways 
unlike what traditional education has told us.
    In looking around at what we do we find that we are the 
only ones addressing Hawaiian education and gifted education 
issues in a comprehensive way.
    The center needs to continue its work in refining the best 
conditions for students to nurture their talents, to develop 
additional and different ways to recognize potential, continue 
with community endeavors to develop resources and maintain 
partnerships particularly with the university for the use of 
their faculty resources and facilities.
    In the coming years we will focus on the design and 
development of products for dissemination, collaborate with 
more local schools to help improve school climate and learning 
activities by attempting to replicate successful practices at 
Na Pua No'eau.
    Provide training to teachers who are interested in 
developing more effective instructional skills and attitudes 
and designing curriculum.
    Respond to community requests in developing their 
educational enrichment activities, modeling Na Pua No'eau 
programs and developing infrastructure utilizing their own 
resources to sustain their projects.
    Continue our partnerships with schools and organizations 
statewide, nationally and internationally.
    At a time when the many needs of a very diverse student 
population outrun our systems preparedness and resources, Na 
Pua No'eau can become an important part in the education for 
Hawaiian students as we continue our work with the students, 
their families and their communities.
    We know that in the effort to meet the educational needs of 
all students mainstreaming gifted or culturally diverse 
students at the school levels often finds educators face-to-
face with issues ranging from staff development needs to the 
consolidation of special program funding.
    Our future endeavors will be to provide special 
opportunities for students in supplemental programs outside of 
their regular school systems as well as developing partnerships 
with schools, teachers, and community to provide training in 
those aspects of Hawaiian and gifted education not available to 
them.

                           prepared statement

    If there is any additional information we can provide you 
in the way of program descriptions, performance reports, impact 
reports, I would be happy to send those to you. Mahalo for your 
time.
    Senator Inouye. Thank you very much, Dr. Sing.
    [The statement follows:]
                Prepared Statement of Dr. David K. Sing
    Good Morning Senator Inouye, Senator Akaka, Representative 
Abercrombie, and Representative Mink: Mahalo for your leadership and 
your support to raise the educational status of Hawaiian students 
through legislative action. In the past ten years, I have seen more 
impact in the education of native Hawaiians than in any other time in 
my 25 years with the University of Hawaii and in education. Your 
leadership is much valued and appreciated.
    With me today are some students, parents, and staff who you may 
want to hear from if time permits.
    Within the allotted time, I will briefly offer you responses to 
three questions:
    1. What are the needs of Hawaiian students in gifted and talented 
education?
    2. What Center work has been done and what impact has been made?
    3. What important work needs to continue?
    Question 1. What are the needs of Hawaiians students in gifted and 
talented education?
    When we first opened our Center 10 years ago, among others, we 
found the following specific needs:
  --As a group, Hawaiian students did not have the same amount and 
        kinds of educational enrichment opportunities as other student 
        groups. The opportunities and levels of student aspirations and 
        achievements were below parity.
  --There was underrepresentation of Hawaiian students in state-
        sponsored, gifted and talented programs and an 
        overrepresentation of Hawaiian students in remedial and special 
        education programs.
  --Many Hawaiian students and their families couldn't even begin to 
        believe that they had the potential to become a doctor, 
        engineer, or teacher. Most had neither visualized these paths 
        nor had any personal contact with Hawaiian role models in those 
        professions.
    Today, through our work, we have found that conventional models and 
measures still do not provide sufficient information or opportunities 
for native Hawaiian students to demonstrate their potential. While much 
educational initiatives at the local level continue to incorporate 
instructional and learning strategies to meet our diverse student 
population needs, the initiatives have yet to be felt system wide.
    The answer to question one then is that the needs remain the same. 
The attitudes and perceptions Hawaiian students have about their 
abilities and potential are often blurred by the societal challenges 
Hawaiians as a people have faced. The needs of Hawaiian students in 
gifted education continue to revolve around how their gifts and talents 
are defined, recognized, and nurtured. They need to know that they have 
potential for outstanding performance and are capable of doing so. 
Students themselves, educators, parents, and communities need to be 
more aware of and know of the expanding theoretical and operational 
definitions of giftedness; additional and different ways to recognize 
potential; delineate and use qualities of programming, curriculum, and 
instruction that produce optimum learning.
    Question 2. What Center work has been done and what impact has been 
made?
    Within the past 10 years, some of the crucial works conducted 
include the following:
  --Development of a program continuum for students that range from 
        enrichment to intense specialization.
  --Development of a program model that weaves conditions which 
        optimize learning for Hawaiian students and best practices 
        found in gifted education.
  --Establishment of Center Outreach Sites on Maui, Moloka`i, O`ahu, 
        and Kaua`i.
  --Direct programming for approximately 2,500 students per year 
        statewide, inclusive of Hawaiian students from various mainland 
        communities.
  --Qualitative research study on the giftedness construct as perceived 
        by the Hawaiian community.
  --Development of more culturally sensitive assessment practices for 
        various Center programs.
  --Qualitative research study delineating promising qualities for 
        effective curriculum design.
  --Establishment of school and community endeavors in providing 
        educational enrichment to more Hawaiian students.
  --Developed and maintain a network with other national and 
        international educators in native and gifted education.
  --Supported the adoption of Center programs in Saskatoon, 
        Saskatchewan, Canada.
    Our known impact to date revolve mostly around our students. 
Parents, educators, and communities are soon to be systematically 
involved in our impact assessment. As we spoke with the students who 
have participated in Na Pua No`eau programs, they tell us that:
  --the more they participate, the greater the positive influence in 
        what they do (i.e. speak up more in class, become more 
        responsible at home and in school, etc.)
  --having participated in Na Pua No`eau programs, they seek other 
        educational enrichment opportunities not thought of before 
        (e.g. apply to Kamehameha Schools, get involved in other Center 
        programs, pursue extracurricular activities)
  --gain a greater awareness of and appreciation of the Hawaiian 
        culture and values
  --have a better sense of themselves that permeates into other 
        situations.
    Additionally, for the students who reparticipate and progress 
through the various programs, they tell us that the many experiences of 
the wide variety of programs and resources have allowed them to, to 
name a few, venture over volcano flows, navigate ocean voyaging canoes, 
develop web sites and create original art pieces. These experiential 
learning opportunities have motivated them to learn for learning sake 
and expanded their areas of education and career interests. They say 
that these opportunities have allowed them to sit shoulder to shoulder 
with geophysicists, navigators, medical doctors, accomplished artists, 
teachers as they steer their course toward educational and career goals 
far beyond what their parents may have dreamt.
    Through the expansion of Center sites and community development 
endeavors, at this time we can guess that Center impact has begun to 
influence a broader arena.
    Question 3. What important work needs to continue?
    We have found that the program activities that nurture them as 
individuals in the talents and interest that they are still discovering 
best enhance the gifts and talents of our Hawaiian children. We have 
found that it is clearly not a case that some children are gifted and 
some aren't, rather that there are so many of our Hawaiian children who 
have great potential but for many reasons are not provided challenging, 
educational opportunities. We do know that our Hawaiian children have 
great abilities and talents, are capable of outstanding performance, 
and will become contributors to our society in many positive ways, 
unlike what traditional education has told us.
    In looking around at what we do, we find that we are the only ones 
addressing Hawaiian education and gifted education issues in a 
comprehensive way. The Center needs to continue it's work in refining 
the best conditions for students to nurture their talents, to develop 
additional and different ways to recognize potential, continue with 
community endeavors to develop resources and maintain partnerships 
particularly with the university for the use of their faculty resources 
and facilities.
    In the coming years, we will focus on:
  --The design and development of products for dissemination.
  --Collaborate with more local schools to help improve school climate 
        and learning activities by attempting to replicate successful 
        practices at Na Pua No`eau.
  --Provide training to teachers who are interested in developing more 
        effective instructional skills and attitudes, and in designing 
        curriculum.
  --Respond to community requests in developing their educational 
        enrichment activities modeling Na Pua No`eau programs and 
        developing infrastructure utilizing their own resources to 
        sustain their projects.
  --Continue our partnerships with schools and organizations statewide, 
        nationally, and internationally.
    At a time when the many needs of a very diverse student population 
outrun our systems' preparedness and resources, Na Pua No`eau can 
become a more important part in the education for Hawaiian students as 
we continue our work with the students, their families, and their 
communities. We know that in the effort to meet the education needs of 
all students, mainstreaming gifted or culturally diverse students at 
the school levels often finds educators face-to-face with issues 
ranging from staff development needs to the consolidation of special 
program funding. Our future endeavors will be to provide special 
opportunities for students in supplemental programs outside of their 
regular school systems as well as developing partnerships with schools, 
teachers, and community to provide training in those aspects of 
Hawaiian and gifted education not available to them.
    If there is any additional information we can provide you in the 
way of Program Descriptions, Performance reports, Impact Reports, I 
would be happy to send those to you.
    Finally I'd like to share our theme for this coming year. ``Liko ka 
liko I ka ua.'' The liko buds in the rain. This is the mana`o we 
received from Sig Zane in the production of our new logo. The newest 
shoots of the `ohi`a tree are liko. They appear in many different 
colors depending on the district, the forest, the type of `ohi`a. The 
liko is a symbol of new growth and appears plentiful in the forest 
following a period of rainfall. The liko is likened to our children, 
the newest sprouts with varying characteristics, needing nurturing and 
care to grow and be strong.
    Mahalo for your time.

    Senator Inouye. Before proceeding with questions, since I 
gather that there is a debate ongoing at this time as to who 
should be running the Hawaiian education council, I'd like to 
point out that at the time we established this council 5 years 
ago, it was established to assure the coordination of programs 
and services among federally funded educational initiatives to 
prevent unnecessary redundancy and unnecessary duplication, and 
also to assure the involvement of parents, teachers and 
students in the planning and design and focus of these 
programs.
    The council is made up of men and women who are either 
participants or who represent the five major initiatives such 
as gifted and talented, Dr. Sing, special education, family-
based educational centers, community-based learning centers, 
and higher education.
    In addition we have involvement of the State of Hawaii and 
OHA on the council.
    Now, it should be noted that at the time we developed this 
council it was not certain as to the position of the U.S. 
Government.
    On July 28 the U.S. Government announced that the Native 
Hawaiians enjoyed the same status as all native peoples of the 
United States, and that there exists a special trust 
relationship between the Government of the United States and 
the native peoples of Hawaii.
    In order to maintain this relationship of trust it was felt 
that these federally funded programs should have some 
involvement by the Federal Government.
    The involvement of the Federal Government in these programs 
here, one is funding, and second the selection of council 
members. But the council members are usually designated by 
themselves.
    I would hope that this type of arrangement can continue 
because I would hate to have the Federal Government divorce 
themselves from their trust relationship. I think it's 
important that we maintain this relationship.
    It may interest all of you that last year we appropriated 
$23 million for the activities of the council. The year before 
was $20 million. The year before that was $18 million. So it's 
been going up and up and up. We hope that in the coming cycle 
it will be an improvement.
    Ms. Espinda, on your case where the funds were depleted, 
was that because we couldn't get matching funds from here?
    Ms. Espinda. I'm sorry? Matching funds?
    Senator Inouye. Yes. Wasn't that a matching program?
    Ms. Espinda. No.
    Senator Inouye. No.
    Ms. Espinda. The Financial Aid Department is like a 
clearinghouse that would process all incoming applications and 
would apply such applications accordingly to various 
scholarship programs.
    One of the scholarship programs is the Native Hawaiian 
higher education program. So he has various budgets that he 
works with, which is Robert Burlington. He's the Director of 
the Kamehameha Schools Financial Aid Department.
    But our funds were depleted. So they couldn't, whatever 
application crew that they had they could not continue to 
consider students. The same thing applies.
    What I wanted to demonstrate here there is a need, a 
financial need for more Native Hawaiians even though 3,000 were 
funded by Kamehameha Schools Bishop Estate funded and 459 from 
the private ones that the financial aid office did process that 
plus ours, there still is a need for Native Hawaiians needing 
funding for higher education.
    Senator Inouye. I'd like to ask a question that would be 
applicable to all of you. Soon after my meeting with the 
student council at Nanakuli High School--and it should be noted 
that the school population at that time indicated that over 80 
percent of the student body was made up of children from the 
homesteads. In other words, they were Native Hawaiians.
    When I learned of the grotesque arrangement, no Native 
Hawaiian teachers, no Native Hawaiian history programs, et 
cetera, I suggested to the legislature and the Governor and to 
the Department of Education that like some of our sister States 
in the Union we should have mandatory programs.
    For example, in Texas there was a mandatory program at the 
elementary level and the secondary level on Texas history, so 
every child would know something about the battle of the Alamo 
or great heroes of that period.
    I suggested that it might be well if we had something at 
the third grade level, another the ninth grade level so that 
Native Hawaiians would have something to be proud of, to learn 
something about themselves. And equally important to have the 
non-Native Hawaiians realize what a great group of people 
Native Hawaiians are.
    At that meeting when I realized that there were no classes 
on Hawaiian history I asked a simple question which I thought 
everyone could answer. ``Could anyone identify Ka'ahumanu?'' 
Not a single student recognized Ka'ahumanu.
    When I told them that as a member of the board of visitors 
of the military academy at West Point, I came across a textbook 
on the great military leaders of the world, Caesar, Alexander, 
Hannibal, and Kamehameha.
    They were stunned to learn that the so called flanking 
movement that is used by all military organizations was 
perfected and established by Kamehameha.
    I think most environmentalists now, if they study, would 
know that aquaculture did not start in America. It started 
here. Long before Columbus discovered by mistake the Western 
hemisphere, Native Hawaiians were sailing back and forth from 
Polynesia.
    Do you think it makes sense if we had a mandatory course in 
public school system?
    Mr. Raymond. I'd like to field that question with the 
response that says I was very honored in 1981 to work with a 
gentleman named Robert Lokomaikahilokelani Snakenburg who was 
with the Department of Education as he started the kupuna 
program which is now, I believe, a kupuna component of the 
Hawaiian studies program in the Department of Education.
    In 1981 we believed that, yes, if we could plant the seed 
we would see things grow. Direct answer to your question: Yes, 
a particular course. But in another sense I would hope that the 
kupuna component of the Hawaiian studies program, the kupuna/
makua because we have fewer and fewer kupuna and more and more 
makua who are dedicating themselves to this.
    I believe that that entire program should be given the 
resources to grow and to provide for students throughout the 
State of Hawaii, all public education, with this understanding 
to which you speak, yes. Rather than one course I think bigger.
    Senator Inouye. But we have nothing now.
    Mr. Raymond. Yes.
    Senator Inouye. Dr. Sing, so you're convinced we're 
spending money wisely in your program?
    Dr. Sing. I think if you ask the children and the families 
they would you say yes. That's who we look for to affirm that. 
I think there is work ahead. The first 10 years we have been 
very happy in developing program models and identifying the 
issues and addressing those issues and providing services 
directly to students.
    We are getting requests constantly from different 
communities to have programs in different areas way beyond the 
extent to which we can build.
    Right now we will be, we are on five islands and a large 
staff and trying to reach as many Hawaiian students as we can. 
And we can't.
    So with that we will be trying to look at the next ten 
years in providing training for schools and communities that 
want to adapt some of the aspects of our model that they're 
interested in.
    Senator Inouye. As I indicated we will be conducting 
hearings in Hawaii, hopefully in November, after we adjourn. 
And at that time we will be taking up education which is part 
of the Elementary School Secondary Education Program.
    I would hope that by then you would have discussed and 
maybe resolved the matter of the Native Hawaiian education 
council and the makeup of that council itself or should we 
disband that council, et cetera. So with that I shall be seeing 
you sometime in November. Thank you very much.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. Kiope, 
I'm very interested in what you folks are doing. And what 
particularly at the present since you have been in existence in 
the composition of requirements for the council and the concern 
is--and let me admit I don't know who they are--but my concern 
of whether these folks represent the interests of the Native 
Hawaiian community. Can you make a statement on that?
    Mr. Raymond. I'd be honored to. I thank you very much. 
Besides those that are named in the act, the most important 
access of the Native Hawaiian education council are those five 
island council representatives. They, therefore, have a 
constituency.
    The five island council members at present are very hard 
working people. If we start from the island of Hawaii we Mr. 
Josh Akana. On the island for Maui and Lana'i David Keala.
    For the island of O'ahu, Kalani Akana. For the island of 
Moloka'i Anita Arsi. For the island of Kaua'i Kaiopua Phife.
    Now, these five island chairpersons have worked diligently 
to assure that people in their communities are informed. I 
don't know that they could have done a 100 percent perfect job.
    We do hear that there are people who have not been 
informed. And as is our charge with coordinating these kinds of 
things, and given our, the short life of the council itself I 
think they've done a great job.
    I believe that in the future if we can keep this structure 
in place it can only get better. If we can increase the profile 
of the Native Hawaiian education council, people will come to 
look at the Native Hawaiian education council and say: We can 
turn to them. We can tell them what our needs and concerns are. 
They will be heard.
    I would also like to share with you the knowledge and the 
foresight, hopefully, that we have in that this is all 
windfall. If for some unfortunate reason Federal monies do not 
continue, many people have come together to begin to form the 
Native Hawaiian education association.
    I want to thank you Dr. Kekaulike Sing for helping to 
spearhead that effort in saying, you know we've got to do this 
ourselves. So an association is forming.
    I would hope that those people who feel that they have not 
been represented on the Native Hawaiian education council will 
continue to communicate with us.
    Maybe better said we will want to go out into the 
communities to try and solicit any input that we can. We don't 
want to sit in a vacuum.
    Senator Akaka. Mahalo for that. Dr. Chun, I know you're 
representing your boss here, Community College. You mentioned 
about the wide variety of educational activities and services. 
The particular one I was interested in that you mentioned was 
the family oriented activity and services. I'd like for you to 
expound a little bit more about that part.
    Dr. Chun. Sure. It's not so much it's a service or 
activity. But what happens is in a number of our activities 
we've been encouraging family participation. I think you had an 
opportunity to visit one of our project sites last year or the 
year before out at Leeward Community College that was set up by 
our coordinator for O'ahu, William Souza.
    As an example you had an opportunity to visit the ukulele 
class last year where we invited--what we tried to do was to 
bring--when students were interested in participating in a 
class, if it was a young student they needed to be there with 
their, either their parent or their grandparent but someone 
within their family.
    That's one of the examples of how we are trying to make 
more of our activities family oriented. That's one example.
    At Hawaii Community College we have been doing some things 
with recruitment into college. And we have had family days 
bringing students, potential students, inviting them to an 
activity.
    But it's not just the student, it's the whole family. 
Inviting them to this activity, and sitting down and talking 
about what it means to go to college. Not just with the student 
but with the family. What would be some of the expectations 
that not just the student but the family might have and trying 
to work through some of those.
    So in a wide variety, as much as possible a number of 
activities that we are delivering we try to include the family.
    Senator Akaka. Mahalo. Kamuela, another question to you. 
You mentioned that your program had 4,500 participants this 
year.
    Mr. Chun. Yes.
    Senator Akaka. Are any of those statistics broken down by 
island, activity or center? What indicators are you using to 
forecast increased participation?
    Mr. Chun. Yes. We have that information broken down by 
activities and by island. As an example, the community language 
programs, Hawaiian language programs on this island have been 
very popular.
    When we first started the program about two, three years 
ago we had over 900 people, Native Hawaiians registered in 
those classes with another waiting list of another 300. The 
classes have now stabilized at about 600 participants on this 
island.
    But there, again, continues to be a waiting list as we are 
now trying to look for additional instructors. We have lost a 
few of the instructors.
    So as far as projecting what, the number of participants in 
the coming years, a lot of that is going to be determined by 
what the coordinators at each of the centers see as their needs 
as they go out and talk to their community representatives, the 
advisory boards as far as what kind of activities are going to 
be developed in the future and what kind of activities are 
going to be offered.
    One of the important things that, what helps to make these 
programs successful, as I stated earlier, is the collaboration 
that these centers have with other agencies and organizations.
    We know that there's a wide, there are a number of 
community-based programs that don't necessarily receive Federal 
funds. I can think of, offhand, on the island of Hawaii there's 
a community program called Kukulu Kumu Hana.
    It's just a group of people who, from various communities 
who have wanted to set up an enrichment program, summer program 
for the kids. They got together. They had basically no 
resources outside of their own. And these are families putting 
monies, these are people putting monies towards a worthy cause.
    So a lot of--when I say the participation or the increasing 
numbers in the coming years will be determined by the type of 
activities that the centers are, will be involved in. But 
certainly we know that there are a few more that we can touch 
upon.
    Senator Akaka. Mahalo, Kamuela.
    Mr. Chun. Mahalo.
    Senator Akaka. Ms. Espinda, looking over and listening to 
your testimony I look at the 1998 numbers on those students who 
are in an undergraduate program in Hawaii and those that 
graduate and also the undergraduates of those in the mainland 
and those who graduate.
    There has been over the years since 1995 gradual 
improvement, I would say, in percentage such as in 1998-1999, 
14 undergrads you've graduated 11. And on the mainland 63 and 
11 grads.
    I look at the mainland figures 63 to 11 and wondered 
whether you had any ideas about improving those numbers.
    When I asked Kamuela about family oriented programs, I 
wondered about when students go to mainland colleges whether 
there are family oriented kinds of programs that can help more 
to stay there to graduate.
    Do you have any comment about that, about the figures?
    Ms. Espinda. As you see this figure is based upon the grant 
year. So the amount of students that have been awarded for that 
particular year this is the numbers of students graduating.
    Now, I have a different chart that I go by. Cohorts for the 
first year would be cohort one. Second year with new students 
with our continuing student would be cohort two and three and 
four.
    There's a lot more of cohort one that graduated just this 
particular year. So if you want me to send you that graduation 
rates based on cohorts I can do that.
    But there is increasing numbers of students graduating on 
the mainland as well as here in Hawaii. I believe it has a lot 
to do with the outreach services that they receive from our 
program as well as the assistance that we get from the Hawaii 
communities on the mainland.
    Senator Akaka. Mahalo. Thank you, Mr. Chairman.
    Senator Inouye. Thank you. Representative Mink.
    Mrs. Mink. Yes. Mrs. Espinda on that very chart, which was 
a bit confusing to follow, I think I probably fell into that 
same category.
    You have two items listed, undergraduate and graduate, and 
you have 63 and 11. That means that there were 63 
undergraduates from the mainland and 11 graduate students.
    Is that how you read it rather than out of 63 only 11 
graduate.
    Ms. Espinda. OK. There are 14 undergraduates in Hawaii 
whereas there's 63 undergraduates on the mainland.
    Mrs. Mink. I was looking at the mainland column.
    Ms. Espinda. Right. So this would indicate there would be a 
total of 25 Hawaii graduates, including graduate students, you 
see those figures and 74. Out of that 25----
    Mrs. Mink. I'm looking at the first two figures which say 
63 and 11 which is what Senator Akaka mentioned.
    Ms. Espinda. Right.
    Mrs. Mink. That means there is 63 undergraduate students--
--
    Ms. Espinda. Yes.
    Mrs. Mink [continuing]. You help and 11 graduate students. 
Is that correct?
    Ms. Espinda. Yes.
    Mrs. Mink. It doesn't mean only 11 graduated out of 63?
    Ms. Espinda. Hmm-mmm.
    Mrs. Mink. Because on the very bottom of your column you 
show a 100 percent retention rate which means that in all of 
your programs whatever you've done, all of the students that 
you put into your programs stayed in at whatever college level 
they were in at the time of their being included.
    Ms. Espinda. Out of the 63 undergraduate the total of 13 of 
the 63 that had graduated.
    Mrs. Mink. But that doesn't mean that the rest flunked.
    Ms. Espinda. Right.
    Mrs. Mink. It means only that portion completed their 
college, the rest continued on with their education.
    Ms. Espinda. Yes.
    Mrs. Mink. Which accounts for your 100 percent retention.
    Ms. Espinda. Right.
    Mrs. Mink. Correct? Which I think is spectacular that you 
had that many staying in.
    Ms. Espinda. Those that continued on at the graduate level 
we are proud as well as pleased to have our first student 
graduate with his Ph.D. He's here in the audience Kimo 
Alameida.
    Mrs. Mink. I want to, Senator Inouye, say on the House side 
the situation with reference to the Native Hawaiian Education 
Act is very tenuous.
    We are in the middle of the reauthorization of the 
Elementary, Secondary Education Act one of the components is 
the Native Hawaiian Education.
    Our only view into what the Republicans have in mind 
regarding this program is a discussion that we've had with the 
staff, not with the members. They haven't quite decided what 
they're going to do.
    As you know twice they attempted to eliminate the program 
in 2 recent years. I think that they're not going to attempt 
the elimination this year. But what they are trying to do is 
what they have been practicing for the last several years and 
that is going into block grant concepts like Ed Flex, like 
Dollars to the Classroom.
    Dollars to the Classroom, they eliminated 33 programs, took 
all of the money and gave it generalized instructions to the 
school systems to spend whatever way they wished regardless of 
what the previous earmarks and designations were.
    In Ed Flex they have done pretty much the same thing. Taken 
blocks of money and stated that they prefer to give the money 
directly to the local community or the State or whatever and 
allow these entities to make the decisions.
    So with reference to the Native Hawaiian Education Program, 
what they have suggested is a complete redesignation, 
reorganization of the council exactly as Senator Inouye warned 
against.
    That seems to be the only big hang-up. We have not had any 
discussions that go to funding and all of that. So I think 
those are okay. But they're concentrating their irritation on 
this council, how it's made up, who sits on it and so forth.
    So I do concur with the Senator that this is something that 
you have to pay particular attention to. I notice that in OHA's 
testimony they're also talking about not having council 
membership with people who are grantees of any other programs.
    So it suggests that in the case of the House you may not 
have time to get it all together before we meet in September. 
But as I understand from the Senator, actions on the Senate 
side may be postponed to next year.
    I don't know what's going to happen to our side. They 
haven't told us. They've taken one piece called Teacher 
Development, taken that out of ESEA and passed it already, sent 
it over to the Senate. They appear to be trying to piecemeal 
the ESEA.
    They want to take title I, for instance, and just pass that 
separately over to the Senate. They haven't indicated to us 
what they're going to do.
    But the attention focuses on this council, how it is to be 
made up, who sits on it and removal of this special five or six 
designations that are in the current law and say to the 
council: You got this money. It's block granted, it's flexible. 
The council decides how to spend it.
    So I think that those patential revisions have to be taken 
very seriously as far as the House is concerned. Whatever the 
House does I have every confidence can be remedied in the 
Senate. But I thought that I needed to reflect to you what's 
going on on our side which creates some very, very big 
questions in my mind. Thank you very much.
    Senator Inouye. Thank you. I consider this we are very 
fortunate we have a professional gatekeeper for Native Hawaiian 
Education in the House. That's Patsy Mink. I'm certain she'll 
do her best in protecting us.
    But if we somehow succumb to this block grant business, 
then you people are out of business. Because I can see all of 
you fighting among yourselves as to who gets what. I hope that 
that will never happen. We will do our best. So far our best 
has been pretty good.
    Mr. Raymond. Mahalo.
    Senator Inouye. Thank you very much. I'd like to point out 
that it is now 10 after 1:00.
    Mrs. Mink. Mr. Chair, I'm going to have to take leave. I 
appreciate very, very much your invitation for me to sit in.
    Senator Inouye. Thank you very much for joining us. I will 
have to be adjourning this because somebody else has to come 
into this room. And I have to be at Tripler at 2:15. So at 2:00 
I will have to be vacating this place.
    Our next panel is made up of the director of the Family-
Based Education Centers, Aha Punana Leo, Ms. Namaka Rawlins; 
and Ms. Jean Evans of Pulama I Na Keiki, Alu Like; Ms. Iwalani 
Else on behalf of Dr. Benjamin Young director of the Native 
Hawaiian Center of Excellence at the John A. Burns School of 
Medicine, University of Hawaii. Ladies, welcome.
    May I call upon Ms. Rawlins first.
STATEMENT OF NAMAKA RAWLINS, DIRECTOR, FAMILY-BASED AHA 
            PUNANA LEO
    Ms. Rawlins. Aloha mai kakou e na' elele i Wakinekona, 
Senator Inouye, Senator Akaka, and Representative Mink and 
staff that have come here today.
    I am Namaka Rawlins, executive director of the 'Aha Punana 
Leo, Inc., a Native Hawaiian educational organization that 
functions entirely through our indigenous Hawaiian language and 
culture.
    All services of the 'Aha Punana Leo are provided through 
Hawaiian in accordance with the Native American Languages Act 
establishing it as Federal policy to protect and promote the 
endangered indigenous languages of the United States.
    We provide services at 11 preschools, a 7-12 education and 
a prekindergarten through grade 8 in two model public/private 
partnerships.
    Curriculum both in the form of books and videos, 
technological services including an extensive computer system, 
teacher training and a post-secondary scholarship program.
    Little known outside of Hawaii is the fact that the first 
high school west of the Mississippi was a Hawaiian language 
high school. And prior to annexation to the United States 
Native Hawaiians educated in Hawaiian language schools had a 
higher literacy rate than that of the United States.
    Our ancestors also spoke a formal standard of British 
influenced English as a second language. When Hawaii was 
annexed, use of Hawaiian in schools, even on the playground was 
banned. Our language was nearly exterminated.
    Changing attitudes towards race and native peoples in the 
United States and resulting legislation are helping us to 
rebuild the fine educational statistics and authentic cultural 
foundation that our people had when we were first annexed into 
the United States.
    I am most proud to report our progress to you in this area. 
Our family-based education centers, the Punana Leo preschools, 
have been the foundation in their communities.
    Our teachers and families have worked together over these 
years to enhance and support their local public schools where 
the Punana Leo graduates enter.
    These dedicated parents have become the teachers in the 
Punana Leo as well as the follow-up Kaipuni Hawaii public 
school program. Our kupuna also teach in our preschools.
    This past year the first 11 seniors to be educated totally 
in Hawaiian graduate from high school. We note the achievements 
of the five in our model school Nawahiokalani'opu'u, run as a 
laboratory program in consortium with the University of Hawaii 
at Hilo's College of Hawaiian language and the Department of 
Hawaiian Education.
    The five seniors at Nawahiokalani'opu'u completed all but 
two courses of a college preparatory program by their junior 
year. For their senior year they were admitted as concurrent 
students at the University of Hawaii at Hilo.
    Only one other high school senior in the public high school 
that would otherwise serve was admitted to the university in 
this way. These students all took at least three university 
courses each as well as completing their high school courses. 
Their university courses included political science, 
mathematics, agriculture, biology and Japanese language.
    These students graduated from Nawahiokalani'opu'u with nine 
to 11 university credits. These students have taken all their 
high school courses through Hawaiian with English taught as a 
course subject, yet they had no trouble with the English used 
in the university.
    Furthermore, all passed the qualifying examination for 
English composition an examination that many of our Native 
Hawaiian students have difficulty in passing.
    Our curriculum videos have won national and international 
awards and we have produced short pieces that will be aired on 
PBS television.
    Our computer program in Hawaiian is not only the most 
developed for any indigenous language in the world, but we have 
also outpaced a number of the European languages in our 
development of technology through our own language.
    Our students and teachers are not the only ones who are 
succeeding through our programs. Because we require parents to 
learn the language along with their children, many began to 
take university courses in Hawaiian.
    Because there were essentially no Hawaiian speaking program 
directors, accountants, curriculum developers, teachers and 
other professionals needed by our program, parents and family 
members took it upon themselves to learn these skills to serve 
our program.
    Our programs have also had far reaching impact to the 
betterment of business in Hawaii. Many entrepreneurs have had 
their start in our programs with our training. Many government 
offices currently employ those schooled in language 
proficiency, professional ability and cultural protocol.
    Throughout the State, education institutions on all levels 
from preschools to universities also employ those who are 
qualified due to the opportunities we have provided them.
    Our programs provide excellent skill development and 
contribute to the betterment of the Hawaiian community as a 
whole. Our program has become nationally known. You may have 
read a recent article in the Washington Post about our success 
and the importance it has for Native American languages and 
Native American education throughout the United States.
    Several Indian tribes including the Blackfeet, Arapaho, 
Washoe, and Tlingit, among others with considerable success 
have simulated our model.
    We are most thankful to Congress for your support of the 
Native Hawaiian Education Act and ask that you continue to work 
with us as well as all the other innovative programs being 
administered by various organizations to assure that the 
distinctive Hawaiian language and culture and other Native 
American languages do not become extinct.
    It is a credit to this body that the Native Hawaiian 
language schools and their record of academic achievement, once 
forcibly closed by the U.S. Government, have again been 
reestablished with support from Congress.
    In order to see why we work so hard to revitalize the 
'Olelo, the language, one must realize how vital it used to be. 
It was the language of commerce, trade, education, government, 
church, and society of this land, and everyone, regardless of 
ethnic background spoke the language up until the ban in 1896.
    A quote from an old newspaper written back in 1917, 20 
years after the banning of the 'Olelo and 2 years before my 
father was born:

    I 'ike 'ia no ke kanaka no kekahi lahui ma kana 'olelo. Ina 
e nalowale ana ka 'Olelo Makuahine o kekahi lahui, e nalohia 
aku ana no ia lahui. I keia la, ua nalohia aku ko kakou 
ku'oko'a, a i ka pau 'ana o ka kakou 'Olelo Makuahine, 'o ka 
pau 'ana no ia o ka lahui Hawaii. He mana'olana ko'u, e ho'ea 
mai ana ka la e ku ai he mau kula 'Olelo Hawaii, ma ko kakou 
nei 'aina. Ina kakou e ho'omaka ana ma keia ke'ehina, 'a'ole no 
e hala he mau makahiki e ola hou ana ka 'Olelo Hawaii.
    A people are known by their language. If the mother tongue 
is lost to a people so will the people become lost. In these 
times our people's independence is being lost. And when our 
mother tongue dies, then is the death of the Hawaiian people. I 
have an expectation that there will come a day when Hawaiian 
Language schools will exist again. if we start now, it will not 
take long for our Hawaiian Language to live again.--Ka 
Pu'uhonua, January 26, 1917.

                           prepared statement

    Considering that it took another three generations to 
revive our Kula 'Olelo Hawaii, our Hawaiian language schools, 
the above excerpt is just one affirmation for us in doing what 
we do. Mahalo nui i ka lohe 'ana mai i ko'u mana'o.
    Senator Inouye. Thank you very much.
    [The statement follows:]
                  Prepared Statement of Namaka Rawlins
            native hawaiian health, education and employment
    Aloha mai kakou e na `elele Hawaii i Wakinekona, e na Kenekoa `o 
Inouye laua `o Akaka, me na Lunamaka`ainana `o Abercrombie laua `o Mink 
a me ka po`e `e a`e i hele mai i keia la.
    I am Namaka Rawlins, Executive Director of the `Aha Punana Leo, 
Inc., a Native Hawaiian educational organization that functions 
entirely through our indigenous Hawaiian language and culture. The `Aha 
Punana Leo is a recipient of federal funding under the native Hawaiian 
Education Act.
    All services of the `Aha Punana Leo are provided through the 
Hawaiian language in accordance with the Native American Languages Act 
establishing it as federal policy to protect and promote the endangered 
indigenous languages of the United States for the community and for 
education. We provide services at 11 preschools serving over 200 
children and adult language classes for their families, a 7-12 
education and a prekindergarten through grade 8 in two model public/
private partnership schools, with the intention of developing them into 
a full pre-12 system, curriculum both in the form of books and videos, 
technological services including an extensive computer system, teacher 
training and a post-secondary scholarship program serving over 150 
undergraduates and graduates. We also work informally with native 
Hawaiians in prison who are interested in bettering themselves through 
combining Hawaiian culture and education.
    The story of the `Aha Punana Leo, Inc. began five years before 
federal funding became available to us. We developed from a grassroots 
group of parents who were determined that their children would be 
educated through their own language and culture, as had their 
ancestors. These families held fundraisers, paid tuition and lobbied 
our state government to eliminate legal barriers prior to the receipt 
of our first federal funding in 1989.
    Little known outside Hawaii is the fact that the first high school 
west of the Mississippi was a Hawaiian language high school and that 
prior to annexation to the United States, native Hawaiians educated in 
Hawaiian language schools had a higher literacy rate than that of the 
United States. Our ancestors also spoke a formal standard of British 
influenced English as a second language. When Hawaii was annexed, use 
of Hawaiian in schools, even on the playground was banned. Our language 
was nearly exterminated; pidgin English took the place of both Hawaiian 
and standard English, and in Hawaii, non-Hawaiians and native Hawaiians 
alike came to see native Hawaiians and education as incompatible. 
Changing attitudes towards race and native peoples in the United States 
and resulting legislation are helping us to rebuild the fine 
educational statistics and authentic cultural foundation that our 
people had when we were first annexed into the United States.
    I am most proud to report our progress to you in this area.
    First, the dream that our initial parent groups had of 
reestablishing the Hawaiian language and education through Hawaiian, is 
making considerable progress. In 1984, when the first Punana Leo 
preschool opened, there were only 35 children under 18 in the world who 
were fluent in our language. Today, we have over 2,000 students in 
Hawaii attending schools taught entirely through Hawaiian from 
preschool through grade 12. These students are either our students from 
the Punana Leo or others who have entered into public school programs 
established in response to the demand from our Punana Leo families.
    While there still remain barriers to Hawaiian speaking children 
reaching their full potential, we continue to break down these barriers 
through demonstration of effective methods and curriculum in our model 
schools and through serving all Hawaiian language schools through our 
curriculum and teacher training programs.
    Our level of success has been quite good. Many in the education 
establishment believed that it was impossible to provide high quality 
modern education through Hawaiian. We have proved them wrong. Our 
family based education centers, the Punana Leo preschools, have been 
the foundation in their communities. Our teachers and families have 
worked together over these years to enhance and support their local 
public schools, where the Punana Leo graduates enter. These dedicated 
parents have become the teachers in the Punana Leo as well as the 
follow-up Kaiapuni Hawaii public school program. Our kupuna also teach 
in our preschools. This past year the first eleven seniors to be 
educated totally in Hawaiian graduated from high school. We note the 
achievements of the five in our model school, Nawahiokalani`opu`u, run 
as a laboratory program in consortium with the University of Hawaii at 
Hilo's College of Hawaiian Language.
    The five seniors at Nawahiokalani`opu`u completed all but two 
courses of a college preparatory program by their junior year. For 
their senior year they were admitted as concurrent students at the 
University of Hawaii at Hilo. Only one other high school senior in the 
1736 student public high school that would otherwise serve them was 
admitted to the university in this way. These students all took at 
least three university courses each as well as completing their high 
school courses in anthropology and English language arts. Their 
university courses included political science, mathematics, 
agriculture, biology, and Japanese language. These students graduated 
from Nawahiokalani`opu`u with 9 to 11 university credits. These 
students had taken all their high school courses through Hawaiian with 
English taught as a course subject, yet they had no trouble with the 
English used in the university. Furthermore, all passed the qualifying 
examination for English composition, an examination that many of our 
native Hawaiian students have difficulty in passing.
    In spite of the fact that our Hawaiian language schools are taught 
through a language and culture very different from the standard English 
public schools in Hawaii, our student SAT scores have been on par or 
better than those of native Hawaiian children from similar backgrounds. 
Our students have been outstanding in the performing arts and sports as 
well.
    Our curriculum videos have won national and international awards 
and we have also produced short pieces that will be aired on PBS 
television. Our computer program in Hawaiian is not only the most 
developed for any indigenous language in the world, but we have also 
out paced a number of the European languages in our development of 
technology through our own language.
    Our students and teachers are not the only ones who are succeeding 
through our programs. Because we require parents to learn the language 
along with their children, many began to take university courses in 
Hawaiian. This leads to increased confidence and expansion of their 
education into ocher areas. Because there were essentially no Hawaiian 
speaking program directors, accountants, curriculum developers, 
teachers and other professionals needed by our program, parents and 
family members took it upon themselves to learn these skills to serve 
our program.
    I am a good example of the effect of the program on adults. I grew 
up on Hawaiian homestead land, 1 of 12 children. After graduation from 
high school, I married and with my husband managed our guava farm on 
our homestead land. I worked part time and then went back to the 
university to increase my knowledge of my own language and culture. My 
own sons were too old to enroll in the Punana Leo when it started but I 
used as much Hawaiian as I could with them and volunteered at the 
Punana Leo Hilo preschool from 1985 through 1989. I eventually 
graduated and my volunteer job developed into the directorship of the 
statewide system of programs. My office staff consists entirely of 
mothers of children in our programs, none of which had graduated from 
college when they enrolled their children in the program. At the 
encouragement of the Punana Leo, the staff continues to pursue degrees 
and some have already completed their undergraduate work.
    The benevolence of our programs has also had a far-reaching impact 
to the betterment of business in Hawaii. Many entrepreneurs have had 
their start in our programs with our training. Many government offices, 
including the county Police Department, and the state's DHHL and OHA 
currently emply those we have schooled in language proficiency, 
professional ability, and cultural protocol. Several fellow nonprofit 
organizations have looked to us and received extensive expertise. 
Throughout the state, education institutions on all levels from 
preschools to universities also employ those who are qualified due to 
the opportunities we have provided them. Our programs are visionary and 
demanding; they provide excellent skill-development and have proven to 
contribute to the betterment of the Hawaiian community as a whole.
    Our projects under the Native Hawaiian Education Act have faced 
many obstacles. It was actually illegal to use Hawaiian in either 
private or public schools when our organization was started and parents 
still have great difficulty in dealing with policies in the public 
schools that work against our program, including union rules that work 
against hiring the most qualified Hawaiian speaking teachers.
    Another barrier is internalized racist attitudes. Until this day, 
there are many, even in our own native Hawaiian communities, who insist 
that using Hawaiian in education can only harm our children 
academically and hinder their mastery of English. These people have 
turned a blind eye to the successes that we have already demonstrated 
in a short time under difficult circumstances. Such people are 
verification that many in our society have internalized a false belief 
that the native Hawaiian is inferior. They simply cannot believe that 
our successes are fact.
    There is nothing mysterious about our success. Small countries like 
Denmark and the Netherlands use their own languages in their schools 
and are some of the most successful academically in the world. 
Furthermore, they often learn a higher standard of English in their 
schools than the pidgin spoken by most native Hawaiian and local 
children in the English public schools. Our model schools strive to be 
like schools in these countries with languages, which are minimally 
used outside their own countries.
    Our program has become nationally known. You may have read a recent 
article in the Washington Post about our successes and the importance 
it has for Native American languages and Native American education 
throughout the United States. We are the national leaders in combining 
Native American language and cultural revitalization with academics. 
This is very important for the United States as all 200 Native American 
languages are severely endangered and academic failure is widespread in 
Native American communities. Several Indian tribes including the 
Blackfeet, Arapaho, Washoe, and Tlingit, among others with considerable 
success have simulated our model.
    We are most thankful to Congress for your support of the Native 
Hawaiian Education Act and ask that you continue to work with us as 
well as all the other innovative programs being administered by various 
organizations to assure that the distinctive Hawaiian language and 
culture and other Native American languages do not become extinct. It 
is a credit to this body that the native Hawaiian language schools and 
their record of academic achievement, once forcibly closed by the 
United States government, have again been reestablished with support 
from Congress.
    Within these last 15+ years, we have been motivated and our lives 
changed by our never-ending goal--E Ola Ka `Olelo Hawaii. For us this 
is visionary work; it transcends politics and personalities. In order 
to see why we work so hard to revitalize the `Olelo, one must realize 
how vital it used to be: it was the language of commerce, trade, 
education, government, church, and society of this land--and everyone, 
regardless of ethnic background spoke the language--up until the ban in 
1896. I would like to share a quote from an old newspaper, written back 
in 1917, 21 years after the banning of the `Olelo, and two years before 
my father was born:
    ``I `ike `ia no ke kanaka no kekahi lahui ma kana `olelo. Ina e 
nalowale ana ka `Olelo Maknahine kekahi lahui, e nalohia aku ana no ia 
lahui. I keia la, ua nalohia aku ko kakou ku`oko`a, a i ka pau `ana ka 
kakou `Olelo Makuahine, `o ka pau `ana no ia ka lahui Hawaii . . . He 
mana`olana ko`u, e ho`ea mai ana ka la e ku ai he mau kula `Olelo 
Hawaii, ma ko kakou nei `aina . . . Ina kakou e ho`omaka ana ma keia 
ke`ehina, `a`ole no e hala he mau makahiki e ola hou ana ka `Olelo 
Hawaii.''
    ``A people are known by their language. If the mother tongue is 
lost to a people, so will the people become lost. In these times, our 
people's independence is being lost, and when our mother tongue dies, 
then is the death of the Hawaiian people . . . I have an expectation 
that there will come a day when Hawaiian Language schools will exist 
again . . . if we start now, it will not take long for our Hawaiian 
Language to live again. (Ka Pu`uhonua, Januari 26, M.H.1917)
    Considering that it took another three generations to revive our 
Kula `Olelo Hawaii, our Hawaiian language schools, the above excerpt is 
just one affirmation for us in doing what we do--living in the `Olelo 
Hawaii. Please continue to support our good work.
    Mahalo nui i ka lohe `ana mai i ko`u mana`o.
STATEMENT OF JEAN EVANS, M.P.H., PROJECT ADMINISTRATOR, 
            PULAMA I NA KEIKI
    Senator Inouye. Ms. Evans.
    Ms. Evans. Senator Inouye, Senator Akaka, I'm Jean Evans, 
the administrator of the Pulama I Na Keiki or ``Cherish the 
Children'' project with Alu Like. This is one of the projects 
funded by the Family-Based Education Centers section of the 
Native Hawaiian Education Act.
    Our annual funding is approximately $3 million. The first 5 
years last forever. A child's chance of success begins even 
before he or she is born. This is the first window of 
opportunity for a child's learning begins in the prenatal 
period. This is the time in parenthood when there is the most 
chance to have a direct and formative effect on the child's 
developing brain.
    A mother's emotions, general habits, and her environment 
affect the fetus. What happens to an infant in the early weeks 
of life actually changes the physical structure of the brain. 
Early brain activity results in an explosion of learning that 
occurs after birth.
    Deprived of a stimulating environment a child's brain 
suffers. The research underscores the importance of hands-on 
parenting. Parents who read and talk to their children each day 
create a strong foundation for future academic success.
    A positive and stimulating environment provided by the 
parents, the child's first teachers, has been shown to reduce 
child abuse and neglect, reduce reliance on welfare assistance, 
reduce the need for special education services, and prevent the 
child from committing later crimes.
    With the assistance of 14 partnership agencies the prenatal 
to age 5 family-based education project was successfully 
transferred from Kamehameha Schools Bishop Estate to Alu Like 
on October 1, 1997.
    The current project services families on five islands from 
11 sites. These services are provided in a culturally relevant 
manner by community-based parent educators and include home 
visits, workshops and parent/toddler group activities. The 
primary means of program delivery, however, is the one-to-one 
home visits.
    A more detailed description is included in my written 
comments. Investment in prevention. The Rand Corp. has recently 
published an economic evaluation of early childhood 
intervention programs.
    The study includes an economic evaluation of a prenatal/
early childhood program that extrapolates the results of a 15-
year follow-up study to estimate cost savings generated by the 
program.
    Governmental costs and revenue increases as well as non-
governmental benefits associated with the intervention were 
identified.
    This study showed a four to one savings in governmental 
funds for families with single mothers as well as a substantial 
non-governmental savings.
    By applying the Rand findings to the Pulama I Na Keiki 
program in which nearly 70 percent of our families are headed 
by single mothers, a substantial savings can be seen.
    With an approximate $3 million program cost, a net savings 
of $9,300,000 is realized.
    Future directions. The U.S. Department of Education 
recently announced a new grant award to Alu Like to operate a 
Pulama I Na Keiki site in the urban Honolulu area and to 
develop a Native Hawaiian family-based education system.
    While expansion of existing services is one way to assist 
more Native Hawaiian families, it is clear that expanding 
services alone cannot meet the needs of each community.
    The overall needs of families with young children must be 
better identified. To this end Alu Like and 'Aha Punana Leo are 
participating in a statewide early education and care 
consortium which sprang out of the family-based subcommittee of 
the Native Hawaiian Education Council.
    The new funding will help the consortium and Native 
Hawaiian communities to develop a plan for a seamless continuum 
of services which include the following components:
    Identification and agreement on outcomes for Native 
Hawaiian children. Program performance analyses and development 
of a coordinated system.
    In conclusion, investing in early childhood education for 
Native Hawaiian children is an investment in Hawaii's future 
and the future of the United States. As more children and 
families participate in early intervention programs, fewer 
resources will be needed down the line.

                           prepared statement

    Providing the youngest members of society and their 
families opportunities to succeed in the future and become 
productive and self-reliant is a goal we all share. Thank you 
for inviting me to present testimony.
    Senator Inouye. Thank you very much, Ms. Evans.
    [The statement follows:]
                    Prepared Statement of Jean Evans
    I am Jean Evans, the Administrator of the Pulama I Na Keiki or 
``Cherish The Children'' family-based project with ALU LIKE, Inc. 
(ALI). This is one of the projects funded by the Family-Based Education 
Centers section of the Native Hawaiian Education Act. (Improving 
America's Schools Act of 1994, Public Law 103-382.)

Funding

1997-1998.....................................................$3,041,724
1998-1999..................................................... 2,941,724
1999-2000.....................................................   ( \1\ )
1999-2000....................................................\2\ 990,449

\1\ Final year continuation grant award pending.
\2\ New expansion grant award.
---------------------------------------------------------------------------
                                 needs
Population
    The highest percentage of Native Americans reside in the State of 
Hawaii compared to any other state in the nation.\1\ Native Hawaiians 
make up the vast majority of the Native American population in Hawaii.
---------------------------------------------------------------------------
    \1\ Kamehameha Schools/Bishop Estate Native Hawaiian Education 
Survey, 1993.
---------------------------------------------------------------------------
    Native Hawaiians are the fastest growing ethnic group in Hawaii. 
They represent approximately 19 percent of the total state population; 
\2\ however, this ethnic group makes up 33 percent of the total births 
in the State.\3\ This growth trend results in a young population, with 
the majority of native Hawaiians being 18 years of age or younger.\4\
---------------------------------------------------------------------------
    \2\ Native Hawaiian Data Book, 1996--page 14.
    \3\ ibid, p. 64.
    \4\ ibid, p. 71.
---------------------------------------------------------------------------
    An average of 6,272 Native Hawaiian births per year occurred 
between 1993 and 1997.\5\ These births have resulted in approximately 
31,358 Native Hawaiian children who are currently ages 0-5. This figure 
represents about one-third of all the children in the State in that age 
group.
---------------------------------------------------------------------------
    \5\ State of Hawaii Department of Health, February, 1998.
---------------------------------------------------------------------------
Perinatal Health Risk Factors
    Native Hawaiians have higher rates of health risk factors during 
pregnancy than do other ethnic groups in Hawaii.
    Fewer Native Hawaiian women (73.8 percent) begin prenatal care 
during the first trimester than do women in the general population in 
Hawaii.\6\ Of those pregnant women not receiving prenatal care until 
the third trimester, almost one-third are Native Hawaiian.\7\
---------------------------------------------------------------------------
    \6\ Native Hawaiian Data Book, 1996, page 329.
    \7\ ibid, p. 352.
---------------------------------------------------------------------------
    The issue of ``children having children'' and the harmful effect of 
substance and tobacco use on the unborn fetus are also major concerns. 
Over 20 percent of all births to teenage mothers in Hawaii are to 
Native Hawaiians.\8\ This is twice as high as the State average of 10.1 
percent.\9\ Native Hawaiian mothers use tobacco and alcohol at higher 
rates than do other ethnic groups in the State.
---------------------------------------------------------------------------
    \8\ ibid, p. 353.
    \9\ ibid, p. 353.

 TABLE 1.--RATE PER 1000 MOTHERS USING ALCOHOL & TOBACCO BY RACE OF MOTHER, TOP 5 ETHNIC GROUPS--ONLY 1993 \10\
----------------------------------------------------------------------------------------------------------------
                                                                                                    All
                                       Caucasian   Hawaiian     Chinese    Filipino    Japanese    other   State
----------------------------------------------------------------------------------------------------------------
Tobacco Rate........................         8.6        17.2         2.2         5.5         7.7     6.9     9.6
Alcohol Rate........................         1.6         2.4         0.4         1.2         1.2     0.6    1.4
----------------------------------------------------------------------------------------------------------------
\10\ Native Hawaiian Data Book, 1996, p. 343

Economic Risk Factors
    In Hawaii, 23 percent of Native Hawaiian families with children 
under the age of 5 have median incomes below the poverty level. This 
compares to the overall of 11 percent for the State and 18 percent for 
the nation.\11\ The 1996 medial household income in Hawaii was 
$41,772.\12\ Incomes of Native Hawaiian families with children under 6 
years of age average 80.85 percent of the State medial income, or 
$33,773. Of those Native Hawaiian families with both parents present in 
the home, the medial income is 98.56 percent of the State, or $41,170, 
while incomes of Native Hawaiian families with no husband present 
average 68.55 percent of the State medial income,\13\ or $28,635.
---------------------------------------------------------------------------
    \11\ Kamehameha Schools/Bishop Estate Report, 1994.
    \12\ State of Hawai`i Department of Business & Economic Development 
Information, 1996.
    \13\ Native Hawaiian Data Book, 1996, page 492.
---------------------------------------------------------------------------
    The percentage in Hawaii for all families with children under 6 and 
no father present is 10.5 percent, while the percentage for Native 
Hawaiian families is 12.7 percent.\14\ In only 31.2 percent of the 
families served by the Pulama I Na Keiki Project in fiscal year 1997-
1998 were the parents married.\15\ Native Hawaiian families are also 
larger than others in the State, with an average of 4.07 persons 
compared to an average of 3.48 persons for other families in the 
State.\16\
---------------------------------------------------------------------------
    \14\ ibid, p. 58.
    \15\ALU LIKE, Inc. Pulama I Na Keiki, Annual Evaluation Report, 
1997-1998, page 6.
    \16\ Native Hawaiian Data Book, 1996, page 58.
---------------------------------------------------------------------------
    In summary, Native Hawaiian families with children are larger, the 
parents are less often married, and they have lower incomes than do 
families in the general population.
Educational Risk Factors
    A large percentage of young Native Hawaiian children are 
educationally at risk and are not receiving services.
    Based on analyses of the Peabody Picture Vocabulary Test, 
approximately 50 percent of Native Hawaiian children measured at entry 
to kindergarten are educationally at risk.\17\ Approximately 52 percent 
of at-risk Native Hawaiian preschool aged children are not receiving 
services.\18\
---------------------------------------------------------------------------
    \17\ Kamehameha Schools/Bishop Estate Report, 1994.
    \18\ ibid.
---------------------------------------------------------------------------
    Consequently, a higher percentage of both female and male Native 
Hawaiians aged 25-34 have less than a high school degree compared to 
the general population.

TABLE 2.--PERCENT ADULTS WITH LESS THAN HIGH SCHOOL DEGREE \19\--AGES 25-
                                   34
------------------------------------------------------------------------
                                              Native         State of
                                             Hawaiians        Hawaii
                                             (Percent)       (Percent)
------------------------------------------------------------------------
Male....................................            14.4             8.6
Female..................................            13.4            8.5
------------------------------------------------------------------------
\19\ Kamehameha Schools/Bishop Estate Report, 1994.

The First Five Years Last Forever
    A child's chance of success begins even before he/she is born. 
``The first window of opportunity for a child's learning begins in the 
womb.'' \20\ This is the time in parenthood when there is the most 
chance to have a direct and formative effect on the child's developing 
brain. A mother's emotions, general habits, and her environment affect 
the fetus.\21\ This is why it is so important to work with families as 
early in pregnancy as possible.
---------------------------------------------------------------------------
    \20\ Lisa A. Foster, Education For The 21st Century: The Human 
Brain & Learning Presentation, 1999, page 5.
    \21\ Marian Diamond, The Magic Trees of the Mind, 1998.
---------------------------------------------------------------------------
    Recent research in brain development confirms the significance of a 
child's first five years. What happens to an infant in the early weeks 
of life actually changes the physical structure of the brain. Early 
brain activity results in an explosion of learning that occurs after 
birth. Deprived of a stimulating environment, a child's brain suffers. 
Touch and play develop both cognitive and emotional systems in the 
infant's brain.\22\ These data underscore the importance of hands-on 
parenting, talking to the infant, finding time to cuddle, and providing 
the infant with stimulating experiences. Research shows that parents 
who read and talk to their children each day create a strong foundation 
for future academic success.\23\
---------------------------------------------------------------------------
    \22\ State of Hawaii Department of Health, Maternal & Child Health 
Branch, Achieving Good Results For Young Children and Families Report, 
1998, page 3.
    \23\ ibid.
---------------------------------------------------------------------------
    In summary, a positive and stimulating interactive environment 
provided by parents (the child's first teachers) has been shown to 
reduce child abuse and neglect, reduce reliance on welfare assistance, 
reduce the need for special education services, and prevent the child 
from committing later crimes.
                            education goals
    The importance of servicing the 0-5 population is recognized by The 
U.S. Department of Education in its Goal 1, which states that all 
children will enter school ready to learn. Additionally, the Native 
Hawaiian Education Program (fiscal year 2000) Goal 1 states that Native 
Hawaiian students served by this program will enter school ready to 
learn. This proposal is directly in line with both of these goals.
                          program description
    In 1996 a Partnership of 14 agencies came together to develop a 
concept design and plan for the continuation of family-based services 
which were then being provided by Kamehameha Schools, Bishop Estate 
(KSBE). On October 1, 1997, the Native Hawaiian Family-Based Education 
Centers Project was successfully transferred from KSBE to ALI under the 
title, Native Hawaiian Family-Based Education Service Partnership 
Project. This project is now known by its Hawaiian name, Pulama I Na 
Keiki. Partner members and their local counterparts continue to work 
closely with the P--lama I N--Keiki administrative and site staff on 
coordinating services to maximize resources and provide appropriate 
services to as many families as possible.
    The current Pulama I Na Keiki Project is a family-based education 
project for families with children (ages 0 to 5) of Hawaiian ancestry. 
By September 30, 1998 the Pulama I Na Keiki project had increased the 
number of families served from 228 to 496. It is predicted that by the 
end of this grant (September 30, 2000) over 800 families will have been 
served.
    The current ALI Pulama I Na Keiki project services families on five 
islands from 11 sites as listed below.
                    current pulama i na keiki sites
O`ahu
    Windward District: Ko`olauloa Office and Ko`olaupoko Office.
    Leeward District: Wai`anae Office and Ewa/Waipahu Office.
Maui
    Central Maui Office and Hana Office.
Molokai
    Kaunakakai Office.
Kauai
    Lihu`e Office.
Hawaii
    Kona Office, Waimea Office, and Hilo Office.
    The philosophy is to begin as early as possible, so we are 
targeting prenatal entry. We will also take families with children up 
to 6 months of age. The project's mission is to enable parents to 
provide their children with the best possible opportunities to support 
school success. Parents play the most important role in how well their 
children perform in school. This is true even before birth. The program 
provides families with support, guidance, and assistance in developing 
knowledge, attitudes, and behaviors that foster children's development 
and desire to learn.
    The program is designed to help families make a child's early 
learning as successful as possible in order to provide a foundation for 
his/her future success in school. To achieve this, the program offers a 
wide range of educational services to families. Services are provided 
by paraprofessionals, called Parent Educators, who receive extensive 
training in utilizing the program's curriculum and tools.
    Services provided to families by community-based Parent Educators 
include home visits, workshops, and parent/toddler group activities. 
The primary means of program delivery, however, is one-to-one home 
visits, which prove to be an effective way of individualizing the 
curriculum to better serve the family. The major focus of the Pulama I 
Na Keiki program is given to the 0-3 age group.
    One of the most important aspects of being ``ready'' for success in 
school is the ability to get along with others. The Parent Educators 
provide this opportunity in Parent/Toddler groups. These groups give 
both the child and caregiver a chance to interact with other children 
and families while building relationships. The group environment offers 
diverse experiences and assists in socialization skills, communication 
skills, and self-help for children and parents.
    Parent Educators play an active role in assisting families to 
enroll their children in preschools, especially those of partner 
organizations such as KSBE and `Aha P--nana Leo. Preschool 
opportunities are rather limited in many areas, so staff assist 
children not enrolled in a center-based preschool in finding other 
types of preschool-aged activities. Project staff conduct limited 
parent/child group sessions for this age group.
Curriculum
    The Pulama I Na Keiki curriculum currently has two parts: (1) 
prenatal/perinatal and (2) infant/toddler. Both phases emphasize the 
application of knowledge and skills that result in healthy mothers, 
babies, and children; on-target child development; and overall school 
readiness. Whenever possible, Hawaiian culture and values are reflected 
in, and integrated into, the practices, environment, and activities of 
the curriculum. Such curriculum materials include a Hawaiian style 
quilt, or ``kapa,'' which is made by the family during the prenatal 
period to prepare for the baby's arrival. In the process of making the 
kapa, the families have an opportunity to discuss their beliefs, their 
hopes, and their worries with the Parent Educator, and the Educator, in 
turn, can share information about the important role of the family.
                        investment in prevention
    The RAND Corporation has recently published an economic evaluation 
of early childhood intervention programs. The study sites programs that 
have shown IQ differences between some early intervention program 
participants and controls to be 10 points or more.\24\ In addition, 
RAND has conducted an economic evaluation of a prenatal/early childhood 
program that extrapolates the results of the 15-year follow-up study to 
estimate cost savings generated by the program. This study identified 
governmental costs and governmental revenue increases associated with 
the intervention. Non-governmental benefits were also identified. These 
are itemized below: \25\
---------------------------------------------------------------------------
    \24\ Lynn A. Karoly, Peter W. Greenwood, Susan, S. Everingham, Jill 
Hoube, M. Rebecca Kilburn, C. Peter Rydell, Matthew Sanders, James 
Chiesa, Investing In Our Children: What We Know and Don't Know About 
the costs and Benefits of Early Childhood Interventions. The RAND 
Corporation, 1998, page xvi.
    \25\ ibid, pp. 123-129, 97.
---------------------------------------------------------------------------
Annual governmental costs
      Cost of ER visits
      Welfare costs (ages 0-5)
      Jail (Mother)
      Jail Child (ages12-15)
      Criminal Justice system (ages 19-44)
      Loss to crime victims
Governmental revenue increases
      Increased Taxes paid by employed family
      Increase taxes paid by working child--adult
Non-governmental benefits
      Tangible costs of crimes that would have been committed
      Extra income by families (not just taxes)

    The RAND study showed a 4 to 1 savings in governmental funds for 
families with single mothers. The non-governmental savings to families 
with single mothers is estimated to be $6,000, and $3,000 for married 
families.\26\
---------------------------------------------------------------------------
    \26\ ibid, p. xvi.
---------------------------------------------------------------------------
    The following savings for the Pulama I Na Keiki program are based 
on the RAND estimates:

Annual Project Funding..................................  \1\ $3,000,000
Total Families..........................................         \2\ 800
Cost per Family.........................................          $3,750
Number of Non-married Families..........................             550
Number of Married Families..............................         \3\ 250

\1\ Estimate fiscal year 2000.
\2\ By 9/2000.
\3\ 68.8 percent of project families by 9/30/98.

                                      ESTIMATED ANNUAL PROGRAM COST BENEFIT
----------------------------------------------------------------------------------------------------------------
                                                                   Program cost    Gross savings    Net savings
----------------------------------------------------------------------------------------------------------------
Governmental Funds..............................................      $3,000,000  \1\ $8,250,000  \2\ $5,250,000
Non-governmental Funds..........................................  ..............   \3\ 4,050,000       4,050,000
                                                                 -----------------------------------------------
      Total.....................................................       3,000,000      12,300,000      9,300,000
----------------------------------------------------------------------------------------------------------------
\1\ $3,750 cost per family x 4 (estimated savings) = $15,000; $15,000 x 550 single mother families = $8,250,000.
\2\ $8,250,000-$3,000,000 (yearly cost) = $5,250,000.
\3\ $6,000 non-governmental savings x 550 single mother families = $3,300,000; $3,000 non-governmental savings x
  250 married families = $750,000. $3,300,000 + $750,000 = $4,050,000.

                            future direction
    The U.S. Department of Education recently announced a new grant 
award to ALU LIKE Inc. for the expansion of the family-based education 
centers programs. This new grant, which begins October 1, 1999, 
provides funding to operate a Pulama I Na Keiki site in the densely 
populated urban Honolulu area. In addition funding has also been made 
available for the development of a Native Hawaiian Family-Based 
Education System.
    While expansion of existing services is one way to service more 
Native Hawaiian families, it is clear that expanding these alone will 
not meet the needs of each community. The urban Honolulu area and 
others are in need of additional services; however, ALI cannot proceed 
with expansion beyond this additional Pulama I Na Keiki site until the 
extent of overall needs of families with 0 to 5 years olds is better 
defined. To this end, ALI and `Aha Punana Leo are participating in a 
state-wide early childhood education and care consortium, which sprang 
out of the Family-Based sub-committee of the Native Hawaiian Education 
Council. The consortium, made up of primarily Native Hawaiian early 
childhood education and health agencies and community representatives 
from the major islands, met initially in January 1999 to come up with a 
vision for meeting the needs of this age group. With this new funding, 
The Native Hawaiian Early Childhood Education and Care Consortium, 
which is comprised of over 20 representatives from Native Hawaiian 
organizations and communities, and experts in early childhood, will be 
formalized for the purposes of developing a seamless continuum of early 
care and education services throughout communities in the State with 
high concentrations of Native Hawaiian children in the prenatal through 
five age group. The consortium's development plan for a seamless 
continuum of services includes the following components:
    A. Identification and Agreement on Outcomes for Native Hawaiian 
Children
    B. Program Performance Analysis
    C. Development of a Coordinated System
Community-Based Approach
    At present, similar to most other communities and states, the 
Native Hawaiian early childhood education and care infrastructure is 
rather fragmented overall and, in some communities, nearly non-
existent. The group agreed at the January 1999 meeting that it was 
desirable to ensure that Native Hawaiian communities determine the 
basis and content for a seamless continuum of early childhood services. 
This means that Native Hawaiian communities, as they deem appropriate, 
will assess the quality of early education and care, take account of 
their existing resources, and determine how resources beyond the 
community might best meet their needs for developing their own sub-
infrastructure. Their efforts will be unique but, in general, will 
encompass the strengths and resources of any larger, already developed 
portions of a statewide infrastructure. As appropriate, each community 
will be provided with support for facilitation, communication, 
leadership development, relevant resources, and models in the staff 
position of Community Facilitator.
    Smaller groups within the consortium will also assist the 
communities, ensuring that there is continued communication and sharing 
of progress among the various community groups. There is already the 
basis for these smaller groups. The Native Hawaiian Education Council 
has five island councils, although additional councils for the islands 
of O`ahu and Lanai would better represent existing district needs. 
Further, many participating Native Hawaiian agencies, e.g., ALU LIKE, 
Inc., Queen Lili`uokalani Children's Center, and Papa Ola Lokahi have 
community and/or island offices.
    The input and plans developed in each community will be the bases 
for strengthening the current statewide system. Paramount to each 
community's efforts is the need for a seamless, coordinated system of 
early childhood services. Also critical is to have services accessible, 
affordable, culturally compatible, and high in quality, insuring the 
strengths of each community are recognized and utilized to their 
fullest capacity.
    The entire early childhood education and care community is excited 
to begin development of such a system to benefit the future of Hawai`i.
                               conclusion
    Investing in early childhood education for Native Hawaiian children 
is an investment in Hawai`i's future and the future of the United 
States. As more children and families participate in early intervention 
programs, fewer resources will be needed down the line. Providing the 
youngest members of society and their families opportunities to succeed 
in the future and become productive and self reliant is a goal we all 
share. Thank you for inviting me to present testimony today.
STATEMENT OF IWALANI ELSE, ASSISTANT PROGRAM DIRECTOR, 
            NATIVE HAWAIIAN CENTER OF EXCELLENCE
    Senator Inouye. Ms. Iwalani Else.
    Ms. Else. Good afternoon, Senator Inouye, Senator Akaka. My 
name's Iwalani Else. I'm assistant program director of the 
Native Hawaiian Center for Excellence. I'm here on behalf of 
Dr. Benjamin Young, our director.
    I would briefly like to share some of the goals and 
objectives of the Native Hawaiian Center of Excellence. As you 
know there has been an increase in the public attention given 
to the poor health status of Native Hawaiians who continue to 
have the worst health indicators of the five primary ethnic 
groups in Hawaii.
    These indicators include shortest life expectancy, and 
highest mortality rate. Unfortunately these figures show no 
immediate signs of improvement. Among the health indicators 
which have worsened are life expectancy, death rates from heart 
disease, stroke, cancer, diabetes and risk factors such as 
obesity, hypertension and alcohol use.
    The Native Hawaiian Center of Excellence seeks to address 
the dismal health status of Native Hawaiians through a variety 
of activities.
    The Native Hawaiian Center of Excellence's mission is to 
improve the health of indigenous Hawaiians. This will be 
accomplished through research, education, service and training 
of Native Hawaiians in various health professions.
    The Native Hawaiian Center of Excellence is housed at the 
John A. Burns School of Medicine at the University of Hawaii, 
is funded by a grant from the U.S. Department of Health and 
Human Services.
    The center has been in existence since 1991. It is part of 
a nationwide effort called the Centers of Excellence. There are 
also Centers of Excellence for historically black colleges, 
Hispanic, American Indians. We are the only Native Hawaiian 
Center of Excellence.
    Our center of excellence has five primary objectives and 
components. The first is recruitment, recruiting Native 
Hawaiians into health professions.
    The second retention. Retaining Native Hawaiian students 
once they're in a health profession program.
    Three, faculty development. Training Native Hawaiian 
physicians to become medical school faculty.
    Four, curriculum development. Introducing Native Hawaiian 
health issues into the John A. Burns School of Medicine 
Problem-Based Learning curriculum.
    Fifth, research. Encouraging Native Hawaiians to develop 
research skills and conduct research on Native Hawaiian health 
issues.

                           prepared statement

    It's just a brief summary. But in the written testimony 
I've provided a brief synopsis of each. So refer to that.
    With these goals the Native Hawaiian Center of Excellence 
truly hopes to improve the health status of Native Hawaiians 
through research, education, service and training of Native 
Hawaiians in health care professions.
    On behalf of the State director of the Native Hawaiian 
Center of Excellence thank you for providing this opportunity 
to testify.
    Senator Inouye. Ms. Else, I thank you very much on behalf 
of the committee.
    [The statement follows:]
                   Prepared Statement of Iwalani Else
    Since the 1980s there has been an increase in public attention 
given to the poor health status and high mortality rates of Native 
Hawaiians who reportedly continue to have the worst health indicators 
of the five primary ethnic groups in Hawaii (Blaisdell, 1996; Braun K., 
Look M., & Tsark, J., 1995). These indicators include shortest life 
expectancy (8 years shorter than the ethnic group with the longest life 
expectancy) and highest overall mortality rate. Specifically, infant 
mortality, heart disease, cancer, stroke, diabetes, and accident 
mortality rank among the highest in Native Hawaiians compared with 
other Asian and Pacific Islanders. Among Asian and Pacific Islanders 
between the period of 1982 to 1995, Native Hawaiians also had the 
greatest prevalence for AIDS (Blaisdell, 1996). In 1992, engagement in 
several risk factors was the highest among Native Hawaiians. These poor 
health indicators are in sharp contrast to the vigorous health that 
their Native Hawaiian ancestors possessed just 221 years ago before the 
first Westerners arrived with foreign diseases. Unfortunately, these 
figures show no immediate signs of improvement. Since the 1980s, the 
trend of poor health indicators among Native Hawaiians has actually, in 
some incidents, gotten worse. Among the health indicators which have 
worsened are life expectancy, death rates from heart disease, stroke, 
cancer, diabetes, and risk factors such as obesity, hypertension, and 
alcohol use.
    The Native Hawaiian Center of Excellence (NHCOE) seeks to address 
the dismal health status of Native Hawaiians through a variety of 
activities. NHCOE's mission is: to improve the health of indigenous 
Hawaiians which will be accomplished through research, education, 
service, and training of Native Hawaiians in various health 
professions. The NHCOE which is housed at the John A. Burns School of 
Medicine at the University of Hawaii, is funded by a grant from the 
U.S. Department of Health and Human Services and has been in existence 
since 1991. There are five objectives/components of the NHCOE: (1) 
Recruitment--recruiting Native Hawaiians into the health professions; 
(2) Retention--retaining Native Hawaiian students once they are in a 
health profession program; (3) Faculty Development--training Native 
Hawaiian physicians to become medical school faculty; (4) Curriculum 
Development--introducing Native Hawaiian health issues into the John A. 
Burns Medical School Problem Based Learning curriculum; and (5) 
Research--encouraging Native Hawaiians to develop research skills and 
conduct research on Native Hawaiian health issues. The following 
discussion provides further detail on each of the NHCOE's components.
                              recruitment
    The emphasis of this component is to develop a competitive 
applicant pool of Native Hawaiian Students for careers in the health 
professions. The John A. Burns School of Medicine (JABSOM) faced a 
formidable task in the early years because there was no viable or 
competitive pool of applicants among Native Hawaiians. A systematic 
effort was put together under the NHCOE and projected for anticipated 
high yields in the 1990s. The increase in the numbers of applicants to 
health professional schools is due in no small part to the steady and 
dogged labors of the recruitment team. Recruitment component staff of 
the NHCOE have successfully created partnerships with schools, 
colleges, and community entities in the state of Hawaii in order to 
stimulate interest in the health field among Native Hawaiian students 
early in their educational experiences. The NHCOE recruitment staff has 
also developed a network of educational professionals to identify, 
counsel, and encourage Native Hawaiian students pursuing the medical 
pathway.
                               retention
    The thrust of this component is to enhance the academic performance 
of Native Hawaiian students and insure their success through medical 
school. Since its inception, the NHCOE retention staff has improved 
Native Hawaiian medical student test performance and graduation rates. 
The NHCOE retention staff has also provided Native Hawaiian students 
with services such as early diagnosis of academic problems and 
remediation; a comprehensive academic advising system that involves 
outreach counseling and advising of Native Hawaiian students; 
assistance with speaking, reading, writing, and interviewing skills; 
and diagnosis of learning disabilities.
                          faculty development
    The NHCOE has focused on the expansion of Native Hawaiians in the 
JABSOM faculty. This has not been easily accomplished because of 
serious financial set backs which have faced the entire State of 
Hawaii. JABSOM faced cut backs in funding which was reflected in a 
significant decrease in faculty positions. Nonetheless, the NHCOE 
sought out individuals who would still be interested in pursuing 
academic careers and has been successful in attracting several Native 
Hawaiians to become NHCOE fellows. Under the faculty development 
component, the NHCOE also seeks to develop the skills and Native 
Hawaiian cultural competence/awareness of Native Hawaiian physicians, 
residents, fellows, and senior level medical students.
                         curriculum development
    This component of the NHCOE strives to incorporate and introduce 
Native Hawaiian health issues into the JABSOM curriculum. This will be 
done through a review of the current JABSOM curriculum, a revision of 
health care problems to focus on major health risks among Native 
Hawaiians, an improvement in Native Hawaiian information materials, and 
the development of Native Hawaiian simulated patients for use in 
tutorials.
                                research
    The goal of this component is to encourage Native Hawaiians to 
develop research skills and conduct research on Native Hawaiian health 
issues. The research component accomplishes this by facilitating 
medical student and junior faculty research on Native Hawaiian health 
issues through placement in ongoing Native Hawaiian research projects 
and/or through technical assistance on original projects pertaining to 
Native Hawaiian health. Also under the research component is the 
development of a clearinghouse devoted to Native Hawaiian health issues 
that will aid researchers in conducting literature searches and 
identifying resources pertaining to Native Hawaiian health. Yet another 
activity under the research component is the development of research 
workshops/seminars that incorporate Native Hawaiian health issues into 
the curriculum. These workshops/seminars will provide medical students 
with an introduction to Native Hawaiian health issues and basic 
training in research methodology, design, epidemiology, and 
biostatistics. In an effort to disseminate research on Native Hawaiian 
health issues, symposiums are also in the planning stage.
    It has been estimated that at the time of contact with Captain 
James Cook in 1778 there were approximately 300,000 Native Hawaiians 
present. In 1880, the population had dwindled to 30,000 Natives. On an 
annual basis, Native Hawaiians began to disappear by the thousands. 
Many died from no discernible medical causes. It was evident that many 
of the cultural elements that give meaning to life had been lost. A 
common lamentation heard during the 1880's was: ``Na kanaka okuu wale 
aku no ikau uhane,'' that is, ``The people freely dismissed their 
spirits and died.'' The slow process of immune development prompted the 
gradual resurgence of the Hawaiian race. Still, indices attributable to 
neglect, poor nutrition, alcohol and drug abuse, and devastating 
lifestyles account for the continuing dismal statistics of disease 
among Hawaiians. The NHCOE truly hopes to mobilize forces that will 
make drastic changes in order to improve the lot of a gracious people 
who have given the world the meaning of the word Aloha.

    Senator Inouye. Listening to the testimony of the three 
ladies it made me a bit worried to think that there's a 
possibility that we may have a block grant program and the 
elimination of the council.
    I hope it never happens. Because I believe that all of your 
programs have great merit and should continue. So I can assure 
you we are going to do our best.
    Ms. Rawlins, how many students have gone through your 
program now?
    Ms. Rawlins. From Aha Punana Leo all the way up through?
    Senator Inouye. Yes. From the time you began the program 
how many have gone through?
    Ms. Rawlins. Gosh, I think we've taken, off the top of my 
head I can say something like maybe over the past, 'cause we 
started prior to Federal funding, we started in 1985--I want to 
say something like over a thousand, thousand students.
    Senator Inouye. Today how many do you have?
    Ms. Rawlins. Today we have, well, from our pre-schools all 
the way up to the high school according to Dr. Hewett pointed 
out today, he didn't include our pre-school so I think we are 
close to 2,000 in Hawaiian medium schools.
    That's not including the effect it has on something like 
what Kamuela was saying earlier about within the communities 
you start having people that are interested in the language in 
college. I'm not too sure how many, what the effect it is on 
the courses at the university level. But I'm sure it also 
affects the course scheduling too; that they would need to 
provide more Hawaiian language classes as teachers are needed 
and interest is there.
    Senator Inouye. Well, if you keep it up the dream of 1917 
may become a reality.
    Ms. Rawlins. With your support. Mahalo nui.
    Senator Inouye. How many young children have gone through 
your program, Ms. Evans?
    Ms. Evans. Well, we have been in existence with Alu Like 
for not quite 2 years. We transferred over 225 families. Now I 
would say we have serviced about 700. We anticipate a full case 
load by the end of the next fiscal year. When we get all our 
staff in place and trained, 800. That's about our capacity.
    Senator Inouye. This is statewide?
    Ms. Evans. Yes, it is. We have 11 offices.
    Senator Inouye. On all the islands?
    Ms. Evans. We don't have one on Lanai. We do have one on 
Hana, Central O'ahu.
    Senator Inouye. What was the budget, Ms. Else, for this 
past fiscal year?
    Ms. Else. I think this past fiscal year was about a half a 
million dollars.
    Senator Inouye. Was that enough to carry out your mission? 
It's never enough, I know.
    Ms. Else. Well, what just happened is we had applied and 
were granted funding for the next 3 years at a rate of a little 
bit more than $600,000 a year.
    So with that we have some new programs especially in the 
faculty and research components planned. But we have been doing 
pretty well.
    Senator Inouye. It should be noted that all of the 
participants in these programs, health and education programs, 
have done so well that in the appropriation process when 
everything else was being cut Native Hawaiian programs went up.
    So I want to thank all of you and congratulate all of you 
for the good work. Keep it up. We will go up further. Thank 
you. Senator Akaka.
    Senator Akaka. Thank you. I will just ask one question to 
Namaka. This has to do with Nawahiokalani'opu'u Program. That's 
a program, a high school program. I know you started small but 
right now since the graduation of the first five how many do 
you have in that program?
    Ms. Rawlins. In the junior classes this year, well, it's 
now the senior class we have 11, the 11th graders. It gets 
bigger and bigger. The interesting thing, I was just talking to 
the principal, Carol, she was telling me the interesting thing 
this year the 7th grade class that's coming up they have now 
taken new students, new families that have not had any prior 
experience.
    This will be the first, like a pilot run project where 
families that are now seeing that they would like to, perhaps, 
participate and are committed and have gone through summer, 
this summertime that are now, it's like a late entrance to the 
program.
    But we're confident that in meeting with the families and 
the 7th graders that are coming in from other schools besides 
the feeder school, Keakauha, that their commitment and 
understanding as to what it's going to take to be educated and 
continue through graduation at Nawahiokalani'opu'u we're 
confident they're going to be successful.
    Senator Akaka. Mahalo. Thank you.
    Ms. Rawlins. Mahalo.
    Senator Inouye. Thank you very much, ladies. Now may I call 
upon the project coordinator of Pihana Na Mano, Ms. Maggie 
Hanohano; the Principal of Haleiwa School, Ms. Jan Yokota, and 
a teacher at Ka'u High School, Ms. Kathy Arnold; and a parent 
of one of the students at Hana High School and Elementary 
School Ms. Maryann Nakama. Welcome, ladies.
    Ms. Hanohano.
STATEMENT OF MAGGIE HANOHANO, PROJECT COORDINATOR, 
            PIHANA NA MAMO
    Ms. Hanohano. Aloha, Senator Inouye, Senator Akaka, members 
and staff of the subcommittee on Labor, Health and Human 
Services Education and Related Agencies, fellow educators and 
colleagues.
    I am Maggie Hanohano, the project coordinator of Pihana Na 
Mano, which means the special children, the gathering of 
special children which is also the Native Hawaiian Special 
Education Project.
    The primary mission of Pihana Na Mamo is to deliver 
educational services to children and youth of Hawaiian ancestry 
with special needs that result in improved outcomes.
    The vision of Pihana Na Mamo is to affirm and promote 
numerous positive, varied and mutually supportive opportunities 
and experiences and partnerships with the school, family and 
community so that students are rooted in their culture, are 
contributing members of society, and empowered to set and 
pursue their goals.
    The funds provided through the Native Hawaiian Education 
Act have allowed us to implement the intensive instructional 
programs and supports necessary for our Hawaiian students with 
special needs to be successful members of their families and 
community.
    We have submitted written testimony including student 
demographic data and project evaluations. We have also included 
a summary of our project activities.

                           prepared statement

    At this time I would like to introduce Ms. Jan Yoneda, the 
principal at Haleiwa Elementary School, followed by Katherine 
Arnold, a Title I teacher as well as our reading teacher and 
trainer at Pahala Elementary and Ka'u High School, then Maryann 
Nakama, parent involver from Hana High and Elementary.
    Senator Inouye. Thank you.
    [The statement follows:]
                  Prepared Statement of Maryann Nakama
    Aloha Senator Inouye, Senator Akaka, memberas and staff of the 
Subcommittee on Labor, Health and Human Services, Education and Related 
Agencies, educators and fellow colleagues. My name is Maryann Nakama 
and I reside on the island of Maui in the remote Hawaiian Community 
called Hana. I am a parent involver for Pihana Na Mamo: The Native 
Hawaiian Special Education Project at Hana High and Elementary.
    My goal is to improve awareness of community service and also to 
improve relationships between parents, students and the school.
    I help parents to understand the special education process, by 
empowering them to get ``active'' in school for involvement is very 
special to their child's education. The parent support group has grown 
from 3 to 35. They have monthly meetings to help one another out and 
give support in planning for the Individualized Education Plan (IEP).
    Our school is thankful to Pihana Na Mamo for the support and 
training in the Literacy Program called Direct Instruction Reading, 
Project Heluhelu. This year will be the second year of the program and 
we look forward to showing great progress.
    More parents are getting involved in the workshops at Keanae and 
Hana, especially in grades K-3. They have pride in seeing their child 
succeed, but our keiki's success comes in achievement and seeing goals 
being met. This is just so heart warming. We've instilled in our 
parents that ``if your child can read your child will succeed in 
life.''
    I also had a few parents approach me about doing a community 
service project to rebuild our leaky bus stop. It rains every day in 
Hana and the children would get wet waiting for the bus. The bus stop 
resembled a chicken coop. I wrote a letter to the Mayor of Maui County 
requesting materials to rebuild the bus stop. With the help of kupuna, 
parents and keiki, the bus stop was rebuilt. All this was done with 
safety and security in mind as the children worked along side the 
elders. As a result of working as an 'ohana, the community has bonded 
together. We have pride in what we have built.
    While the project was going on Hawaiian values such as malama, 
``take care,'' and aloha were being instilled in our keiki. Till today, 
the bus stop is graffiti free and the parent and children maintain the 
grounds around the bus stop.
    It is an honor and pleasure to work for Pihana Na Mamo because I 
know that I am helping people in my community and enjoying the success 
of watching our children grow in love and respect for one another.
    Mahalo Senator for your continued support of Pihana Na Mamo.
STATEMENT OF JANICE G.K. YONEDA, PRINCIPAL, HALEIWA 
            ELEMENTARY SCHOOL
    Senator Inouye. I think we have a mistake on our schedule 
here. May I now call upon the principal, Ms. Janice G.K. 
Yoneda.
    Ms. Yoneda. Yes, it is.
    Senator Inouye. That's correct.
    Ms. Yoneda. Yes. Thank you, Senator Inouye and Senator 
Akaka for this opportunity to speak on matters relating to the 
special education needs of Native Hawaiians. I'm Jan Yoneda a 
part-Hawaiian and the Principal of Haleiwa Elementary School.
    Our school has been a community fixture for the last 129 
years. It first began as a Hawaiian speaking school to service 
Hawaiian children. It serviced the northshore communities from 
Mokuleia to Waimea. Today, however, the school's community has 
shrunk to the Haleiwa-Waialua boundaries. Our community is 
close-knit but economically depressed.
    The mainstay of our local economy was the Waialua Sugar 
Mill. In 1996, its 14,234 acres of sugar cultivation was shut 
down permanently. Many of its employees were forced into 
retirement, moved away to acquire other forms of income or have 
remained unemployed and unproductive.
    The unemployment rate in our Haleiwa-Waialua area is over 6 
percent, a relatively high indicator as compared to the rest of 
O'ahu's communities.
    Rising percentages of families on welfare assistance, 
victims of violent crimes and growing numbers of single-parent 
families are indicators of the negative changes our community 
is currently experiencing.
    Our school's culture, population and current services and 
programs have also been directly impacted by these external 
factors.
    For instance, the 5 years that I have been at Haleiwa 
Elementary the population has dropped from 520 to approximately 
344 students today. Three major reasons why families have left 
the school in the community:
    First, to seek better opportunities for jobs.
    Second, to escape the overcrowded conditions of the core 
family household.
    Third, to get closer to the education health and welfare 
programs and services in the urban areas.
    Haleiwa Elementary is one of three schools in the Waialua 
complex. Our total population of 344 represent 32 percent of 
Hawaiian, part-Hawaiian ancestry students.
    Of the total Special Ed population of 64 students we have 
40 percent of Hawaiian and part-Hawaiian ancestry. Significant 
numbers of our students are being identified earlier as having 
special needs.
    We anticipate that the pre-school, the newly entering 
kindergarten children, along with the influx of transient 
populations will push our numbers even higher in the next few 
years.
    Pihana Na Mamo, a Native Hawaiian Special Education Project 
for children of Hawaiian and part-Hawaiian ancestry at our 
school and other schools in the State of Hawaii has continued 
to provide valuable support.
    The project is child-centered, service oriented and an 
integral part of our school's Comprehensive School Support 
System. Direct instruction to these disadvantaged students of 
Hawaiian, part-Hawaiian ancestry in the schoolwide focused 
areas of reading, writing, and math occur daily through 
tutorial services that are financed by Pihana Na Mamo.
    Staff development training in curriculum and instructional 
strategies prepare all students to meet statewide standards an 
invaluable effort to address Dr. LeMahieu's emphasis on 
standards-based education.
    Consultative services and resources to parents, guardians 
by the project's trained parent involver have helped 
tremendously our community, our school and our parents.
    The primary indicator of education and social inequalities 
of a school system can be found in the disproportionate number 
of minority students within the special education programs.

                           prepared statement

    We have those kinds of numbers. However, it's imperative 
that school-based programs and programs such as Pihana Na Mamo 
provide disproportionate populations of Hawaiian, part-Hawaiian 
students enrolled in special needs service programs with a 
balanced array of opportunities for educational success. Pihana 
Na Mamo currently provides our school with the means to break 
patterns of intergenerational dependency and failure.
    Senator Inouye. Thank you very much, Ms. Yoneda.
    [The statement follows:]
                Prepared Statement of Janice G.K. Yoneda
    Thank you for this opportunity to speak on matters relating to the 
special education needs of Native Hawaiians. My name is Janice GK 
Yoneda, a part Hawaiian and the Principal of Haleiwa Elementary. Our 
school has been a community fixture for the last 129 years, servicing 
the north shore communities, from Mokulela to Walmea. Today, our 
school's community has shrunk to the Haleiwa-Walalua boundaries. The 
Haleiwa-Walalua community is close-knit but economically depressed. The 
mainstay of our local economy was the Walalua Sugar Mill. In 1996, it's 
14,234 acres of sugar cultivation was shut down permanently. Many of 
it's employees were forced into retirement, moved away to acquire other 
forms of income or have remained unemployed and unproductive. The 
unemployment rate in the area is over 6 percent, a relatively high 
indicator as compared to the rest of O'ahu's communities. Rising 
percentages of families on welfare assistance, victims of violent 
crimes and growing numbers of single parent-families are indicators of 
the negative changes our community is currently experiencing. Our 
school's culture, population and current services and programs have 
been directly impacted by these external factors.
    Since coming to Haleiwa Elementary in 1995-96 school year, I've 
seen the population drop from 520 to today's student population of 344. 
Informal inquiries reflect three major reasons why families have left 
the school and community: (1) to seek better jobs; (2) to escape 
overcrowded conditions in the core family household; and/or (3) to get 
closer to educational, health and welfare programs and services.
    Haleiwa Elementary is one of three schools in the Walalua Complex. 
The Walalua-Hale'lwa schools have the distinction of having the second 
largest population of Hawaiian/part Hawaiian students, besides Alea and 
Wahlawa schools in Central District. Walalua Elementary and the Walalua 
High and intermediate schools reflect similar population patterns as we 
do. Out of our total population of 344 at Hale'lwa Elementary, 32 
percent or 110 students are of Hawaiian, part-Hawaiian ancestry. Of our 
total Special Education population of 64 students, the Hawaiian/part 
Hawaiian students represent 40 percent. Significant numbers of students 
with Hawaiian/part Hawaiian ancestry are being identified earlier as 
having special needs which is the reason why our numbers in Grades K 
through three have steadily increased. We anticipate that pre-school, 
newly entering kindergarten children along with the influx of transient 
populations will push our numbers even higher in the next few years.
    Plhana Ma Mamo, a Native Hawaiian Special Education Project for 
children of Hawaiian, part Hawaiian ancestry at Haleiwa Elementary and 
many other schools in the State of Hawaii has continued to provide 
valuable support. The project is child-centered, service oriented and 
an integral part of our school's Comprehensive School Support System. 
Direct instruction to disadvantaged students of Hawaiian, part Hawaiian 
ancestry in the school-wide focused areas of READING, WRITING, MATH 
occur daily through tutorial services. Staff development training in 
curriculum and instructional strategies that prepare all children to 
meet statewide standards, is invaluable to our efforts to address Dr. 
Le Mahleu's emphasis on Standards-based Education for the Department of 
Education, State of Hawaii; consultative services and resources to 
parents/guardians by the Project's trained Parent involver helps to 
improve communications and strengthens the partnerships among school, 
home and community agencies, Educational programs, workshops and 
training on topics which directly affect achievement for all 
generations have increased family awareness of community services, 
support of school and home work, SPED processes and rights and has even 
provided some with motivation to seek additional learnings.
    The primary indicator of educational and social inequalities of a 
school system can be found in the disproportionate number of minority 
students within the special education programs (Dunn, 1978). Cursory 
review of existing data available reflect certain patterns of over-
representation of students of Hawaiian and part Hawaiian ancestry in 
the mild disabilities categories a similarity to those of other 
minority groups. Additionally, there is strong evidence that the 
mismatch between the Hawaiian, part Hawaiian and school-majority 
cultures (e.g., middle-class norms) has led to feelings of alienation, 
disenchantment and frustration with schools.
    Negative stereotypes, poor self-images and lack of educational 
achievements have often prevailed among students of Hawaiian, part 
Hawaiian ancestry. These patterns of failure are recurring themes for 
several generations of Hawaiians and part Hawaiians. It's imperative 
that school based programs and programs such as Plhana Na Mamo, provide 
disproportionate populations of Hawaiian, part Hawaiian students 
enrolled in special needs service programs with a balanced array of 
opportunities for educational success. Plhana Na Mamo currently 
provides Haleiwa Elementary with the means to break patterns of 
intergenerational dependency and failure.
STATEMENT OF CATHY LILIAOKALANI KASPAROVITCH ARNOLD
    Senator Inouye. May I now call upon Mrs. Arnold.
    Ms. Arnold. Aloha mai kakou. My name is Cathy Liliaokalani 
Kasparovitch Arnold. I am a part-Hawaiian teacher from the 
island of Hawaii and Title I coordinator at Ka'u High and 
Pahala Elementary, a K-12 school in the rural district of Ka'u.
    Our student body is approximately 40 percent Hawaiian and 
part-Hawaiian, 40 percent Filipino and 20 percent other 
ethnicity.
    The school has been a chronically low achieving school in 
reading, math and has experienced a fairly high rate of teacher 
turnover especially within the last 5 years.
    This school year will mark the second year of our Direct 
Instruction Reading Project, Heluhelu Pono. Pihana Na Mamo has 
provided on site training and implementation assistance for our 
teachers in grades K-11.
    As a teacher who also sits on the Hawaii Island Native 
Hawaiian Education Island Council our participation, our 
school's participation in this reading project is the result of 
connections connecting with Pihana Na Mamo through the Native 
Hawaiian Education Council.
    At the end of our first year of implementation results of 
criterion referenced assessment and standardized achievement 
tests are very encouraging as scores on these measures showed 
improvement.
    Throughout this past school year our teachers began to 
notice a difference in the way our students viewed themselves 
as readers, especially those students in grade one to three who 
were not reading at all.
    In addition we had two seniors who tested out as beginning 
readers. They were in special ed. They began to read for the 
first time in their careers. And they will be coming back next 
year for an additional year of schooling. This was a decision 
that was made by the students and their families to return to 
school for another year.
    For this second year Pihana Na Mamo is providing more in 
depth training and will assist school site coordinators with 
teacher observations, assessment measures and peer coaching.
    The design and delivery of this Direct Instruction Reading 
approach seems to work well within the context of our students, 
our school and our place. We are excited and look forward to 
our continued association with Pihana Na Mamo. Mahalo.
    Senator Inouye. Thank you very much. Our next witness will 
very likely give the best assessment of the good or bad of your 
program. May I call upon Ms. Maryann Nakama.
STATEMENT OF MARYANN NAKAMA
    Ms. Nakama. Aloha.
    Senator Inouye. Aloha.
    Ms. Nakama. Senator Inouye, Senator Akaka. My name's 
Maryann Nakama and I reside on the island of Maui in the remote 
Hawaiian community called Hana. I'm a parent involver for the 
Native Hawaiian Special Education Project called Pihana Na Mamo 
at Hana High and Elementary School.
    My goal is to improve awareness of community service and 
also to improve relationships between parents, students and 
their school. I help parents understand the special education 
process by empowering them to get active in school, for 
involvement is very special to their child's education.
    The parent support group has grown from 3 to 35. They have 
monthly meetings to help one another out and give support in 
the Individualized Education Plan called IEP.
    Our school is thankful to Pihana Na Mamo for the support 
and training in the literacy program called Direct 
Instructional Reading. The Heluhelu Project that is in our 
school is in the second year. We've shown great progress.
    More parents are getting involved in the workshops at 
Keanae and Hana, for grades K-3. They have pride in seeing 
their child succeed. But our keiki's overall success comes in 
achievement and seeing goals being met. This is just so heart 
warming. We've instilled in our parents that, ``If your child 
can read your child will succeed in life.''
    I also had a few parents approach me about doing a 
community service project to rebuild a bus stop which was 
greatly needed. It rains every day in this community and their 
bus stop resembled a chicken coop.
    I wrote a letter to the mayor of Maui County requesting for 
the material to build a new bus stop. With the help of our 
senior citizens, our kupuna, our parents and our children the 
bus stop was built.
    All this was done with the safety and the security of the 
keikis in mind who often got wet while waiting for their bus. 
The community has gotten much closer, the parents, the 
children, and they have pride in what they have built.
    While this project was going on Hawaiian values such as 
malama, to take care, was instilled on the children. Till today 
there is no graffiti and the parents and the keikis take care 
of the grounds around the bus stop.
    It is an honor and a pleasure to work with Pihana Na Mamo 
because I know that I am helping the people in my community. 
Thank you.
    Senator Inouye. Thank you very much. Ms. Hanohano, with 
that assessment I think your program will continue. [Laughter.]
    Well, I want to thank all of you ladies. But I was sad in 
listening to Ms. Yoneda, the principal of Haleiwa. Is Haleiwa 
becoming a ghost town? I go there and I see a lot of activity 
but your numbers seem to indicate that people are leaving there 
in droves.
    Ms. Yoneda. I think for the Haleiwa section of the Haleiwa-
Waialua community we have been experiencing a lot of change in 
the community. And so different kinds of reasons why people are 
exiting.
    There are also people who are returning. But they're of 
different age groups. So the statistics that I showed you or 
shared with you is about my student population at the school.
    At one time the school had over 2,000 students in the 
1900s. Today it is a very small school. But the Department of 
Education assures me that the population projections will even 
out.
    Senator Inouye. Well, if they begin cutting down your funds 
you let me know.
    Ms. Yoneda. I sure will.
    Senator Inouye. Well, Ms. Arnold, I'm optimistic as a 
result of your testimony that things are perking up there. The 
teachers are happy and the students are happy.
    Ms. Arnold. Thank you. I remember when you came to speak at 
our graduation. We too have suffered the closure of our 
plantation and high unemployment.
    This reading program has been very beneficial. We have only 
done it for a year but the results are exciting and we want to 
continue with this program.
    Senator Inouye. About 20 years ago I gave the commencement 
address.
    Ms. Arnold. I remember. I was there. You gave a good one.
    Senator Inouye. I gave a good one?
    Ms. Arnold. Yes, very.
    Senator Inouye. Thank you. Well, Ms. Hanohano, do you have 
anything else to add? You should say you're going to keep it 
up. Aren't you?
    Ms. Hanohano. Well, thank you very much for all of your 
support. It really is our teachers and staff that help to keep 
the project going because is an ownership by the community.
    Senator Inouye. Well, if it weren't for the testimony of 
Ms. Nakama your future may have been in question. [Laughter.]
    Thank you very much, ladies. Senator Akaka, I'm sorry. Now 
we come to the final panel. The President and Chief Executive 
Officer, Alu Like, Ms. Tara Lualani McKenzie; the Executive 
Vice President of the Bernice Pauahi Bishop Museum, Mr. Patrick 
Duarte.
    Good to see you, Ms. McKenzie.
    Ms. McKenzie. It's very good to see you, Senator Inouye and 
Senator Akaka.
    Senator Inouye. Please proceed.
STATEMENT OF TARA LUALANI MC KENZIE, PRESIDENT AND 
            CHIEF EXECUTIVE OFFICER, ALU LIKE, INC.
    Ms. McKenzie. OK. You have my testimony before you. I'm 
going to summarize it because we have such a short amount of 
time. I'm sure you folks will appreciate that.
    I do have to make one comment. I am amazed that you folks 
can sit here this long and listen to all this testimony. I'm 
sure your stomachs are growling by now. I just really, really 
appreciate it. Very, very grateful for that.
    So again, aloha, Senators of the subcommittee in the Hawaii 
congressional delegation and staff. Again, my name is Tara 
Lulani McKenzie, president and CEO of Alu Like, Inc.
    I would like to preface my testimony, which is concentrated 
on unemployment and training, with the brief overview of Alu 
Like. As you know Alu Like was established in 1975 in order to 
assist Native Hawaiians to improve their social and economic 
conditions.
    They're currently 14 programs which fall under one of the 
following categories: Social development, educational 
development, career development and business economic 
development.
    Alu Like's programs are specifically designed to assist all 
age levels of Native Hawaiians and address the many challenges 
encountered from infancy to the aged.
    For every Native Hawaiian who learns a new work skill, 
seeks higher education, learns how to provide proper care and 
nutrition for a baby, learns to cope with life without 
narcotics, or learns to stay healthy and alert at an advanced 
age, the benefits of these life skills create feelings of self-
worth, responsibility and pride. These individuals are daily 
becoming more productive members of their families and 
communities.
    In fiscal year 1998 Alu Like provided 13,553 services to 
9,023 Native Hawaiians and touched the lives of over 50,000 
other Native Hawaiians through library services, workshops, 
community events.
    Alu Like's mission is to kokua Native Hawaiians who are 
committed to reaching their potential for themselves, their 
families and their communities.
    We see enormous areas of opportunity that will help Native 
Hawaiians reach their potential through the development of 21st 
century skills in combination with the indigenous culture of 
aloha that gives strength and a unity to our Native Hawaiian 
communities.
    I'd like to emphasize two very important points. That as I 
sat here and listened to the testimony of all the different 
organizations that serve Native Hawaiians in every different 
sector, I think there's two very important focuses that Alu 
Like is going to be involved in and I believe that all of the 
Native Hawaiian organizations should focus on.
    That is creating solid links, bridges, between Native 
Hawaiian culture and traditions and living in modern 
contemporary society today. This is one of the most important 
needs I believe in our institutions here in Hawaii, that 
ability to create those linkages and build those bridges.
    The second thing is collaborating and working together 
productively with other Hawaiian agencies, institutions and 
organizations. We must as Native Hawaiian organizations work 
together if we're really going to accomplish the kind of 
outcomes in our Native Hawaiian communities. So these will be 
the focus of Alu Like's efforts as we're moving into the new 
millennium.
    One of our largest and most important programs is Alu 
Like's employment and training program which is funded by the 
U.S. Department of Labor, Division of Indian & Native American 
Programs, the Job Training Partnership Act, titles II-B and IV-
A.
    In this particular program the target population is Native 
Hawaiians, American Indians, and Alaskan Natives with Alu Like 
primarily serving Native Hawaiians.
    There's essential need and training to provide employment 
and training services to Native Hawaiians who are the most 
underemployed, unemployed, economically disadvantaged ethnic 
group in the State of Hawaii, according to the 1990 United 
States census.
    Native Hawaiians are unemployed, underemployed and 
economically disadvantaged through lack of job opportunities, 
lack of training, education and layoffs. There are Native 
Hawaiians who need assistance with basic skill training, either 
obtaining their GEDs or increasing their reading and math 
levels.
    Before being considered for job placement our clients also 
need assistance with preemployment training such as producing a 
resume, preparing for an interview, filling out job 
applications, et cetera.
    So between 1990 and 1995 the unemployment rates in Hawaii 
rose from 3.5 percent to 5.9 percent. For Native Hawaiians 
unemployment in 1995 reached 10 percent. With unemployment 
rates on the neighboring islands reaching as high as 21.4 
percent on the island of Kaua'i.
    More I'm hoping that the Department of Labor here, the 
State local department can get you more recent figures which I 
think will pretty much match this as we are still in fairly 
difficult economic times here.
    Also according to the 1990 census data 14.1 percent of 
Native Hawaiian families have income below the Federal poverty 
level compared to the statewide average of 6 percent.
    In fiscal year 7/1/98 to 6/30/99 the Alu Like employment 
and training program worked with over 1,800 adults and 2,000 
youth in job training, skills development, classroom study and 
employment placement. The program had a 73 percent job 
placement rate or 760 placements with an average cost per job 
placement of $1,499.
    We use a formula called return on investment in our 
research and evaluation unit which helps figure what kind of 
benefit accrues to the state when they support and/or Federal 
Government when they support these kinds of programs.
    In these calculations there was a 1,062-percent return on 
investment with a 12,989,000 total net gain to the public 
through our employment training and program in the last fiscal 
year.
    Our follow up report shows that of the 911 clients that we 
tracked in the last fiscal year over 50 percent are still 
employed, we are happy to report.
    In summary, the continued funding for our adult and youth 
programs will enable Alu Like to continue assisting our Native 
Hawaiians in job development, skill training and employment.
    Furthermore, Native Hawaiians will be provided the services 
in a culturally sensitive environment that has proven to be 
more successful than environments that lack the culture and 
holistic we are able to provide at Alu Like.
    I have my testimony in several different sheets. So, 
Senators, your support for the Indian and Native American 
programs under the Workforce Investment Act in fiscal 2000 
appropriation bill for the U.S. Department of Labor is 
encouraged and greatly appreciated.
    Section 174(a)(2)(A) reserves not less than $55 million for 
the Indian and Native American Comprehensive Workforce Services 
Program under section 166. However, the U.S. Department of 
Labor administration failed to request funding at the level the 
law requires.

                           prepared statement

    So we humbly ask your support of not less than 55 million 
for the Indian and Native American programs as provided in the 
Workforce Investment Law.
    Again, mahalo nui loa for the opportunity to provide 
testimony.
    Senator Inouye. Thank you very much, Ms. McKenzie.
    [The statement follows:]
               Prepared Statement of Tara Lulani McKenzie
    Aloha Senators of the Subcommittee and the Hawaii Congressional 
Delegation. My name is Tara Lulani McKenzie, President and CEO of ALU 
LIKE, Inc. I appreciate this opportunity to present testimony to the 
Senate Appropriations Committee, Subcommittee on Labor, Health and 
Human Services, Education and Related Agencies. I would like to preface 
the focus of my testimony, which is employment and training, with a 
brief overview of ALU LIKE, Inc. and our goals for the 21st century.
    ALU LIKE, Inc. was established in 1975 in order to assist Native 
Hawaiians to improve their social and economic conditions. There are 
currently fourteen programs which fall under one of the following 
categories: Social Development, Educational Development, Career 
Development, and Business/Economic Development. ALU LIKE's programs are 
specifically designed to assist all age levels of Native Hawaiians and 
address the many challenges encountered from infancy to the aged. For 
every Native Hawaiian who learns a new work skill, seeks higher 
education, learns how to provide proper care and nutrition for a baby, 
learns to cope with life without narcotics, or learns to stay healthy 
and alert at an advanced age--the benefits of these ``life skills'' 
create feelings of self-worth, responsibility, and pride. These 
individuals are daily becoming more productive members of their 
families and communities.
    In fiscal year 1998, ALU LIKE provided 13,553 services to 9,023 
Native Hawaiians and touched the lives of over 50,000 other Native 
Hawaiians through library services, workshops, community events, etc. 
(ALU LIKE, Inc. 1998 Annual Report). In order to have greater impact in 
the community and a higher instance of long-term quality outcomes for 
those we serve, ALU LIKE is in the process of reorganizing itself into 
family multi-service centers on each island that focus on educational 
services, family services, and business & employment services. The goal 
is to provide the client and his/her family with a more holistic 
approach to services in addition to operating more effectively and 
productively.
    ALU LIKE's mission is ``to kokua Native Hawaiians who are committed 
to reaching their potential for themselves, their families and 
communities.'' We see enormous areas of opportunity that will help 
Native Hawaiians reach their potential through the development of 21st 
century skills in combination with the indigenous culture of aloha that 
gives strength and unity to our Native Hawaiian communities.
    Two important initiatives will accompany our efforts and be 
emphasized as we move into the new millenium: (1) creating solid links 
between Native Hawaiian culture and traditions and the contemporary 
society we live in today; and (2) collaborating and working together 
productively with other Hawaiian agencies, institutions, and programs.
    ALU LIKE's future goals are to expand into an organization that is 
innovative and self-reliant, while keeping our mission at the forefront 
of everything we do. ALU LIKE has several new initiatives which are 
designed to take us into the 21st century. The Hawaii Technology 
Institute, one of ALU LIKE's subsidiary non-profits, is in the process 
of becoming accredited. It will be the first accredited ``native 
school'' in Hawaii developed, operated, and staffed by Native 
Hawaiians. Two subsidiary for-profits also have been formed for the 
purpose of providing greater economic self-sustainability for the 
organization. Through these for-profits and partnerships with mainland 
companies, ALU LIKE has the potential to bring light manufacturing to 
Hawaii with two initial products. The organization has upgraded its 
entire information network system and will continue to adopt more 
effective uses of technology for both our employees and the broader 
Native Hawaiian community through processes like video-conferencing, 
internet enabled technologies, and distance learning. Finally, ALU LIKE 
is developing the Hawaii Leadership Center, a world-class leadership 
center, committed to preparing people for leadership roles in all 
sectors of society.
    While ALU LIKE and other Hawaiian organizations have certainly made 
progress over the years, there is still work to be done to facilitate 
Native Hawaiian self-sufficiency. Native Hawaiian communities still 
remain disenfranchised and in need of continued assistance. While ALU 
LIKE plans for the future and prepares itself for greater self-
sufficiency, it currently relies on federal assistance to support the 
majority of its programs. One of the greatest needs in the Native 
Hawaiian community, and often the core of many other problems, is 
becoming trained and employed in meaningful work. One of our largest 
and most important programs is ALU LIKE's Employment & Training program 
funded by the U.S. Department of Labor, Division of Indian & Native 
American Programs, Job Training Partnership Act, Titles II-B and IV-A.
    Your support for the Indian and Native American Programs under the 
Workforce Investment Act (WIA) in the Fiscal 2000 appropriations bill 
for the United States Department of Labor (USDOL) is encouraged and 
greatly appreciated. Section 174(a)(2)(A) reserves not less than $55 
million for the Indian and Native American comprehensive workforce 
services program under Section 166. However, the USDOL Administration 
failed to request funding at the level the law requires. We humbly ask 
your support of not less than $55 million for the Indian and Native 
American Programs as provided in the WIA law.
    Again, mahalo nui loa for the opportunity to provide comment.
STATEMENT OF PATRICK DUARTE, EXECUTIVE VICE PRESIDENT, 
            BERNICE PAUAHI BISHOP MUSEUM
    Senator Inouye. Mr. Patrick Duarte.
    Mr. Duarte. Aloha, Senator Inouye, Senator Akaka, we 
appreciate the opportunity to testify. My name is Pat Duarte. 
I'm the executive vice president for Bishop Museum. I'm 
testifying on behalf of Dr. Donald Duckworth, president of the 
museum who is currently on the mainland.
    My testimony will focus on the need to provide training 
opportunities for Native Hawaiians in archaeology and cultural 
specialist positions.
    Since its founding in 1889 Bishop Museum has been dedicated 
to the preservation and interpretation of the natural and 
cultural history of Hawaii and the Pacific. Over the years 
we've acquired nearly 24 million items for our collections, 
enabling us to tell the full story of Hawaii and the Pacific.
    The Native Hawaiian cultural collections include 2.6 
million objects, archaeological specimens and variety of 
materials in the archives and library collections.
    The collections of Bishop Museum are recognized 
internationally as the finest, most comprehensive record of 
life in Hawaii and the Pacific. Very simply stated Bishop 
Museum's role is to collect stories and to tell stories.
    Behind every artifact and specimen there is a story. The 
Museum's exhibits and educational programs provide a venue for 
us to share those stories linking our past to the present and 
future.
    In continuing to record the stories of the Native Hawaiian 
culture it is important to have individuals who are 
educationally prepared to conduct studies using state-of-the-
art methods.
    Archaeology is founded on the principles of accurate 
observation, recording, interpretation and presentation of 
information.
    Courses in the history and theory or archaeology provide 
training crucial to the interpretation of the archaeological 
record, as does knowledge about traditional history.
    Unfortunately, there are relatively few Native Hawaiians 
currently trained as archaeologists. As a result, the cultural 
expertise and cultural sensitivity of Native Hawaiians are 
often unintentionally missing in local archaeological studies.
    Based on a recent informal survey, only five practicing 
Native Hawaiians, archaeologists with master's degree 
credentials could be identified. It is important for Native 
Hawaiians to not only be involved in the archaeological 
research taking place in Hawaii but also to lead the research 
efforts.
    The accumulation of knowledge and collections at Bishop 
Museum and other organizations are meaningless if they are not 
shared with the community. Therefore, we need people to tell 
the stories of Hawaii in order to perpetuate the values, 
traditions and achievements of Native Hawaiians.
    Over 60,000 school children visit Bernice Pauahi Bishop 
Museum each year. They experience first-hand the stories of a 
culture with a tradition of exploration, an amazing 
understanding of the natural environment and an excellence in 
music and dance. This legacy is the source of great cultural 
pride so important to the future of young Hawaiians.
    These stories are most meaningful when told by Native 
Hawaiians trained as cultural specialists speaking about their 
own heritage.
    In addition to the local resident population, the stories 
of Hawaii are important to our number one industry--tourism. 
The industry needs trained specialists who can best tell the 
stories to our visitors so they can fully appreciate our 
beautiful State, its host culture and its people.
    Bishop Museum's goal is to staff our collections, education 
and research programs with Native Hawaiians in leadership 
positions. Kamehameha's golden feather cloak, the sacred sash 
of Liloa, the coronation gown of Lili'uokalani and many other 
items of importance should be cared for and made accessible by 
Native Hawaiian museum professionals.
    The great voyages of exploration taken by Hawaiians in the 
past and present, the wisdom of the kupuna in land management 
and conservation should be told by Native Hawaiians.
    The Museum's anticipated new Science Learning Center should 
include Native Hawaiians telling us how this traditional 
knowledge base will prepare us for our future on earth and in 
space.
    In order to achieve this we need trained individuals with 
credentials that will meet both the requirements of State and 
Federal historic preservation laws and traditional cultural 
standards.
    The University of Hawaii system is already providing the 
academic training required for both archaeologists and cultural 
specialists. Bishop Museum proposes to develop in cooperation 
with the University an internship program that offers students 
the opportunity to receive practical experience working with 
anthropologists and cultural specialists. The program would 
also expose students to the Museum's collections and stories 
associated with the collections.
    Bishop Museum would also seek opportunities to develop 
exchange programs where interns could train at other informal 
education centers such as the Native Alaskan Heritage Center in 
Anchorage and the Peabody Essex Museum in Salem, Massachusetts.
    Programs such as these will broaden the educational 
experience of all those involved. These internships will ensure 
that Bishop Museum and the State of Hawaii will have 
academically trained specialists and archaeologists who also 
have the cultural expertise and sensitivity needed for this 
field of work.

                           prepared statement

    Thank you, Mr. Chairman for allowing us to testify in 
support of the committee's efforts to develop initiatives that 
will provide the State of Hawaii with important educational and 
training opportunities for Native Hawaiians. Mahalo.
    Senator Inouye. I thank you very much.
    [The statement follows:]
                  Prepared Statement of Patrick Duarte
    Thank you, Mr. Chairman and distinguished members of the Committee, 
for providing us the opportunity to testify on matters relating to 
Native Hawaiian education, employment and training. My name is Patrick 
J. Duarte, Executive Vice President of Bishop Museum, and I am 
testifying on behalf of Dr. Donald W. Duckworth, President of Bishop 
Museum, who is on the mainland. My testimony will focus on the need to 
provide training opportunities for Native Hawaiians in archaeology and 
cultural specialist positions.
    Since its founding in 1889, Bishop Museum has been dedicated to the 
preservation and interpretation of the natural and cultural history of 
Hawaii and the Pacific. Over the years we have acquired nearly 24 
million items for our collections enabling us to tell the full story of 
Hawaii and the Pacific. The Native Hawaiian cultural collections 
include 2.6 million objects, archaeological specimens, and a variety of 
materials in the archives and library collections. The collections of 
Bishop Museum are recognized internationally as the finest, most 
comprehensive record of life in Hawaii and the Pacific.
    Very simply stated, Bishop Museum's role is to collect stories and 
to tell stories. Behind every artifact and specimen is a story. The 
Museum's exhibits and educational programs provide a venue for us to 
share those stories--linking our past to the present and future.
    In continuing to record the stories of the Native Hawaiian culture, 
it is important to have individuals who are educationally prepared to 
conduct studies using state-of-the-art methods. Archaeology is founded 
on the principles of accurate observation, recording, interpretation, 
and presentation of information. Courses in the history and theory of 
archaeology provide training crucial to interpretation of the 
archaeological record, as does knowledge about traditional history. 
Courses in fieldwork, analyses of cultural materials, use of equipment 
such as laser theodolites and Global Positioning Systems, and the 
design of websites provide hands-on experience useful in observing, 
recording, and presenting the story of the past. In a fast-paced, 
technological world, archaeologists increasingly use sophisticated 
software and equipment to accomplish their research.
    Few areas of the world have living links to those who created the 
archaeological record. The State of Hawaii is one region which is 
fortunate to have living descendants and a rich traditional history. 
However, there are relatively few Native Hawaiians currently trained as 
archaeologists. As a result, the cultural expertise and cultural 
sensitivity of Native Hawaiians is often unintentionally missing. Based 
on a recent informal survey, only five practicing Native Hawaiian 
archaeologists with master's degree credentials could be identified. It 
is important for Native Hawaiians to not only be involved in the 
archaeological research in Hawaii, but also to lead the efforts. Issues 
arising out of past archaeological projects, demonstrate a need to have 
individuals who are academically prepared and culturally knowledgeable. 
The best candidates for earning that credibility and respect from the 
community are those who are personally connected to the culture.
    The accumulation of knowledge and collections at Bishop Museum and 
other organizations is meaningless if they are not shared with the 
community. We need people to tell these stories of Hawaii. The values, 
traditions and achievements of Native Hawaiians brought to life by 
stories are vital to sustaining life here in Hawaii. Over 60,000 school 
children visit the Bernice Pauahi Bishop Museum each year. They 
experience first-hand the stories of a culture with rich traditions of 
exploration, an amazing understanding of the natural environment, and 
an excellence in music and dance. This legacy is the source of great 
cultural pride so important to the future of young Hawaiians. These 
stories will best be told by Native Hawaiians trained as cultural 
specialists speaking about their own heritage.
    In addition to the local resident population, the stories of Hawaii 
are important to our number one industry--tourism. The industry needs 
trained specialists who can best tell the stories to our visitors. It 
is important that our visitors fully appreciate our beautiful state, 
its host culture and its people.
    Bishop Museum has always supported the education, training, and 
employment of Native Hawaiians. The Museum was in fact founded on the 
grounds of the Kamehameha Schools and was intended to enhance the 
education and pride of Native Hawaiian children. In its 110 year 
history Bishop Museum is proud to have counted among its employees 
Hawaiian culture specialist Dr. Mary Kawena Pukui, the author of the 
Hawaiian dictionary, and Maori scholar and Hawaiian culture specialist 
Dr. Te Rangi Hiroa (Peter Buck), the Museum's third director.
    Bishop Museum's goal is to staff the Museum's collections, 
education, and research programs with Native Hawaiians in leadership 
positions. Kamehameha's golden feather cloak, the sacred sash of Liloa, 
the coronation gown of Lili'uokalani, and the many other items of 
importance should be cared for and made accessible by Native Hawaiian 
museum professionals. The stories of Hawaii's legacy of excellence in 
the Museum's historic Hawaiian Hall will be best told when they are 
personal stories by Native Hawaiians. The great voyages of exploration 
taken by Hawaiians in the past and present, the wisdom of the kupuna in 
land management and conservation, and the relationship of people to 
each other and the land and sea, should be told by Native Hawaiians. 
The Museum's anticipated new Science Learning Center should include 
Native Hawaiians telling us how this traditional knowledge base will 
prepare us for our future on earth and in space.
    In order to achieve this, we need trained individuals with 
credentials that will meet both the requirements of state and federal 
historic preservation laws and traditional cultural standards. The 
University of Hawaii system is already providing the academic training 
required for both archaeologists and cultural specialists. Bishop 
Museum proposes to develop in cooperation with the University an 
internship program that offers students the opportunity to receive 
practical experience working with anthropologists and cultural 
specialists. This program would also expose students to the Museum's 
collections and the stories. Archaeological staff from Bishop Museum 
have helped train Native Hawaiian students in fieldwork and cultural 
materials analyses and look forward to again form these partnerships. 
Bishop Museum would also seek opportunities to develop exchange 
programs where interns could train at other informal educational 
centers such as the Native Alaskan Heritage Center in Anchorage, and 
the Peabody Essex Museum in Salem, Massachusetts. Programs such as 
these will broaden the educational experience of all those involved. 
These internships will ensure Bishop Museum and the State of Hawaii 
with academically trained specialists and archeologists who also have 
the cultural expertise and sensitivity needed for this field of work.
    Thank you, Mr. Chairman, for allowing us to testify before the 
Senate Appropriations Subcommittee on Labor, Heath and Human Services 
and Education in support the Committee's efforts to develop initiatives 
that will provide the State of Hawaii with important educational and 
training opportunities for Native Hawaiians.

    Senator Inouye. Twenty-six years ago I was privileged to 
participate in discussions that led to the establishment of the 
statewide Alu Like, Incorporated. I must say it has brought 
back much pride to all of us here. It has brought much honor to 
Native Hawaiians.
    During the 24 years of your existence Alu Like has received 
countless recognition nationally for its excellence in 
performance. I can tell you that as one member of the 
congressional delegation it does me proud. I note in the 
audience we have two ladies who've played important roles in 
bringing about the success story: Ms. Winona Rubin. Please 
rise. [Applause.]
    And Haunani Apoliana. [Applause.]
    On behalf of the committee we thank you three ladies for 
carrying on this great tradition. If all the organizations and 
companies in Hawaii operated like Alu Like we'd be in great 
shape today.
    I want to thank Bishop Museum for participating in Native 
Hawaiian programs especially the cultural enhancement programs. 
The programs you did in the canoe building has done much for 
Native Hawaiians. It has, in many cases, not only restored but 
generated self-esteem identity to their ancestry. I hope you 
will keep it up. Give my best to your boss.
    Mr. Duarte. Thank you. I will.
    Senator Inouye. Senator Akaka.
    Senator Akaka. I also want to say mahalo nui loa. This has 
been an excellent hearing. Again I thank the 
c<plus-minus>hairman for having this hearing. It will, no 
question, help us with our future legislation. Aloha.
    Senator Inouye. With that may I announce that the record 
will be kept open for two weeks for those who have not 
testified and would wish to have their testimony made part of 
the record. Please feel free to do so.

                         conclusion of hearing

    Thank you all very much for being here, that concludes our 
hearing. The subcommittee will stand in recess subject to the 
call of the Chair.
    [Whereupon at 2:05 p.m. Monday, August 16, the hearing was 
concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


         MATERIAL SUBMITTED SUBSEQUENT TO CONCLUSION OF HEARING

    [Clerk's note.--The following material was not presented at 
the hearing, but was submitted to the subcommittee for 
inclusion in the record subsequent to the hearing:]
Prepared Statement of Leona M. Atcherley, Task Force Coordinator for Ka 
                                 na Ha
    Greetings: I am a native Hawaiian, as legally defined in the 
Hawaiian Homes Commission Act, 1920, as amended. As such, I am speaking 
in behalf of the race of 50 percent to 100 percent native Hawaiians who 
are the only class of native Hawaiians so defined that the United 
States government has a binding fiduciary and oversight responsibility 
for. Because we are the only race on earth who were given two 
constitutionally approved entitlements by the Congress of the United 
States: The Hawaiian Homes Commission Act of 1920, as amended, and the 
federal Hawaii Statehood Admission Act of 1959, in Section 5(f) known 
as the Public ``ceded'' Lands Trust.
    Both of the texts of those original Acts conclude with a so-called 
savings clause section that reads in the following manner: All Acts or 
parts of Acts, either of the Congress of the United States or of the 
State of Hawaii [amended from Territory] to the extent that they are 
inconsistent with the provisions of this Act, are hereby repealed. What 
this says is that the line in Section 4 of the Hawaii Statehood 
Admission Act that reads to the effect that the qualifications of 
lessees in the Hawaiian Homes Commission Act can be changed with the 
consent of Congress is null and void, that Act 37. Session Laws of 
Hawaii, 1994 and H.J. Res. 32--Public Law 105-21, June 27, 1997 to 
amend the successorship provisions of the original HHCA, 1920, as 
amended not only were unenforceable as such but are null and void as 
well.
    When the Hawaiian Homes Commission Act was created, Congress 
limited the benefits to those of 50 percent or more aboriginal blood 
[at the request of the native Hawaiians in the Territorial Legislature 
which appealed to the U.S. Senate Committee on the Territories which 
had stipulated that the quantum be set at 100 percent] to preserve that 
race of native Hawaiians. To genocidally, legislatively and 
demographically encourage the dilution of this race will, with 
certainty, result in its extinction.
    It is in the best interest of the United States and the native 
Hawaiians, with the help of Congress to gain financial access to seek 
the enforcement of their rights in the courts of the United States 
whenever those rights are threatened by any Act or legislation on the 
part of Congress or the State.
    Ka na Ha has battled mightily and consumingly during this past 
legislative session to combat the many bills that circulated easily 
between the Senate and House Committees, bills that would have forced 
Ka na Ha to seek injunctive and Civil Rights relief should any of its 
testimonial warnings were to remain unheeded. We are here to stay, and 
we won't go away. We are here to remind all lawmakers that wherever the 
above savings clause that remained in Title 48 when the Statehood 
Admission Act became law was shifted to, buried or hidden, it 
nevertheless retains the full effect of the law as it always did when 
the Hawaiian Homes Commission Act of 1920, as amended, was enacted.
    On April 15, 1920, U.S. Representative Curry of California, 
Chairman of the House Committee on the Territories, 66th Congress, 2nd 
Session, submitted Report No. 839 on the Rehabilitation of Native 
Hawaiians bill, H.R. 13500, by which the basis of an act to establish a 
Hawaiian Homes Commission were set forth for consideration. Page 11 of 
that report bluntly sets out the reasons why the legislation is based 
upon a reasonable and not an arbitrary classification and is thus not 
unconstitutional class legislation.
    During the hearings of the Senate Committee on the Territories, 
after all constitutional arguments and questions were considered, the 
consensus was that, indeed, such an act was constitutional.
    On July 9, 1921 the Act was enacted into law. ``Later, when the 
constitutionality of the Act was tested, Judge H.E. Stafford ruled: 
This Act is unquestionably constitutional, for the reason that a so-
called civilized nation has a moral obligation to see that an 
aboriginal race, over whose people and habitat they acquired 
jurisdiction and contract, be not exterminated.''
    Section 5(f) of the Hawaii Statehood Admission Act states ``that 
the lands granted to the State Of Hawaii by Section 5(b), (c), (d) and 
(e), together with the proceeds from the sale or other disposition of 
any such lands and the income therefrom, shall be held by said State as 
a public trust for five specific purposes . . . and their use for any 
other object shall constitute a breach of trust for which suit MAY be 
brought by the United States.''
    Four of the purposes involve use of the ceded lands for specific 
public benefits. The only purpose not specified for ``something'' of 
public use or value is the one for native Hawaiians ONLY!!! To wit: ``. 
. . for the betterment of the conditions of native Hawaiians, as 
defined in the Hawaiian Homes Commission Act, 1920, as amended . . .''
    When one proceeds to read Article XII of the State Constitution, 
1978, the first conflict and breach of trust is discovered in Section 4 
which states that the lands granted to the State ``by Section 5(b) of 
the Admissions Act . . . shall be held by the State as a public trust 
for native Hawaiians and the general public.'' Yet no where is the term 
general public or native Hawaiians and the general public stated in the 
Admission Act.
    The second conflict and breach of trust is discovered in Section 5 
which states: The Office of Hawaiian Affairs shall hold title to all 
the real and personal property now or hereafter set aside or conveyed 
to it which shall be held in trust for native Hawaiians and Hawaiians. 
Yet no where is the term Hawaiians or the expression native Hawaiians 
and Hawaiians stated in the Admission Act.
    The third and fourth disqualifications read as follows: There shall 
be a board of trustees for the Office of Hawaiian Affairs elected by 
qualified voters who are Hawaiians, as provided by law. So how did the 
native Hawaiians disappear all of a sudden? And what law? A phony law? 
A non-existent law? A fictitious law? Probably all three. The fifth 
disqualification: The board members shall be Hawaiians. They just take 
our lands and our moneys and kick us out. Because we don't exist in 
that phony election process. Together with fictitious Hawaiians on 
OHA's voting list, the native Hawaiians are easily outnumbered by more 
than a two to one ratio. Hence it is a foregone conclusion, clearly and 
blatantly stated in this State constitution, that the voters shall be 
Hawaiians and therefore the board members shall be Hawaiians. I do not 
fall under the definition of Hawaiian, whatever that is, but John 
Waihee and Frenchy DeSoto rigged these fictions, conflicts and breaches 
against the native Hawaiians very precisely, very expertly.
    In Section 6 the native Hawaiians are taken to the slaughterhouse 
again; we are being raped, plundered, and murdered in that paragraph in 
ways that complete the intentions begun in Sections 4 and 5, just as 
surely as they had let loose a veritable Nazi Holocaust against us. And 
we who were the sweet, soft, El Stupidos know-nots became the 
everlasting victims only now beginning to comprehend the evil, genocide 
and destruction that has always been waged against us, first, from the 
time of the enactment of the Hawaiian Homes Commission Act, and then 
the wicked capitalization and planning that followed the enactment of 
the Statehood Admission Act.
    I have strong news for the Solicitor General who falsely propounded 
that the United States government has a trust responsibility to ALL 
NATIVE HAWAIIANS as falsely defined by OHA--NOT!!!
    At this point I ask to end this part of my discourse and if the 
honorable Senator Inouye can permit, I would be glad to provide parts 
II and III of this continuing testimony which time does not permit me 
to offer with the foregoing text.
    But thank you far accepting what I have to offer at the moment.
                                 ______
                                 
    Prepared Statement of Kawaikapuokalani Hewett, Cultural Health/
             Education Specialist, Waimanalo Health Center
    Mr. Chairman, Members of the Committee, and Members of our 
Congressional Delegation: Malama I Ke Ola, the word malama translates 
to take care of or to attend. Other translations include to observe as 
a kapu or to honor as a god.
    Malama without the kahako over the first vowel translates as light, 
month and moon. Because of the kaona of words, both translations should 
be deemed pertinent to our understanding in healing traditions.
    The late kahuna Emma deFreis shared with me that the light of the 
moon symbolizes the nurturing love of a mother to her children. 
Likewise Hina, the goddess of the moon reflects all womanly kuleana.
    I find it fascinating that innately every mother is a healer. Her 
body creates antibodies that are passed on to her child through her 
breast milk. It is her antibodies that strengthen the immune system of 
her child. Because of this, breast-fed babies get fewer colds than 
bottle-fed babies.
    In addition, a mother's antibodies will instinctively mold to fight 
off the particular symptoms of her child's cold. Yet, the percentage of 
Hawaii's mothers that breast feed remains considerably low.
    Concerning:
                            malama i ke ola
  --If the ability to heal is in our capacity, why have we abandoned 
        such an essential healing tradition?
  --How can we restore our commitment to sustain life through the 
        perpetuation of our natural healing traditions?
    Concerning:
                              `imi ho`ola
    `Imi Ho`Ola, the Kahuna Ho`ohapai Keiki and the Kahuna Ho`Ohanau 
Keiki were practitioners whose kuleana were birthing and prenatal care. 
The health of the child was reflected through the health of the mother.
    The Kahuna Pa`Ao`Ao and the Kahuna `Ea were practitioners whose 
kuleana was the treating of inherited childhood diseases. All of these 
Kahuna were trained in the knowledge of La`Au Lapa`Au as they relied on 
traditional herbs and healing traditions to treat their patients.
                  i pa`a ke kino o ke keiki i ka la`au
    The body of the child is solidly built by the la`au or medicines. 
Our ancient mothers consumed herbs during pregnancy and nursing for the 
sake of the babies health. Herbs were continuously given to children 
throughout their teens to ensure health in their adult lives.
    The importance of health and the treating of illnesses were 
apparent through the extensive order of Kahuna or experts. Yet, today 
pregnant mothers are not likely to seek pre-natal care; and often 
times, young children do not receive proper immunization.
  --Why have we become so neglectful of our health and how do we 
        restore the reverence for our lives, our health and our well 
        being?
    Concerning:
                             hanai i ke alo
    Hanai I Ke Alo, as an infant develops a sense of sight, his 
attention begins to focus on his parents who become his primary role 
models. The child observes mommy and daddy and then begins a pattern of 
mimicking that will eventually become a part of the child's distinctive 
character.
    I Maika`I Ke Kalo I Ka `Oha, if the goodness of the kalo is judged 
by the young plants that it produces then will the parents be judged by 
the behavior of their children.
  --Will what the child observes and experiences become the child?
  --Will the addictive behaviors exhibited by parents in front of their 
        children be a cause of addiction?
  --Will the abusive behaviors displayed by parents in the presence of 
        their children be a cause of abusive behavior?
    Do we truly understand how our behaviors affect the development of 
our children; and how do we provide them with better experiences for a 
better quality of life?
    Concerning:
                              ku i ka mana
    Ku I Ka Mana, I stand in reflection of the Mana `Ai you have fed 
me. The food that you chewed for me as an infant was the food that 
nourished me.
  --If the Mana `Ai was good physical foods, then I would physically be 
        healthy.
  --If the Mana `Ai was good values and appropriate discipline, then 
        would know the difference between what is right and wrong; and 
        I would be able to make conscientious decisions.
  --If the Mana `Ai was aloha and I was nurtured and loved, I would 
        develop respect for myself and thus be able to respect others.
                              ku i ka mana

                       ``Was the Mana `Ai good?''

    Look at the health statistics, I think it reflects the truth. We 
are the largest impacted group in regards to high blood pressure, 
diabetes, cancer and heart disease. In regards to crime, statistics 
show that our numbers are great and growing in the juvenile and adult 
correctional facilities.
    Are the problems of our youth an indication of our own weaknesses? 
And, how do we restore the strength of the family unit and the 
importance of parenting?
    Concerning:

                    Ka ho`ohanohano ana o na Hawaii

                               ho`ola mau
    Ko Ke Akua Ha`I Amio, the gods speak through narrow channels. The 
gods determine to whom they wish to speak. Thus, the gods themselves 
founded the ancient lineage of Kahuna.
    Ko Ke Kahuna Ha`I Kupua, the Kahuna reveals the messages from the 
gods. It was the kuleana of the Kahuna to disseminate our values. Our 
traditions, our kapu and our culture, as interpreted by the GODS.
    Our culture then comes from within the Heiau or temple. It was the 
Kahuna who from the Heiau maintained our standards.
    Who then today interprets culture to be proper or appropriate? Who 
then living today was trained by a known Kahuna? What Kahuna lineage 
will prevail? Hewahewa?
    The question is, how do we restore the esteem associated with the 
enlightenment of the Kahuna?
    When my son needed open heart surgery because of a deformed aortic 
valve, I personally searched for the best open-heart surgeon in the 
State of Hawaii that I could find. I verified his track record of 
successful operations locally as well as out of state.
    Should we expect any less scrutiny of our Kahuna today?
    Concerning:
                                 haloa
    In accordance with the ancient pono of this `aina, Papahanaumoku 
the earth mother is recognized as a goddess. Through her was born the 
first Haloa, who expired at birth and was buried, near her dwelling. 
From his body grew forth the Kalo, the physical and spiritual 
sustenance of the Hawaii.
    The second born son of Papahanaumoku and Wakea the sky father, was 
Haloanakalaukapalili. He is esteemed in history as being the father of 
the human race. Although he is also recognized as the first divine 
king, his birth established mankind as the junior line in the order of 
succession through the creation.
    We may say we have respect for our traditions and we may say we 
have respect for our past, but is the `aina a manifestation of 
Papahanaumoku; and if so, how do we lay claim to the goddess? Are we 
the owners of the `aina-land or are we today the caretakers of our 
traditions?
                             he iwi, he iwi
                             he i`o, he i`o
                            he koko, he koko
    Being of the same bones, flesh and blood. Therefore, is the 
reference of the word, ``kuleana'' a reflection of how we perceive our 
own esteem.
  --If we interpret kuleana as land ownership and we have no land, then 
        do we have esteem?
  --If we interpret kuleana as lineage, then we all have parents, 
        grandparents and great grand ancestors. So, do we have esteem?
    Also,
  --Is our relationship with the `aina a kino lau of Papahanaumoku--the 
        earth mother a reflection of our relationship with our own 
        parents?
  --Is this relationship truly one of respect?
  --How do we restore the respect for the truth as established through 
        the creation of the land, the kalo and mankind?
    Concerning:
                             ko kakou pono
    Our integrity is directly linked to our `Aumakua. It is through the 
communication with our `Aumakua that we are enlightened, guided and 
protected. The channel of communication is the Moe Uhane or the dream.
    The balance of `Aumakua respect is reflected in the `olelo no`eau: 
Aloha Aku, Aloha Mai. Thus, as we give, we are given to. As I nurture 
my family and maintain the respect for the `aina or environment, the 
kalo from which poi is made and the kanaka or mankind, the `Aumakua 
will enhance my life.
    An integral responsibility of `Aumakua worship that is rarely 
discussed is their kuleana of punishment and compensation. When I 
offend my `Aumakua, I must mihi or apologize to reestablish my pono. 
The consequence of not seeking their forgiveness is to lose their 
support and communication.
    This is a challenge as most Hawaii see little value in their Pono! 
As we have come to a point in time where retribution is at the 
forefront of our minds and our efforts, how relevant is the `olelo 
no`eau- ``Aloha Aku, Aloha Mai.''
  --As a people do we seek spiritual receiving or material gain?
  --Where should our priorities be?
    Concerning:
                               ku lokahi
            `o ka po nui ho`olakolako, `o ke ao nui hemahema
    The guidance that is given in dreams are often times misunderstood 
and neglected by man.
    We are linked to our `Aumakua by the piko or cowlick at the back of 
our heads. This is where our kupuna sit as they dwell with us 
throughout our lives. This is why the head is kapu or sacred.
    To slap someone's head is to show great disrespect not only for his 
or her `Aumakua, but also for your own. To be disrespectful of your own 
`Aumakua in ancient times carried great consequence, often times the 
outcomes were illness and death. Is this philosophy still truth? Are 
our illnesses a reflection of our abusive behaviors to our families, 
others and to ourselves? We need the enlightenment of the `Aumakua to 
guide us in making the best possible choices to enhance our lives. If 
we cannot see our respect for life through the `Aumakua, how can we 
have respect for anything?
    We are the descendants of an ancient drug free and alcohol free 
people whose most esteemed value was `ohana. Harmony was maintained 
through ho`oponopono; and pule or prayers of permission and forgiveness 
were offered ritually.
    If we truly believe in the `Aumakua and the mana associated with 
respect for our ancestors, why do many of our people continue to make 
the wrong choices. We hear about these wrong choices that reflect 
crime, abuse and drugs; daily in the news.
    A healthy relationship with the spirits of our ancestors reflects a 
healthy relationship with our minds and our bodies. How then do we 
restore this tradition that reflects holistic health?
                       pu`ali kalo i ka wai `ole
    With lack of water the kalo grows misshapen.
    With lack of spiritual guidance, will the abuse in our lives 
continue?
    Ha`i `Olelo Pani:
    As I began my ha`i `olelo with an `olelo no`eau, allow me to 
summarize with another.
                   aia no ia `oukou ka pauku i waena
                           aia i hea ka po`o
                           aia i hea ka hi`u
    We today represent the middle section of the fish. It symbolizes 
the present. The head of the fish symbolizes the past, it is where we 
have come from. The tail of the fish symbolizes the future, it is where 
we need to go.
    If you don't know where you came from, how do you know where you 
are going to go. We must acknowledge the past for it was the head of 
the fish that brought us here. But, we must also acknowledge our future 
for the tail of that same fish is now pushing us forward.
                           i mua e na hawaii
                           e ku lokahi kakou!

                                 Mahalo

                                 ______
                                 
 Prepared Statement of Chiyome Leinaala Fukino, M.D., President, E Ola 
                                  Mau
    Honorable Daniel K. Inouye, Hearing Chair: I am Chiyome Leinaala 
Fukino, M.D., President of E Ola Mau, a nonprofit corporation of Native 
Hawaiian Health Care Providers dedicated to improving the health of 
Native Hawaiians. We are testifying in support of authorization of 
appropriations for fiscal years 2000 through 2010 for the Native 
Hawaiian Health Care Improvement Act.
    Since our incorporation in 1986, E Ola Mau has consistently 
advocated for culturally appropriate delivery of health care services 
to Native Hawaiians. The landmark study, from which our name is 
derived, documented for the first time the abysmal health status of 
Native Hawaiians in this our aina hanau (native land, birthplace). As a 
member of the Board of Papa Ola Lokahi, we have watched the struggling 
emergence of the Native Hawaiian Health Care systems. We continue to 
advocate for coordination of health care services between the Native 
Hawaiian Health Care Systems and other providers within Hawaii's health 
care community.
    Native Hawaiian health statistics continue to be collected by 
multiple agencies using widely disparate parameters. Uniform statewide 
ethnicity tagging has not been established. Current sources of data 
require 1 to 3 years for data compilation and publication, making 
timely health needs assessments and program outcomes reporting 
difficult. Nevertheless, more readily available death statistics 
underscore the continuing poor health status of Native Hawaiians.
    Our participation for more than a decade in numerous matters 
pertaining to Native Hawaiian health has culminated in the development 
of the E Ola Mau Native Hawaiian Health Statistics Database (NHHS). E 
Ola Mau believes that a unified relational database that includes both 
static and real-time data is essential in the planning of cost-
effective health related programs. The E Ola Mau NHHS Database 
introduces a standard data collection methodology. Our Database 
currently contains information from state and private sector published 
reports. We are working with some of the agencies that have published 
these reports to begin real-time data input and design customized 
output report layouts that facilitate rapid compilation, analysis and 
dissemination of collected data.
    E Ola Mau has designed a preliminary research program based on 
information contained in the NHHS Database to enter real-time data and 
longitudinally monitor critical outcomes data. The program monitors 
Hypertension, Diabetes Mellitus, Coronary Artery Disease, Congestive 
Heart Failure and Hyperlipidemia, five chronic illnesses which account 
for the majority of health care costs in both in-patient and out-
patient settings.
    The E Ola Mau Laau Lapaau Database contains information gathered by 
E Ola Mau over the past decade while working with Kupuna Laau Lapaau 
throughout the state of Hawaii. Published scientific research already 
done on identified laau is included in this Database which will serve 
as a resource for Western trained health care providers who treat 
Native Hawaiian patients who utilize traditional remedies.
    E Ola Mau recommends adoption of statewide uniform ethnicity 
tagging to improve the monitoring and assessment of Native Hawaiian 
health status. Current methods of ethnicity identification include a 
mixture of self-identification, surname, and ``eyeball'' recognition. 
Of the approximately 17,000 records included in the E Ola Mau NHHS 
Database, less than 5 percent are identified as Native Hawaiian 
statistics.
    While there is increasing awareness among academic and governmental 
agencies of the need for research, and service allocation for Native 
Hawaiian health, there is still much more work to be done in order to 
improve the health of Native Hawaiians. The Native Hawaiian Health Care 
Improvement Act is one critical component of this journey.
    E Ola Mau will continue to work with the Office of Hawaiian Affairs 
and Papa Ola Lokahi to draft appropriate language for the 
reauthorization of the Native Hawaiian Health Care Improvement Act. It 
is imperative that the Native Hawaiian Health Care Improvement Act 
accurately reflects the evolution of Native Hawaiian agencies and their 
increasing capacities to participate in improving the health of Native 
Hawaiians thereby allowing Papa Ola Lokahi to focus more specifically 
on its area of expertise.
                                 ______
                                 
Prepared Statement of Dr. Lilikala Kame'eleihiwa, Director, Center for 
                            Hawaiian Studies
    The Center for Hawaiian Studies (CHS) at the University of Hawaii 
at Manoa (UHM), with its breathtaking new building ($8 million) 
adjacent to the Kanewai Taro Garden, represents a substantial 
commitment, in the nearly 100 years of the University's existence, to 
the coordinated study and preservation of Hawaiian culture, history, 
politics, and language. The new building, called Kamakakuokalani in 
honor of Gladys 'Ainoa Brandt, serves as a home for all Hawaiians at 
the UHM campus, and is often referred to as the eastern gate of the 
University, where the sun rises and enlightenment in things Hawaiian 
begins.
                                mission
    Our mission, as determined by a statewide council of Hawaiian 
educators in their Ka'u University of Hawaii Hawaiian Studies Task 
Force Report of 1986, is to achieve and maintain excellence in the 
pursuit of knowledge concerning the Native people of Hawaii, their 
origin, history, culture, language, literature, religion, arts and 
sciences; their interactions with their oceanic environment and other 
peoples; and to reveal, disseminate and apply this knowledge for the 
betterment of all peoples.
    Through student services, instruction, research, and community 
outreach, the Center dedicates itself to serving the Native people of 
Hawaii from Ni'ihau to Hawaii island. Our areas of inquiry include 
traditional culture, resource management, indigenous land and water 
rights, and self-determination.
                          growth in facilities
    The new facility (funded by the Hawaii State legislature) houses an 
auditorium (200 seats), 2 large classrooms (50 seats each), a video 
showing classroom (50 seats), 2 conference rooms (35 seats each), 
faculty and staff offices and a student wing complete with private 
rooms for study. The Center also has a library and resource center 
where students can do research, have access to class readings and work 
on their assignments in the computer center. Kanewai Taro Garden, 
adjacent to the facilities is used by as a classroom for Hawaiian 
botany classes.
                 growth in faculty, staff and students
    Since the 1986 Ka'u Report recommended that the staff at the Center 
for Hawaiian Studies at UHM be expanded to 15 full time faculty, CHS 
has grown from .5 FTE to 4.5 FTE, with an additional full time 
secretary, student academic advisor, a part time grants writer, 2 
graduate teaching assistants, and 2 lecturers.
    Since 1986, CHS has grown from 25 student majors to 148 student 
majors, and CHS faculty teach another 1,000 students in various classes 
every year. With our small number of faculty, CHS has one of the 
highest student to professor ratios in the university system, but our 
faculty frequently over enroll their classes in order to accommodate 
eager students.
    About 30 CHS student majors graduate every year with a B.A. in 
Hawaiian Studies, and 90 percent of CHS graduates continue on to a 
variety of graduate programs (there is not yet a Masters degree in 
Hawaiian Studies). A majority of CHS majors are Native Hawaiian who are 
the first in their families to attend university. CHS successes in 
attracting increasing numbers of Hawaiians into the university system, 
reflects our dynamic, award winning faculty, and our excellent new 
curriculum.
                  growth in instruction and curriculum
    The 1986 Ka'u Report recommended that Native Hawaiian students 
would be attracted to university if more courses were offered in 
Hawaiian Studies. Part of the attraction of CHS to students has been 
the development of cutting edge curriculum about things Hawaiian which 
have never before been taught at the University of Hawaii. These 
include:
    Hwst 107: Hawaii: Center of the Pacific
    Hwst 270: Hawaiian Mythology
    Hwst 341: Hawaiian Genealogical [Pre-contact History]
    Hwst 390: Modern Issues in Hawaii
    Hwst 440: Researching Mahele Land Awards
    Hwet 490: Decolonization in the Pacific
    One of our most popular courses was developed in conjunction with 
master navigator Nainoa Thompson of the Polynesian Voyaging Society. 
Never before taught at any university in the world, Hwst 281-282 is a 
two semester course on traditional non-instrument Hawaiian Navigation, 
that includes the study of Hawaiian astronomy, weather, sailing 
dynamics and design of double hulled voyaging canoes like the 
internationally known Hokule'a.
    This later course is one of our new line of Malama Hawaii (Hawaiian 
Resource Management) courses that seeks to marry Hawaiian tradition 
with western science to better understand the Hawaiian custom of living 
in harmony with mother earth. In Spring 2000, we will teach the first 
course in Hawaiian Fishpond Management ever offered at the University 
of Hawaii.
    In addition, curriculum and courses developed by CHS are often 
exported to Hawaiian Studies programs in the University of Hawaii 
Community College system, to encourage articulation between the 
campuses.
                              chs research
    One of the strengths of UHM's Center for Hawaiian Studies program 
is its emphasis on research. Students who attend CHS courses are 
expected to understand the vital role research plays in deepening and 
expanding Hawaiian understandings of culture, land, politics, and self-
identity. The faculty of CHS have published path-breaking new books and 
articles on the topics of Hawaiian culture, land tenure, history and 
politics. Three of the four CHS faculty have served as principal 
investigators of research projects, some of which are listed below:
    1. The 1991 Na Hulu Kepuna Project (Dr. Lilikala Kame'eleihiwa), 
granted $40,000 by various local foundations to collect and videotape 
the oral histories of 30 kupuna who spoke Hawaiian as a first language.
    2. The 1993 ``Act of War'' Historical Documentary on the 1893 
Overthrow of the Hawaiian Kingdom (Drs. Haunani-Kay Trask and Lilikala 
Kame'eleihiwa), funded by a $300,000 grant frown Public Broadcasting 
Station (PBS).
    3. The 1995-1998 Hui'Imi Nu'u Hawaiian Student Outreach Project 
(Dr. Jonathan Osorio), received a $150,000 grant from the W.K. Kellogg 
Foundation to mentor Hawaiian students pursuing their degrees in higher 
education from the community colleges to the University of Hawaii at 
Manoa.
    4. The 1998 Social Capitol Project (Dr. Haunani-Kay Trask), 
received a $30,000 Pacific Basin grant from Harvard University.
    Given the current lack of resources in the field of Hawaiian 
culture, history and politics, CHS faculty actively participate in the 
production of curriculum materials to address the diverse needs of 
Native and non-native for information about Native Hawaiians and Native 
Hawaiian perspectives; all of the faculty have given freely of their 
areas of expertise for national and international documentaries on 
Hawaiian issues. In addition, CHS is continually student researchers, 
teachers and educated citizens.
                           community outreach
    The Center for Hawaiian Studies actively works together with other 
Native Hawaiian serving organizations to form a continuum of services 
available to the needs of the Native Hawaiian community. The Center has 
active partnerships with Na Pua No'eau, The Queen Lili'uokalani Trust, 
Papa Ola Lokahi, and The Native Hawaiian Leadership Project, the 
Polynesian Voyaging Society, the Center for Sustainable Future.
    In addition to fulfilling its primary purpose of providing students 
with an educational foundation in Hawaiian Studies, the faculty, 
students, and staff work together to hold community events and forums 
on critical issues facing the Native and non-Native residents of the 
State of Hawaii, such as Hawaiian gathering rights, Ceded Lands, 
decolonization, and sovereignty. At last year's forums, the Center was 
host to over 10,000 students, teachers and members of the community.
            future growth of the center for hawaiian studies
    In keeping with the recommendations of the 1986 Ka'u Report, CHS is 
working on the development of a Master's degree in Hawaiian Studies, 
and a Ph.D. in Comparative Polynesian Studies. For too long, the 
academic study of things Hawaiian at the graduate level has been 
stymied by an absence of a Master's in Hawaiian Studies, and currently 
there are 35 students on a waiting list for such a degree.
    The Center's facilities were built with space made available for 
digital editing bays and the storage of video equipment. Currently, CHS 
is seeking funding for video equipment through grants. The Center plans 
to collect and preserve for study and dissemination the oral histories 
of kupuna in Hawaiian and English, before they pass on without sharing 
their unique and precious knowledge.
    These materials will be made available to all interested programs 
at the University of Hawaii at Hilo, the various Community Colleges and 
the Department of Education statewide. Students will be trained to use 
this technology to help with the collection of oral histories and the 
creation of video documentaries and curriculum as guided by the CHS 
research focus for each year.
    In addition, CHS seeks to expand its Malama Hawaii [Hawaiian 
Resource Management] courses with new curriculum on Hawaiian medicinal 
and food plants, as well as traditional land management. Currently, 
Malama Hawaii courses include Hawaiian Navigation (Hwst 281-282), the 
Cultivation of Taro (Hwst 297), Hawaiian Fiber Arts (Hws 298), Fishpond 
Management (Hwst 398), and Ceded Lands research (Hwst 440). Some of 
these course are being developed in partnerships with the UH Burns 
School of Medicine, the now UH Center for Sustainable Future, and the 
UH Department of Geography.
    Finally, there is the CHS project on creating a Vision for 
Reconciliation: Ho'iho'i Ea, which the faculty of CHS believe is a 
critical component in the peaceful evolution of the Reconciliation 
process between the American government and the Hawaiian people.
                 vision for reconciliation: ho'iho'i ea
    The unique curriculum at CHS has allowed us to consider an 
educational vision for the reconciliation process called for by 
President Clinton and the United States Congress in Public Law 103-150 
(1993). This law was established to resolve the serious concerns that 
have arisen between the American government and the Hawaiian nation. 
However, the average citizen in Hawaii has not heard of Public Law 103-
150, does not understand the nature of Hawaiian land entitlements and 
is fearful of the potential impact of Native rights. This significant 
lack of understanding could serve as a major impediment to 
reconciliation.
    The Federal Government, under your leadership, has generously 
supported Hawaiian education through the Masters degree in Hawaiian 
Language at UH Hilo, the Aha Punana Leo Hawaiian Immersion Curriculum 
development project, and the statewide Na Pua No'eau Hawaiian gifted 
and Talented Program. Clearly, the needs of the Native Hawaiians are 
diverse and many, and there is much good work being done to address the 
complex concerns facing Native Hawaiians in today's multi-ethnic 
society.
    The Center for Hawaiian Studies is committed to working with these 
and other organizations that serve Native Hawaiians to face the 
challenges that the process of reconciliation, called for by President 
Clinton in 1993, will present to Hawaiians, and Non-Hawaiians alike. 
CHS looks forward to contributing strongly to the future of Hawaii by 
providing instructional materials, curriculum and research that will 
help us to understand the Native Hawaiian perspective on culture, 
history and politics, which is the CHS area of expertise.
    When your Subcommittee returns in November, we at the Center for 
Hawaiian Studies would like to host you in our new building and present 
our Vision for a Reconciliation Process. Thank you for your time and 
consideration.
                                 ______
                                 
   Prepared Statement of Pihana Na Mamo: The Native Hawaiian Special 
 Education Project, Office of Accountability and School Instructional 
   Support/Special Education Section, Hawaii Department of Education
    Aloha, Senators Inouye and Akaka, Representatives Abercrombie and 
Mink, members and staff of the Subcommittee on Labor, Health and Human 
Services, Education and Related Agencies, fellow educators, and 
colleagues. I am Maggie Hanohano, Project Coordinator of Pihana Na 
Mamo: The Native Hawaiian Special Education Project. With me today are 
members from our project: Gloria Kishi, Project Director; Cynthia Choy, 
Inservice Coordinator; Jan Yoneda, principal of Haleiwa Elementary 
School; Kathy Arnold, reading teacher and trainer from Ka'u High and 
Pahala Elementary; and Maryann Nakama, parent involver from Hana High 
and Elementary on the island of Maui.
    Pihana Na Mamo: The Native Hawaiian Special Education Project has 
as its primary mission the delivery of educational services to children 
and youth of Hawaiian ancestry with special needs that results in 
improved outcomes. The vision of Pihana Na Mamo is to affirm and 
promote numerous positive, varied and mutually supportive opportunities 
and experiences, and partnerships with the school, family and community 
so that students are rooted in their culture, are contributing members 
of society, and are empowered to set and pursue their goals.
    For the past nine years, we have been actively working in over 40 
schools with high percentages of Hawaiian students with special needs. 
Many of these schools face daily challenges of serving communities and 
families impacted by social and economic hardships. We have visited 
with our families who live in homes without running water and 
electricity, and for whom the information age remains one dependent 
upon face-to-face interactions. We have spoken to a mother who spent 
the night out fishing and the early morning hours making poke to sell 
to raise money for her daughter's graduation. We have accompanied the 
principal of Konawaena High School to community meetings held at picnic 
tables in the park and the church in Miloli'i to listen our families' 
concerns regarding the education of their sons and daughters. Many of 
our Hawaiian students enter school at tremendous risk for failure. 
However, their resiliency and those of their families, coupled with 
dedicated and creative school personnel, have produced remarkable 
results.
    The funds provided through the Native Hawaiian Education Act have 
allowed us to implement the intensive instructional programs and 
supports necessary for our Hawaiian students with special needs to be 
successful members of their families and community. We have submitted 
written testimony including student demographic data and project 
evaluations. Also, we have included a summary of project activities.
    We would like to take this time to have personnel from our project 
schools share their experiences with you:
    Jan Yoneda, principal at Haleiwa Elementary School, has implemented 
a school-wide, comprehensive research-based reading program. Each 
morning for one and one-half hours, all students are engaged in direct 
instruction reading activities. A walk through her campus will find 
teachers and students totally focused and completely on-task, 
reinforcing the Hawaiian value of pa'ahana, or diligence and hard work.
    Kathy Arnold, reading teacher and trainer from Ka'u High and Pahala 
Elementary, has been with our project for two years. She has been 
delivering direct instruction reading at her schools, as well as 
serving as a trainer for intensive reading instructional support for 
our schools in Hawaii District.
    Maryann Nakama, parent involver from Hana, Maui, has been with 
Pihana Na Mamo for seven years. She has been instrumental in building 
partnerships between the school, our families, and the community . Her 
resourcefulness and energy continues to astound us. We thank you for 
this opportunity to appear before your committee and for your continued 
support.
                                 ______
                                 
  Prepared Statement of Joyce S. Tsunoda, Sr., Vice President for the 
      University of Hawaii, Chancellor for the Community Colleges
    Senator Inouye and Members of the Committee: Thank you for the 
opportunity to testify today in support of the Native Hawaiian 
Community Based Education Learning Centers Program. With funds 
provided, we have established centers at Hawaii, Kaua'i, Leeward, and 
Maui Community Colleges. These Centers have the responsibility to 
coordinate and deliver island-wide services and activities. 
Administration is coordinated through my office, the Office of the 
Chancellor for Community Colleges.
    The need for community based programs was identified at both the 
1993 and 1997 Native Hawaiian Education Summits. Additionally, in 1997, 
the Statewide Native Hawaiian Education Council set forth three goals 
relating to Native Hawaiian education. They are: (1) to empower and 
support communities in the development of successful Hawaiian 
educational programs; (2) to improve the experiences of Native 
Hawaiians, especially those within the public school systems, through 
institutional change; and, (3) to establish a Native Hawaiian 
educational system. As the Council itself is not charged with nor 
funded for direct implementation of programs and services, the Native 
Hawaiian Community Based Centers' goals, activities and services are 
designed to complement and support these goals of the Native Hawaiian 
Education Council.
    Meeting these goals and the success of activities and services 
offered are in a large part due to the collaborations and partnerships 
developed by each Center and their respective community and private 
organizations. Each Center solicits input from members of an island-
wide community advisory council in the development of activities and 
services. In this manner, Native Hawaiian communities are becoming more 
active in controlling their educational destiny. Additionally, with the 
Centers housed within the Community Colleges, Centers have become an 
open door welcoming Native Hawaiians into higher education.
    Significant progress has been made at each of the Centers in the 
delivery of a wide variety of activities and services that increase the 
educational opportunities for Native Hawaiians. This year alone, over 
4,500 Native Hawaiian participants engaged in activities and service 
provided through the four Centers around the State of Hawaii. 
Participants vary in age, educational, social and economic background, 
from `opio to kupuna (youths to elders), at-risk youths and 
incarcerated Native Hawaiians, native speakers and non-native speakers, 
and rural and urban Hawaiians.
    Given the parameters of the program and intent of the grant, a wide 
variety of educational activities and services are offered; much of 
which are culturally-driven, community-based, and family oriented. 
These activities provide the foundation upon which Native Hawaiians 
will build upon in the movement towards self-determination. Some of the 
activities and services include:
  --Computer literacy courses delivered in various communities and on 
        campus
  --Various after-school and summer programs for Native Hawaiian 
        youths, ages 3-18, in both Hawaiian language immersion schools 
        and non-immersion schools
  --Hawaiian language courses delivered in various communities
  --Counseling and assistance to Native Hawaiians who need to develop 
        basic reading, writing, and math skills for entry into college
  --Summer bridge programs for Native Hawaiian adults wishing to enter 
        college
  --Financial assistance, to overcome barriers to higher education and 
        continued training, including assistance for tuition, fees, 
        books, supplies, and childcare
  --Numerous Hawaiian cultural workshops and presentations on a wide 
        variety of subjects and topics including Hawaiian drum making, 
        Holua sled making
  --Numerous training and courses including Hawaiian Animation 
        Illustrations, 'Ukulele, Hawaiian language, voice training
  --Leadership development courses and activities for both Native 
        Hawaiian youths and adults
  --Canoe culture beginning with planting of the trees to carving the 
        canoe to sailing
  --Teacher training for certification
  --Recruitment of Native Hawaiian teachers
  --Introductions and orientations to college
  --Master/Apprentice and mentoring activities
  --Community partnerships in organizing and presenting events such as 
        the World Indigenous Peoples' Conference on Education, the 
        Hanalei Taro Festival, Career and College Fairs, various ocean 
        and family festivals
  --A Native Hawaiian Education Summit
  --Community participation in a variety of educational conferences
    The Native Hawaiian Community Based Education Learning Centers have 
and will continue to have a great impact on Native Hawaiian 
communities. The Centers' educational activities and services provide a 
broad foundation upon which Native Hawaiians are able to build, 
strengthen, and elevate their academic, spiritual, social, political 
and economic skills. From activities that include the revival of 
ancient arts and culture to participation in cutting edge technology, 
Native Hawaiian participants are acquiring skills and knowledge 
applicable in today's society. With the integration of culture, there 
is also a renewed pride and esteem, not just in one's self but also in 
the community. Participants continue to express their appreciation for 
what is offered through the Native Hawaiian Community Based Education 
Learning Centers.
    I share with you the narrative portion of the Center's recent 
Updated Performance Report submitted to the U.S. Department of 
Education this past May 1999. The report provides detailed progress 
made over this past year.
    I anticipate Native Hawaiians' participation in Centers' activities 
will increase. I ask for your continued support and approval of funds 
to continue the work of the Centers as we seek to increase the 
educational opportunities for Native Hawaiians to engage, develop, and 
enhance their economic and social status in the State of Hawaii.

                                 <ALL>

</pre></body></html>
